No. 20In the

Supreme Court of the United States
JOHN FARROW, ON HIS BEHALF, AND ON BEHALF
OF ALL OTHERS SIMILARLY SITUATED; JEROME
WADE, ON HIS BEHALF, AND ON BEHALF OF
ALL OTHERS SIMILARLY SITUATED,
Petitioners,
v.
CONTRA COSTA COUNTY,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Christopher A lan Martin
Counsel of Record
Martin Law Offices
607 Hearst Avenue
Berkeley, CA 94610
(510) 206-2142
m305@icloud.com
Attorney for Petitioners
October 19, 2020
297458

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Over the course of 28 years, Contra Costa County
denied counsel to all indigent detainees at their first
appearance in court and automatically continued their
cases to “counsel and plea” dates that were typically
one to two weeks later. During this uncounseled period,
detainees were unable to apply for bail, enter a plea, or
demand a preliminary hearing within 10 court days as
provided by California Penal Code § 859(b). Detainees
with retained counsel were able to immediately assert
these rights. The Ninth Circuit determined that this
practice was constitutionally permissible.
The Questions Presented Are:
Is a detainee’s first appearance in court a “critical
stage” of the proceedings, when bail is set and statutory
liberty interests are adjudicated, as the Second and
Eighth Circuits and the highest courts of Connecticut,
Maryland, New York and Pennsylvania hold, or are the
Fifth, Ninth and Eleventh Circuits and the Supreme
Courts of Alabama, Michigan, Mississippi and Missouri
correct in holding that the first court appearance is not
a “critical stage,” enabling them to defer appointment of
counsel until a “critical stage,” which may occur weeks,
months, or more than a year later?
Should this Court formulate a standard for determining
when counsel must be appointed for indigent detainees
under the Sixth Amendment, the Due Process Clause,
or Equal Protection Clause given that the federal courts
of appeals are irreconcilably divided on: (a) whether the
Sixth Amendment permits indefinite denial of counsel

ii
to detainees in the absence of prejudice; (b) whether
due process requires a counseled, individualized bail
hearing within 48 hours of arrest; and (c) whether delayed
representation violates equal protection.
Should this Court exercise its supervisory power
when: (a) the District Court announced the standards of
review after the matter was submitted; (b) the District
Court conducted a bench trial by affidavit; (c) the
Ninth Circuit failed to conduct de novo review of the
constitutional standards promulgated by the magistrate
judge answering the question left open by this Court
in Rothgery v. Gillespie Cty., Tex., 554 U.S. 191 (2008)
concerning what standards should apply in determining
when delay in appointing counsel is unreasonably long;
and (d) the Ninth Circuit avoided ruling on the potentially
dispositive issue of whether the Heck preclusion doctrine
would bar a civil rights action based upon denial of counsel
at the “critical stage” of arraignment by erroneously
claiming that the issue was not argued in appellant’s
opening brief and was, therefore, waived?

iii
RELATED PROCEEDINGS
Farrow v. Lipetzky, No. 12-cv-06495-JCS (N.D. Cal.
May 8, 2013) (first motion to dismiss).
Farrow v. Lipetzky, No. 12-cv-06495-JCS (N.D. Cal.
August 7, 2013) (second motion to dismiss).
Farrow v. Lipetzky, No. 13-16781 (9th Cir. January 8,
2016) (first appeal).
Lipetzky v. Farrow, No. 15-1426 (U.S. Supreme Court,
October 3, 2016) (denial of petition for writ of certiorari).
Farrow v. Lipetzky, No. 12-cv-06495-JCS (N.D. Cal.
April 28, 2017) (third motion to dismiss).
Farrow v. Contra Costa County, No. 12-cv-06495-JCS
(N.D. Cal. January 2, 2019) (summary judgment).
Farrow v. Contra Costa County, No. 19-15152 (9th Cir.
March 30, 2020) (appeal from final judgment).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . x
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . xii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Plaintiffs’ Experiences  . . . . . . . . . . . . . . . . . . . . . . . . . 2
District Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
First Appeal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
First New Constitutional Standard . . . . . . . . . . . 4
The County’s Petition for a Writ of Certiorari . . . . . . 5
Post-Remand  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
Pleading Stage . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Second New Constitutional Standard . . . . . 5
Summary Judgment Stage . . . . . . . . . . . . . . . . . . 6
Third New Constitutional Standard  . . . . . . 7
Fourth New Constitutional Standard . . . . . 9
Second Appeal  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . . 13
1.

Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
A. Unnecessary Pretrial Detention Caused
By Delay In Appointing Counsel Is An
Urgent Matter Of National Importance. . .13
B. This Case Is The Ideal Vehicle For
Resolving The Intractable Splits Among
The Federal Courts Of Appeals And
State Supreme Courts Because It Is
Before The Court Now And Is Exclusively
Concerned With The Legal Standards
Governing When Counsel Must Be
Appointed To Indigent Detainees. . . . . . . . 15

vi
Table of Contents
Page
C. These Issues Need Not Percolate
Further. Over the Past Dozen Years,
At Least 25 Different Courts Have
Addressed The Question Of When
Counsel Must Be Appointed To Indigent
Detainees, And No Clarity Has Emerged. .  17
2.

The Question Of W hether The First
Appearance In Court Is A “Critical Stage”
Of The Proceedings Is The Subject Of A
Persistent And Acknowledged Split Among
The Circuit Courts, District Courts, And State
Courts Of Last Resort . . . . . . . . . . . . . . . . . . . . . 18
A. Federal Circuit Courts  . . . . . . . . . . . . . . . . 18
A (1) T h e S e c o n d A n d E i g h t h
Circuits Hold That An Initial
Appearance, Where Bail Is Set, Is
A “Critical Stage”  . . . . . . . . . . . . . . . 18
A (2) The Fifth, Ninth and Eleventh
Circuits hold to the Contrary . . . . . . 18
A (3) Fe d e r a l D i s t r i c t C o u r t s
Ho l d i n g T h a t A n I n i t i a l
Appearance, W here Bail Is
Set, Is A “Critical Stage” . . . . . . . . . 19
A (4) Federal District Courts Holding
To The Contrary  . . . . . . . . . . . . . . . . 20

vii
Table of Contents
Page
B. State Courts. . . . . . . . . . . . . . . . . . . . . . . . . . 20
B (1) T h e H i g h e s t C o u r t s O f
Connecticut, Maryland, New York,
And Pennsylvania Hold That An
Initial Appearance, Where Bail
Is Set, Is A “Critical Stage” Of
The Proceedings  . . . . . . . . . . . . . . . . 20
B (2) T h e H i g h e s t C o u r t s O f
Alabama, Michigan, Mississippi
A nd Missour i Hold To The
Contrary . . . . . . . . . . . . . . . . . . . . . . . 21
3.

New Studies Establish That An Initial
Appearance, W here Bail Is Set A nd
Liber ty Interests A re Adjudicated,
Should Be Considered A “Critical Stage”
Of The Proceedings.  . . . . . . . . . . . . . . . . . . . . . . 24
A. Unnecessary Pretrial Detention Poses
A “Grave Potential For Prejudice”
To Pretrial Detainees  . . . . . . . . . . . . . . . . . 24
B. Detainees Represented At Initial
Appearances Have Dramatically
Better Outcomes  . . . . . . . . . . . . . . . . . . . . . 25
C. Black People Are Disproportionately
Impacted By Unnecessary Pretrial
Detention . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

viii
Table of Contents
Page
D. T h i s C o u r t S h o u l d C o n f o r m
“Critical Stage” Analysis To The
New Understanding of the “Grave
P o t e n t i a l Fo r P r e j u d i c e ” I n
Unnecessary Pretrial Detention  . . . . . . . . 26
E. The Staggering Cost Of Unnecessarily
Detaining Low Risk Defendants
Harms Counties . . . . . . . . . . . . . . . . . . . . . . 27
4.

The Ninth Circuit Decided An Important
Question Of Federal Law That Has
Not Been, But Should Be, Settled By
This Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
A. The Ninth Circuit Sanctioned The District
Court’s Flawed Constitutional Standards
Answering The Question Left Open By
Rothgery . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
B. Three Of The Four New Constitutional
Standards Are Wrong. . . . . . . . . . . . . . . . . .29
C. C i r c u i t C o u r t s a n d D i s t r i c t
Courts Widely Misconstrue This
Court’s Opinion In Rothgery For
The Proposition That A 6 -Month
Delay In Appointing Counsel To
Indigent Detainees Is Presumptively
Reasonable  . . . . . . . . . . . . . . . . . . . . . . . . . . 32

ix
Table of Contents
Page
5.

The Ninth Circuit Is In Square Conflict
With The Fifth And Eleventh Circuits On
The Question Of Whether Due Process Is
Violated When Counsel Is Not Provided
To Protect Bail And Statutory Speedy
Trial Interests  . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

6.

The Ninth And Eleventh Circuits Are In
Conflict With The Fifth Circuit Concerning
The Question Of Whether Equal Protection
Is Infringed When Indigent Detainees Are
Denied The Ability To Assert Pretrial Rights
At The Initial Appearance When The Affluent
Are Permitted To Immediately Assert
These Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

7.

T here Were Depa r tu res From T he
Normal Course Of Judicial Proceedings
Calling For This Court To Exercise Its
Supervisory Powers . . . . . . . . . . . . . . . . . . . . . . . 37

8.

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

x
TABLE OF APPENDICES
Page
A P PEN DI X A — M EMOR A N DU M OF
T H E U N I T ED S TAT E S C OU RT OF
A PPEA LS , NINTH CIRCUIT, FILED
MARCH 30, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
CALIFORNIA, FILED JANUARY 2, 2019 . . . . . . 4a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
DATED APRIL 28, 2017 . . . . . . . . . . . . . . . . . . . . . .96a
APPENDIX D — OPINION OF THE SUPREME
C OU RT OF T H E U N I T ED S TAT E S ,
DATED OCTOBER 3, 2016 . . . . . . . . . . . . . . . . . . 148a
A PPEN DI X E — M EMOR A N DU M OF
T H E U N I T ED S TAT E S C OU RT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED JANUARY 8, 2016 . . . . . . . . . . . . . . . . . . . 149a
APPENDIX F — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
FILED AUGUST 7, 2013  . . . . . . . . . . . . . . . . . . . . 155a

xi
Table of Appendices
Page
A P P E N DI X G — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
CALIFORNIA, DATED MAY 8, 2013 . . . . . . . . .  211a
A PPEN DI X H — OR DER OF T H E
UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED JUNE 5, 2020  . . . . . . . . . . . . . . . . . . . . . . 261a
A P P E N DI X I — C O N S T I T U T IO N A L
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 263a

xii
TABLE OF CITED AUTHORITIES
Page
Cases
Ayestas v. Davis,
138 S. Ct. 1080 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . 39
Beard v. State,
369 So. 2d. 769 (Miss. 1979) . . . . . . . . . . . . . . . . . . . . 22
Booth v. Galveston Cty.,
No. 3:18-CV-00104, 2019 WL 3714455 (S.D. Tex.
Aug. 7, 2019) , report and recommendation
adopted as modified, No. 3:18-CV-00104, 2019
WL 4305457 (S.D. Tex. Sept. 11, 2019).  . . . . . . . . . 19
Bucklew v. Precythe,
139 S. Ct. 1112 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . 12
Christianson v. Colt Indus. Operating Corp.,
486 U.S. 800 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Church v. Missouri,
268 F. Supp. 3d 992 (W.D. Mo. 2017) . . . . . . . . . . . . . 23
Church v. Missouri,
913 F.3d 736 (8th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 23
Cooper Indus., Inc. v.
Leatherman Tool Grp., Inc.,
532 U.S. 424 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

xiii
Cited Authorities
Page
Crawford v. Washington,
541 U.S. 36 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
Dalton v. Barrett,
No. 2:17-CV-04057-NKL, 2019 WL 3069856
(W.D. Mo. July 12, 2019) . . . . . . . . . . . . . . . . . . . . . . . 23
David v. State of Missouri,
Circuit Court of Cole County, docket number
20AC-CC00093 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
DeWolfe, Jr. v. Richmond,
434 Md. 444 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Dominick v. Stone,
No. CV 19-0503, 2019 WL 2932817
(W.D. La. June 14, 2019) . . . . . . . . . . . . . . . . . . . . 20, 33
Ex parte Cooper,
43 So. 3d 547 (Ala. 2009)  . . . . . . . . . . . . . . . . . . . . . . 21
Farrow v. Lipetzky,
637 Fed. Appx. 986 (2016) . . . . . . . . . . . . . . . . . . . . . .19
Franklin v. Abston,
No. 7:09-CV-01340-LSC, 2010 WL 11614573,
(N.D. Ala. Mar. 23, 2010)  . . . . . . . . . . . . . . . . . . . 20, 33
Gardner v. Appellate Div. of Superior Court,
6 Cal. 5th 998 (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . 21

xiv
Cited Authorities
Page
Gonzalez v. Commissioner of Corrections,
308 Conn. 463 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Grogen v. Gautreaux,
No. 1 2 - 0 0 3 9 -BA J -DL D, 2 01 2 U. S .
D i st . LEX IS 1 2 0 411, W L 1 2 9 479 9 5
(M.D. La. July 11, 2012) . . . . . . . . . . . . . . . . . . . . 20, 32
Guerrero-Lasprilla v. Barr,
140 S. Ct. 1062 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . 38
Hamilton v. Alabama,
368 U.S. 52 (1961)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Hawkins v. Montague County,
No. 7:10-CV-19-O, 2010 WL 4514641
(N.D. Tex. Nov. 1, 2010)  . . . . . . . . . . . . . . . . . . . . 20, 32
Heck v. Humphrey,
512 U.S. 477 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . 12, 39
Higazy v. Templeton,
505 F.3d 161 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Hurrell-Harring v. State,
15 N.Y.3d 8 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
In re Smiley,
66 Cal.2d. 606 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . 21

xv
Cited Authorities
Page
Jauch v. Choctaw Cty.,
874 F.3d 425 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 36
J.B. v. Onondaga Cty.,
401 F. Supp. 3d 320 (N.D.N.Y. 2019) . . . . . . . . . . . . . 19
June Med. Servs. L. L. C. v. Russo,
140 S. Ct. 2103 (2020) . . . . . . . . . . . . . . . . . . . . . . 14, 39
Koon v. United States,
518 U.S. 81 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
Kuren v. Luzerne County,
146 A.3d 715 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Lucio v. Davis,
751 Fed. Appx. 484 (5th Cir. 2018)  . . . . . . . . . . . 18, 33
McClain v. State,
448 S.W.2d 599 (1970) . . . . . . . . . . . . . . . . . . . . . . . . . 23
Missouri v. Frye,
566 U.S. 134 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
New York State Rifle & Pistol Ass’n, Inc. v.
City of New York, New York,
140 S. Ct. 1525, 1535 (2020) . . . . . . . . . . . . . . . . . . . . 11
Ng v. Superior Court,
4 Cal. 4th 29 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

xvi
Cited Authorities
Page
Odonnell v. Harris County,
892 F.3d 147 (2018)  . . . . . . . . . . . . . . . . . . . . . 25, 35, 36
People v. Cox,
193 Cal. App. 3d 1434 (1987)  . . . . . . . . . . . . . . . . . 7, 21
People v. Crawford,
429 Mich. 151 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
People v. Figueroa,
11 Cal. App. 5th 665 (2017) . . . . . . . . . . . . . . . . . . . . . 35
Pickett v. Woods,
No. 16-CV-10699, 2016 WL 1615742
(E.D. Mich. Apr. 22, 2016)  . . . . . . . . . . . . . . . . . . 20, 22
Riverside v. McLaughlin,
500 U.S. 44 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 36
Robinson v. San Bernardino Cty.,
No. 518CV00906VAPADS, 2019 WL 2616941,
(C.D. Cal. May 3, 2019) . . . . . . . . . . . . . . . . . . . . . . . . 20
Robinson v. San Bernardino Cty.,
815 Fed. Appx. 218 (9th Cir. 2020)  . . . . . . . . . . . . . . 19
Rothgery v. Gillespie Cty., Tex.,
554 U.S. 191 (2008) . . . . . . . . . . . . . . . . . . . . . . . passim
Salve Regina College v. Russell,
499 U.S. 225 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

xvii
Cited Authorities
Page
Smith v. Lockhart,
923 F.2d 1314 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . 18
United States v. Mendoza-Cecelia,
963 F.2d 1467 (11th Cir. 1992)  . . . . . . . . . . . . . . . . . . 19
United States v. Morrison
449 U.S. 361 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
United States v. Portillo,
No. 18-50793, 2020 WL 4497236
(5th Cir. Aug. 5, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 18
United States v. Wade,
388 U.S. 218 (1967) . . . . . . . . . . . . . . . . . . . 4, 24, 26, 31
U.S. Bank Nat. Ass’n ex rel. CWCapital Asset
Mgmt. LLC v. Vill. at Lakeridge, LLC,
138 S. Ct. 960 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 38
Walker v. City of Calhoun, GA.,
901 F.3d 1245 (11th Cir. 2018)  . . . . . . . . . . . . . . . 36, 37
Wisconsin v. Constantineau,
400 U.S. 433 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

xviii
Cited Authorities
Page
Statutes
U.S. Const. Amend VI . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Amend VIII . . . . . . . . . . . . . . . . . . . . . . . . . 12
U.S. Const. Amend XI . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
U.S. Const. Amend XIV  . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1343  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 6, 12
A l aba m a Ru le s of C r i m i n a l P r o c e du r e ,
Rule 4.4 (a)(4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
California Penal Code § 859b . . . . . . . . . . . . . . 1, 2, 34, 35
California Penal Code § 988 . . . . . . . . . . . . . . . . . . . . . . 35
California Penal Code § 990 . . . . . . . . . . . . . . . . . . . . . . 35
Michigan Rules of Criminal Procedure, Rule 6.106  . . 22

xix
Cited Authorities
Page
Other Authorities
B. Buskey, Escaping the Abyss: The Promise of Equal
Protection To End Indefinite Detention Without
Counsel, St. Louis U. L. J., Vol. 61:665 (2014) . . . . . 22
C. Robertson, In a Mississippi Jail, Convictions
and Counsel Appear Optional, N.Y. Times, § A,
P15 (Sept. 25, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
D. Arnold, et al., Racial Bias in Bail Decisions,
Q.J. Econ., Vol. 133, Issue 4, p. 1886 (2018) . . . . . . . 26
D. Colbert et al., Do Attorneys Really Matter?
The Empirical And Legal Case For The Right
Of Counsel At Bail, 23 Cardozo L. Rev. 1719 (2002) . . 25
L. Pilnik, A Framework for Pretrial Justice:
Essential Elements of an Effective Pretrial
S y s t e m a n d A g e n c y, N IC A c c e s s i o n
Number 032831 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . 25
N. Ortiz, County Jails At A Crossroads. An
Examination Of The Jail Population And
Pretrial Release, NACo, Issue 2 (2015) . . . . . . . . . . 27
P. Heaton, The Expansive Reach of Pretrial
Detention, 98 N.C. L. Rev 369 (2020) . . . . . . . . . . . . 25

xx
Cited Authorities
Page
Senator Grassley, Statement at a Committee Hearing
on Protecting the Constitutional Right to Counsel
for Indigents Charged with Misdemeanors,
May 13, 2015 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
The Sixth Amendment Center, The Right to
Counsel in Mississippi: Evaluation of Adult
Felony Trial Level Indigent Defense, Publication
Number: 2018.001 (2018)  . . . . . . . . . . . . . . . . . . . . . . 23
Treatises
Cal. Criminal Law: Procedure and Practice (Cont.
Ed. Bar 2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
S. Shapiro, Supreme Court Practice (11th ed. 2019) . . 30

1
OPINIONS BELOW
The Ninth Circuit’s final memorandum is available at
799 Fed.Appx. 520 (2020). The District Court’s summary
judgment ruling is available at 2019 WL 78839. The
District Court third motion to dismiss ruling is available
at 2017 WL 1540637. This Court’s denial of the County’s
Petition for a Writ of Certiorari is reported at 137 S.Ct. 82
(Mem) (2016). The Ninth Circuit’s unpublished opinion is
available at 637 Fed.Appx. 986 (2016). The District Court’s
second motion to dismiss ruling is available at 2013 WL
4042276. The District Court’s first motion to dismiss
ruling is available at 2013 WL 4042276.
JURISDICTION
The Ninth Circuit entered judgment on March 30,
2020. On April 3, 2020, it extended time for filing a Petition
for Rehearing and Rehearing En Banc to May 13, 2020.
On June 5, 2020, it denied Petitioner’s timely motion for
Rehearing and Rehearing En Banc. On March 19, 2020,
this Court issued an order extending time for filing to
150 days from the date of the lower court judgment. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS
AND STATUTES INVOLVED
Relevant portions of the Sixth and Fourteenth
Amendment to the United States Constitution, 42 U.S.C.
§ 1983, and California Penal Code § 859b are reprinted
verbatim at App. 263—66.

2
STATEMENT
Plaintiffs’ Experiences
The Contra Costa County Public Defender described
the policy of withholding counsel to indigent detainees
thus:
“Under this system, the first real opportunity
that the charged person has to ask for a lower
bail or an O.R. release is after they have been
in custody at least two weeks. As a result,
many people who could safely be released to
the community while awaiting trial spend an
unnecessary one to two weeks in custody taking
up jail space simply because they cannot afford
bail and do not yet have an attorney to represent
them.” Record, p. 235.
Plaintiffs were denied counsel at their initial appearances,
and their cases were continued to future “counsel and
plea” calendars as soon as they requested court-appointed
counsel. At the initial appearance, bail was fixed according
to a bail schedule. The County held Jerome Wade, a
juvenile, for 6 days prior to his first appearance in court,
in violation of Riverside v. McLaughlin, 500 U.S. 44
(1991). At his first appearance, his case was automatically
continued until the next “counsel and plea” calendar 7 days
later. John Farrow appeared in custody on his first court
date, and his case was automatically continued until the
“counsel and plea” calendar 13 days later. Neither Mr.
Wade nor Mr. Farrow were advised of their right to bail,
their right to immediately enter a plea or their right to a
preliminary hearing within 10 court days as prescribed
by California Penal Code § 859b.

3
District Court
Plaintiffs filed this putative class action lawsuit under
42 U.S.C. § 1983 alleging that the County denied them
their right to counsel under the Sixth Amendment based
upon its failure to provide counsel at a “critical stage” of
the proceedings and within a reasonable period of time
after attachment of the right to counsel. They also alleged
violations of their due process and equal protection rights.
The District Court had jurisdiction pursuant to 28 U.S.C.
§§ 1331 and 1343. In response, the County authorized
funding for representation of felony detainees at their
first appearance in court, while insisting that its policy of
denying counsel to tens of thousands of felony detainees
over the course of 28 years was constitutional. The County
currently does not provide counsel for out of custody
misdemeanor defendants at initial appearances in some
courts, where judicial offers are made, and guilty pleas
are accepted. Record 289—90. Plaintiffs seek injunctive
relief, declaratory relief and nominal damages.
The District Court found that the delay was reasonable
“because the delay was shorter than in other district court
cases that found no violation, and because Plaintiffs did not
adequately allege that they were prejudiced by the delay.”
App. 7. It held that the first appearance in a California
court is not a “critical stage” of the proceedings; and it
concluded that there were neither due process nor equal
protection violations.

4
First Appeal
The Ninth Circuit affirmed the District Court’s
holding that the first appearance was not a “critical stage.”
It further concluded that there were neither due process
nor equal protection violations. App. 150—51.
First New Constitutional Standard
The Ninth Circuit also held that,
“The remaining question is whether Lipetzky
appointed counsel w ithin a “reasonable
time after attachment to allow for adequate
representation at any critical stage before
trial, as well as at trial itself.” Rothgery, 554
U.S. at 212, 128 S.Ct. 2578. In other words,
how soon after the Sixth Amendment right
attaches must counsel be appointed, and at
what point does delay become constitutionally
significant? Instead of addressing whether the
delay in appointing counsel was unreasonable,
the district court considered only whether the
delay “impacted [plaintiff’s] representation at
subsequent critical stages of his proceedings.”
By framing the question in that way, the district
court erroneously required the plaintiffs to
allege actual prejudice. See United States
v. Wade, 388 U.S. 218, 225, 236–37, 87 S.Ct.
1926, 18 L.Ed.2d 1149 (1967) (finding a Sixth
Amendment violation based on the “grave
potential for prejudice”); Hamilton v. Alabama,
368 U.S. 52, 54, 82 S.Ct. 157, 7 L.Ed.2d 114
(1961) (finding a Sixth Amendment violation

5
where the absence of counsel “may affect the
whole trial”). We therefore remand for the
district court to consider whether appointing
counsel five to thirteen days and “sometimes
longer” after the right attaches complies with
the “reasonable time” requirement articulated
in Rothgery.” App. 151—53.
The County’s Petition for a Writ of Certiorari
The County petitioned for a writ of certiorari, arguing
that the Ninth Circuit’s standard, supra, is constitutionally
unsound because it recognizes that the Sixth Amendment
may be violated by a policy of delaying provision of counsel
for an unreasonably long period of time as determined
by when “the grave potential for prejudice” becomes
constitutionally intolerable. Petition for Writ of Certiorari,
p. 7. This Court denied that petition.
Post-Remand
Pleading Stage
Second New Constitutional Standard
In its ruling on the County’s third motion to dismiss,
the District Court reformulated the standard, stating,
“With the exception of Grogen, which is not
consistent with the Ninth Circuit’s decision
here, this Court is not aware of any decision
articulating a standard by which to examine
whether a delay in appointing counsel is
reasonable within the meaning of Rothgery. In

6
the absence of such guidance, the Court holds
for the purpose of the present motion that the
reasonableness of a delay in appointing counsel
after attachment depends on the totality of the
circumstances, including the time needed to
prepare for an upcoming critical stage—but
not limited to that factor.” Emphasis added.
App. 138.
The District Court also held that,
“[A]ssuming for the sake of argument that
Plaintiffs are correct that their first appearances
were critical stages based on their rights to
enter pleas, then Hamilton, White, and Cronic
all indicate that failure to provide counsel at
that appearance would be a structural error
requiring per se reversal. Success on this
theory would necessarily imply the invalidity
of Plaintiffs’ convictions, and to the extent that
Plaintiffs’ § 1983 claim relies on that theory,
it must therefore be dismissed under Heck.”
App. 132.
Summary Judgment Stage
Plaintiffs relied upon the Ninth Circuit’s legal standard
and established that the County delayed representation for
an unreasonably long period of time through the report
of Professor Robert Boruchowitz, who listed 55 reasons
why the delay was unreasonably long because it posed a
“grave potential for prejudice” to all detainees. Record, pp.
355—81. They also demonstrated that providing counsel
at the first appearance would result in “across the board

7
savings to other County departments as well as provide the
long-term benefit of reduced recidivism.” Record, p. 324.
The County blamed its own failure to provide adequate
funding for its policy of delaying provision of counsel and
concealed its policy from its expert, who stated, “I was not
asked to look at the entire system. I was asked to take a
microscopic look at two cases and render my opinion on
that. …. I don’t know what’s the overall Policy in Contra
Costa on a Monday through Friday.” Record, p. 405.
In its 34-page opinion, the District Court disagreed
with the California Court of Appeal’s decision in People
v. Cox, 193 Cal.App.3d 1434, 1440 (1987), which states
that “arraignment is a critical stage of the proceeding
entitling the defendant to an attorney [but] the absence of
an attorney at the arraignment is not such a grievous error
that it compels a reversal without a showing of prejudice.”
The District Court stated, “This Court is not bound by
California state court decisions on issues of federal law,
and respectfully disagrees with Cox as inconsistent with
White and Hamilton, if not also with Cronic.” App. 132,
fn. 12.
The District Court avoided answering the question
posed by the Ninth Circuit’s mandate on two grounds:
Third New Constitutional Standard
(1) The District Court stated that, “Derived from the
federal Constitution, such a rule would presumably apply
nationwide, in jurisdictions with a wide range of resources,
caseloads, and current practices.” App. 77. Based upon
this assessment, it promulgated a completely different
standard, stating,

8
“The evidentiary record before the Court …
provides no basis to determine how much time
a generic, competent public defender’s office (or
other system for appointing counsel) would need
to provide a defendant with an attorney—or
in other words how much delay is reasonable,
and thus tolerable, under the Constitution in a
typical case.” App, 78.
And, in footnote 16 of its opinion, it stated that,
“Even if Plaintiffs had established the existence
of such a policy, the record is not conducive to
determining its reasonableness, for much the
same reasons that, as discussed above, this
record would not allow the Court to develop a
per se rule of how much time is permissible. The
lack of evidence regarding broad topics like,
for example, logistical challenges to appointing
counsel, processes for resolving conflicts and
caseload constraints, and accepted practices
and timelines in other jurisdictions would still
leave the finder of fact without sufficient facts to
justify a conclusion that the policy, on its face,
was constitutionally unreasonable.” Emphasis
added. App. 79, fn. 16.
Neither the Ninth Circuit nor the District Court
mentioned administrative concerns or assigned this
evidentiary burden to Plaintiffs before summary
judgment motions were submitted.
(2) The District Court also held that there was
no evidence establishing a policy of denying counsel

9
for one to two weeks, in spite of the public defender’s
explicit statements to the contrary, because paralegals
conducted financial eligibility interviews between the
initial appearance and the counsel and plea appearance.
It stated that, “The evidence that the paralegal interview
would have revealed any issues requiring attention before
the second appearance, and that it in fact revealed no such
issues, is uncontroverted.” App. 91. It did not mention
that the County made this assertion in a declaration of
convenience submitted after discovery had closed, on the
day the summary judgment motions were due. ECF No.
131. It did not consider whether the unlicensed paralegals
were qualified to practice law in this manner or whether
it was appropriate for them to discuss privileged matters
with detainees the public defender did not represent. It
did not mention that the public defender stated that, “In
Contra Costa County, poor people accused of criminal
offenses spend up to two weeks in custody just waiting
to be represented by an attorney.” Emphasis in original.
Record, p. 329.
The District Court added that it did not purport to
hold that “an interview by a paralegal before counsel is
appointed can necessarily substitute under the Sixth
Amendment for providing an attorney.” App. 94.
Fourth New Constitutional Standard
Having relegated the Ninth Circuit’s mandate to
footnote 16, the District Court promulgated another test,
stating:
“In the context of Rothgery, the appropriate
test is therefore whether counsel was provided

10
within a period of time after attachment that
was reasonable under the circumstances of a
defendant’s case, as such circumstances were
apparent at the time of attachment and during
the intervening period before counsel was
provided.” Emphasis added. App. 94.
With respect to John Farrow, the District Court stated that
“there is essentially no evidence in the record explaining
a reason for the longer delay of twelve days between
attachment of his right to counsel and Martin’s assignment
to represent him,” but found that, “The totality of the
circumstances ... is not limited to merely the length of
the delay.” It went on to opine that the delay in appointing
counsel to him was reasonable because a paralegal had
conducted a financial eligibility interview in the interim
between his first and second court appearances. App. 90.
With respect to Jerome Wade, it found that the delay
in his case was reasonable based upon assessment of
hypothetical difficulties in appointing counsel in multidefendant cases that were not supported by the record.
Record, pp. 349—50.
Second Appeal
The Ninth Circuit summar ily aff ir med in an
unpublished memorandum, stating that,
“Whether framed as a policy or practice, the
Plaintiffs do not establish the District Court
erred by ruling that there was insufficient
ev idence the County v iolated the Si xth
Amendment rights of criminal defendants by

11
failing to provide counsel “within a ‘reasonable
time after attachment to allow for adequate
representation at any critical stage before
trial.’ ” App. 3.
In this holding the Ninth Circuit recognized that there
was a policy or practice of delaying provision of counsel
to criminal defendants. In determining that Plaintiffs
failed to prove that the District Court erred by concluding
that there was insufficient evidence to establish that
the County violated the Sixth Amendment rights of
criminal defendants, it also necessarily sanctioned the
District Court’s “broad topics” test, as this is the test the
District Court applied when it determined that there was
insufficient evidence to conclude that the County’s policy
was unconstitutional. The Ninth Circuit analyzed this as
a factual question, without asking whether the District
Court applied the correct legal standard.
The Ninth Circuit also stated that Plaintiffs did not
challenge the District Court’s holding that they were
not personally injured by the delay. However, Plaintiffs
stated on page 70 of their opening brief that they were
injured through denial of their constitutional rights, which
are valuable in themselves. See New York State Rifle &
Pistol Ass’n, Inc. v. City of New York, New York, 140 S. Ct.
1525, 1535 (2020) (Kavanaugh, J., concurring). Here, the
Ninth Circuit necessarily sanctioned the District Court’s
“appropriate test,” which steered the inquiry away from
the County’s policy of arbitrarily delaying appointment
of counsel in every case to piecemeal analysis of actual
prejudice in the named Plaintiffs’ cases.

12
It also cited Bucklew v. Precythe, 139 S.Ct. 1112 (2019),
a death penalty case holding that the appellant had failed
to establish the prejudice necessary to support an asapplied challenge to Missouri’s lethal injection protocol
because, inter alia, his suggested change in protocol
would not have reduced his personal risk of unnecessary
suffering. In this regard, the panel grafted the Eighth
Amendment’s actual prejudice requirement onto the Sixth
Amendment issues in this case.
In their opening brief, Plaintiffs argued that the
Heck preclusion doctrine would not bar a 42 U.S.C.
§ 1983 action based upon denial of counsel at the “critical
stage” of arraignment because that Sixth Amendment
violation would constitute harmless error. The County
acknowledged this argument, stating on page 33 of its
answering brief that, “Farrow and Wade contend here
that their “critical stage” claim is subject to the harmless
error doctrine and, thus, not barred by Heck. AOB at
8-11.” Plaintiffs also argued this issue on pages 74 and 75
of their opening brief. The County devoted five pages of
its answering brief to rebutting this argument.
The Ninth Circuit claimed that Plaintiffs had waived
this issue by failing to argue it in their opening brief.
Plaintiffs called the panel’s attention to this error in their
petition for rehearing. The panel allowed its erroneous
ruling on this potentially dispositive issue to stand.

13
REASONS FOR GRANTING THE PETITION
1. Introduction.
A.

Unnecessary Pretrial Detention Caused By
Delay In Appointing Counsel Is An Urgent
Matter Of National Importance.

Senator Grassley stated,
“[M]any states are not providing counsel as
the Constitution requires. It is a widespread
problem. In reality, the Supreme Court’s Sixth
Amendment decisions regarding misdemeanor
defendants are violated thousands of times
every day. No Supreme Court decisions in
our history have been violated so widely, so
frequently, and for so long.
“Consider what is happening just in some of
the states represented on this Committee.
Defenders are not present at arraignments.
Large numbers of misdemeanor defendants
plead guilty without lawyers. Defendants
who have been locked up pending their first
appearance are told that they can plead guilty
and be sentenced to time served. But if they
choose to be represented by counsel, they will
wait in jail until one is appointed.” Senator
Grassley, Statement at a Committee Hearing on
Protecting the Constitutional Right to Counsel
for Indigents Charged with Misdemeanors,
May 13, 2015. Available at www/judiciary.
senate.gov/imo/media/doc/05-13-15.

14
Senator Grassley’s observations describe a nationwide
crisis that undermines the legitimacy of the Judiciary.
The failure to appoint counsel to indigent detainees at the
initial appearance or within a reasonable period of time
thereafter results in the unnecessary pretrial detention of
tens of thousands of detainees annually, with catastrophic
consequences for the detainees, their families, their
communities, and the counties that pay the exorbitant
cost of housing detainees. Unnecessary incarceration also
breeds resentment in the people and communities that are
subjected to it, contributing to widespread civil unrest
and lack of trust in the judicial system.
The problem stems from ambiguities in the legal
framework that enable lower courts to interpret
constitutional standards in an arbitrary manner—
resulting in immediate appointment of counsel in some
jurisdictions and delays in appointing counsel for weeks,
months, or over a year in other jurisdictions. Only this
Court can clarify the standards on this matter of national
importance, and it is vital that the Court do so now. As
Justice Gorsuch observed in his dissent in June Med.
Servs. L. L. C. v. Russo, 140 S. Ct. 2103, 2179 (2020),
“[J ]ud icia l responsibi l ity t o avoid st a nda rd less
decisionmaking is at its apex in the most heated partisan
issues.”

15
B. This Case Is The Ideal Vehicle For Resolving
The Intractable Splits Among The Federal
Courts Of Appeals And State Supreme Courts
Because It Is Before The Court Now And
Is Exclusively Concerned With The Legal
Standards Governing When Counsel Must Be
Appointed To Indigent Detainees.
Plaintiffs alleged that denial of counsel at the first
appearance in court and for a period of 5 to 13 days, and
sometimes longer, after attachment violated their right to
counsel at a “critical stage” of the proceedings and their
right to counsel within a reasonable period of time after
attachment. They also alleged that this practice violated
their due process and equal protection rights. The first
Ninth Circuit panel held that the first appearance was not
a “critical stage” and that neither due process nor equal
protection were violated. It also remanded for the District
Court to address the question left open by this Court in
Rothgery, supra, concerning when delay in appointing
counsel becomes constitutionally unreasonable based
upon assessment of “the grave potential for prejudice,” as
opposed to realized prejudice. Thus, this case encompasses
all of the legal doctrines and concepts related to the timing
of provision of counsel to indigent detainees.1
There are no meaningful factual disputes in this case.
Public Defender Lipetzky stated,
“Under this system, the first real opportunity
1. See Christianson v. Colt Indus. Operating Corp., 486
U.S. 800, 817 (1988) (“A petition for writ of certiorari can expose
the entire case to review.”).

16
that the charged person has to ask for a lower
bail or an O.R. release is after they have been
in custody at least two weeks. As a result,
many people who could safely be released to
the community while awaiting trial spend an
unnecessary one to two weeks in custody taking
up jail space simply because they cannot afford
bail and do not yet have an attorney to represent
them.” Record, p. 235.
The County and District Court contradicted the
existence of this policy by observing that detainees were
interviewed by paralegals in advance of their second court
appearances. The District Court’s statement that it did not
purport to hold that “an interview by a paralegal before
counsel is appointed can necessarily substitute under the
Sixth Amendment for providing an attorney,” however,
begs the pertinent question, which is whether a paralegal
interview before counsel is appointed can ever substitute
under the Sixth Amendment for providing an attorney?
The answer is, emphatically, no, as paralegals assessing
evidence preservation, misidentification, settlement,
and mental health concerns would be practicing law
without a license and discussing privileged matters with
detainees the public defender did not represent. Once
the legal question of whether paralegals could provide
representation by counsel in the interim between court
appearances is removed from the equation, the existence
of the policy of delaying provision of counsel to all
detainees is beyond dispute.
Also, while the Superior Court set the date for
the second appearance, the County failed to provide
representation at the first appearance and for the duration

17
between the first and second court appearances. In this
regard, Public Defender Lipetzky stated, “Under the
current system, incarcerated persons who request the
public defender services (the vast majority of people
charged) must wait a period of time—between 7 and
14 days—in custody before their next court date when
they will have an attorney to represent them.” Record,
pp. 298, 299, 346. The fact that conflict counsel in a small
percentage of cases were appointed on the court day
before the second court appearance, often on a Friday
afternoon, does not meaningfully alter this situation.
C.

These Issues Need Not Percolate Further. Over
the Past Dozen Years, At Least 25 Different
Courts Have Addressed The Question Of
When Counsel Must Be Appointed To Indigent
Detainees, And No Clarity Has Emerged.

As shown below, the Circuit Courts, District Courts,
and state Supreme Courts are in intractable conflict with
respect to all of the legal doctrines related to the timing
of provision of counsel to indigent detainees.

18
2. The Question Of Whether The First Appearance
In Court Is A “Critical Stage” Of The Proceedings
Is The Subject Of A Persistent And Acknowledged
Split Among The Circuit Courts, District Courts,
And State Courts Of Last Resort.
A.

Federal Circuit Courts.
A (1) The Second And Eighth Circuits Hold
That An Initial Appearance, Where Bail
Is Set, Is A “Critical Stage.”

The Second Circuit in Higazy v. Templeton, 505
F.3d 161, 172 (2007), stated, “In the Sixth Amendment
context, the Supreme Court found that a bail hearing is
a ‘critical stage of the State’s criminal process at which
the accused is as much entitled to such aid (of counsel) ...
as at the trial itself.’”
The Eighth Circuit reached the same conclusion in
Smith v. Lockhart, 923 F.2d 1314, 1319 (1991).
A (2) The Fifth, Ninth and Eleventh Circuits
hold to the Contrary.
The Fifth Circuit held in United States v. Portillo,
No. 18-50793, 2020 WL 4497236, at *5 (5th Cir. Aug. 5,
2020) that the first appearance is not a “critical stage” of
the proceedings. Accord, Lucio v. Davis, 751 F. Appx 484,
491 (5th Cir. 2018).
The Ninth Circuit affirmed the District Court’s
conclusion in this case that,

19
“The fact that, had counsel been appointed at or
closer to the initial appearance, counsel might
have applied for release on bail, caused a plea to
be entered, or triggered statutory speedy trial
rights, does not change this analysis. Nothing
happened at the initial appearance other than
a determination that Plaintiffs desired the
appointment of counsel. The first appearance
was not, therefore, a critical stage.”2 App. 236.
Farrow v. Lipetzky, 637 Fed.Appx. 986 (2016);
Accord, Robinson v. San Bernardino Cty., 815
F. Appx 218, 219 (9th Cir. 2020).
The Eleventh Circuit held in United States v.
Mendoza-Cecelia, 963 F.2d 1467, 1473 (11th Cir. 1992)
that the initial appearance is not a critical stage of the
proceedings, in spite of the fact that “the court in the
initial appearance must consider the weight of the evidence
against the defendant as one of many factors in setting
bail.”
A (3) Federal District Courts Holding That An
Initial Appearance, Where Bail Is Set, Is
A “Critical Stage.”
J.B. v. Onondaga Cty., 401 F. Supp. 3d 320, 337
(N.D.N.Y. 2019); Booth v. Galveston Cty., No. 3:18-CV00104, 2019 WL 3714455, (S.D. Tex. Aug. 7, 2019), report
and recommendation adopted as modified, No. 3:18-CV00104, 2019 WL 4305457 (S.D. Tex. Sept. 11, 2019).
2. Some things did happen: Bail was set without an
opportunity to be heard. The right to enter a plea was denied,
and the right to assert mandatory statutory speedy trial rights
was denied.

20
A (4) Federal District Courts Holding To The
Contrary.
Dominick v. Stone, No. CV 19- 0503, 2019 WL
2932817, at *4 (W.D. La. June 14, 2019); Robinson v. San
Bernardino Cty., No. 518CV00906VAPADS, 2019 WL
2616941, (C.D. Cal. May 3, 2019); Pickett v. Woods, No.
16-CV-10699, 2016 WL 1615742, at *2 (E.D. Mich. Apr. 22,
2016); Grogen v. Gautreaux, No. 12-0039-BAJ-DLD, 2012
U.S. Dist. LEXIS 120411, WL 12947995 (M.D. La. July 11,
2012); Franklin v. Abston, No. 7:09-CV-01340-LSC, 2010
WL 11614573, at *7 (N.D. Ala. Mar. 23, 2010); Hawkins v.
Montague County, No. 7:10-CV-19-O, 2010 WL 4514641
(N.D. Tex. Nov. 1, 2010).
B. State Courts.
B (1) The Highest Courts Of Connecticut,
Maryland, New York, And Pennsylvania
Hold That An Initial Appearance, Where
Bail Is Set, Is A “Critical Stage” Of The
Proceedings.
The Connecticut Supreme Court determined in
Gonzalez v. Commissioner of Corrections, 308 Conn.
463 (2013), that arraignment is a critical stage of the
proceedings because, at that proceeding, counsel is
required to assert rights affecting custody credits.
The Maryland Supreme Court held that counsel is
required at the first appearance in court because liberty
issues are adjudicated at that appearance, basing its
opinion on the Due Process Clause of its state Constitution.
DeWolfe, Jr. v. Richmond, 434 Md. 444 (2013).

21
The New York Court of Appeals determined
in Hurrell-Harring v. State, 15 N.Y.3d 8 (2010), that
arraignment is a critical stage of the proceedings, stating
that, “There is no question that “a bail hearing is a critical
stage of the State’s criminal process.”
The Pennsylvania Supreme Court determined in
Kuren v. Luzerne County, 146 A.3d 715, at 723 (2016)
that the initial arraignment is a “critical stage” of the
proceedings.
The California Court of Appeal stated in People v.
Cox, 193 Cal.App.3d 1434, 1440 (1987) that, “arraignment
is a critical stage of the proceeding entitling the defendant
to an attorney [but] the absence of an attorney at the
arraignment is not such a grievous error that it compels a
reversal without a showing of prejudice.” See also Gardner
v. Appellate Div. of Superior Court, 6 Cal. 5th 998, 1005
(2019); In re Smiley, 66 Cal.2d. 606, 615 (1967).
B (2) The Highest Cour ts Of A labama ,
Michigan, Mississippi And Missouri
Hold To The Contrary.
The Alabama Supreme Court in Ex parte Cooper, 43
So.3d 547, 550 (Ala. 2009), stated that a defendant’s initial
appearance is not a critical stage of the proceedings and
that a defendant is not entitled to the assistance of counsel
at the initial appearance. Pretrial release conditions,
pursuant to Alabama Rules of Criminal Procedure, Rule
4.4 (a)(4) are set at the initial appearance.
The Michigan Supreme Court held in People v.
Crawford, 429 Mich. 151 (1987), that arraignment is not

22
a critical stage of the proceedings. In Pickett v. Woods,
No. 16-CV-10699, 2016 WL 1615742, at *2 (E.D. Mich. Apr.
22, 2016), the District Court observed that, “Decisions by
Michigan courts following Rothgery have held, consistent
with Rothgery, that initial arraignment is the time at
which the Sixth Amendment right to counsel attaches but
it is not a “critical stage” requiring counsel.” Bail is set
at the initial arraignment pursuant to Michigan Rules of
Criminal Procedure, Rule 6.106.
The Mississippi Supreme Court held in Beard
v. State, 369 So.2nd. 769 (Miss. 1979) that counsel is
not required at the first appearance in court or at the
preliminary hearing but is required at arraignment.
However, arraignment in felony cases does not occur until
a grand jury has indicted the defendant, and the grand
jury may not meet for many months.
In Mississippi, “There are no standards for the
timing of counsel appointment, nor is there any oversight
mechanism to enforce existing constitutional and ethical
standards for appointed counsel. In this void, many
districts wait until an arrestee is indicted to appoint
counsel.” B. Buskey, Escaping the Abyss: The Promise
of Equal Protection To End Indefinite Detention Without
Counsel, St. Louis U. L. J., Vol. 61:665 (2014). When
interviewed by the New York Times concerning this
practice, Mississippi District Court Judge Marcus Gordon
stated that, “The reason is, that public defender would go
out and spend his time and money and cost the County
money in investigating the matter ... And then sometimes,
the defendant is not indicted by the grand jury. So I wait
until he’s been indicted.” C. Robertson, In a Mississippi
Jail, Convictions and Counsel Appear Optional, N.Y.
Times, § A, P15 (Sept. 25, 2014).

23
According to the Sixth Amendment Center, “A
large amount of time can pass between an indigent
felony defendant being arrested and/or bound over and
a grand jury returning an indictment, and Mississippi
law does not impose any limits on the amount of time
that can take. On average, the delay between arrest and
grand jury indictment in the ten studied counties ranges
from two months to over a year.” The Right to Counsel
in Mississippi: Evaluation of Adult Felony Trial Level
Indigent Defense, Publication Number: 2018.001 (2018)
at IX. Available at www.sixthamendment.org.
The Missouri Supreme Court held in McClain v.
State, 448 S.W.2d 599, 601 (1970) that arraignment is not a
critical stage of criminal proceedings. Counsel, therefore,
is not required, and does not appear at arraignment, in
spite of the fact that bail is set at arraignment. Dalton v.
Barrett, No. 2:17-CV-04057-NKL, 2019 WL 3069856, at
*10 (W.D. Mo. July 12, 2019).
Denial of counsel under the Sixth Amendment claims
were extensively litigated in Church v. Missouri, 268 F.
Supp. 3d 992 (W.D. Mo. 2017), where the District Court
found that Missouri violated the Sixth Amendment
rights of indigent detainees by failing to provide counsel.
The Eighth Circuit reversed on Eleventh Amendment
grounds in Church v. Missouri, 913 F.3d 736 (8th Cir.
2019). According to allegations in a new complaint filed
on February 27, 2020, indigent detainees in Missouri
are placed on a waiting list for court appointed counsel,
where they wait in jail for counsel for up to six months.
David v. State of Missouri, Circuit Court of Cole County,
docket number 20AC-CC00093.

24
3. New Studies Establish That An Initial Appearance,
Where Bail Is Set And Liberty Interests Are
Adjudicated, Should Be Considered A “Critical
Stage” Of The Proceedings.
A.

Unnecessary Pretrial Detention Poses A
“Grave Potential For Prejudice” To Pretrial
Detainees.

Justice Alito stated in his concurring opinion in
Rothgery, supra, at 217, that, “[W]e have recognized that
certain pretrial events may so prejudice the outcome of
the defendant’s prosecution that, as a practical matter,
the defendant must be represented at those events in
order to enjoy genuinely effective assistance at trial.” This
recognition was based largely upon studies establishing
the “grave potential for prejudice” in pretrial lineups.
United States v. Wade, 388 U.S. 218, 229—36 (1967).
Recent studies establish that unnecessary pretrial
detention poses a “grave potential for prejudice.” The
Fifth Circuit observed that,
“[T]he expected outcomes for an arrestee who
cannot afford to post bond are significantly
worse than for those arrestees who can.
In general, indigent arrestees who remain
incarcerated because they cannot make bail
are significantly more likely to plead guilty
and to be sentenced to imprisonment. They
also receive sentences that are on average
twice as long as their bonded counterparts.
Furthermore, …. pretrial detention can lead to
loss of job, family stress, and even an increase in

25
likeliness to commit crime.” Odonnell v. Harris
County, 892 F.3d 147, 155 (2018).”
B. Detainees Represented At Initial Appearances
Have Dramatically Better Outcomes.
Represented detainees are released on recognizance
more than two-and-a-half times as often as unrepresented
detainees; and, when bail is imposed, bail for represented
detainees is reduced to affordable levels two-and-a-half
times as often as it is for unrepresented detainees. D.
Colbert et al., Do Attorneys Really Matter? The Empirical
And Legal Case For The Right Of Counsel At Bail, 23
Cardozo L. Rev. 1719, 1720 (2002). See, L. Pilnik, A
Framework for Pretrial Justice: Essential Elements of
an Effective Pretrial System and Agency, February 2017,
NIC Accession Number 032831. Available at www.nicic.
gov.
Another study observed that,
“The takeaway from this new generation of
studies is that pretrial detention has substantial
downstream effects on both the operation of
the criminal justice system and on defendants
themselves, causally increasing the likelihood of
a conviction, the severity of the sentence, and,
in some jurisdictions, defendants’ likelihood
of future contact with the criminal justice
system.” P. Heaton, The Expansive Reach of
Pretrial Detention, 98 N.C. L. Rev 369, 370-71
(2020).

26
C.

Black People Are Disproportionately Impacted
By Unnecessary Pretrial Detention.

Another study concluded that, “Racial disparities are
particularly prominent in the setting of bail: in our data,
black defendants are 3.6 percentage points more likely
to be assigned monetary bail than white defendants and,
conditional on being assigned monetary bail, receive bail
amounts that are $9,923 greater.” (Internal citations
omitted.) D. Arnold et al., Racial Bias in Bail Decisions,
Q.J. Econ., Vol. 133, Issue 4, p. 1886 (2018).
D.

This Court Should Conform “Critical Stage”
Analysis To The New Understanding of
the “Grave Potential For Prejudice” In
Unnecessary Pretrial Detention.

Given the new understanding of the way in which
pretrial detention affects the outcome of criminal cases,
and the fact that counsel can help avert prejudice in this
context, this Court’s reasoning in Wade, supra, suggests
that the time has come for recognition that the initial
appearance in court, where bail is set and other liberty
interests are adjudicated, is a “critical stage” of the
proceedings. This is especially so given that ours “is for
the most part a system of pleas, not a system of trials.”
Missouri v. Frye, 566 U.S. 134, 143 (2012).

27
E. The Staggering Cost Of Unnecessarily
Detaining Low Risk Defendants Harms
Counties.
The National Association of Counties observed that,
“The pretrial release decision affects counties.
The size of the pretrial population in County
jails is largely the result of judicial decisionmaking. Pretrial detention imposes significant
costs to counties. According to the U.S.
Attor ney General , County gover nments
spend around 9 billion annually on jailing
defendants while they are awaiting their trial.
In addition to direct County costs, detaining
the pretrial population produces indirect costs.
Pretrial detention may result in defendant’s
losing employment, adversely affecting family
relationships and creating economic hardships
for the defendant’s financial dependents,
increasing the family’s dependence on the
County safety net.” Emphasis added. N. Ortiz,
County Jails At A Crossroads. An Examination
Of The Jail Population And Pretrial Release,
NACo, Issue 2 (2015). Available at www.naco.
org/resources/ County-jails-crossroads#fullreport.
Based upon the use of validated risk measurement
tools, this study also concluded that the majority of the
nation’s pretrial jail population is “low risk.” Ibid.

28
4. The Ninth Circuit Decided An Important Question
Of Federal Law That Has Not Been, But Should Be,
Settled By This Court.
This Court confronted the question of when the right
to counsel attaches 12 years ago in Rothgery v. Gillespie
Cty., Tex., 554 U.S. 191, 212 (2008), where it stated that,
“[C]ounsel must be appointed within a reasonable time
after attachment to allow for adequate representation at
any critical stage before trial, as well as trial itself.” It also
stated, “We do not decide whether the 6–month delay in
appointment of counsel resulted in prejudice to Rothgery’s
Sixth Amendment rights, and have no occasion to consider
what standards should apply in deciding this.” Justice
Alito explained, “The Court expresses no opinion on
whether Gillespie County satisfied that obligation in this
case. Petitioner has asked us to decide only the limited
question whether his magistration marked the beginning
of his “criminal prosecution” within the meaning of the
Sixth Amendment.” Rothgery, supra, at 218 (Alito, J.,
concurring).
A.

The Ninth Circuit Sanctioned The District
Court’s Flawed Constitutional Standards
Answering The Question Left Open By
Rothgery.

The Ninth Circuit correctly remanded “for the
District Court to consider whether appointing counsel five
to thirteen days and ‘sometimes longer’ after the right
attaches complies with the “reasonable time” requirement
articulated in Rothgery,” guided by the question of
whether there is “grave potential for prejudice” inherent in
a policy that imposes such delay. In other words, the Ninth

29
Circuit and the District Court had “occasion to consider
what standards should apply in deciding” when delay in
appointment of counsel becomes unreasonably long.
B. Three Of The Four New Constitutional
Standards Are Wrong.
On remand, the District Court stated that it was
“not aware of any decision articulating a standard by
which to examine whether a delay in appointing counsel
is reasonable within the meaning of Rothgery,” in spite of
the correct standard provided by the first Ninth Circuit
panel. It further held that, “[I]n the absence of such
guidance . . . the reasonableness of a delay in appointing
counsel after attachment depends on the totality of the
circumstances, including the time needed to prepare for
an upcoming critical stage—but not limited to that factor.”
Emphasis added. App. 138. This standard is meaningless
because it is does not specify the factors the parties are
required to address. See Wisconsin v. Constantineau,
400 U.S. 433, 436, (1971) (“It is significant that most of
the provisions of the Bill of Rights are procedural, for it
is procedure that marks much of the difference between
rule by law and rule by fiat.”).
In its summary judgment opinion the District Court
added two additional standards, stating for the first
time that a finder of fact could not conclude that a policy
of delayed representation was unconstitutional on its
face in the absence of “evidence regarding broad topics
like, for example, logistical challenges to appointing
counsel, processes for resolving conflicts and caseload
constraints, and accepted practices and timelines in other
jurisdictions.” Emphasis added. App. 79, fn. 16.

30
And it held that,
“In the context of Rothgery, the appropriate
test is therefore whether counsel was provided
within a period of time after attachment that
was reasonable under the circumstances of a
defendant’s case, as such circumstances were
apparent at the time of attachment and during
the intervening period before counsel was
provided.” Emphasis added. App. 83.
The Ninth Circuit summarily affirmed the District
Court’s ruling that the delay in appointing counsel to all
detainees was reasonable based upon the District Court’s
application of its “broad topics” standard to the evidence
adduced on summary judgment; it also affirmed its finding
that the delay was reasonable in the named Plaintiffs’
cases based upon the District Court’s application of its
“appropriate test.” Without scrutinizing either standard,
the Ninth Circuit summarily affirmed and, therefore,
sanctioned the standards promulgated by the District
Court addressing the question left open by this Court in
Rothgery. See S. Shapiro, Supreme Court Practice § 4.29
(11th ed. 2019) (“[T]he true conflict is established by the
summary appellate action, not by the district court ruling;
one simply ascribes to the court of appeals the rationale
employed by the district court.”).
This court should settle this important question, as
a national standard is needed, and the Ninth Circuit’s,
post-remand standards are wrong: The “broad topics”
standard determines “how much delay is reasonable, and
thus tolerable, under the Constitution in a typical case,”
by reference to “how much time a generic, competent

31
public defender’s office ... would need to provide a
defendant with an attorney,” without regard for when the
“grave potential for prejudice” becomes intolerable for
a typical detainee; and the “appropriate test” does not
specify the relevant “circumstances”; it does not elucidate
to whom the “circumstances” must be “apparent”; and it
does not explain how the “circumstances” would become
“apparent” to anyone in the absence of representation by
counsel.
Also, the County stated that public entities depend
upon “this Court’s prejudice requirement … to defeat any
such litigation at the motion to dismiss stage.” Petition
for Writ of Certiorari, p. 7. Indeed, every case seeking
prospective relief for policies of delaying provision of
appointed counsel for an unreasonably long period—
except this one—has been defeated at the motion to
dismiss stage because the lower courts have uniformly
conflated the “actual prejudice” standard, required for
the remedy of reversal of a criminal conviction, with the
distinct question of whether there is a cognizable civil
cause of action for denial of the right to counsel under the
Sixth Amendment when counsel is not appointed within
a reasonable period of time after attachment, before
the delay ripens into wrongful conviction, loss of child
custody, suicide, or other forms of prejudice. See United
States v. Morrison 449 U.S. 361 (1981); United States v.
Wade, 388 U.S. 218 (1967) (actual prejudice not required
to state a Sixth Amendment violation). This pervasive and
harmful misunderstanding in the lower courts indicates
that further clarification of the appropriate prejudice
standard by this Court is necessary.

32
C.

Circuit Courts and District Courts Widely
Misconstrue This Court’s Opinion In Rothgery
For The Proposition That A 6-Month Delay In
Appointing Counsel To Indigent Detainees Is
Presumptively Reasonable.

The District Court in this case originally “held that
the delay in appointing counsel between the time of
attachment and the second appearance … did not violate
the Supreme Court’s instruction that counsel must be
provided within a reasonable time after attachment,
because the delay was shorter than in other district
court cases that found no violation, and because Plaintiffs
did not adequately allege that they were prejudiced by
the delay.” App. 103. In reaching this determination,
it relied upon Grogen v. Gautreaux, supra. App. 137.
Grogen noted that this Court declined to decide whether a
6-month delay in appointing counsel after attachment was
unreasonable. Construing the Rothgery 6-month delay
as a benchmark—without acknowledging that Walter
Rothgery was in custody for a total of three weeks—it
found that a 40-day in-custody delay was reasonable in
the absence of a showing of actual prejudice. The District
Court in this case also relied upon Hawkins v. Montague
County, supra, which found “that an approximate twomonth delay in receiving court-appointed counsel fails to
rise to the level of a constitutional violation.” The District
Court’s reliance on the misinterpretation of this Court’s
holding in Rothgery in multiple unpublished District Court
decisions resulted in the first appeal, first reversal, and
first petition for a writ of certiorari in this case.
Following the same logic, the Fifth Circuit stated that,

33
“The Supreme Court has expressly declined to
determine the appropriate standard for when
a delay alone violates the Sixth Amendment
right to counsel. Rothgery involved a six-month
delay, thus jurists of reason could not debate
the potential for fairminded disagreement as
to whether Lucio’s three-month delay violated
her Sixth Amendment right to counsel.” Lucio
v. Davis, 751 F. Appx 484, 491 (5th Cir. 2018).
In Dominick v. Stone, No. CV 19-0503, 2019 WL 2932817,
at *4 (W.D. La. June 14, 2019), the District Court relied
upon Lucio, supra, and extended its logic to obliterate the
requirement that counsel be appointed within a reasonable
period of time after attachment, stating,
“Notably, the Fifth Circuit added that, “to be
entitled to a COA, [the applicant’s] unreasonable
delay claim must be based on denial of counsel
at a critical stage of the proceedings. …
Even assuming an unreasonable delay in
appointing counsel, alone, can violate the Sixth
Amendment, Plaintiff’s alleged 55-day delay
was reasonable.”
Also, in Franklin v. Abston, No. 7:09-CV-01340-LSC, 2010
WL 11614573, at *7 (N.D. Ala. Mar. 23, 2010), the District
Court stated,
“The question before the Court is not, however,
whether Plaintiff had a right to counsel, but
rather whether he had an immediate right to
counsel such that the twenty-two day delay he
experienced in receiving appointed counsel was

34
a violation of a clear constitutional right. In
Rothgery, the Court explicitly refused to decide
whether a six-month delay “in appointment of
counsel resulted in prejudice to Rothgery’s
Sixth Amendment rights, and [we] have no
occasion to consider what standards should
apply in deciding this.” Rothgery, 128 S. Ct. at
2592. The Eleventh Circuit has not touched on
this issue, and neither party has pointed this
Court to any authority on this point.”
However, Justice Alito stated, “That question lies beyond
our reach, petitioner having never sought our review
of it.” Rothgery, supra, at 216 (Alito, J., concurring).
Thus, this Court did not “refuse to decide” whether a
6-month delay in appointing counsel is acceptable. Nor
did it authorize 6-month delays in appointing counsel to
indigent detainees. However, in the absence of further
clarification by this Court, the lower courts will persist
in misconstruing Rothgery for the proposition that
it endorses 6-month delays in appointing counsel to
detainees in the absence of actual prejudice.
5. The Ninth Circuit Is In Square Conflict With The
Fifth And Eleventh Circuits On The Question Of
Whether Due Process Is Violated When Counsel Is
Not Provided To Protect Bail And Statutory Speedy
Trial Interests.
The Ninth Circuit held that the County delayed
Plaintiffs’ arraignments and pleas, but did not violate
California Penal Code § 859b, which requires a preliminary
hearing within 10 court days of entry of plea, because
pleas were not entered at the initial appearance due

35
to the absence of counsel. The right to enter a plea at
arraignment, however, is in pari materia with California
Penal Code § 859b. Ng v. Superior Court, 4 Cal.4th 29,
36-37 (1992).
“The arraignment “is the defendant’s first
court appearance. [Citations.]” (Cal. Criminal
Law: Procedure and Practice (Cont.Ed.Bar
2016) § 6.1, p. 126. Although the court at
the arraignment must afford the defendant
the opportunity to enter a plea (see § 988),
the entry of a plea may be postponed. (See
§§ 990 [where the defendant at arraignment
so requires, he or she “must be allowed a
reasonable time to answer.” People v. Figueroa,
11 Cal. App.5th 665, 677 (2017).
Therefore, denial of the right to enter a plea at the first
appearance violated California’s statutory speedy trial
scheme, and the Ninth Circuit erred by determining that
there was no due process violation.
The Fifth Circuit in Odonnell v. Harris, 892 F.3d
147, 159-60 (2018), found that Harris County’s bail
procedures violated due process because bail was denied
at the first appearance in court without notice, a hearing
at which the arrestee had an opportunity to be heard
and present evidence, and an impartial decision maker.
It reached this conclusion not because the right to bail
itself was violated but because the procedure for assuring
compliance with the right was inadequate; and it did so in
spite of the fact that the arrestees were able to invoke a
bail hearing on a later date. It also concluded that federal
due process entitles detainees to a counseled bail hearing

36
within 48 hours of arrest, in conformity with the 48-hour
presentment requirement articulated in Riverside v.
McLaughlin, 500 U.S. 44 (1991). See also Jauch v. Choctaw
Cty., 874 F.3d 425, 435 (5th Cir. 2017) (due process violated
when factually innocent, unrepresented detainee cut off
from judicial officers for 96 days).
The Eleventh Circuit in Walker v. City of Calhoun,
GA., 901 F.3d 1245, 1266 (11th Cir. 2018), concluded that
denial of counsel at an initial appearance, where bail is
set, violates due process.
6. The Ninth And Eleventh Circuits Are In Conflict
With The Fifth Circuit Concerning The Question
Of Whether Equal Protection Is Infringed When
Indigent Detainees Are Denied The Ability To
Assert Pretrial Rights At The Initial Appearance
When The Affluent Are Permitted To Immediately
Assert These Rights.
The Fifth Circuit stated in Odonnell, supra, at 163,
that,
“One arrestee is able to post bond, and the other
is not. As a result, the wealthy arrestee is less
likely to plead guilty, more likely to receive a
shorter sentence or be acquitted, and less likely
to bear the social costs of incarceration. The
poor arrestee, by contrast, must bear the brunt
of all of these, simply because he has less money
than his wealthy counterpart. The District
Court held that this state of affairs violates the
equal protection clause, and we agree.”

37
The Ninth Circuit concluded that the County did not
violate Plaintiffs’ equal protection rights because they had
an adequate opportunity to apply for bail a week or two
after the initial appearance. Thus, the Ninth Circuit and
the Fifth Circuit are in square conflict.
The Eleventh Circuit concluded that equal protection
does not apply to bail hearings in Walker v. City of
Calhoun, GA., supra, at 1266.
7.

There Were Departures From The Normal Course
Of Judicial Proceedings Calling For This Court To
Exercise Its Supervisory Powers.

The District Court stated that it would assess
the reasonableness of the delay in appointing counsel
according to a “totality of the circumstances” test, without
identifying the factors in the test. With respect to such
tests, Justice Scalia wrote in Crawford v. Washington,
541 U.S. 36, 67—68 (2004) that, “By replacing categorical
constitutional guarantees with open-ended balancing
tests, we do violence to their design. Vague standards
are manipulable, and, while that might be a small concern
in run-of-the-mill assault prosecutions like this one, the
Framers had an eye toward politically charged cases
like Raleigh’s—great state trials where the impartiality
of even those at the highest levels of the judiciary might
not be so clear.”
The “totality of the circumstances” test was grossly
unfair to Plaintiffs as they had no opportunity to meet
the standards that were announced for the first time after
the matter had been submitted; and it gave the District
Court license to rule according to its whim based upon
unreviewable standards.

38
This radical departure “from the accepted and usual
course of judicial proceedings” dictated the outcome of
the case. The second Ninth Circuit panel exacerbated
this problem by failing to question the District Court’s
application of its previously unannounced standards of
review and by failing to analyze the standards to see
if they correctly state the law. “A District Court by
definition abuses its discretion when it makes an error
of law.” Koon v. United States, 518 U.S. 81, 100 (1996).
In U.S. Bank Nat. Ass’n ex rel. CWCapital Asset
Mgmt. LLC v. Vill. at Lakeridge, LLC, 138 S. Ct. 960,
967 (2018), this Court stated that, “when applying the
law involves developing auxiliary legal principles of use
in other cases—appellate courts should typically review
a decision de novo.” Also, in Salve Regina College v.
Russell, 499 U.S. 225, 238 (1991), this Court stated that,
“When de novo review is compelled, no form of appellate
deference is acceptable.” Additionally, this Court stated in
Guerrero-Lasprilla v. Barr, 140 S. Ct. 1062, 1070 (2020),
that, “we can reasonably interpret the statutory term
“question of law” to encompass the application of law to
undisputed facts.” This Court has also stated that applying
the wrong standard of review requires reversal when the
standard of review may affect the outcome of the case.
Cooper Indus., Inc. v. Leatherman Tool Grp., Inc., 532
U.S. 424, 443 (2001). Treating questions of law as questions
of fact and applying the plain error standard instead of
the required de novo review standard unquestionably
affected the outcome of this case.
At a minimum this Court should exercise its
supervisory powers, grant certiorari, vacate, and remand
so that the Ninth Circuit can: (1) correct the constitutional
standards on de novo review; (2) address the question of

39
whether a California arraignment is a “critical stage”
of the proceedings as pled; (3) determine if the Heck
doctrine would bar civil actions for violation of the right to
counsel at a California arraignment; (4) give the District
Court clear, reviewable standards to uphold; and (5) give
Plaintiffs a fair opportunity to meet the appropriate,
known constitutional standards.
In June Med. Servs. L.L.C. v. Russo, 140 S. Ct.
2103, 2182 (2020), a case in which the appropriate legal
standards were hotly contested, Justice Kavanaugh
stated in his dissent that, “I agree with Justice ALITO
that the Court should remand the case for a new trial
and additional factfinding under the appropriate legal
standards.” See also Ayestas v. Davis, 138 S.Ct. 1080, 1085
(2018) (certiorari granted, lower court opinion vacated,
and case remanded because lower courts applied the
wrong legal standard).
8. Conclusion
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
Christopher A lan Martin
Counsel of Record
Martin Law Offices
607 Hearst Avenue,
Berkeley, CA 94610
(510) 206-2142
m305@icloud.com
October 19, 2020

Attorney for Petitioners

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT, FILED MARCH 30, 2020
UNITED STATES COURT OF APPEALS
NINTH CIRCUIT
No. 19-15152
JOHN FARROW, ON HIS BEHALF, AND ON
BEHALF OF ALL OTHERS SIMILARLY
SITUATED; JEROME WADE, ON THEIR BEHALF,
AND ON BEHALF OF OTHERS SIMILARLY
SITUATED,
Plaintiffs-Appellants,
v.
CONTRA COSTA COUNTY,
Defendant-Appellee,
and
ROBIN LIPETZKY, CONTRA COSTA COUNTY
PUBLIC DEFENDER,
Defendant.
Submitted March 26, 2020*
San Francisco, California
FILED March 30, 2020
* The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

2a
Appendix A
Appeal from the United States District Court
for the Northern District of California,
Joseph C. Spero, Magistrate Judge, Presiding,
D.C. No. 3:12-cv-06495-JCS
Before: GOULD, CHRISTEN, and BRESS, Circuit
Judges.
MEMORANDUM**
Appellants John Farrow and Jerome Wade appeal
from the district court’s order granting Contra Costa
County’s motion for summary judgment in a § 1983 action
alleging Sixth Amendment violations based on the failure
to provide counsel. We have jurisdiction pursuant to 28
U.S.C. § 1291, and we affirm.1
1. The district court dismissed the plaintiffs’ § 1983
claim premised on a Sixth Amendment violation for failure
to provide counsel at a critical stage because the court
determined it was barred by Heck v. Humphrey, 512 U.S.
477, 114 S.Ct. 2364, 129 L.Ed.2d 383 (1994). The plaintiffs
waive their challenge to this ruling by not arguing this
issue in their opening brief. See Austin v. Univ. of Oregon,
925 F.3d 1133, 1138-39 (9th Cir. 2019).

** This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit Rule 36-3.
1. Because the parties are familiar with the facts and
procedural history of this case, we do not recite them here.

3a
Appendix A
2. Whether framed as a policy or practice, the
plaintiffs do not establish the district court erred by ruling
that there was insufficient evidence the County violated
the Sixth Amendment rights of criminal defendants by
failing to provide counsel “within a ‘reasonable time after
attachment to allow for adequate representation at any
critical stage before trial.’ ” *521 Farrow v. Lipetzky,
637 F. App’x 986, 988 (9th Cir. 2016) (quoting Rothgery v.
Gillespie County, 554 U.S. 191, 212, 128 S.Ct. 2578, 171
L.Ed.2d 366 (2008)). The plaintiffs also do not challenge
the district court’s ruling that they did not show they
suffered a Sixth Amendment violation based on their
own experiences with delayed provision of counsel. See
generally Bucklew v. Precythe, ––– U.S. ––––, 139 S. Ct.
1112, 1127, 203 L.Ed.2d 521 (2019).
3. The plaintiffs separately challenge the district
court’s exclusion of expert evidence at summary judgment
pursuant to Federal Rule of Evidence 702, but they do not
establish that the court abused its discretion. See Gen.
Elec. Co. v. Joiner, 522 U.S. 136, 143, 118 S.Ct. 512, 139
L.Ed.2d 508 (1997).
AFFIRMED.

4a
Appendix
B
APPENDIX B
— OPINION
OF THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA,
FILED JANUARY 2, 2019
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
Case No. 12-cv-06495-JCS
2019 WL 78839
JOHN FARROW, et al.,
Plaintiffs,
v.
CONTRA COSTA COUNTY,
Defendant.
January 2, 2019, Decided;
January 2, 2019, Filed
JOSEPH C. SPERO, Chief Magistrate Judge.
ORDER ON CROSS MOTIONS FOR
SUMMARY JUDGMENT AND MOTION
TO EXCLUDE EXPERT TESTIMONY
Re: Dkt. Nos. 125, 126, 128

5a
Appendix B
I.

INTRODUCTION

Plaintiffs John Farrow and Jerome Wade brought
this putative class action asserting a number of claims
based on the alleged failure of Defendant Contra Costa
County (the “County”) to provide appointed counsel at
Plaintiffs’ first court appearances, or within a reasonable
time thereafter, in criminal proceedings in state court.
After multiple motions to dismiss, an appeal to the Ninth
Circuit, and remand to this Court, Plaintiffs’ remaining
claims are for failure to provide counsel as required by the
Sixth Amendment within a reasonable time after the right
attached, and for a writ of mandamus to enforce Contra
Costa Public Defender Robin Lipetzky’s obligations under
section 27706 of the California Government Code. In
accordance with the case schedule set by the Court, the
parties now bring cross motions for summary judgment
on Plaintiffs’ individual claims before the question of class
certification has been addressed, and the County moves
to exclude the opinions of Plaintiffs’ expert witness. The
Court held a hearing on January 19, 2018. For the reasons
discussed below, the County’s motion to exclude expert
testimony is GRANTED IN PART, Plaintiffs’ motion for
summary judgment is DENIED, the County’s motion
for summary judgment is GRANTED as to Plaintiffs’
Sixth Amendment claim, and Plaintiffs’ state law claim
is DISMISSED for lack of jurisdiction.1

1. The parties have consented to the jurisdiction of the
undersigned magistrate judge for all purposes pursuant to 28 U.S.C.
§ 636(c).

6a
Appendix B
II. BACKGROUND
A.

Procedural History and Allegations
1. May 2013 Order

Plaintiffs’ original complaint included six claims
against Robin Lipetzky, the Contra Costa County Public
Defender: (1) violation of Plaintiffs’ right to counsel under
the Sixth Amendment; (2) violation of Plaintiffs’ right to
a speedy trial under substantive due process protections
of the Fourteenth Amendment; (3) violation of Plaintiffs’
right to a speedy trial under procedural due process
protections of the Fourteenth Amendment; (4) violation
of Plaintiffs’ procedural due process rights under the
Fourteenth Amendment with respect to the timing of
Plaintiffs’ bail hearings; (5) violation of California Civil
Code sections 52 and 52.1; and (6) a claim for a writ of
mandate to enforce California Government Code section
27706. See Order Granting Def.’s Mot. to Dismiss Compl.
(“May 2013 Order,” dkt. 47) at 5-6. 2
The Court held that Plaintiffs’ right to counsel
attached at their first court appearances, but that
neither that appearance nor the waiting period before
the second appearance was a “critical stage” at which
counsel was required. Id. at 14-20.. The Court also held
that the delay in appointing counsel between the time of
2. Farrow v. Lipetzky, No. 12-cv-06495-JCS, 2013 U.S. Dist.
LEXIS 65824, 2013 WL 1915700 (N.D. Cal. May 8, 2013). Citations
herein to this Court’s previous orders refer to page numbers of the
versions filed in the Court’s ECF docket.

7a
Appendix B
attachment and the second appearance—which, unlike the
first, was a critical stage—did not violate the Supreme
Court’s instruction that counsel must be provided within
a reasonable time after attachment, because the delay
was shorter than in other district court cases that found
no violation, and because Plaintiffs did not adequately
allege that they were prejudiced by the delay. Id. at 20-22
(citing Rothgery v. Gillespie County, 554 U.S. 191, 128 S.
Ct. 2578, 171 L. Ed. 2d 366 (2008)). The Court therefore
dismissed Plaintiffs’ Sixth Amendment claim with leave
to amend. Id. The Court also dismissed Plaintiffs’ other
federal claims with leave to amend, for reasons that are
not relevant to the present motion because Plaintiffs did
not renew those claims. Id. at 23-31. With no federal claims
remaining, the Court declined to exercise supplemental
jurisdiction over Plaintiffs’ state law claims. Id. at 31-32.
2. August 2013 Order
After the Court dismissed the initial complaint,
Plaintiffs amended their complaint twice, and Lipetzky
moved to dismiss the second amended complaint. See
generally Order Granting Def.’s Mot. to Dismiss 2d Am.
Compl. (dkt. 69). 3 The Court granted that motion and
dismissed all claims, although it allowed Wade leave to
amend his Sixth Amendment claim. Id. at 1-2.
With respect to the Sixth Amendment claim, the
Court reaffirmed its previous holdings that neither the
3. Farrow v. Lipetzky, No. 12-cv-06495-JCS, 2013 U.S. Dist.
LEXIS 111493, 2013 WL 4042276 (N.D. Cal. Aug. 7, 2013), rev’d in
part, 637 F. App’x 986 (9th Cir. 2016).

8a
Appendix B
first appearance nor the waiting period before the second
appearance was a critical stage at which Plaintiffs were
entitled to counsel, but the second appearance was a critical
stage. Id. at 22-26 (citing Lopez-Valenzuela v. County of
Maricopa, 719 F.3d 1054 (9th Cir. 2013), subsequently
superseded sub nom. Lopez-Valenzuela v. Arpaio, 770
F.3d 772 (9th Cir. 2014) (en banc)4 ). Turning to the question
of whether the challenged policy failed to provide counsel
within a reasonable time after attachment of the right,
the Court held that although Plaintiffs added allegations
regarding the effect of the delay, the allegations did not
sufficiently identify any actual prejudice that Plaintiffs
suffered as a result. Id. at 26-27. Because Plaintiffs came
closer to plausibly alleging prejudice to Wade than to
Farrow, the Court dismissed Wade’s Sixth Amendment
claim with leave to further amend but dismissed Farrow’s
claim with prejudice.
The Court dismissed Plaintiffs’ remaining federal
claims with prejudice, for reasons that are not relevant
to the present motion, and again declined to exercise
supplemental jurisdiction over Plaintiffs’ state law claims.
Id. at 28-35. Wade declined to further amend his Sixth
4. The initial Ninth Circuit panel to hear Lopez-Valenzuela
affirmed the district court’s grant of summary judgment for the
defendants on claims under multiple constitutional theories. See
generally Lopez-Valenzuela v. County of Maricopa, 719 F.3d
1054. This Court’s August 2013 order relied on that panel’s Sixth
Amendment holding. Later, an en banc panel reached a different
outcome, reversing the holding as to substantive due process and
finding the Arizona laws at issue facially invalid on that basis, but
declined to address the plaintiffs’ Sixth Amendment claims. See
Lopez-Valenzuela v. Arpaio, 770 F.3d at 791-92.

9a
Appendix B
Amendment claim, and Plaintiffs instead appealed to the
Ninth Circuit.
3. Ninth Circuit Decision and Denial of Certiorari
The Ninth Circuit affirmed this Court’s dismissal
of Plaintiffs’ due process and equal protection claims.
Farrow v. Lipetzky, 637 Fed. Appx. 986, 987-88 (9th
Cir.) (dkt. 81), cert. denied, 137 S. Ct. 82, 196 L. Ed. 2d
36 (2016). As for Plaintiffs’ Sixth Amendment claims,
the panel affirmed this Court’s conclusion that, on the
facts alleged, Plaintiffs’ first court appearance was not a
critical stage that required the presence of counsel. Id.
at 988. The panel held that this Court erred, however,
in its analysis of whether counsel was appointed within
a reasonable time after attachment of the right, and
remanded for consideration of that issue under the correct
legal standard:
The remaining question is whether Lipetzky
appointed counsel w ithin a “reasonable
time after attachment to allow for adequate
representation at any critical stage before
trial, as well as at trial itself.” Rothgery, 554
U.S. at 212. In other words, how soon after the
Sixth Amendment right attaches must counsel
be appointed, and at what point does delay
become constitutionally significant? Instead
of addressing whether the delay in appointing
counsel was unreasonable, the district court
considered only whether the delay “impacted
[plaintiff ’s] representation at subsequent

10a
Appendix B
critical stages of his proceedings.” By framing
the question in that way, the district court
erroneously required the plaintiffs to allege
actual prejudice. See United States v. Wade,
388 U.S. 218, 225, 236-37, 87 S. Ct. 1926, 18 L.
Ed. 2d 1149 (1967) (finding a Sixth Amendment
violation based on the “grave potential for
prejudice”); Hamilton v. Alabama, 368 U.S.
52, 54, 82 S. Ct. 157, 7 L. Ed. 2d 114 (1961)
(finding a Sixth Amendment violation where the
absence of counsel “may affect the whole trial”).
We therefore remand for the district court to
consider whether appointing counsel five to
thirteen days and “sometimes longer” after the
right attaches complies with the “reasonable
time” requirement articulated in Rothgery.
Id. at 988-89 (alteration in original). The panel also
directed this Court to reconsider whether supplemental
jurisdiction over Plaintiffs’ state law claims is appropriate
in light of the Court’s reconsideration of the Sixth
Amendment claim. Id. at 989. The Supreme Court denied
Plaintiffs’ petition for certiorari on October 3, 2016. See
dkt. 102.
4. Third Amended Complaint and Facts
Subject to Judicial Notice
Following remand to this Court, Plaintiffs filed their
operative third amended complaint, alleging that Lipetzky
implemented a written policy that “arbitrarily withheld
legal representation to indigent, in-custody criminal

11a
Appendix B
defendants for a period of 5 to 13 days after their initial
Court appearance.” 3d Am. Compl. (“TAC,” dkt. 91) ¶ 1.
Under that policy, Plaintiffs alleged that a defendant
would not receive counsel at the defendant’s first court
appearance, but if a defendant requested counsel at that
appearance and could not afford to pay, the court would
set bail, refer the defendant to the public defender, and
continue the case for a “further arraignment” several days
later. See id. ¶¶ 1-2, 4, 21, 27, 36.
Plaintiffs alleged that Farrow was arrested on August
30, 2011, based on allegations that he had assaulted his
domestic partner. Id. ¶¶ 25, 31. He first appeared in court
on September 2, 2011, at which time the judge asked if he
could afford counsel and would like the court to appoint
counsel. Id. ¶¶ 26-27. Farrow replied that he could not
afford counsel and would like appointed counsel, and
the judge “set bail, ‘referred the matter to the Public
Defender,’ and continued the matter to September 15,
2011 for ‘further arraignment.’” Id. ¶ 27. The judge also
asked the probation department to prepare a bail study,
which according to Plaintiffs was prepared during the
period between the two court appearances and included
only information unfavorable to Farrow because,
without counsel, there was no way for him to provide
mitigating information such as his ties to the community
or employment status. Id. ¶ 28. The judge did not advise
Farrow of his right to enter a plea at the first appearance,
and Farrow remained in jail for the next thirteen days.
Id. ¶ 27.
Plaintiffs alleged that Farrow was appointed counsel
and entered a plea at his second appearance on September

12a
Appendix B
15, 2011, which was sixteen days after his arrest and
thirteen days after his first appearance. Id. ¶ 29. According
to Plaintiffs, the delay in Farrow obtaining counsel “might
have” contributed to his investigator’s failure to locate
witnesses whose testimony could have implicated the
credibility of the complaining witness (Farrow’s domestic
partner) and thus “would have had an enormous impact on
plea negotiations and may have resulted in acquittal had
the matter gone to trial.” Id. ¶ 31. Farrow pled guilty to
one count against him on December 1, 2011. Def.’s Req.
for Judicial Notice (“RJN,” dkt. 94) Ex. A.
Plaintiffs alleged that Wade, then seventeen years old,
was arrested at his high school on November 8, 2011 for
his alleged involvement in a convenience store robbery.
TAC ¶¶ 32, 43. Wade first appeared without counsel on
November 14, 2011. Id. ¶ 33. 5 A county prosecutor also
appeared in court that day, which Plaintiffs alleged made
the appearance “an adversarial encounter.” Id. ¶ 35. The
judge set bail and asked Wade whether he could afford
counsel and whether he would like counsel appointed. Id.
¶ 36. Wade responded that he could not afford counsel and
would like appointed counsel, and the judge “‘referred
the matter to the Public Defender,’ and continued the
matter to November 21 for ‘further arraignment.’” Id.
Plaintiffs alleged that the judge did not advise Wade of
“his right to enter a plea, his right to bail, his right to
prompt arraignment or his right to a speedy preliminary
hearing and trial.” Id. As in the case of Farrow, the judge
also referred the matter to the probation department for
5. Plaintiffs alleged that Wade was held illegally for four days
before his first appearance, but did not bring a claim based on that
pre-appearance detention. See TAC ¶ 34.

13a
Appendix B
a bail study, which, according to Plaintiffs, did not include
information favorable to Wade because he did not have
counsel. Id. ¶ 37. Wade remained in jail for seven days.
Id. ¶ 36.
According to Plaintiffs’ allegations, the police and
district attorney continued their investigation of Wade’s
case during the period between his first and second court
appearances. Id. ¶ 39. On November 18, 2011, the district
attorney filed an amended complaint adding new charges
and significantly increasing Wade’s exposure. Id. ¶ 40.
Plaintiffs alleged that the district attorney was able to do
so without leave of the court because Wade had not yet
entered a plea. Id.
Wade was appointed counsel at his second court
appearance on November 21, 2011. Id. ¶ 41. Later, his
investigator interviewed his high school principal, who had
been present when the police interrogated Wade. Id. ¶ 42.
Plaintiffs alleged that the principal could not remember
when Wade was given Miranda warnings or whether he
had been wearing a sweatshirt that connected him to the
robbery, and that she “likely” would have remembered
what Wade was wearing if she had been interviewed
sooner. Id. ¶¶ 42, 43. Plaintiffs also suggested (but did
not specifically allege) that the principal’s memory of the
Miranda warnings would have been clearer during an
earlier interview. See id. Wade pled guilty to three counts
on December 6, 2012. RJN Ex. B.
The Third Amended Complaint included three claims:
(1) a claim under 42 U.S.C. § 1983 for violation of Plaintiffs’

14a
Appendix B
Sixth Amendment right to counsel, TAC ¶¶ 56−58; (2)
a claim under the Bane Act, sections 52 and 52.1 of the
California Civil Code, for violation of Plaintiffs’ civil rights,
TAC ¶¶ 59−60; and (3) and a claim under sections 1085
and 1086 of the California Code of Civil Procedure for a
writ of mandate to enforce section 27706 of the California
Government Code, which requires public defenders
to represent criminal defendants “at all stages of the
proceedings,” TAC ¶¶ 61−63. Plaintiffs characterized
their claims as “a facial challenge to the constitutionality
of Defendant’s written policy of arbitrarily withholding
counsel for an unreasonable period of time” on behalf of all
persons who “were subjected to the deprivation of counsel
at their first court appearance and were forced to continue
their cases for 5 days or more for appointment of counsel,
pursuant to the Public Defender’s written Policy,” from
December 21, 2010 through the resolution of this action.
Id. ¶¶ 45−48.
5. April 2017 Order and Substitution of Defendant
Lipetzky again moved to dismiss, and the Court
granted that motion in part. Addressing an argument that
Lipetzky raised for the first time after remand from the
Ninth Circuit, the Court held that Heck v. Humphrey, 512
U.S. 477, 114 S. Ct. 2364, 129 L. Ed. 2d 383 (1994), did not bar
Plaintiffs’ Sixth Amendment claim in its entirety because
a Sixth Amendment violation for failure to appoint counsel
within a reasonable time after attachment (as discussed
in Rothgery) “would not necessarily imply the invalidity
of Plaintiffs’ convictions in state court.” Order Regarding
Mot. to Dismiss 3d Am. Compl. (“Apr. 2017 Order,” dkt.

15a
Appendix B
107) at 25.6 The Court rejected Lipetzky’s argument that
Plaintiffs’ claim for unreasonably delayed appointment of
counsel must be evaluated under the ineffective assistance
standards set forth in either Strickland v. Washington,
466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), or
United States v. Cronic, 466 U.S. 648, 104 S. Ct. 2039,
80 L. Ed. 2d 657 (1984), both of which would require per
se reversal of Plaintiffs’ convictions and would therefore
be barred by Heck, because the Court determined that
those cases’ focus on prejudice was inconsistent with the
Ninth Circuit’s instructions that Plaintiffs need not show
prejudice here. Apr. 2017 Order at 16-17, 24-25 (“The
Court is not persuaded by Lipetzky’s argument that the
Ninth Circuit has asked this Court to analyze Plaintiffs’
claims in ‘the Strickland/Cronic framework.’” (quoting
Lipetzky’s reply brief)). The Court held that Heck did,
however, bar Plaintiffs’ Sixth Amendment claim to the
extent that it was based on a theory that they were denied
counsel at a “critical stage” of a criminal prosecution,
because such a deprivation—at least for the particular
stage at issue—would be grounds for per se reversal of
Plaintiffs’ convictions. Id. at 22-23. The Court also held
that even with respect to the unreasonable delay claim,
Heck dictates that Plaintiffs’ “‘compensable injury . . .
does not encompass the “injury” of being convicted [or]
imprisoned.’” Id. at 27-28 (quoting Heck, 512 U.S. at 487
n.7) (alterations in original).
Having held that Plaintiffs’ claim for delayed
appointment of counsel survived Heck, the Court turned
6. Farrow v. Lipetzky, No. 12-cv-06495-JCS, 2017 U.S. Dist.
LEXIS 65331, 2017 WL 1540637 (N.D. Cal. Apr. 28, 2017).

16a
Appendix B
to what standards should apply to evaluate that claim, and
whether Plaintiffs’ complaint plausibly stated such a claim.
Id. at 25-27. With the exception of one Middle District
of Louisiana case that required a showing of prejudice
inconsistent with the Ninth Circuit’s holding on appeal
here, the Court found no authority articulating such a
standard. Id. at 26. The Court therefore held “for the
purpose of the [motion to dismiss] that the reasonableness
of a delay in appointing counsel after attachment depends
on the totality of the circumstances, including the time
needed to prepare for an upcoming critical stage—but not
limited to that factor.” Id. at 27. The Court held Plaintiffs’
allegations sufficient to state such a claim, which “does not
lend itself to resolution on the pleadings.” Id.
Because at least one aspect of Plaintiffs’ federal Sixth
Amendment claim survived the motion to dismiss, the
Court had supplemental jurisdiction over the state law
claims, and examined those as well. Id. at 28-32. The Court
dismissed Plaintiffs’ Bane Act claim with prejudice for
failure to establish that Plaintiffs had a right to enter pleas
at their first court appearances, and for failure to allege
coercion. Id. at 28-30. The Court allowed Plaintiffs’ claim
under Government Code section 27706 to go forward,
noting that the public defender’s obligation to represent
indigent defendants at “all stages of the proceedings”
is broader than the “critical stages” at which counsel
is required under the Sixth Amendment, and that the
obligation is triggered not only by appointment by the
court, but also by a defendant’s request for representation.
Id. at 30-31. The Court did “not decide at [that] time
whether section 27706 requires a public defender standing

17a
Appendix B
by at a defendant’s first court appearance to provide
representation immediately if requested, or whether the
statute implicitly allows the public defender a reasonable
period of time to begin representation after request by
an indigent defendant or appointment by the court.” Id.
at 31-32.
After the Court issued its decision on the motion
to dismiss the third amended complaint, the parties
stipulated to substitute the County for Lipetzky as the
defendant in this action. See Stip. (dkt. 115); Order on
Stip. (dkt. 116).
B. Evidentiary Record
1. 1984 Letter
In a letter dated August 27, 1984, David Coleman, then
the supervising attorney of the Richmond branch of the
County’s Public Defender’s Office, wrote to a judge of the
Bay Municipal Court in Richmond, California “to clarify
and memorialize our understanding of how the client
referral process will operate between the arraignment
department of your court and our office.” Martin Decl.
(dkt. 125-1) Ex. 1 at 008.7 The letter stated that when an
7. Several of Plaintiffs’ exhibits include witness depositions
and related documents as a single exhibit, with the documents, or
portions thereof, inserted throughout the transcript. This order
cites to non-transcript documents using Plaintiffs’ three-digit Bates
numbers. Citations to deposition testimony are identified as such and
use the Bates numbers as well as the page and line numbers from
the deposition transcripts, with a comma separating Bates citations

18a
Appendix B
in-custody defendant requested referral to the Public
Defender’s Office, a courtroom clerk would provide a
referral form and copy of the complaint to the Public
Defender’s Office no later than 5:00 PM the same day.
Id. at 010. An attorney would at some point thereafter
interview the defendant at the County’s detention facility
in Martinez, California, and would be prepared to appear
with the defendant and enter a plea “on the afternoon of the
third court day following the date of the referral.” Id. The
letter acknowledged that the probation department might
require more than three days for a bail study, and that the
arraignment might therefore take place more than three
days after the defendant requested referral, but the letter
stated that an attorney from the Public Defender’s Office
“will appear on any date such a coordinated appearance
for a plea and bail study be scheduled, as long as it is no
sooner than three court days away.” Id. The letter went
on to state that the same schedule would apply in multiple
defendant cases where one or more attorneys would be
appointed from the Bar Association Conflicts Panel, and
that in those cases the Public Defender’s Office would
provide “provisional” notice of a conflict to the panel by
noon of the court day following referral, although a final
determination of financial eligibility would usually not be
completed at the time of provisional notice. Id. at 010-11.
Robin Lipetzky, the current public defender, testified
that she had no independent knowledge of the 1984 letter
and that it appeared to refer only to proceedings in the
from transcript pagination. In some exhibits, excerpts of documents
and deposition transcripts are not presented in order. Plaintiffs are
discouraged from using this format of consolidated, out-of-order
exhibits in future filings.

19a
Appendix B
Richmond courthouse. Martin Decl. Ex. 1 (Lipetzky Dep.)
at 007, 20:16-25.
2. More Recent Practices of the Public Defender’s
Office and Other Testimony of Robin Lipetzky
Lipetzky testified regarding the Public Defender’s
Office’s practices regarding representation at indigent
misdemeanor and felony defendants’ arraignments,
including the older policy of bifurcated arraignments
that Plaintiffs in this case experienced, a pilot program
for providing representation at some first appearances in
one courthouse, and a newer policy of representing nearly
all indigent defendants at their first court appearances.
Lipetzky has worked for the County’s Public Defender’s
Office since 1990, initially as a deputy public defender,
and in her current position as public defender for the
County she is a department head in charge of the Public
Defender’s Office and sets policy for the office. Martin
Reply Decl. (dkt. 142-1) Ex. 14 (Lipetzky Dep.) at 329,
7:12-8:16; id. at 338, 23:13-15.
In 2010, defendants charged with misdemeanors in
the County were arraigned without counsel, and if they
desired appointment of counsel, were referred by the
court to the Public Defender’s Office and required to
come back for another court appearance at a later date.
Id. at 012-13, 22:18-23:12. According to Lipetzky, many
defendants waived their right to counsel and proceeded
without counsel at the first appearance. Id. at 013, 23:312. Lipetzky had set a goal in 2010 of providing counsel
for all misdemeanor defendants’ first court appearances.
Id. at 012, 22:10-17.

20a
Appendix B
Although Lipetzky provided some testimony regarding
the arraignment process for out-of-custody misdemeanor
defendants, she testified that she was “not sure [she] ever
knew what the misdemeanor process was” for in-custody
defendants, and that she could instead “speak to [the
process for] felony in-custody clients.” Baker Decl. (dkt.
129) Ex. D (Lipetzky Dep.) at 44:5-11. After reading
the charges at a felony defendant’s first appearance, the
court would ask if the defendant could hire an attorney.
Id. at 44:12-14. If the defendant said “no,” the court would
refer the case to the Public Defender’s Office and set the
matter for a subsequent “counsel-and-plea” calendar
date, and “sometime between that time and the time of
the next court date,” the Public Defender’s Office would
get the referral. Id. at 44:15-16. According to Lipetzky’s
declaration, the referrals were provided “by the following
business day” along with “the complaint and discovery if
available.” Lipetzky Decl. (dkt. 131) ¶ 3. Some courthouses
had “counsel-and-plea” calendars twice each week, while
others had only one per week. Id.; Baker Decl. Ex. D
(Lipetzky Dep.) at 45:3-9. Lipetzky did not know how the
courts determined which calendar to set a defendant’s
second appearance for, and was not aware of any cases
where a court set the appearance further out than one
of the next two “counsel-and-plea” days, or longer than
two weeks from the first appearance. Martin Decl. Ex.
1 (Lipetzky Dep.) at 084-86, 109:19-111:20. The Public
Defender’s Office had no involvement in setting the
second appearance date. Lipetzky Decl. ¶ 3. A page of
the Public Defender’s Office’s website listing answers
to frequently asked questions included a section briefly
describing this process. Martin Decl. Ex. 1 at 037.

21a
Appendix B
Lipetzky states in her reply declaration that she is aware
of other California counties that did not provide counsel
at indigent defendants’ first court appearances in 2011.
Lipetzky Reply Decl. (dkt. 141-2) ¶ 4.
According to Lipetzky, after receiving a referral,
her office conducted an initial investigation into whether
the referred person was financially eligible and whether
conflicts or excessive caseload precluded the main Public
Defender’s Office from taking the case, which began
usually one or two days after receipt of the referral with
“a paralegal visiting the person at the jail to gather
information such as financial status, information relevant
to a potential bail motion, and basic information about
the charged offense.” Lipetzky Decl. ¶ 4. The office
would “take steps to address” any “immediate needs”
disclosed during that initial interview, “such as mental
health concerns, injuries that needed to be documented,
misidentity, or the need to preserve evidence that could
be lost or destroyed.” Id. The Public Defender’s Office
would then check for conflicts of interest and determine if
it had sufficient staffing to take the case, and would refer
clients that it could not take on to the County’s Alternate
Defender’s Office, which would check for its own conflicts.
Id. ¶ 5. If the Alternate Defender’s Office also could not
represent the client, it would refer the matter to the
conflict panel, which would appoint an attorney from the
panel. Id.
Lipetzky testified that she did not “challenge” the
County’s policy of bifurcating arraignments in 2010.
Martin Decl. Ex. 1 (Lipetzky Dep.) at 026, 73:10-14.

22a
Appendix B
She did not recall whether she “raise[d] the issue with
anybody” in 2011. Id. at 026, 73:15-22. She testified at
her deposition that she did not “take any action prior to
[receiving Farrow’s government claim in this case] to stop
this practice” of bifurcating arraignments, id. at 026-27,
73:23-74:10, but states in a reply declaration that during
her 2017 deposition, her “memory was hazy on the exact
timing of [her] actions in 2012,” and that subsequent
review of documents refreshed her memory that at the
time she received Farrow’s claim on June 26, 2012, she
had in fact already implemented a pilot project at the
Delta courthouse and developed and begun soliciting
funding for a program to further expand representation at
indigent defendants’ first appearances, as discussed below.
Lipetzky Reply Decl. ¶ 2 (citing Lipetzky Decl. Ex. G).
In “mid-2012,” deputy public defenders began
representing out-of-custody misdemeanor defendants
at their first appearances through a pilot program at
the Delta courthouse, located in Pittsburg, California.
Lipetzky Decl. ¶ 11; Martin Decl. Ex. 1 (Lipetzky Dep.)
at 018, 34:5-15. At some point—the date is not clear from
the record—Lipetzky stated that her office would expand
representation at first appearances to other courthouses
if staffing levels increased. Id. at 028, 32:3-22. Plaintiffs’
counsel asked Lipetzky if she agreed that she had a legal
mandate to provide such representation, but her answer
is not included in the excerpt in the record. Id. at 028,
32:23-25.
In a document dated June 7, 2012 discussing funds
provided under the Public Safety Realignment Reform

23a
Appendix B
Act of 2011, also known as Assembly Bill 109, Lipetzky
proposed creation of the Arraignment Court Early
Representation (“ACER”) program to provide counsel at
all in-custody indigent defendants’ first court appearances,
a proposal that Lipetzky had developed over the preceding
months. Lipetzky Decl. ¶ 12 & Ex. G. Lipetzky states that
her decision to develop and implement the ACER program
was not related to this or any other litigation. Id. ¶ 18. A
report dated July 13, 2012 further discussed the proposal.
Martin Decl. Ex. 1 at 032. That report stated that indigent
defendants did not have a real opportunity to request
lower bail or release on their own recognizance until their
second, counseled court appearance, and that providing
representation at the first appearance would save the
county money because fewer defendants would ultimately
be held in pretrial custody. Martin Decl. Ex. 1 at 064.
Based on statistics from the ACLU, the report stated that
roughly eighty-five percent of the County’s jail population
was made up of defendants awaiting trial, which was
higher than both the state and national averages. Martin
Decl. Ex. 1 (Lipetzky Dep.) at 054, 62:7-25. A September
2012 report describing the proposal indicated that it would
resolve the problem of such defendants having to “wait a
period of time—between 7 and 14 days—in custody before
their next court date when they will have an attorney to
represent them.” Martin Decl. Ex. 1 at 034. Lipetzky
testified that those times were “not entirely accurate for
every case, but yes.” Martin Decl. Ex. 1 (Lipetzky Dep.)
at 033, 55:10-25. Lipetzky testified that she believed the
longest period a defendant spent in custody between the
first and second appearances was “about 13 days,” but she
had not researched the issue. Id. at 083, 47:14-20.

24a
Appendix B
Funding was secured for the program, and the Public
Defender’s Office was able to provide counsel at defendants’
first appearances beginning January 9, 2013, except for
out-of-custody misdemeanor defendants at the Richmond
courthouse. 8 Id. at 055, 83:1-6; Lipetzky Decl. ¶¶ 13-14
& Exs. J—M. The Public Defender’s Office has “staffed
the initial appearance” or arranged for conflicts panel
representation of all defendants at their first appearances
at other courthouses, as well as all felony defendants and
in-custody misdemeanor defendants in Richmond. Martin
Decl. Ex. 1 (Lipetzky Dep.) at 078, 50:1-12; Lipetzky
Decl. ¶¶ 15-16. “In the case of an obvious conflict, such as
multiple defendants charged with the same offense, the
case will be referred to the Alternate Defender’s Office
and the matter continued a short period of time (not more
8. As of the date of Lipetzky’s deposition in this case, the
Richmond courthouse did not permit attorneys from the public
defender’s office to represent out-of-custody misdemeanor defendants
at their first court appearances. Martin Decl. Ex. 1 (Lipetzky Dep.)
at 018, 34:17-38:9. In many cases, judges at that courthouse will
present unrepresented misdemeanor defendants with three options:
(1) the defendant can resolve a case for some negotiated disposition
presented by the court at the first appearance; (2) the defendant
can hire a private lawyer and return at a later date; or (3) the court
can refer the defendant to the public defender’s office. Id. at 023-25,
39:11-41:9. According to Lipetzky, when attorneys from the public
defender’s office attempted to inform defendants of their availability
represent them before the calendar for first appearances began,
the court instructed them not to. Id. at 025, 41:10-24. Lipetzky has
not taken legal action in response to the Richmond court’s policy
prohibiting such representation. Id. at 021, 37:18-20. That policy
is not at issue in this case. Neither Farrow nor Wade appeared in
the Richmond courthouse or faced misdemeanor charges, and the
Superior Court is not a defendant here.

25a
Appendix B
than two days) for appearance by” an attorney from that
office. Lipetzky Decl. ¶ 15. As a result of implementation of
the ACER program, some defendants have been released
from custody sooner than they would have been under the
old system of bifurcated arraignments. Martin Decl. Ex.
1 (Lipetzky Dep.) at 038, 66:1-6. When such defendants
receive sentences for time served, or have a case disposed
of at the first appearance, the new policy has resulted in
some defendants spending less total time in jail. Id. at
039, 69:1-8. Lipetzky has not kept accurate statistics of
how many defendants are released at the first appearance
under the new system, but testified that in aggregate, she
believes the ACER program has reduced the number of
pretrial custody days for indigent defendants. Id. at 045,
97:11-22; id. at 078, 50:18-21. She states in her declaration
that she “commit[s] to continue the current practice of
staffing the arraignment courts with an attorney and a
legal assistant” even if the County were to discontinue
funding for the ACER program, which she has “no reason
to believe” would occur. Lipetzky Decl. ¶ 17.
Lipetzky testified that under the old system,
defendants who had been misidentified or were ultimately
acquitted sometimes spent longer in jail than they
would have under the new system. Martin Decl. Ex.
1 (Lipetzky Dep.) at 041-43, 77:7-15, 81:23-82:12. In
Lipetzky’s approximately twenty years of experience as
a deputy public defender, during the period when courts
in the County used the bifurcated arraignment system,
some of her clients were released from custody as a
result of bail motions at the second court appearance,
and she testified that they “presumably” would have

26a
Appendix B
been released at the first appearance if they had been
provided with representation at that appearance. Id. at
027, 74:11-25; id. at 040, 75:13-25; but see Lipetzky Reply
Decl. ¶ 3 (clarifying that Lipetzky has “no personal
knowledge of any instance where a criminal defendant
served additional time in pretrial detention as a result of
[her] office not staffing the initial appearance”). Lipetzky
testified that a defendant who “has to stay in jail longer
than necessary . . . risk[s] losing jobs, losing their housing,
losing custody of their children, those sorts of things.”
Martin Decl. Ex. 1 (Lipetzky Dep.) at 039, 69:22-25. In
a report promoting the ACER program, Lipetzky wrote
that it would reduce recidivism by allowing defendants
to maintain employment and community ties that would
otherwise be jeopardized during pretrial detention. Id.
at 061-62, 71:3-72:13.
A January 2016 performance review of the ACER
program stated that “roughly between 20% and 40%
of all detained defendants” were released at their first
appearances, and that “roughly 10% of all cases” received
expedited dispositions. Martin Decl. Ex. 1 at 047. Lipetzky
testified that she had no reason to doubt those numbers
but could not say whether they were true. Martin Decl.
Ex. 1 (Lipetzky Dep.) at 046, 98:3-5. A February 2016
report on the program in fiscal year 2014/2015 stated
that the program facilitated pretrial release and early
case resolution, and cited statistics on the percentage of
cases where those goals were achieved. Martin Decl. Ex.
1 at 050. Lipetzky testified that she could not confirm the
accuracy of the statistics but she agreed that the program
helped achieve those goals. Martin Decl. Ex. 1 (Lipetzky

27a
Appendix B
Dep.) at 048-49, 100:7-101:20. One report indicated that
ACER had saved the courts and sheriff’s department
money, but Lipetzky testified that she could not confirm
whether that was true. Id. at 065, 86:9-25; Martin Decl.
Ex. 1 at 066. She testified that ACER has required
increased resources from the Public Defender’s Office
because the old system of regularly scheduled plea-andcounsel calendars was more efficient for the office than
appearing at every first appearance, even though it was
less efficient for defendants themselves. Martin Decl. Ex.
1 (Lipetzky Dep.) at 078-79, 50:22-51:13.
In a report dated July 1, 2012 assessing the performance
of the Public Defender’s Office in fiscal year 2011/2012,
Lipetzky wrote that the office had a shortage of felony
attorneys and was “unable to fulfill its mandate to provide
competent representation to all of the clients referred
to” it. Martin Reply Decl. Ex. 14 at 322. As a result, the
office had “steadily increased” the number of cases it
referred to private attorneys through the conflicts panel,
reaching “roughly 75 per month, at significant ongoing
cost to the County.” Id.; see also Martin Reply Decl. Ex. 14
(Lipetzky Dep.) at 341-42, 26:14-27:20. Lipetzky testified
that in those instances the office could not take on more
clients while maintaining constitutional representation
for its existing clients. Baker Decl. Ex. D (Lipetzky Dep.)
at 27:14-20. From January of 2010 through January 13,
2013, Lipetzky did not receive any complaints from the
conflicts panel about the timeliness of referrals to the
panel. Lipetzky Decl. ¶ 7.

28a
Appendix B
3. Plaintiffs’ Experiences With
Delayed Appointment of Counsel
a. John Farrow
Farrow was arrested on August 30, 2011 on charges
including assaulting and threatening his domestic partner.
Baker Decl. Ex. A (Farrow Dep.) at 12:18-13:1; Baker Decl.
Ex. E. Farrow’s first court appearance took place at the
Walnut Creek courthouse of the Superior Court for the
County of Contra Costa at 1:30 PM on Friday, September
2, 2011 before Judge Nancy Stark. Martin Supp’l Decl.
(dkt. 134) Ex. 4 (Superior Court Clerk’s Docket and
Minutes) at 160. Judge Stark asked Farrow if he could
afford counsel, to which he replied “[a]bsolutely not,” and
if he wanted a lawyer, which he said he did. Baker Decl.
Ex. A (Farrow Dep.) at 18:25-19:8. Judge Stark referred
the matter to the public defender and to the probation
department for a bail study, and continued proceedings to
September 15, 2011 at 9:00 AM. Martin Supp’l Decl Ex.
4. The clerk’s minute order appears to indicate that bail
was set at $106,000 and Farrow was remanded to county
jail. Id.
Farrow met with Lorrie Silva, an employee of the
Public Defender’s Office, on September 6, 2011. Baker
Decl. Ex. C (Requests for Admissions) ¶ 7. Silva completed
an applicant interview and provided notes to the Public
Defender’s office, including that Farrow had no relevant
medical or psychiatric history, that he had been in
custody since August 31, and that he would like a copy of
the police report. Lipetzky Decl. ¶ 6 & Ex. B. According

29a
Appendix B
to Lipetzky, neither the referral packet provided to the
Public Defender’s Office nor Silva’s interview with Farrow
disclosed any urgent issues requiring attention before his
next appearance date. Id. ¶ 6. Lipetzky determined that
neither the Public Defender’s Office nor the Alternate
Defender’s Office could take on Farrow’s case due to
their existing caseloads, and referred the case to the
conflicts panel on September 14. Id. ¶ 8. Lipetzky states
in her declaration that her “office never received a direct
request from Mr. Farrow to represent him in this criminal
proceeding and was never appointed by the Court to
represent Mr. Farrow in this criminal proceeding.”
Id. Farrow’s attorney Christopher Martin, who also
represented Wade in his criminal case and represents both
Plaintiffs in this action, learned that he would represent
Farrow in his criminal case at 1:57 PM on September 14.
Baker Decl. Ex. C ¶ 2; Baker Decl. Ex. F (Martin Dep.) at
9:25-10:6; Baker Decl. Ex. G. Martin did not do anything
related to the case that day. Baker Decl. Ex. F (Martin
Dep.) at 12:4-7; Baker Decl. Ex. H (billing records).
Farrow appeared again on September 15 with Martin
representing him, pleaded not guilty to all counts, and
appears to have been again remanded to the county
jail with bail set at $106,000. Martin Supp’l Decl Ex. 4
at 162. That appearance was the first time Farrow met
Martin, and they discussed the case while Farrow was
in a holding area near the courtroom, including issues
of bail and the fact that Farrow was upset that he had
been in custody for weeks without representation. Baker
Decl. Ex. A (Farrow Dep.) at 30:8-11; Baker Decl. Ex.
F (Martin Dep.) at 13:23-15:14. Martin objected at that

30a
Appendix B
hearing to the fact that Farrow had been in custody for
thirteen days without a lawyer and asserted that Farrow
had been prejudiced by the delay and lack of counsel at
his first appearance, but the presiding judge stated on
the record that she did not find Farrow’s rights had been
violated. Baker Decl. Ex. C ¶¶ 16-18; Baker Decl. Ex. I
(transcript of state court proceedings). Martin did not
formally request a bail reduction. Baker Decl. Ex. C ¶ 20.
Martin did not “perform any legal services” on Farrow’s
behalf until the court appearance on September 15, and
did not begin reviewing discovery until September 19. Id.
¶¶ 9-10. Martin testified that “the Court doesn’t formally
appoint in Contra Costa County” and, as is its typical
practice, did not discuss appointment of counsel at the
hearing, and that he had “accepted appointment through
[the public defender’s conflict program]” when he spoke
to someone from that office. Baker Decl. Ex. F (Martin
Dep.) at 14:4-19.
Martin did not request that an investigator seek
to locate relevant witnesses until after a preliminary
examination on September 27, 2011, and in fact did not
communicate with investigator Kent Ringgenberg until
November 7. Baker Decl. Ex. C ¶ 5. He testified at his
deposition that his decision to engage the investigator
to locate those witnesses was based on the complaining
witness’s testimony at the preliminary hearing. Baker
Decl. Ex. F (Martin Dep.) at 19:1-20:11. Ringgenberg
attempted to locate the witnesses on approximately
November 14, but was not successful. Id. at 26:1-22.
Farrow ultimately reached a plea agreement in which
he waived his appellate rights and was sentenced to 270

31a
Appendix B
days in county jail. Baker Decl. Ex. A (Farrow Dep.) at
40:9-25, 47:1-14; Baker Decl. Ex. L (plea agreement form).
b. Jerome Wade
Wade was taken into custody on November 8, 2011
and held at juvenile hall. Martin Reply Decl. Ex. 13 (Wade
Dep.) at 309-10, 16:22-17:3. Wade’s first court appearance
took place at the Walnut Creek courthouse before Judge
Stark on Monday, November 14, 2011. Martin Supp’l Decl.
Ex. 5 (Superior Court Clerk’s Docket and Minutes) at
165. Judge Stark asked if Wade needed and could afford a
lawyer, and Wade asked Judge Stark to appoint a lawyer
for him. Martin Reply Decl. Ex. 13 (Wade Dep.) at 311-12,
18:20-19:2. Judge Stark referred the matter to the public
defender and to the probation department for a bail study,
and continued proceedings to November 21, 2011 at 8:30
AM. Martin Supp’l Decl. Ex. 5 at 165. The clerk’s minute
order appears to indicate that bail was set at $4,350,000
and Wade was remanded to county jail. Id.
The Public Defender’s Office determined on November
17, 2011 that it had a conflict of interest because it
was taking on representation of one of Wade’s four
codefendants, and therefore referred his case to the
Alternate Defender’s Office. Lipetzky Decl. ¶ 9 & Ex.
D. The Alternate Defender’s Office decided to represent
another codefendant and determined on November 18
that it too had a conflict as to Wade. Id. ¶ 9 & Ex. E. As
with Farrow, Lipetzky states that Wade never directly
requested that the Public Defender’s Office represent
him and the court never appointed the Public Defender’s
Office to do so. Id. ¶ 9.

32a
Appendix B
Martin had a telephone conversation with someone
from the conflicts panel regarding taking on representation
of Wade’s case at 10:22 AM on November 18, 2011—the
same day that the Alternate Defender’s Office determined
it could not represent him—and received an email from the
panel at 10:56 AM confirming the referral and attaching
the “Crimetime calculation” and the complaint. Baker
Decl. Ex. F (Martin Dep.) at 31:23-33:5. Martin began
working on the case that day, including conducting legal
research, and met with Wade at juvenile hall the following
day (Saturday, November 19) to discuss the case, including
whether Wade had been instructed as to his rights before
he made certain admissions during an interrogation. Id.
at 37:16-39:4; Baker Decl. Ex. R (billing records).
Wade appeared again on November 21, 2011 with
Martin representing him, pleaded not guilty to all
counts, and appears to have been again remanded to
the county jail with bail set at $4,350,000. Martin Supp’l
Decl. Ex. 5 at 167. Martin requested authorization to
engage Ringgenberg as an investigator for Wade’s case,
specifically for the issue of whether Wade had received
Miranda warnings, on November 29. Baker Decl. Ex. F.
(Martin Dep.) at 42:9-14. On November 30, Martin asked
Ringgenberg to report back on that issue “much sooner”
than the next court appearance on December 12. Id. at
44:7-20. At some point, no later than December 29 but
possibly before that, Martin learned that at least part of
Wade’s interrogation had been recorded. Id. at 40:15-22,
49:14-51:6. Martin considered pursuing a motion related
to the Miranda issue but he and Wade decided instead
to withdraw the motion as a condition of accepting a

33a
Appendix B
time-limited plea deal offered by the prosecutor. Id. at
58:1-11. Ringgenberg did not recall at his deposition
whether Martin also asked him to investigate what Wade
was wearing during the interrogation. Baker Decl. Ex. J
(Ringgenberg Dep.) at 22:10-13.
Wade pleaded guilty to three counts against him on
December 6, 2012, approximately one year after Martin
began negotiating a deal with the prosecutor on his behalf.
Baker Decl. Ex. O (Wade Dep.) at 24:21-25:24. Wade
testified that he actually committed the crimes to which
he pleaded guilty and that he was satisfied with Martin’s
representation of him. Id. at 29:12-23. He received credit
towards his sentence for the time he spent in jail before
sentencing. Id. at 71:24-72:10.
4. Expert Witness Reports and Testimony
a. Robert Boruchowitz
Plaintiffs submit an expert witness report from
Professor Robert Boruchowitz. See Martin Decl. Ex. 2.
Boruchowitz is an attorney with “43 years of experience in
public defense.” Boruchowitz Report9 at 17. He served as
director of The Defender Association in Seattle for twentyeight years, supervising as many as ninety attorneys
and negotiating “contracts with government funders at
9. Boruchowitz’s report appears in the record as a portion
of Exhibit B to Christopher Martin’s declaration in support of
plaintiffs’ motion (Bates numbers 090 through 116), and as Exhibit A
to Cameron Baker’s declaration (dkt. 127) in support of the County’s
motion to exclude the report.

34a
Appendix B
the city, county and state level” for which The Defender
Association provided service as public defenders. Id. at 18
¶ 3. Boruchowitz also served as a staff attorney for The
Defender Association, representing defendants in a variety
of criminal proceedings, from juvenile and misdemeanor
cases to at least one case involving capital charges. Id. at
19 ¶¶ 6-7. Boruchowitz participated in the development
of public defender standards and model contracts for the
American Bar Association and Washington State Bar
Association, among other entities. Id. at 19 ¶¶ 8, 11. He has
consulted for public defender services and associations,
or the courts that oversee those services, in a number
of states including Washington, Idaho, Utah, Michigan,
Wisconsin, Louisiana, Arizona, and Nevada, and has
founded or worked with several organizations dedicated
to indigent criminal defense. See generally id. at 19-21.
He is a “Professor from Practice” and serves as director
of the Defender Initiative at the Seattle University
School of Law, id. at 20-21 ¶¶ 17-18, and has written and
spoken extensively, as well as testified as an expert, on
matters related to public defense, id. at 21-26 ¶¶ 23-27.
Boruchowitz relied on his experience in the field, “relevant
state and federal law as to what constitutes effective
assistance of counsel,” and various standards, guidelines,
and published ethical opinions in reaching his opinion. Id.
at 17 (“Law and Experience Relied On”). He also reviewed
the transcripts of both Plaintiffs’ depositions, although
he did not review Martin’s or Ringgenberg’s depositions,
Martin’s timesheets, or the file on Wade’s criminal case.
Martin Opp’n Decl. (dkt. 135-1) Ex. 12 (Boruchowitz Dep.)
10:13-11:9, 16:18-22, 21:25-22:4, 57:5-6.

35a
Appendix B
Boruchowitz describes the scope of his report as
follows:
I was requested to provide an opinion on whether
and in what manner having a policy of leaving
indigent criminal detainees unrepresented in
jail for a period of one to two weeks or more
poses a “grave potential for prejudice” based
on the totality of the circumstances test, which
should include, but not be limited to, prejudice
at later “critical stages” of the proceedings. I
was also requested to provide an opinion on
whether the Contra Costa Defender’s policy
violated California Government Code section
27706.
Id. at 1 ¶ 1. Citing case law, Boruchowitz states his opinion
that “it is not reasonable to delay appointing counsel for
five to thirteen days or longer after the right counsel
attaches as articulated in Rothgery,” and that “the delay
in appointing counsel of five to thirteen days or longer
violates California Government Code section 27706.” Id.
at 1-2 ¶¶ 4-7.
According to Boruchowitz, “[n]ational and state
standards require that counsel be provided at the
earliest possible time after an accused person is arrested,
charged, or appears in court, whichever is earliest.” Id.
at 2 ¶ 8. He cites a number of standards and guidelines
discussing the importance of timely representation. Id.
at 2-5 ¶¶ 9-14. Some of those standards call for provision
of counsel at specific points in the criminal process—

36a
Appendix B
such as the A merican Bar Association Standards
for Providing Defense Services (“Counsel should be
provided to the accused as soon as feasible and, in any
event, after custody begins, at appearance before a
committed magistrate, or when formal charges are filed,
whichever occurs earliest.”), the Washington State Bar
Association Performance Guidelines for Criminal Defense
Representation (“If the client is in custody, contact should
be within 24 hours of appointment and shall be within
no more than 48 hours unless there is an unavoidable
extenuating circumstance.”), a 1976 report of a commission
of the National Legal Aid and Defender Association
(calling for representation as soon as “[t]he person is
arrested or detained,” or when the person reasonably
believes criminal process will commence), and the National
Advisory Commission on Criminal Justice Standards and
Goals (“Public representation should be made available . . .
beginning at the time the individual either is arrested or
is requested to participate in an investigation that has
focused upon him as a likely suspect.”)—while others
speak more generally about the importance of prompt
representation. See id.
Boruchowitz lists the following potential consequences
of delay in appointing counsel for in-custody defendants:
(1) defendants could suffer injury, illness, or death in jail
while awaiting a second court appearance; (2) the mental
condition of mentally ill defendants could deteriorate,
which appointment of counsel can help to mitigate due to
not only the potential for obtaining release, but also the
possibility of arranging for treatment in jail; (3) defendants
could lose employment, housing, child custody, or medical

37a
Appendix B
benefits; (4) a delayed investigation can result in loss of
evidence, including witness recollections; (5) defendants
might not be able to bring a petition for habeas corpus to
challenge unlawful confinement; (6) for defendants who
can easily be shown to be innocent, delay in appointing
counsel can result in delay making that innocence known
and having charges dismissed; (7) juvenile defendants
can face “additional challenges” due to vulnerability to
peer pressure; (8) delays in obtaining discovery can cause
delays in all phases of the prosecution; (9) prosecutors
might set limits on plea bargain offers, and delays in
appointing counsel can further limit the amount of time
counsel has to discuss an offer with the defendant; and
(10) failure to have counsel promptly available while a
defendant is in custody can lead to mistrust between the
attorney and client once an attorney is appointed. Id. at
5-8 ¶¶ 15.1-15.12; see also id. at 12-15 ¶¶ 37-48 (elaborating
on some of those categories of potential consequences).
Boruchowitz notes a California Penal Code statute
permitting any attorney to visit a prisoner upon the
prisoner’s request, and asserts that the County’s Public
Defender’s Office should have sent an attorney to visit
each defendant after the court referred the defendant to
that office. Id. at 8 ¶ 15.13.
In a section titled “Three Days in Jail Can Harm
a Client,” Boruchowitz states that he “agree[s] with an
experienced public defender who wrote” that “‘three days
in jail can be life destroying’” due to potential effects on
medication, employment, and child custody or care. Id. at
8 ¶ 16. Boruchowitz construes the 1984 letter discussed
above as demonstrating obliviousness to client needs and

38a
Appendix B
also as evincing an ability to provide counsel in three days,
which is less than the delay that either Plaintiff faced in
this case. Id. at 8 ¶¶ 17-18.
Boruchowitz reviews various statements by Lipetzky
and the Public Defender’s Office, beginning with her
2010 comments to a county newspaper that she believed
providing attorneys at misdemeanor defendants’ first
court appearances would protect their constitutional
rights, and extending through the development and
assessment of the ACER program. Id. at 9-12 ¶¶ 23-35.
He concludes that these statements show that Lipetzky
“has known for years that her office should be providing
counsel . . . at arraignment,” and that the successful
implementation of the ACER program shows that the
County could and should have put such a policy in place
sooner. Id. at 9-12 ¶¶ 22, 27, 33, 36.
With respect to California Government Code section
27706, Boruchowitz discusses the language of the statute
and several decisions by California courts, as well as a
decision by the highest court of Maryland interpreting
what Boruchowitz characterizes as a similar statute. Id.
at 15-17 ¶¶ 50-55. He concludes that the period between
Plaintiffs’ first and second court appearances was itself a
“stage of the proceedings” within the meaning of section
27706, and that to effectively fulfill the requirements of
the statute, a public defender “should begin representation
as soon as possible, and not wait for five to thirteen days
to meet the client at a second appearance.” Id. at 16 ¶ 51.
Boruchowitz testified that his “process for determining
whether or not there was a violation of” section 27706

39a
Appendix B
was “that [he] read the statute, and then [he] read cases
discussing the statute.” Martin Opp’n Decl. Ex. 12
(Boruchowitz Dep.) at 45:21-25.
Boruchowitz testified at his deposition that a public
defender “might get some hints of” the specific needs
and risks of a client “in highly publicized cases,” but that
a defender “need[s] to see the client as soon as possible
to assess all those factors effectively.” Id. at 67:25-68:15.
He testified that, in his opinion, it would not have been
reasonable for Plaintiffs’ counsel (who in addition to
representing them here, also was appointed to represent
them in their criminal cases) “to delay interviewing
those clients for five to thirteen days or longer.” Id. at
69:16-20. Boruchowitz also testified that he considered
the issue of whether the County failed to provide counsel
in a reasonable period of time to be “a Cronic problem,”
referring to the Supreme Court’s decision in United States
v. Cronic. Id. at 14:21-15:23.
Asked by defense counsel how much time is required
to prepare for an arraignment, Boruchowitz testified that
if appointed in advance, a lawyer “should spend a good
hour meeting with the client before you do anything,”
and if “appointed right there in the courtroom, you try to
take as much time as the judge will give you.” Id. at 28:716. Boruchowitz also acknowledged that there “are still
states that do not have representation of counsel at the
initial hearing,” that he has “observed a number of states
that do not provide counsel at the initial appearance,”
and that there have been “instances where counsel was
not appointed for months sometimes after the initial

40a
Appendix B
appearance.” Id. at 20:19-21:7, 34:2-10. Boruchowitz did
not know whether there was a “consistent practice” as
to that issue in California. Id. at 41:2-20. As a matter of
“personal belief,” however, Boruchowitz believes “that
counsel should be there from the very beginning,” “even
though we don’t have federal case law yet on when the
appearance of counsel is required” and “even though the
U.S. Supreme Court has not yet held it.” Id. at 35:8-16.
A U.S. Department of Justice report discussed during
Boruchowitz’s deposition identifies Arkansas, Delaware,
Iowa, Montana, New Hampshire, New Jersey, South
Carolina, Virginia as states that in fiscal year 2013 lacked
guidelines calling for attorneys to be present at bail
hearings and arraignments, although many other states
had such guidelines. Baker Reply Decl. (dkt. 141) Ex. B
at 25, App’x Tbl. 3. States were also split as to whether
they had guidelines calling for appointment of interim
counsel within one day, and as to whether they had
guidelines for appointment of permanent counsel within
three days. Id. The table summarizing various states’
guidelines does not include all fifty states, and California
is among the states omitted. 10 See id. Boruchowitz
testified that he was not aware of standards specific to
California requiring representation at initial appearances,
10. The report appears to be limited to states that had “stateadministered” indigent defense services (as well as the District
of Columbia) as opposed to states with services administered at a
local level. See Baker Reply Decl. Ex. B at 1. The report, prepared
by Suzanne M. Strong, Ph.D., of the Bureau of Justice Statistics,
is titled “State-Administered Indigent Defense Systems, 2013.” It
was published in November of 2016 and revised May 3, 2017. See id.

41a
Appendix B
although he believed such representation was required
by section 27706 “because it’s a stage,” and he identified
several provisions of California’s guidelines for indigent
defense that more generally call for prompt and zealous
representation. Martin Opp’n Decl. Ex. 12 (Boruchowitz
Dep.) at 59:15-61:15.
b. Henry Coker
The County retained Henry Coker as an expert
witness. Coker is an attorney who worked for the San
Diego County Public Defender’s Office from 1989 until
his retirement in 2017, including serving as the public
defender (i.e., the head of the department) from 2009
through 2017. Martin Decl. Ex. 3 at 122 ¶ 1; see also
id. at 134-36 (Coker’s resume). Like Boruchowitz, he
was asked in this case to consider whether the County’s
former practice of “not providing public defender attorney
staffing at the initial appearance of an in-custody criminal
defendant in state court, which might have resulted in a
delay in the provision of appointed counsel to the defendant
detainees for a period between two days to thirteen days
complied with the ‘reasonable time’ requirements for the
provision of counsel articulated in Rothgery,” as well as
whether Lipetzky violated section 27706. Id. at 122-23
¶ 2. He concluded based on his experience and review
of documents and applicable law that “the timing of the
actual provision of appointed counsel in Contra Costa
County complied with” both Rothgery and section 27706.
Id. at 123 ¶¶ 3-4.

42a
Appendix B
According to Coker, although “[l]ocal jurisdictions may
choose to provide stronger protections, and organizations
such as the American Bar Association and the National
Legal Aid and Defender Association may recommend
even higher standards . . . those higher standards are
not relevant to” determining what the Sixth Amendment
requires. Id. at 123 ¶ 6.
Coker states that “the evidence indicates” that under
the old policy of bifurcated arraignments, “counsel was
typically ‘provided’ or ‘assigned’ to the case before the
actual date of the ‘counsel-and-plea’ hearing,” and the date
on which counsel was actually assigned to the case is more
relevant than the date of that second court appearance.
Id. at 124 ¶ 9.
He describes the timeline of Wade’s case as follows:
Wade’s first appearance was on Monday, November 14,
2011, the judge set the second appearance for Monday,
November 21 (one week after the first appearance), the
conflicts panel called Plaintiffs’ counsel Christopher
Martin the morning of Friday, November 18 (four days
after the first appearance), and Martin started work on
the case that day and interviewed Wade the following day,
Saturday, November 19. Id. at 124 ¶ 10; see also id. at 131
(summarizing the timeline in a table). According to Coker,
that timeline was reasonable, and allowed Martin sufficient
time to prepare for the November 21 arraignment hearing
as well as subsequent stages of the case. Id. Coker states
that the seriousness of the charges, as evidenced by judge
setting bail at several million dollars,11 rendered “the
11. Coker’s report transposes the digits of Wade’s bail, stating
that it was set at $3,450,000, as opposed to the figure of $4,350,000

43a
Appendix B
bail issue . . . moot,” as would have been apparent to the
judge and to any competent defense counsel. Id. Coker
notes that Wade was one of four defendants in a “complex”
serial robbery case, and that determining how to assign
counsel to avoid conflicts of interest in such cases “can,
in some cases, take several days in light of the need for
thorough conflicts checks and informed decisions about
which defendants should be represented by internal staff.”
Id. at 125 ¶ 14. He states that the “conflict of interest
process took place” on November 17, 2011, one day before
Martin was assigned to the case, and concludes that “the
fact that attorney Martin’s assignment to represent Wade
in this complex and serious five-defendant case occurred
only four days after Wade’s initial court appearance
seems quite reasonable under all these circumstances
and entirely consistent with diligent efforts to arrange
for counsel.” Id. at 126 ¶ 16.
As for Farrow’s case, Coker summarizes the timeline
as follows: Farrow first appeared on Friday, September 2,
2011, the judge set his second appearance for Thursday,
September 15 (thirteen days later), a staff member from
the Public Defender’s Office interviewed Farrow on
Tuesday, September 6 (four calendar days after the first
appearance, and the next business day due to the Labor
Day holiday weekend), the conflicts panel called Martin
to assign him to the case at 1:57 PM on Wednesday,
September 14 (twelve days after the first appearance), and
Martin first met with Farrow on Thursday, September
that appears in court documents in the record. Compare Martin
Decl. Ex. 3 at 124 ¶ 10 with Martin Supp’l Decl. Ex. 5.

44a
Appendix B
15 (the day of the second appearance, thirteen days
after the first appearance). Id. at 124 ¶ 11, 127 ¶ 20, 132
(summarizing the timeline in a table). Like in Wade’s
case, Coker states that the court and competent defense
counsel would have known that “the bail review issue
was moot,” in this case because “Farrow was a twiceconvicted felon with a ‘no-bail’ parole hold.” Id. at 124 ¶ 11.
According to Coker, the staff interview on September 6
“included questions about potential bail issues and the
status of [Farrow’s] case,” and “would have identified, but
did not, any matter in Farrow’s criminal case requiring
immediate attention.” Id. at 127 ¶ 20. Coker states that
although Martin did not meet with Farrow until the date
of his second appearance on September 15, he could have
interviewed him the afternoon or evening of September
14, the day he was assigned the case. Id. at 124 ¶ 11.
Coker also states that because the Public Defender’s
Office did not have sufficient resources to handle all of
the cases referred to it at that particular time, “there
needed to be a determination regarding the volume of new
cases coming into the Public Defender’s Office and the
Alternate Defenders Office at that time before a decision
could be made to route [Farrow’s] case to the Conflicts
Panel Office for assignment to outside counsel.” Id. at 12627 ¶ 17. Farrow’s case was an appropriate candidate for
reassignment to the conflicts panel if the Public Defender’s
Office did not have sufficient resources available because
it was “the type of lower level felony case that was very
likely to settle without trial.” Id. at 126-27 ¶ 17. Coker
speculates that the Labor Day weekend, and perhaps a
large volume of cases associated with “the end of summer

45a
Appendix B
vacation[,] . . . parties, and the excessive consumption of
alcohol” related to the holiday, could have contributed to
the Public Defender’s Office’s need to refer some cases to
outside counsel and to the timeline of Farrow’s case, but
he states that he “cannot state for certain” the reason for
the volume of cases. Id. at 127 ¶ 18.
Coker also looks to what happened after each Plaintiff
received counsel and appeared in court a second time, and
states that those fact patterns support the conclusion that
Plaintiffs were not prejudiced by the delay in appointing
counsel and that receiving counsel earlier would not have
affected their cases. Id. at 127-28 ¶¶ 20-21. With respect
to section 27706, Coker states that the statute does not
address how much time may elapse between a request
of counsel and provision of counsel, and that Lipetzky
carried out her obligations to both Plaintiffs by assigning
them conflict counsel. Id. at 128-29 ¶¶ 22-23. He also
asserts that the issue is moot in light of the County’s
commitment to provide counsel at all indigent felony
defendants’ first appearances under the ACER program
that was implemented in the years since Plaintiffs’
arraignments. Id. at 129 ¶ 23. Finally, Coker responds to
some of the points made in Boruchowitz’s report, primarily
by asserting that the standards and best practices that
Boruchowitz invokes go beyond what is required under
the Sixth Amendment. Id at 129-30.
At his deposition, Coker testified that he “was not
asked to look at the whole system,” but instead “to take a
microscopic look at two cases and render [his] opinion on
that.” Martin Decl. Ex. 3 (Coker Dep.) at 140, 56:5-7. He

46a
Appendix B
declined to offer an opinion on whether it is “reasonable
to delay representation for a period of five to 13 days or
sometimes longer” in other cases, stating that it would
not be an informed opinion. Id. at 140-41, 56:19-57:3.
He conceded that “as a matter of good practice [he]
would hope that it wouldn’t take you two weeks to see
the client, even if you have that much time to appear in
court,” but testified that the reasonableness of the delay
would depend on actual and potential harm caused by the
delay. Id. at 142, 44:3-12. “[A]fter looking at the facts of
the two cases and looking at [Martin’s] appointment and
what [he] did and when [he] did it, [Coker] determined
that it was reasonable.” Id. at 143, 45:6-8. Coker also
conceded that a two-week delay in meeting with counsel
could cause prejudice or be unreasonable in some cases,
such as the facts of the Rothgery case where the plaintiff
had been held unnecessarily, or where a defendant
relied on videotape evidence that was overwritten in the
intervening period. Id. at 143, 45:9-44; id. at 144, 60:11-15.
Coker testified generally to the importance of conducting
a prompt investigation and that “[i]t is a good practice to
interview any client that you’re going to represent at the
first opportunity you have.” Id. at 149-53, 27:19-31:10.
Coker testified that “conflicts checks are rather
tedious things to do,” and that he had experienced cases
as a chief deputy public defender “where it took us a week
to get it all figured out,” although he did not recall a case
where a conflicts check took two weeks, and even in those
cases his office either appeared for or arranged for private
attorneys to appear for each defendant at the first court
appearance. Id. at 147-48, 71:10-72:2.

47a
Appendix B
Coker was not aware “off the top of [his] head” of
any other county in California that used the bifurcated
arraignment procedure previously employed by Contra
Costa County. Id. at 155, 43:5-8.
C.

The Parties’ Present Arguments

The parties’ arguments in their briefs on the motions
for summary judgment are summarized below. Arguments
regarding the County’s motion to exclude Boruchowitz’s
testimony (dkt. 126) are addressed in context in the
Court’s analysis of that issue.
1. Plaintiffs’ Motion for Summary Judgment
Plaintiffs seek summary judgment granting equitable
relief and nominal damages on their individual claims, or
alternatively, summary adjudication of issues including
whether they were deprived of their Sixth Amendment
right to counsel and whether the County had a policy of
deliberate indifference to Plaintiffs’ rights. Pls.’ Mot. for
Summ. J. (“Pls.’ MSJ,” dkt. 125) at 1-2.
Plaintiffs contend that to prevail on a Sixth Amendment
claim based on the County’s policy of inaction, they must
show: (1) that they were deprived of a constitutional
right; (2) that the County had a policy; (3) that the policy
“amounts to deliberate indifference to” the right; (4) that
the policy was the “moving force behind” the violation
of that right. Id. at 3 (quoting Oviatt ex rel. Waugh v.
Pearce, 954 F.2d 1470, 1474 (9th Cir. 1992)). They argue
that Strickland’s “individualized analysis requirement”

48a
Appendix B
is not the appropriate framework through which to view
a case “seeking prospective, systemic reform.” Id. at 18
(citing Church v. Missouri, 268 F. Supp. 3d 992, 2017 WL
3383301 (W.D. Mo. 2017)). Plaintiffs cite decisions from
various state courts eschewing individualized analysis
in cases based on systemic failure to provide appointed
counsel, as well as the Supreme Court’s decision in
United States v. Wade, 388 U.S. 218, 87 S. Ct. 1926, 18
L. Ed. 2d 1149 (1967), which considered the general risks
to a defendant facing a post-indictment lineup without
counsel, rather than the particular circumstances of the
defendant in that case. Pls’ MSJ at 18-19. They argue
that the Court should look to “the grave potential for
prejudice inherent in the written Policy of agreeing to
withhold representation till any date the court chooses so
long as the date is at least three court days out,” and that
the circumstances here amount to a systemic violation of
indigent criminal defendants’ right to appointed counsel
because the County’s public defender “set no outside limit
on the length of the delay, did not pay any attention to the
length of the delay, delegated responsibility for the length
of the delay in representation to the court, and kept no
records from which the outside [i.e., maximum] length of
the delay could be determined.” Id. at 19.
Plaintiffs argue that the County cannot rely on lack
of funding as a basis for delay, id. at 20 (citing Gideon v.
Wainwright, 372 U.S. 335, 83 S. Ct. 792, 9 L. Ed. 2d 799
(1963)), but that even if the Court were to consider funding
as a factor in assessing reasonableness, the evidence
shows that providing counsel at indigent defendants’
first court appearance actually saved the County money

49a
Appendix B
after it changed its policy to do so in most cases. Id. at
21. They also contend that the County cannot escape
responsibility by arguing that the state courts prevented
it from providing counsel at defendants’ first appearance
because the evidence shows that only one courthouse
actually prohibits that practice in some circumstances
(the Richmond courthouse, in misdemeanor cases),
and because the 1984 letter indicates that the public
defender was, at least at that time, prepared to represent
defendants three days after their first appearances, as
opposed to the longer delays that defendants (including
Plaintiffs here) experienced in more recent years. Id.
Perhaps to some extent contradicting their contention that
the courts were not responsible for the delays, Plaintiffs
also argue that “eligibility and conflicts checks were never
a factor in determining the delay in providing counsel”
because the Public Defender’s Office “had nothing to do
with setting the duration of time between the first and
second arraignment proceedings.” Id. at 22.
P l a i nt i f f s i n vok e B o r u c ho w i t z ’s r e p o r t a s
“document[ing] 55 reasons why [the County’s] Policy was
unreasonable under the totality of the circumstances,”
although they do not identify or discuss any of those
reasons in their motion. Id. They argue that the County
“has not contradicted a single study or standard
referenced by Professor Boruchowitz, or refuted a single
factor that he considered.” Id. Plaintiffs also rely on a
2012 report by Lipetzky stating that the County had
the highest rate of pretrial detainees (as a percentage
of the total jail population) in the state, and on the fact
that County’s expert witness was not aware of other

50a
Appendix B
California counties that similarly failed to provide
counsel at a defendant’s first court appearance. Id. at
22-23. According to Plaintiffs, the lack of justification for
the earlier “Policy” of failing to provide counsel at first
appearances, combined with the potential for prejudice
that Boruchowitz identified, establishes that the failure
to provide counsel was unreasonable. Id. at 23.
Plaintiffs also argue that for purposes of section
27706, the burden is on the County to provide justification
for a delay in providing counsel. Id. They contend that the
County has failed to provide any justification, and that
the rationale of the decision of the Maryland Court of
Appeals (that state’s highest court) applying Maryland’s
then-existing public defender law in DeWolfe v. Richmond,
434 Md. 403, 76 A.3d 962 (2012),12 applies equally to section
27706 in California. Pls’ MSJ at 23-25.
In support of their request for an injunction, Plaintiffs
argue that a constitutional violation with potential to recur
satisfies the “irreparable injury” and “inadequacy of legal
remedies” requirements, and that although Plaintiffs
were ultimately provided with counsel and their criminal
prosecutions have since ended, they have standing to
12. On reconsideration, the Maryland court reached the
same conclusion that counsel was required at a defendant’s first
appearance, but based that conclusion on the Maryland Declaration
of Rights (a component of the state’s constitution) rather than on the
public defender statute, which the state legislature had amended in
the intervening period to specifically exclude any requirement for
representation at the type of hearing at issue in the case. DeWolfe v.
Richmond, 434 Md. 444, 454-55, 464, 76 A.3d 1019 (2013).

51a
Appendix B
seek prospective relief under the “relation back” doctrine
discussed by the Supreme Court in County of Riverside v.
McLaughlin, 500 U.S. 44, 51-52, 111 S. Ct. 1661, 114 L. Ed.
2d 49 (1991), and under the Ninth Circuit’s framework for
class actions challenging policies or officially sanctioned
patterns of unlawful behavior as discussed in Armstrong
v. Davis, 275 F.3d 849, 860 (9th Cir. 2001), abrogated on
other grounds as stated in Davidson v. Kimberly Clark
Corp., 873 F.3d 1103, 1113 (9th Cir. 2017). Pls’ MSJ at 2627. Plaintiffs contend that the subsequent implementation
of the ACER program does not moot their claims because
“it is reasonable to expect that the practice of denying
representation to indigent criminal defendants will recur
without the injunction sought,” and because the County
has not taken action to remedy the Richmond courthouse’s
practice of prohibiting public defender representation
at first appearances of out-of-custody misdemeanor
defendants. Id. at 28-29. Plaintiffs also argue that they are
entitled to nominal damages and declaratory judgment.
Id at 29-34.
2. The County’s Opposition to Plaintiffs’
Motion for Summary Judgment
The County argues that Plaintiffs’ motion should be
denied because it fails to address the circumstances of
Plaintiffs’ individual experiences during their criminal
prosecutions. Def.’s Opp’n (dkt. 137) at 1, 12-13. It contends
that it “did not have a policy of ‘withholding representation’
for a period of days,” but rather did not provide counsel
at first appearances because the Public Defender’s
Office did not have a sufficient number of attorneys to

52a
Appendix B
staff those appearances. Id. at 13. Although the County
does not dispute that “attachment occurred at the
initial appearance,” it argues that it is “undisputed that
[Plaintiffs] had counsel present at every critical stage,”
and that the delay in providing counsel was reasonable
because Plaintiffs have not presented evidence that it
“caused either of them any actual prejudice or posed any
grave potential for prejudice.” Id. at 14.
Despite this Court’s previous determination that
delayed appointment of counsel under Rothgery is its own
Sixth Amendment violation distinct from the Strickland
or Cronic tests for ineffective assistance of counsel, see
Apr. 2017 Order at 25, the County continues to argue
that Rothgery “should be read in conjunction with” those
cases. Def.’s Opp’n at 15. Even if the Court disagrees
with that approach, however, the County contends that “a
critical or necessary factor in establishing any violation
of the right to counsel is the impact, or potential impact,
on Plaintiffs’ criminal proceedings.” Id. at 15-16. The
County notes that the Rothgery decision discussed
appointment of counsel within a reasonable time to allow
for representation at “critical stages” before trial, and
that Justice Alito’s concurrence in that case construed the
Sixth Amendment right to counsel as protecting only the
effectiveness of assistance at trial, not “‘other objectives
that may be important to the accused.’” Id. at 15, 18 (citing
Rothgery, 554 U.S. at 212, and quoting id. at 216 (Alito,
J., concurring)).
Turning to the facts of this case, the County argues
that Plaintiffs have not presented evidence to support

53a
Appendix B
the forms of actual prejudice alleged in their complaint,
specifically that the delay in appointing counsel affected
Farrow’s ability to locate witnesses relevant to his case
and Wade’s ability to gather statements from a witness
while her memory of his interrogation was fresh regarding
Miranda warnings and whether he was wearing a
sweatshirt that tied him to the crimes. Id. at 19-21. It
contends that the possible forms of prejudice identified
by Boruchowitz “do not apply to Plaintiffs themselves,”
with the exception of Boruchowitz’s opinion that Wade
faced potential prejudice in obtaining witness statements
while the witness’s testimony was fresh, which the County
argues was not based on review of the actual facts of
Wade’s case. Id. at 22-23. The County contends that
Boruchowitz’s reliance on professional standards and
guidelines is unavailing because he conceded that there is
not a national consensus on this issue and that some states
do not provide counsel at initial appearances. Id. at 23-24.
The County also argues that any statements from
Lipetzky suggesting that the previous practice of
withholding counsel at first appearances was harmful
or unreasonable do not bind the County because a public
defender’s interests are often adverse to a county’s
interests in cases like this one, and that the 1984 letter
discussing the Public Defender’s Office ability at that time
to provide counsel for Richmond cases within three days of
the first appearance does not establish that longer delays
are unreasonable under Rothgery because it does not take
into account the effect of such a delay on the proceedings.
Id. at 22-23. The County points to the “undisputed facts”
that the state court (not the public defender) set the length

54a
Appendix B
of time between appearances, that the Public Defender’s
Office “took steps to ascertain whether there were any
urgent issues needing to be addressed,” and that deputy
public defenders or appointed conflicts counsel could and
sometimes did begin working on a case before the second
court appearance. Id. at 23; see also id. at 26 (arguing
that the court’s role in setting the second appearance
negates any causal link between the County and the
alleged violations). The County also argues that, contrary
to suggestions made in Plaintiffs’ arguments and their
counsel’s questions during depositions, Plaintiffs cannot
analogize a delay in providing counsel to a decision by an
attorney already assigned to a case to delay the initial
interview of a client, because the latter circumstances are
evaluated under the Strickland standard and Plaintiffs
have not satisfied Strickland by showing prejudice here.
Id. at 24 (citing Dick v. Scroggy, 882 F.2d 192 (6th Cir.
1989)). The County contends that Plaintiffs cannot show
deliberate indifference to their rights because no decisions
now or at the time of the violation clearly demonstrated
that the delays at issue were unconstitutional and because
Lipetzky never received complaints about delays in
referrals to the conflicts panel, among other reasons. Id.
at 24-26.
The County argues that Farrow is estopped from
bringing a claim here because his lawyer objected to the
delay in appointing counsel at arraignment, the state
court judge did not find Farrow’s rights to be violated and
overruled the objection, and Farrow waived his appellate
rights as part of his plea agreement. Id. at 26-28.

55a
Appendix B
As for section 27706, the County argues that Plaintiffs
cannot support a claim because they did not make a “direct
request for representation” to the Public Defender’s Office
and the state court did not formally appoint the office to
represent them. Id. at 28. The County contends that the
Maryland case on which Plaintiffs rely is distinguishable
because the Maryland statute did not condition the public
defender’s obligations on a request for or appointment of
counsel. Id. at 29. The County also argues that the Public
Defender’s Office acted responsibly in light of the ethical
conflicts preventing it from directly representing either
Farrow (due to staffing constraints) or Wade (due to a
conflict of interest). Id. at 29. The County also argues that
Plaintiffs’ claims for declaratory and injunctive relief are
moot, and that no exception to the normal doctrines of
mootness and standing applies here. Id. at 30-33. Finally,
the County contends that certain evidence on which
Plaintiffs rely is inadmissible, including Boruchowitz’s
opinions for the reasons stated in the County’s separate
motion to exclude, certain parts of Coker’s testimony
that the County contends were outside the scope of his
expert witness designation, statements by Lipetzky that
the County argues are hearsay and improper opinion
testimony by a fact witness, and the 1984 letter regarding
representation at the Richmond courthouse, which the
County argues is irrelevant or unduly prejudicial under
Rule 403 of the Federal Rules of Evidence. Id. at 33-35.
3. Plaintiffs’ Reply in Support of Summary Judgment
Plaintiffs again argue in their reply that their claims in
this “case seeking systemic reform” should “be evaluated

56a
Appendix B
in terms of how the Policy [of not providing representation
at first appearances] poses a grave potential for prejudice
to all detainees,” not based on the facts of Plaintiffs’
own cases with the benefit of hindsight. Pls.’ Reply (dkt.
142) at 7-9. They argue that the evidence shows that the
County had a policy of withholding representation for “a
period that was typically between 5 and 13 days, but was
sometimes longer,” and that Farrow and Wade “suffered
a constitutional tort” as a result of being subjected to
the policy if the policy was unconstitutional. Id. at 9-10.
Plaintiffs therefore argue that Boruchowitz’s conclusions
regarding the policy as a whole are sufficient for success
on their Sixth Amendment claim. Id. at 10. Plaintiffs argue
that the County was on notice of the violation based on
a criminal case where the issue was raised in 2011 and
Lipetzky’s own statements. Id. at 10-11. Plaintiffs contend
that the County, not the state court, was responsible
for the delay in appointing counsel because “the Public
Defender authored the Policy in 1984” and has ratified that
policy through words and conduct in the years since then.
Id. at 11. Plaintiffs also dispute the County’s arguments
that the requests for declaratory and injunctive relief are
moot. Id. at 11-14.
As for the County’s evidentiary objections, Plaintiffs
argue that Coker’s testimony regarding examples of
prejudicial conduct falls within the scope of appropriate
cross examination and that his lack of awareness of other
counties with bifurcated arraignments is an issue of
fact, not expert opinion. Id. at 14-15. They contend that
Lipetzky’s statements in various reports and publications
are not hearsay, or meet the tests for hearsay exceptions,

57a
Appendix B
because they are admissions of a party’s agent, fall within
the public records exception, or are relevant to show her
state of mind, and also that they do not constitute improper
expert opinion. Id. at 15-18. Plaintiffs argue that the 1984
letter is relevant to the origin and nature of the County’s
policy regarding indigent representation. Id. at 18-19.
Plaintiffs address Boruchowitz’s testimony separately
in their opposition to the motion to exclude. See id. at 14.
Plaintiffs conclude by arguing that this Court should
adopt a standard that, except in emergency circumstances,
counsel should be appointed within forty-eight hours
of arrest and provided at the first court appearance,
mirroring the requirement for determinations of probable
cause established by the Supreme Court’s decision in
McLaughlin, 500 U.S. 44, 111 S. Ct. 1661, 114 L. Ed. 2d
49. Reply at 19-20.
4. The County’s Motion for Summary Judgment
The County argues in its motion for summary
judgment that the “‘reasonableness’ determination focuses
on the consequences, if any, of the delay on the criminal
defendant’s ability to defend the charges against her/him.”
Def.’s Mot. for Summ. J. (“Def.’s MSJ,” dkt. 128) at 18.
It contends that the Sixth Amendment only protects the
right to a fair trial, and that the Court should reconsider
its previous order holding that an unreasonable delay
in providing counsel is distinct from the Strickland and
Cronic framework for evaluating ineffective assistance of
counsel. Id. at 18-20. According to the County, Cronic’s
presumption of prejudice standard is consistent with

58a
Appendix B
the Ninth Circuit’s instruction to this Court to consider
risk of prejudice, as opposed to only actual prejudice, on
remand. Id. at 18-19. The County argues that since, in its
view, grave potential for prejudice falls within the Cronic
framework, such a claim would be barred by Heck, and
“Plaintiffs are limited to [showing] an actual prejudice
to their individual cases, which they cannot establish.”
Id. at 21.13 But even if the Court considers potential for
prejudice, the County contends that there is no evidence
on which to find such potential. Id.
As discussed above in summarizing the County’s
opposition brief, the County argues that the facts here
do not show actual prejudice to either Farrow or Wade
as a result of delay in providing counsel. Id. at 22-25.
The County primarily analyzes Plaintiffs’ cases with
the benefit of hindsight, arguing that Martin’s lack of
urgency in engaging an investigator to pursue potentially
relevant testimony demonstrates that appointing counsel
sooner would not have changed the outcome, and that at
least in Wade’s case the testimony did not turn out to be
material because there was an audio recording of Wade’s
interrogation. Id. The County also argues that Plaintiffs
cannot show deliberate indifference by the County, that
the delay in appointing counsel was caused by the state
13. The County does not address the fact that actual prejudice
would presumably satisfy Strickland’s test for reversal of Plaintiffs’
convictions, and thus would also presumably be barred by Heck.
Because the Court declines to reconsider its previous determination
that unreasonable delay in appointing counsel need not be considered
in the framework of Strickland and Cronic, however, there is no
reason to wade back into the Heck analysis of the previous order.

59a
Appendix B
court, and that Farrow is collaterally estopped from
asserting a Sixth Amendment violation. Id. at 25-28.
The County contends that the Public Defender’s Office’s
policy of interviewing defendants promptly after referral
to identify urgent issues shows that prejudice was not
foreseeable from the delay in appointing counsel, and
asserts without citation to evidence that “generally
speaking, a week or even two weeks is not likely to result
in destruction of critical evidence.” Id. at 27.
The County asks the Court to dismiss the section
27706 claim for lack of subject matter jurisdiction if
summary judgment is granted for the County on the
Sixth Amendment claim, and argues that even if the
Court retains jurisdiction over the state law claim, the
County is entitled to summary judgment because the
Public Defender’s Office did not receive a direct request
for representation from Plaintiffs and was not appointed
to represent them by the state court, and because the
Public Defender’s Office could not represent them due to
ethical conflicts and properly referred their cases to the
conflicts panel. Id. at 28-31. The County contends that
Plaintiffs’ claims for declaratory and injunctive relief are
moot. Id. at 31-35.
5. Plaintiffs’ Opposition to the County’s
Motion for Summary Judgment
Plaintiffs argue that the County’s “argument that
actual prejudice is required is a nonstarter, as the County
bizarrely insists upon a legal standard that both this Court
and the Ninth Circuit Court of Appeals have explicitly

60a
Appendix B
rejected.” Pls.’ Opp’n to Def.’s Mot. for Summ. J. (“Pls.’
Opp’n to MSJ,” dkt. 135) at 6. Plaintiffs also argue that
it is not appropriate to focus on the facts of their case for
assessing potential prejudice, and instead contend that the
Court should look “whether a Policy of arbitrarily delaying
representation to all indigent jailed criminal defendants
for 5 to 13 days, and sometimes longer — without any
reference to the facts of their underlying criminal cases
— poses a grave potential for prejudice.” Id. Plaintiffs
argue that the facts of their cases do, however, support a
conclusion that delay caused potential for prejudice—in
Wade’s case, because the prosecution was able to add
charges without having to seek leave of the court, and in
Farrow’s case, because the need for conflicts counsel was
caused by the County’s failure to provide sufficient funding
to the Public Defender’s Office and “myriad potentials for
prejudice” could arise from a nearly two week delay that
“cannot properly be evaluated in hindsight.” Id. at 7-8.
Plaintiffs argue that the evidence supports a finding
of deliberate indifference, and that the County had a
written policy of delaying representation, as memorialized
in the 1984 letter, a 2010 statement by Lipetzky to a local
newspaper describing the Public Defender’s Office’s
practices, memoranda from 2012 describing the thencurrent state of affairs in the context of proposals to
establish the ACER program, and statements on the
Public Defender’s Office website. Id. at 9-10. Plaintiffs also
argue that a lack of sufficient resources to provide counsel
at defendants’ first appearances is not a valid reason for
delay, but instead is itself a failure to meet the County’s
obligations under Gideon. Id. at 10. Plaintiffs argue that

61a
Appendix B
“California criminal procedure is exacting” and assert,
without citation to evidence so stating, that Contra Costa
was the only county in California that systematically
denied representation to in-custody defendants at their
first court appearances. Id. at 12.14 Plaintiffs also argue
that the County was on notice of “the problem” as a result
of arguments raised “in a motion and petition for writ of
mandamus in a case to which it was a party,” although
Plaintiffs do not contend that the court in that case
determined that the County’s practices were improper.
Id. at 13. Plaintiffs contend that Lipetzky’s testimony that
some defendants remained in jail longer because they did
not receive representation and that some defendants are
now being released earlier under the ACER program
demonstrates that defendants who did not receive earlier
representation suffered prejudice within the meaning of
Strickland. Id. at 14.
With respect to Lipetzky’s testimony that paralegals
interviewed defendants after their first court appearances
to address “immediate concerns,” Plaintiffs argue that
“there is absolute no proof of a single case where the Public
Defender did anything other than eligibility conflicts
checks during the . . . period between appearances,” and
assert without citation to authority that “the failure to
provide proof where a party would logically provide it
creates the inference that such proof does not exist.” Id.
at 13.
14. Plaintiffs cite Coker’s testimony that he did not, “off the
top of [his] head,” know of other jurisdictions in California that
had such a policy. See Pls.’ Opp’n to MSJ at 12; Martin Decl. Ex. 3
(Coker Dep.) at 155, 43:5-7. That testimony does not show that no
other jurisdiction had such a policy.

62a
Appendix B
Plaintiffs contend that Farrow is not estopped from
bringing a Sixth Amendment claim because the Sixth
Amendment claim was not actually litigated or necessary
to the judgment in his criminal case, and the issues
are not the same. Id. at 14-17. Plaintiffs argue that the
Strickland and Cronic paradigms applicable in criminal
cases, including Farrow’s case where Martin raised the
issue of delayed appointment, do not apply to this civil
case. Id. at 17.
Plaintiffs concede that section 27706 does not require
a public defender to represent a defendant until that
defendant requests that the public defender do so or at
court appoints the public defender to do so, but argue that
where a defendant has told a judge that the defendant
would like appointed counsel and the judge referred
that request to the public defender, the defendant has
effectively requested representation from the public
defender within the meaning of the statute. Id. at 18-19.
Plaintiffs also argue that the County has not offered a
sufficient reason why the Public Defender’s Office did not
have attorneys available to represent defendants at their
first appearances. Id. at 19.
Plaintiffs contend that their claims for prospective
relief are not moot, in part because the County still delays
representation by bifurcating arraignment proceedings
for defendants where the Public Defender’s Office has
clear conflicts of interest, in which cases arraignments are
continued by up to two days to resolve the conflict. Id. at
19-21. Plaintiffs also argue that the new policy shows that
delays of more than two days to resolve conflicts issues in
their own cases were unreasonable. Id. at 21.

63a
Appendix B
Plaintiffs conclude their opposition brief, as in
their reply in support of their own motion, with an
analogy to the McLaughlin case and an argument that
the same presumptive deadline of forty-eight hours
after a warrantless arrest to conduct a probable cause
determination should apply to appointment of counsel.
Id. at 23-24.
6. The County’s Reply in Support
of Summary Judgment
The County argues in its reply that the steps taken and
facts discovered in Plaintiffs’ criminal cases after counsel
was appointed demonstrate that the delay in providing
counsel after their first court appearances did not actually
cause prejudice or a grave potential for prejudice. Def.’s
Reply in Support of Mot. for Summ. J. (“Def.’s Reply re
MSJ,” dkt. 141) at 8-10. The County contends that the
Court should not consider “hypothetical injuries not
present in [Plaintiffs’] own cases,” and that regardless,
adverse effects to a defendant’s pretrial liberty interest
are not cognizable as prejudice in a Sixth Amendment
claim. Id. at 10-11. The County argues that Plaintiffs
also have not established that the potential injuries that
they cite “are so inherent and frequent in cases where
there is no counsel at the initial hearing as to warrant the
presumption of prejudice,” in contrast to the dangers that
the Supreme Court considered when it recognized a right
to counsel at post-indictment lineups in United States
v. Wade, 388 U.S. 218, 87 S. Ct. 1926, 18 L. Ed. 2d 1149
(1967). Def.’s Reply re MSJ at 11-12. The County further
argues that counsel cannot be required under the Sixth

64a
Appendix B
Amendment at a defendant’s first appearance because
Rothgery explicitly permits a reasonable period of time
to appoint counsel after attachment of the right, and that
there is no national consensus on whether counsel must
be provided at defendants’ first appearances, citing the
Department of Justice report surveying state standards.
Id. at 12-13.
The County briefly contends that Plaintiffs have not
shown a policy of deliberate indifference, id. at 13-14, that
the state court rather than the County was responsible for
the length of delay, id. at 14, and that Farrow is collaterally
estopped from bringing a Sixth Amendment claim, id.
at 14-15. If the Court does not dismiss the section 27706
claim for lack of jurisdiction, the County argues that it is
entitled to summary judgment because a referral from the
state court to the Public Defender’s Office is not equivalent
to a direct request from a defendant or appointment
by the court, and because the Public Defender’s Office
acted reasonably in light of its ethical conflicts after the
referrals. Id. at 15-16. The County also continues to argue
that Plaintiffs’ claims for declaratory and injunctive relief
are moot, and that no exception applies. Id. at 16-19.
III.

ANALYSIS
A.

Motion to Exclude Expert Testimony and
Other Evidentiary Objections

Rule 702 of the Federal Rules of Evidence permits
a party to offer testimony by a “witness who is qualified
as an expert by knowledge, skill, experience, training,

65a
Appendix B
or education.” Fed. R. Evid. 702. This Rule embodies
a “relaxation of the usual requirement of firsthand
knowledge,” Daubert v. Merrell Dow Pharms., Inc., 509
U.S. 579, 592, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993),
and requires that certain criteria be met before expert
testimony is admissible. The Rule sets forth four elements,
allowing such testimony only if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of
fact to understand the evidence or determine
a fact in issue;
(b) the testimony is based on sufficient facts
or data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles
and methods to the facts of the case.
Fed. R. Evid. 702. These criteria can be distilled to two
overarching considerations: “reliability and relevance.”
Ellis v. Costco Wholesale Corp., 657 F.3d 970, 982 (9th Cir.
2011). The inquiry does not, however, “require a court to
admit or exclude evidence based on its persuasiveness.” Id.
The reliability prong requires the court to “act as
a ‘gatekeeper’ to exclude junk science,” and grants the
court “broad latitude not only in determining whether an
expert’s testimony is reliable, but also in deciding how to

66a
Appendix B
determine the testimony’s reliability.” Id. (citing Kumho
Tire Co. v. Carmichael, 526 U.S. 137, 145, 147-49, 152, 119
S. Ct. 1167, 143 L. Ed. 2d 238 (1999)). Evidence should
be excluded as unreliable if it “suffer[s] from serious
methodological flaws.” Obrey v. Johnson, 400 F.3d 691,
696 (9th Cir. 2005).
The relevance prong looks to whether the evidence
“fits” the issues to be decided: “scientific validity for one
purpose is not necessarily scientific validity for other,
unrelated purposes,” and “[e]xpert testimony which
does not relate to any issue in the case is not relevant.”
Daubert, 509 U.S. at 591. “Where an ‘expert report’
amounts to written advocacy . . . akin to a supplemental
brief, a motion to strike is appropriate because this
evidence is not useful . . . .” Williams v. Lockheed Martin
Corp., No. 09CV1669 WQH (POR), 2011 U.S. Dist. LEXIS
58716, 2011 WL 2200631, at *15 (S.D. Cal. June 2, 2011)
(citation omitted; first ellipsis in original). Moreover, “an
expert witness cannot give an opinion as to her legal
conclusion, i.e., an opinion on an ultimate issue of law[;
. . .] instructing the jury as to the applicable law is the
distinct and exclusive province of the court.” Hangarter v.
Provident Life & Acc. Ins. Co., 373 F.3d 998, 1016 (9th Cir.
2004) (citations and internal quotation marks omitted). An
expert nevertheless may, in appropriate circumstances,
rely on his understanding of the law and refer to the law
in expressing an opinion regarding professional norms.
Id. at 1016-17.
The County moves to exclude the opinions of
Plaintiffs’ expert Robert Boruchowitz, arguing that his

67a
Appendix B
testimony only “fits” the case if it corresponds to harms
that actually befell Farrow and Wade, and faulting
Boruchowitz for failing to review evidence regarding
the particular prosecutions at issue in this case. Because
hindsight is generally inappropriate in assessing potential
for prejudice, the Court agrees with Plaintiffs that
Boruchowitz had no need to review evidence pertaining
to proceedings after Plaintiffs’ second court appearances,
such as the timing of work by investigator Ringgenberg
and evidence later available or unavailable. On the other
hand, to the extent that the Court’s analysis focuses
on the particular circumstances of Wade and Farrow’s
prosecutions, Boruchowitz’s failure to discuss those
circumstances in any detail renders his opinions unsuited
for that analysis.
To the extent that the Court looks more generally
to whether the County’s former policy violated the Sixth
Amendment rights of criminal defendants as a class,
Boruchowitz’s expertise and experience qualifies him
to identify risks associated with delayed appointment
of counsel, and his statements identifying such risks
are admissible expert opinion. The County’s motion is
DENIED as to those portions of Boruchowitz’s report.
But while those ill effects support a conclusion that
delay is bad, it is less clear whether they can support a
conclusion that a particular period of delay is or is not
reasonable. Boruchowitz’s ultimate conclusion—that “it
is not reasonable to wait to appoint counsel for five to
thirteen days after the first court appearance”—is not
based on any discernable framework for determining
reasonableness. See Boruchowitz Report ¶ 49. Along the

68a
Appendix B
same lines, Boruchowitz’s “opinion that it is critical to
have counsel begin work on the case of an accused person
as soon as possible,” id., only raises the question of when
appointment is “possible.” Taken literally, and devoting
unlimited resources, it would likely be possible to appoint
counsel for every defendant the moment that the right to
counsel attached, but as discussed below, a rule requiring
appointment at that time would be inconsistent with the
“reasonable time after attachment” standard applicable
here. If Boruchowitz’s opinion is read more liberally as
requiring appointment “as soon as [reasonably] possible,”
see id., it only begs the original question of what delay is
reasonable. The County’s motion to exclude these opinions
on the ultimate question at issue is GRANTED.
Boruchowitz’s opinions regarding section 27706
consist solely of legal analysis “akin to a supplemental
brief” and thus do not constitute admissible opinion
evidence. See Williams, 2011 U.S. Dist. LEXIS 58716,
2011 WL 2200631, at *15; see also Hangarter, 373 F.3d
at 1016. The County’s motion is GRANTED to exclude
those opinions as evidence. Because, as discussed
below, the Court declines to exercise jurisdiction over
Plaintiffs’ claim under that statute, the Court need not
decide whether it would be more appropriate to consider
Boruchowitz’s analysis of section 27706 as supplemental
argument or to disregard it entirely.
The Court also excludes and disregards the portions
of Boruchowitz’s report addressing case law interpreting
the Sixth Amendment. See, e.g., Boruchowitz Report
¶¶ 46-48 (block-quoting case law from the United States

69a
Appendix B
Supreme Court and an 1883 decision of a New York state
court). If Plaintiffs wanted Boruchowitz to present legal
arguments, they could have retained him as counsel rather
than as an expert, or requested that he file an amicus
brief on behalf of himself or one of the indigent defense
organizations with which he works. Such arguments fall
outside of Boruchowitz’s role as an expert witness.
This order assumes for the sake of argument that
all of the other evidence to which the County objects is
admissible. The Court agrees with the County, however,
that statements by Lipetzky do not constitute binding
judicial admissions on behalf of the County, nor are her
or any other witness’s personal opinions as to what the
Sixth Amendment requires in this context relevant to the
Court’s interpretation of the law.
B. Legal Standard for Summary Judgment Under
Rule 56
Summar y judg ment on a claim or defense is
appropriate “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a). In
order to prevail, a party moving for summary judgment
must show the absence of a genuine issue of material fact
with respect to an essential element of the non-moving
party’s claim, or to a defense on which the non-moving
party will bear the burden of persuasion at trial. Celotex
Corp. v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548, 91 L.
Ed. 2d 265 (1986).

70a
Appendix B
Once the movant has made this showing, the burden
then shifts to the party opposing summary judgment to
designate “‘specific facts showing there is a genuine issue
for trial.’” Id. (citation omitted); see also Fed. R. Civ. P. 56(c)
(1) (“A party asserting that a fact . . . is genuinely disputed
must support the assertion by . . . citing to particular parts
of materials in the record . . . .”). “[T]he inquiry involved in
a ruling on a motion for summary judgment . . . implicates
the substantive evidentiary standard of proof that would
apply at the trial on the merits.” Anderson v. Liberty
Lobby Inc., 477 U.S. 242, 252, 106 S. Ct. 2505, 91 L. Ed.
2d 202 (1986). The non-moving party has the burden of
identifying, with reasonable particularity, the evidence
that precludes summary judgment. Keenan v. Allan, 91
F.3d 1275, 1279 (9th Cir. 1996). Thus, it is not the task of
the court to scour the record in search of a genuine issue
of triable fact. Id.; see Carmen v. S.F. Unified Sch. Dist.,
237 F.3d 1026, 1031 (9th Cir. 2001); Fed. R. Civ. P. 56(c)(3).
A party need not present evidence to support or
oppose a motion for summary judgment in a form that
would be admissible at trial, but the contents of the
parties’ evidence must be amenable to presentation in an
admissible form. See Fraser v. Goodale, 342 F.3d 1032,
1036-37 (9th Cir. 2003). Neither conclusory, speculative
testimony in affidavits nor arguments in moving papers
are sufficient to raise genuine issues of fact and defeat
summary judgment. Thornhill Publ’g Co., Inc. v. GTE
Corp., 594 F.2d 730, 738 (9th Cir. 1979). On summary
judgment, the court draws all reasonable factual
inferences in favor of the non-movant, Scott v. Harris, 550
U.S. 372, 378, 127 S. Ct. 1769, 167 L. Ed. 2d 686 (2007),

71a
Appendix B
but where a rational trier of fact could not find for the
non-moving party based on the record as a whole, there
is no “genuine issue for trial” and summary judgment is
appropriate. Matsushita Elec. Indus. Co. v. Zenith Radio,
475 U.S. 574, 587, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986).
C.

Plaintiffs’ Claim Under § 1983 and the Sixth
Amendment

Both parties seek summary judgment on Plaintiffs’
claim under 42 U.S.C. § 1983 that the County failed to
honor their right to counsel under the Sixth Amendment of
the United States Constitution. The parties agree that the
Ninth Circuit’s Oviatt decision describes the appropriate
framework for a claim for failure to act to preserve
a constitutional right. That case held that a plaintiff
bringing such a claim under § 1983 “must establish: (1)
that he possessed a constitutional right of which he was
deprived; (2) that the municipality had a policy; (3) that this
policy ‘amounts to deliberate indifference’ to the plaintiff’s
constitutional right; and (4) that the policy is the ‘moving
force behind the constitutional violation.’” Oviatt, 954
F.2d at 1474 (quoting City of Canton v. Harris, 489 U.S.
378, 389-91, 109 S. Ct. 1197, 103 L. Ed. 2d 412 (1989)). The
analysis here both begins and ends with the first element:
whether Plaintiffs were deprived of a constitutional right.
1. The Sixth Amendment and Rothgery
The Sixth Amendment provides in relevant part that
in “all criminal prosecutions, the accused shall enjoy the
right . . . to have the Assistance of Counsel for his defence.”

72a
Appendix B
U.S. Const. amend. VI. The Supreme Court addressed
“attachment” of the right to counsel in Rothgery as follows:
The Sixth Amendment right of the “accused”
to assistance of counsel in “all criminal
prosecutions” is limited by its terms: “it does
not attach until a prosecution is commenced.”
McNeil v. Wisconsin, 501 U.S. 171, 175, 111 S. Ct.
2204, 115 L. Ed. 2d 158 (1991); see also Moran
v. Burbine, 475 U.S. 412, 430, 106 S. Ct. 1135,
89 L. Ed. 2d 410 (1986). We have, for purposes
of the right to counsel, pegged commencement
to “‘the initiation of adversary judicial criminal
proceedings—whether by way of formal charge,
preliminary hearing, indictment, information,
or arraignment,’” United States v. Gouveia,
467 U.S. 180, 188, 104 S. Ct. 2292, 81 L. Ed.
2d 146 (1984) (quoting Kirby v. Illinois, 406
U.S. 682, 689, 92 S. Ct. 1877, 32 L. Ed. 2d
411 (1972) (plurality opinion)). The rule is not
“mere formalism,” but a recognition of the
point at which “the government has committed
itself to prosecute,” “the adverse positions of
government and defendant have solidified,”
and the accused “finds himself faced with the
prosecutorial forces of organized society, and
immersed in the intricacies of substantive and
procedural criminal law.” Kirby, supra, at 689.
Rothgery, 554 U.S. at 198. The Court went on to hold in
that case that “a criminal defendant’s initial appearance
before a judicial officer, where he learns the charge

73a
Appendix B
against him and his liberty is subject to restriction, marks
the start of adversary judicial proceedings that trigger
attachment of the Sixth Amendment right to counsel,”
reversing a decision by the Fifth Circuit that the right
had not attached because no prosecutor was aware of or
involved with the plaintiff’s first court appearance. Id. at
213.
Formally, the Supreme Court resolved only the
question of whether the right had attached, and declined
to “decide whether the 6-month delay in appointment
of counsel resulted in prejudice to Rothgery’s Sixth
Amendment rights” or “what standards should apply
in deciding this.” Id. The Court hinted at the answer to
that question, however, by stating that “counsel must be
appointed within a reasonable time after attachment to
allow for adequate representation at any critical stage
before trial, as well as at trial itself.” Id. at 212.
2. Legal Standard for Unreasonable Delay
As noted above, the Ninth Circuit instructed this
Court to consider the question of whether the County
provided counsel w ithin a reasonable time after
attachment as stated in Rothgery, which does not require
Plaintiffs to show “actual prejudice.” Farrow, 637 F.
App’x at 988-89. Plaintiffs’ surviving Sixth Amendment
claim is limited to that issue. See Apr. 2017 Order at 2127. With the exception of one district court that used a
standard of actual prejudice inconsistent with the Ninth
Circuit’s instructions here, this Court is not aware of
any decision articulating a standard by which to evaluate

74a
Appendix B
reasonableness of delay. See id. at 26 (discussing Grogen
v. Gautreaux, No. 12-0039-BAJ-DLD, 2012 U.S. Dist.
LEXIS 120411, at *9-11 (M.D. La. July 11, 2012), report
and recommendation adopted, 2012 U.S. Dist LEXIS
120404 (M.D. La. Aug. 24, 2012)).
The language that the Supreme Court and Ninth
Circuit used to describe the requirement for timely
appointment rules out possibilities of how to apply the
standard that fall at both extremes of the potential
significance of attachment. First, and contrary to
Plaintiffs’ arguments and their expert’s personal view
of the right to counsel, Rothgery cannot be understood
as requiring counsel to be appointed at an indigent
defendant’s first court appearance, because the decision
specifically provides for “a reasonable time af ter
attachment,” and also holds that the right attaches at
such an appearance. 554 U.S. at 212-13 (emphasis added).
Thus, except where a defendant’s first appearance is
itself a critical stage requiring representation, or arises
after such a critical stage, at least some time between
the first appearance and the appointment of counsel is
constitutionally permissible. Second, and contrary to the
County’s arguments here, the majority opinion’s framing
of the issue as “a reasonable time after attachment,” rather
than “before a critical stage,” precludes a framework that
looks only to the timing of appointment with respect to
upcoming criminal stages. See id. (emphasis added); cf.
id. at 218 (Alito, J., concurring) (“Texas counties need
only appoint counsel as far in advance of trial, and as far
in advance of any pretrial ‘critical stage,’ as necessary
to guarantee effective assistance at trial.”). Although

75a
Appendix B
the majority opinion’s phrasing explicitly recognizes
the importance of adequate representation at critical
stages, it also requires some evaluation of whether the
period of time between attachment and appointment is
reasonable. Both of these conclusions are bolstered by
the Ninth Circuit’s instruction for this Court to consider
“how soon after the Sixth Amendment right attaches
must counsel be appointed, . . . at what point does delay
become constitutionally significant,” and “whether the
delay in appointing counsel was unreasonable.” Farrow,
637 F. App’x at 988 (emphasis added).15

15. Affording due respect to, on one hand, Justice Alito, and on
the other, Professor Boruchowitz, the majority opinion’s “reasonable
time after attachment” language could be understood as dicta in
light of the Court’s statement that its “narrow” holding was limited
to the issue of whether the right had attached and that the Court
therefore had “no occasion to consider what standards should apply
in deciding” whether a delay in appointment of counsel actually
violated the Sixth Amendment. Rothgery, 554 U.S. at 213. Outside
of the context of this case, one could perhaps reasonably argue that
the language on which this order focuses is not binding, and either
that the time between attachment and appointment of counsel is not
in itself significant (and the appropriate metric is instead solely the
time between appointment and a critical stage) or that appointment
is required at the time of attachment. Taking into account the Ninth
Circuit’s instructions remanding this case, however, this Court has
no occasion to reconsider whether the phrase at issue in Rothgery
would in itself constitute binding precedent. See Farrow, 637 F. App’x
at 988 (stating that the “remaining question is whether Lipetzky
appointed counsel within a ‘reasonable time after attachment to allow
for adequate representation at any critical stage before trial, as well
as at trial itself,’” and instructing this Court to consider Plaintiffs’
claim in that context).

76a
Appendix B
In its previous order, this Court indicated that it would
look to “the totality of the circumstances” to determine
whether delay in providing counsel was constitutionally
unreasonable, taking into account “the time needed to
prepare for an upcoming critical stage,” but not limiting
the analysis to that factor. Apr. 2017 Order at 27. The Court
is not persuaded that any alteration of that framework is
warranted.
3. Plaintiffs Have Not Presented Evidence Sufficient
to Establish a Violation Based on a Facially
Unconstitutional Policy or Deliberate Indifference
Plaintiffs argue that the Court need not and should not
consider the particular circumstances of their individual
experiences to find a violation of their rights under the
Sixth Amendment based on the County’s policy of failing
to provide counsel at criminal defendants’ first court
appearances. The record presented here does not support
such a finding.
As a starting point, the Court declines to accept
Plaintiffs’ invitation to set a per se rule as to how much
time after attachment is presumptively reasonable.
See Pls.’ Reply at 19-20 (asking the Court to hold
that “arrangements for provision of counsel should
[presumptively] occur within 48 hours of arrest, and that
counsel should [presumptively] be provided at the first
court appearance”). Plaintiffs cite no authority for the
proposal that “arrangements for provision of counsel”
must begin before the right to counsel attaches. As
previously discussed and as determined by the court of

77a
Appendix B
appeals, the right to counsel only attached at Wade and
Farrow’s first appearances. Moreover, as discussed above,
the Court construes Rothgery as foreclosing a rule that
counsel must be provided at the first appearance under the
circumstances presented here. Finally, the record in this
case is not amenable to crafting the kind of rule Plaintiffs
seek. It is true that courts have, in some circumstances,
fashioned rules to protect constitutional rights that
incorporate clear time periods. See, e.g., McLaughlin,
500 U.S. at 56-57 (establishing a presumptive time limit
of forty-eight hours for probable cause determinations
after warrantless arrests). If Plaintiffs wish for this
Court to derive from the “reasonable time” standard
endorsed by the Supreme Court and Ninth Circuit a hard
rule that, under the Sixth Amendment, counsel must
always be appointed within a fixed amount of time after
attachment—or that some fixed period is presumptively
reasonable or unreasonable absent a showing to the
contrary—they have not presented the sort of evidence
that would allow the Court to do so. Derived from the
federal Constitution, such a rule would presumably apply
nationwide, in jurisdictions with a wide range of resources,
caseloads, and current practices.
Boruchowitz’s report, to the extent that it complies
with Daubert, identifies a number of ways that delay
in appointing counsel can potentially harm an indigent
defendant. That there is some risk of such harm is not
controversial—the Supreme Court recognized as much in
Rothgery: “a defendant subject to accusation after initial
appearance is headed for trial and needs to get a lawyer
working, whether to attempt to avoid that trial or to be

78a
Appendix B
ready with a defense when the trial date arrives.” 554 U.S.
at 210. For the most part, Boruchowitz does not tie the
risks that he identifies to a particular period of delay, and
Coker focuses his opinions on the particular circumstances
of Plaintiffs’ cases rather than considerations affecting
a typical case. The evidentiary record before the Court
therefore provides no basis to determine how much time
a generic, competent public defender’s office (or other
system for appointing counsel) would need to provide
a defendant with an attorney—or in other words how
much delay is reasonable, and thus tolerable, under the
Constitution in a typical case.
The record that Plaintiffs have presented also does
not show that the Public Defender’s Office employed an
inherently unconstitutional policy in delaying appointment
of counsel.
With the possible exception of the 1984 letter
regarding arrangements at a particular courthouse
where neither Farrow nor Wade appeared—a letter of
which Lipetzky was not aware before this litigation, and
for which there is no evidence that those arrangements
continued in force even at that courthouse through the
time of Plaintiffs’ prosecutions—Plaintiffs cite no evidence
of a policy to withhold representation for any particular
period of multiple days. While there is some evidence
regarding typical periods between court appearances, the
only evidence cited regarding the timing of representation
indicates that the Public Defender’s Office received
referrals from the court “sometime between” the two
court dates, Baker Decl. Ex. D (Lipetzky Dep.) at 44:21-23,

79a
Appendix B
or as stated in Lipetzky’s declaration, the next business
day after the first appearance, Lipetzky Decl. ¶ 3, and
defendants waited “up to”—i.e., at most—“two weeks in
custody . . . to be represented by an attorney,” Martin
Decl. Ex. 1 (Lipetzky Dep.) at 030, 64:2-12. The record
also indicates that the Public Defender’s Office initiated
contact with criminal defendants before the second court
appearance. Martin Decl. Ex. 1 at 037 (excerpt from the
Public Defender’s Office website stating that “a paralegal,
law clerk or attorney” would interview defendants in
custody “before the next court date”); see also Baker
Decl. Ex. C (Requests for Admissions) ¶ 7 (indicating
that a staff member met with Farrow the next business
day after his first court appearance, which was nine days
before his second appearance); Lipetzky Decl. ¶ 6 (same).
Plaintiffs cite no evidence that, as a matter of course,
the County “appoint[ed] counsel five to thirteen days and
‘sometimes longer’ after the right attaches.” Cf. Farrow,
637 F. App’x at 988-89 (instructing this Court to consider
at the pleading stage whether Plaintiffs’ allegation that the
County utilized such a test stated a claim for unreasonable
delay under Rothgery). Aside from their own individual
experiences, Plaintiffs have not presented evidence that
such a policy exists, and cannot prevail on the basis that a
hypothetical policy would violate the Sixth Amendment.16
16. Even if Plaintiffs had established the existence of such a
policy, the record is not conducive to determining its reasonableness,
for much the same reasons that, as discussed above, this record
would not allow the Court to develop a per se rule of how much time
is permissible. The lack of evidence regarding broad topics like, for
example, logistical challenges to appointing counsel, processes for

80a
Appendix B
The only policy actually supported by the record is
that counsel was provided “sometime between” the first
court appearance and the second court appearance. See
Baker Decl. Ex. D (Lipetzky Dep.) at 44:21-23. Such a
policy—i.e., appointing counsel between attachment of
the right and the first critical stage—does not inherently
violate Rothgery’s requirement that counsel be appointed
“within a reasonable time after attachment to allow for
adequate representation at any critical stage.” See 554
U.S. at 212.
Plaintiffs also contend that the County used a policy
that allowed for arbitrary periods of delay in appointment
of counsel, and that this policy of indifference—rather
than, as addressed above, a policy of a particular length
of delay—itself violated Plaintiffs’ Sixth Amendment right
to counsel, regardless of the delay (or lack thereof) that
Plaintiffs themselves experienced. See Pls’ MSJ at 18-20.
In making that argument, Plaintiffs implicitly disregard
the first element of the Oviatt test—that Plaintiffs were
deprived of a right—by assuming that demonstrating
a policy of indifference to the right to timely provision
of counsel would in itself suffice to show that they were
deprived of a constitutional right.
Plaintiffs rely on cases considering the right to
due process, citing Oviatt’s examination of whether a
jail had sufficient internal procedure to track whether
resolving conflicts and caseload constraints, and accepted practices
and timelines in other jurisdictions would still leave the finder of fact
without sufficient facts to justify a conclusion that the policy, on its
face, was constitutionally unreasonable.

81a
Appendix B
inmates’ liberty interests established by Oregon law were
sufficiently protected, and the Supreme Court’s decision in
Carey v. Piphus, 435 U.S. 247, 98 S. Ct. 1042, 55 L. Ed. 2d
252 (1978), which held that even students whose suspensions
were justified and who suffered no other actual injury
were deprived of their procedural due process rights as
a result of constitutionally defective procedures and thus
entitled to nominal damages. See Carey, 435 U.S. at 266;
Oviatt, 954 F.2d at 1473-76; Pls.’ Mot. at 19-20 (citing
Carey); Pls.’ Opp’n to MSJ at 11-12 (discussing Oviatt).
In those cases, however, the defendants’ indifference, lack
of safeguards, or defective procedures were themselves
components of the deprivation of a right because the
right at issue was a right to process. Here, the Plaintiffs’
surviving constitutional claim is for the right to counsel,
and specifically the right to appointment of counsel within
a reasonable time after attachment. See Farrow, 637 F.
App’x at 987 (affirming dismissal of Plaintiffs’ due process
claims); Apr. 2017 Order at 27-28 (allowing Plaintiffs’
Rothgery Sixth Amendment claim to proceed). Plaintiffs
have not presented authority for the proposition that a
criminal defendant who is in fact provided counsel within
a reasonable period of time after attachment nevertheless
suffers a deprivation under the Sixth Amendment if the
process by which counsel is provided lacks safeguards to
ensure timeliness.17
17. Even if this case included a due process claim, which in its
present form it does not, it is not at all clear that the Due Process
Clause would govern the process by which counsel is appointed. The
Fourteenth Amendment provides that a state may not “deprive any
person of life, liberty, or property without due process of law.” U.S.
Const. amend. XIV. While indigent criminal defendants certainly

82a
Appendix B
Accordingly, on the record before the Court, Plaintiffs
cannot prevail based on a per se rule of when counsel
should be appointed, a theory of systemic deficiency
based on a generally applicable policy of delay, or a theory
that deliberate inaction or indifference itself violates the
Sixth Amendment without need to consider the specific
circumstances of Plaintiffs’ own appointment of counsel.
4. Plaintiffs’ Individual Experiences
Without establishing a per se rule of how long a delay
is permissible or showing that the County subjected
Plaintiffs to an inherently impermissible policy, Plaintiffs
could of course still prevail by showing that the particular
delays that they each experienced were constitutionally
unreasonable under the totality of the circumstances, see
Apr. 2017 Order at 27, and that the County is liable under
Monell and Oviatt for its deliberate failure to prevent such
unreasonable delays. To meet Oviatt’s first element of
deprivation of a constitutional right, Plaintiffs must show
that the County in fact did not provide them with counsel
within a reasonable time after attachment.
That is not to say, however, that the County can rely on
circumstances after counsel was appointed to show, post
have a right under the Sixth Amendment to timely appointment of
counsel, Plaintiffs have not argued that indigent defendants have
a liberty or property interest in timely appointment such that an
inadequate procedure in determining the time of appointment would
effect a constitutional deprivation in itself under the Due Process
Clause, even if counsel was timely appointed within the meaning of
the Sixth Amendment.

83a
Appendix B
hoc, that the time of appointment was reasonable because
it did not actually affect Plaintiffs’ ability to defend
themselves in the criminal proceedings against them.
Although Rothgery’s “reasonable time after attachment”
requirement has not yet been subject to significant analysis
in the courts, the concept of reasonableness more generally
is a familiar one, and does not generally include the benefit
of hindsight. See, e.g., Premo v. Moore, 562 U.S. 115, 132,
131 S. Ct. 733, 178 L. Ed. 2d 649 (2011) (considering the
reasonableness of counsel’s conduct in the context of a
Strickland ineffective assistance claim, and holding that
“hindsight cannot suffice for relief when counsel’s choices
were reasonable and legitimate based on predictions of
how the trial would proceed”); Graham v. Connor, 490
U.S. 386, 396, 109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989)
(holding in the context of the Fourth Amendment that
the “‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight”);
Zebley v. Heartland Indus. of Dawson, Inc., 625 F.3d
449, 457-58 (8th Cir. 2010) (holding that a district court
correctly stated the standard for negligence under North
Dakota law when it instructed jurors that they should
not consider hindsight in determining how a reasonable
person exercising ordinary care would have behaved).
Moreover, to engage in post hoc analysis of how the delay
affected Farrow and Wade would run afoul of the Ninth
Circuit’s admonition that Plaintiffs need not show actual
prejudice. In the context of Rothgery, the appropriate
test is therefore whether counsel was provided within
a period of time after attachment that was reasonable
under the circumstances of a defendant’s case, as such

84a
Appendix B
circumstances were apparent at the time of attachment
and during the intervening period before counsel was
provided. The Court declines to consider developments
in Plaintiffs’ cases that occurred, or circumstances that
only became clear, after Martin was assigned and agreed
to represent them.
There is some dispute as to whether it is appropriate
to take into account considerations that are not directly
related to the fairness of the criminal trial, such as the
potential effects of confinement on a criminal defendant’s
employment or child custody, among other risks identified
in Boruchowitz’s report. The County cites United States
v. Gonzalez-Lopez, 548 U.S. 140, 147, 126 S. Ct. 2557, 165
L. Ed. 2d 409 (2006), for the proposition that the right to
counsel is limited to the purpose of ensuring a fair trial,
and that the only relevant potential for prejudice would
be the potential for an unfair trial. See Reply Re Mot. to
Exclude at 3. The passage on which the County relies,
however, describes “the right to the effective assistance
of counsel,” which the Supreme Court originally derived
from the Due Process Clause and later recognized as
also arising from “the Sixth Amendment’s purpose of
ensuring a fair trial.” Gonzalez-Lopez, 548 U.S. at 146-47
(emphasis added). The Court contrasted that right with
the “right to select counsel of one’s choice,” which “has
been regarded as the root meaning of the constitutional
guarantee,” and which requires no showing of prejudice
to establish a violation of a defendant’s right under the
Sixth Amendment. Id. at 147-148. As discussed in this
Court’s previous order, this Court construes the right
to timely appointment of any counsel as distinct from

85a
Appendix B
the right to effective counsel. See Apr. 2017 Order at 25
(“Moreover, it is not clear that the same standards apply
to a case involving delayed appointment of counsel, like
this case, as would apply to cases involving ineffective
assistance of counsel, as in Strickland and Cronic.”); see
also Hurell-Harring v. State, 15 N.Y.3d 8, 22, 930 N.E.2d
217, 904 N.Y.S.2d 296 (2010) (holding that allegations
that “counsel was simply not provided at critical stages
of the proceedings . . . state[d] a claim, not for ineffective
assistance under Strickland, but for basic denial of the
right to counsel under Gideon”). Because it does not affect
the conclusion that the County is entitled to summary
judgment, the Court assumes for the sake of argument
that considerations aside from the fairness of trial are
relevant to whether counsel was appointed within a
reasonable period of time after attachment
Having addressed the framework to apply and the
sort of considerations that are relevant, the Court turns
to whether the delays that Plaintiffs experienced were
reasonable.
a. Time Allowed to Prepare for a Critical Stage
As a starting point, with respect to the only factor
specifically identified by the Supreme Court in Rothgery,
the time allowed after appointment for counsel to prepare
for upcoming critical stages in Plaintiffs’ cases does not
suggest that the delay was unreasonable. The Ninth Circuit
affirmed this Court’s determination, based on allegations
that do not differ significantly from the evidence in the
record as to this issue, that Plaintiffs’ first appearances

86a
Appendix B
were not critical stages, but that their second appearances
for “further arraignment” were critical stages. Farrow,
637 F. App’x at 988. The question as to this factor, then,
is whether the timing of appointment reasonably allowed
for adequate representation at the second appearances.
See id. (quoting Rothgery, 554 U.S. at 212). Asked how
much time a lawyer needs to prepare for arraignment,
Boruchowitz testified that a lawyer appointed in advance
“should spend a good hour meeting with the client before
you do anything,” and if “appointed right there in the
courtroom, you try to take as much time as the judge will
give you.” Martin Opp’n Decl. Ex. 12 (Boruchowitz Dep.)
at 28:7-16.
Martin was assigned to Farrow’s case one day before
Farrow’s second appearance for arraignment and to
Wade’s case three days before Wade’s second appearance
for arraignment. Baker Decl. Ex. F (Martin Dep.) at 9:2510:6, 31:23-33:5; Martin Supp’l Decl Ex. 4 at 162 & Ex.
5 at 167. That timing allowed for the sort of preparation
that Boruchowitz testified is appropriate, and there is no
other evidence in the record suggesting that more time
would be necessary for an attorney to provide adequate
representation at an arraignment. Moreover, it is difficult
to see how appointment one or more days before a
defendant’s arraignment could be construed as providing
inadequate time to prepare when appointing counsel at a
first appearance that includes arraignment—the process
that Plaintiffs seek to require, which the County has in
large part adopted in the years since this case was filed,
and which is widely used in other jurisdictions—provides
less time for counsel to prepare than was available in

87a
Appendix B
either Plaintiff’s case. There is also no evidence that
Martin believed he had insufficient time to prepare for
Plaintiffs’ second appearances. The factor of sufficient
time to prepare for a critical stage therefore weighs
against finding the delay unreasonable for either Plaintiff.
The next question is whether evidence in the record
pertaining to other relevant factors would nevertheless
require the conclusion that the delay in appointment for
either Plaintiff was unreasonable (as Plaintiffs assert) or
reasonable (as the County asserts) based on the totality
of the circumstances. The Court examines each Plaintiff’s
circumstances separately, beginning with Wade.
b. Other Factors Relevant in Wade’s Case
Wade, one of five codefendants, first appeared in
court on Monday, November 14, 2011, and his right to
counsel therefore attached. Martin Supp’l Decl. Ex. 5
at 165; Lipetzky Decl. ¶ 9. The Public Defender’s Office
determined that it had a conflict three days later on
November 17. Lipetzky Decl. ¶ 9 & Ex. D. The Alternate
Defender’s Office determined that it also had a conflict the
following day, November 18, and the case was referred
to the conflicts panel and assigned to Martin that same
day. Id. ¶ 9 & Ex. E; Baker Decl. Ex. F (Martin Dep.) at
31:23-33:5. Martin began working on the case that day—
four days after Wade’s right to counsel attached. See id.
at 37:16-39:4; Baker Decl. Ex. R.
Coker, an experienced public defender who before
his retirement was in charge of the San Diego County

88a
Appendix B
Public Defender’s Office, states in his report that “the
fact that attorney Martin’s assignment to represent Wade
in this complex and serious five-defendant case occurred
only four days after Wade’s initial court appearance
seems quite reasonable under all these circumstances
and entirely consistent with diligent efforts to arrange
for counsel.” Martin Decl. Ex. 3 at 126 ¶ 16. Although
Bor uchow itz —who is also an exper ienced public
defender—identifies a number of generic risks inherent
in delayed provision of counsel that would tend to weigh
against the reasonableness of any delay, his report and
testimony do not address how much time is reasonable
to resolve conflicts of interest in a case with several
codefendants, and thus do not refute Coker’s opinion
on that issue. See Martin Decl. Ex. 2 at 094-97, 101-04
¶¶ 15.1-15.13, 37-48. Nor is the Court persuaded that
the fact that the County’s more recent practice under
the ACER program (which devotes more resources to
provide counsel at first appearances) calls for resolving
conflicts within “not more than two days,” Lipetzky Decl.
¶ 15, creates a material factual dispute. The possibility of
faster appointment does not contradict Coker’s conclusion
that the four-day conflicts process in Wade’s case was
reasonable. Followed to its logical conclusion, a rule
that reasonableness requires that all possible efforts
and resources must be devoted to minimizing delay in
provision of counsel would essentially require appointment
at all defendants’ first appearances—an outcome that, as
discussed above, is not consistent with the law of the case
or with Rothgery’s allowance of a reasonable delay.

89a
Appendix B
Even assuming for the sake of argument that the delay
in appointing counsel allowed charges to be added against
Wade that would not otherwise have been permitted
without leave of the court, and that the delay affected his
school principal’s recollection of his interrogation to his
detriment, there is no evidence aside from Coker’s opinion
as to how much time is reasonable for a public defender’s
office to resolve conflicts of interest in a case like Wade’s.
Because Coker’s opinion on that issue is undisputed, and
taking into account the fact that there is no evidence that
the delay left counsel with insufficient time to prepare for
a critical stage, no rational finder of fact could conclude
on this record that the four-day delay in Wade’s case
was unreasonable. The County’s motion for summary
judgment is therefore GRANTED as to Wade’s Sixth
Amendment claim, and Plaintiffs’ motion is DENIED as
to that claim.
c. Other Factors Relevant in Farrow’s Case
Farrow’s case presents a closer call, because there is
essentially no evidence in the record explaining a reason
for the longer delay of twelve days between attachment
of his right to counsel and Martin’s assignment to
represent him. The Public Defender’s Office determined
that appointment from the conflicts panel was necessary
in light of its excessive caseload, but neither Coker nor
Boruchowitz addresses the amount of time reasonable to
arrange for such appointment. Coker’s speculation that
the Labor Day holiday weekend might have led to more
criminal cases than usual does not appear to be based
on any evidence, and regardless, does not explain why

90a
Appendix B
appointment of conflict counsel in such circumstances
should take twelve days. See Martin Decl. Ex. 3 at 127 ¶ 18.
The totality of the circumstances, however, is not
limited to merely the length of the delay. In Farrow’s
case, the Public Defender’s Office dispatched a paralegal
to meet with Farrow and inquire about his case on the
next business day after his first court appearance, which,
due to the long weekend, was four calendar days later.
Lipetzky Decl. ¶ 6. The paralegal completed a report of
the interview on a form that included sections for medical
or psychiatric history, bail information or “general
comments,” and case notes “re case progress, problems,
settlement,” among other topics. Lipetzky Decl. Ex. B.
According to Lipetzky, “[n]either the referral packet itself
nor the interview with Mr. Farrow disclosed any urgent
issues pertaining to Mr. Farrow or the charges that had
to be addressed in advance of” the next appearance.
Lipetzky Decl. ¶ 6. Coker’s report states his opinion
that “[t]his interview process would have identified, but
did not, any matter in Farrow’s criminal case requiring
immediate attention.” Martin Decl. Ex. 3 at 127 ¶ 20.
Lipetzky states in her declaration that in cases where
the paralegal interview identified such issues, the Public
Defender’s Office “would take steps to address these
immediate needs.” Lipetzky Decl. ¶ 4.18
18. Plaintiffs assert that there is no evidence that the Public
Defender’s Office actually took such steps. Pls.’ Opp’n to MSJ at
13. Plaintiffs do not, however, identify any evidence contradicting
Lipetzky’s statement, and in the absence of contrary evidence there
is no reason to conclude that Lipetzky’s declaration under penalty of
perjury about the procedure that her office followed is not accurate.

91a
Appendix B
Boruchowitz’s report generally identifies potential
harms that could result from delayed appointment of
counsel because of issues that counsel would recognize
and might redress if appointed sooner. See Martin Decl.
Ex. 2 at 094-97, 101-04 ¶¶ 15.1-15.13, 37-48. Boruchowitz’s
report does not, however, address whether a paralegal
could identify those issues, and thus does not rebut Coker’s
conclusion that the paralegal who interviewed Farrow
would have identified any such issues if they had applied to
Farrow. As for whether the paralegal interview was itself
unreasonably delayed, if the Court accepts the premise
(based on the Supreme Court’s formulation of the rule in
Rothgery) that some delay is permissible, Boruchowitz’s
report does not provide a standard to evaluate how much
delay is reasonable, and Plaintiffs do not identify other
evidence in the record to support a conclusion that meeting
with a defendant on the next business day after attachment
of the right to counsel is unreasonable, particularly where
the next court appearance is not imminent, and where the
Public Defender’s Office generally did not receive referrals
from the Superior Court until that next business day, see
Lipetzky Decl. ¶ 3.
The evidence that the paralegal interview would have
revealed any issues requiring attention before the second
appearance, and that it in fact revealed no such issues, is
uncontroverted. The evidence also shows, as discussed
above, that Martin was appointed with enough time
to prepare for the first critical stage of Farrow’s case.
Taking into account all of the facts and circumstances of
Farrow’s case, no reasonable finder of fact could conclude
on this record that the twelve-day delay in appointing

92a
Appendix B
counsel in that case was constitutionally unreasonable.
The County’s motion for summary judgment is therefore
GRANTED as to Farrow’s Sixth Amendment claim, and
Plaintiffs’ motion for summary judgment is DENIED as
to this claim.
***
Because the Court concludes that a rational finder
of fact could not find on this record that provision of
counsel to Farrow and Wade was unreasonably delayed
for the purpose of the Sixth Amendment, the Court does
not reach the parties’ remaining arguments regarding
the Sixth Amendment claim, including whether Farrow
is collaterally estopped from bringing such a claim
and whether the practices at issue violated the Sixth
Amendment rights of potential class members other than
the current Plaintiffs. Without evidence to support the
conclusion that Plaintiffs’ own Sixth Amendment rights
were violated, Plaintiffs cannot represent a class of other
individuals on their claims that the County’s practices
violated the rights of putative class members. In any
event, the Court does not decide whether the rights of
the non-party putative class members were violated,
as no class has been certified. Although Plaintiffs’ own
Sixth Amendment claims are dismissed with prejudice,
the claims of other members of the putative class are not
before the Court, and this order does not bar any person
other than Wade and Farrow from bringing such a claim.

93a
Appendix B
D.

Plaintiffs’ Claim Under California Government
Code Section 27706

Plaintiffs’ remaining claim under section 27706 of
the California Government Code is a state law claim that
falls within this Court’s subject matter jurisdiction, if
at all, under the doctrine of supplemental jurisdiction
codified by 28 U.S.C. § 1367(a). Under subsection (c) of
that statute, however, a district court “may decline to
exercise supplemental jurisdiction over a claim under
subsection (a) if,” among other reasons, “the claim raises
a novel or complex issue of State law” or “the district
court has dismissed all claims over which it has original
jurisdiction.” Id. § 1367(c). “[I]n the usual case in which all
federal-law claims are eliminated before trial, the balance
of factors to be considered under the [supplemental]
jurisdiction doctrine—judicial economy, convenience,
fairness, and comity—will point toward declining to
exercise jurisdiction over the remaining state-law claims.”
Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 350 n.7,
108 S. Ct. 614, 98 L. Ed. 2d 720 (1988).
This case raises what appear to be novel issues of how
quickly section 27706 requires a public defender to provide
representation upon request or appointment, whether and
how ethical conflicts affect that inquiry, and whether a
referral of a plaintiff’s request for counsel by a court to
a public defender’s office triggers the public defender’s
obligations under section 27706 as either a direct request
by the plaintiff for representation by the public defender
or an appointment of the public defender by the court.
Plaintiffs present no argument in their briefs why this case

94a
Appendix B
warrants a deviation from the usual approach of declining
to exercise state law claims after all federal claims have
been dismissed. The Court therefore GRANTS the
County’s request and dismisses Plaintiffs’ section 27706
for lack of subject matter jurisdiction, without prejudice
to Plaintiffs bringing that claim in a court of competent
jurisdiction.
IV. CONCLUSION
For the reasons discussed above, the Court concludes
that a reasonable finder of fact could not find that the delay
in providing counsel after Plaintiffs’ first appearances in
their criminal cases was constitutionally unreasonable.
To be clear, in reaching this determination, the Court
considers only what conclusions can be drawn from the
record available, and does not purport to hold that a fouror twelve-day delay is presumptively reasonable, or that
an interview by a paralegal before counsel is appointed
can necessarily substitute under the Sixth Amendment for
providing an attorney. Based on the evidence presented
in this case, however, Plaintiff’s motion for summary
judgment is DENIED, the County’s motion for summary
judgment is GRANTED as to Plaintiffs’ claim under 42
U.S.C. § 1983 and the Sixth Amendment, and Plaintiffs’
claim under California Government Code section 27706
is DISMISSED for lack of subject matter jurisdiction,
without prejudice to Plaintiffs bringing that claim in a
court of competent jurisdiction. The Clerk is instructed
to enter judgment accordingly and to close the file.

95a
Appendix B
Because the claims of the putative class are not before
the Court, this order does not bar absent putative class
members from bringing any claim in a separate action.
IT IS SO ORDERED.
Dated: January 2, 2019
/s/ Joseph C. Spero		
JOSEPH C. SPERO
Chief Magistrate Judge

96a
APPENDIX C — Appendix
OPINIONCOF THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA, DATED APRIL 28, 2017
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
Case No. 12-cv-06495-JCS
JOHN FARROW, et al.,
Plaintiffs,
v.
ROBIN LIPETZKY,
Defendant.
April 28, 2017, Decided;
April 28, 2017, Filed
ORDER REGARDING MOTION TO DISMISS
THIRD AMENDED COMPLAINT
Re: Dkt. No. 93
JOSEPH C. SPERO, Chief United States Magistrate
Judge.
I.

INTRODUCTION

In this putative class action under 42 U.S.C. § 1983,
Plaintiffs John Farrow and Jerome Wade allege that

97a
Appendix C
Defendant Robin Lipetzky, in her official capacity as the
Contra Costa County Public Defender, violated Plaintiffs’
Sixth Amendment right to counsel by implementing a
policy of delaying appointment of counsel until several
days after a criminal defendant’s first appearance in court.
Plaintiffs also bring related claims under California law.
The Court twice previously dismissed Plaintiffs’ claims.
After the second dismissal, Plaintiffs appealed to the
Ninth Circuit, which reversed this Court’s holding as
to certain aspects of Plaintiffs’ claim under the Sixth
Amendment, and remanded for this Court to consider
whether Plaintiffs have adequately alleged that Lipetzky
failed to provide counsel within a reasonable time after
attachment of the right.
Lipetzky moves to dismiss once again. Among other
arguments, she raises for the first time the question of
whether Plaintiffs’ claims are barred by the doctrine of
Heck v. Humphrey, 512 U.S. 477, 114 S. Ct. 2364, 129 L.
Ed. 2d 383 (1994). The Court held a hearing on January 20,
2017. For the reasons discussed below, Lipetzky’s motion
is GRANTED in part and DENIED in part.1

1. The parties have consented to the jurisdiction of the
undersigned magistrate judge for all purposes pursuant to 28 U.S.C.
§ 636(c).

98a
Appendix C
II. BACKGROUND
A.

Plaintiffs’ Allegations and Facts Subject to
Judicial Notice

Plaintiffs allege that Lipetzky implemented a written
policy that “arbitrarily withheld legal representation to
indigent, in-custody criminal defendants for a period
of 5 to 13 days after their initial Court appearance.” 3d
Am. Compl. (“TAC,” dkt. 91) ¶ 1. Under that policy, a
defendant would not receive counsel at his or her first
court appearance, but if a defendant requested counsel
at that appearance and could not afford to pay, the court
would set bail, refer the defendant to the public defender,
and continue the case for a “further arraignment” several
days later. See id. ¶¶ 1-2, 4, 21, 27, 36.
Plaintiff Farrow was arrested on August 30, 2011,
based on allegations that he had assaulted his domestic
partner. Id. ¶¶ 25, 31. He first appeared in court on
September 2, 2011, at which time the judge asked if he
could afford counsel and would like the court to appoint
counsel. Id. ¶¶ 26-27. Farrow replied that he could not
afford counsel and would like appointed counsel, and
the judge “set bail, ‘referred the matter to the Public
Defender,’ and continued the matter to September 15, 2011
for ‘further arraignment.’” Id. ¶ 27. The judge also asked
the probation department to prepare a bail study, which
was prepared during the period between the two court
appearances and included only information unfavorable
to Farrow because, without counsel, there was no way for
him to provide mitigating information such as his ties to

99a
Appendix C
the community or employment status. Id. ¶ 28. The judge
did not advise Farrow of his right to enter a plea at the
first appearance, and Farrow remained in jail for the next
thirteen days. Id. ¶ 27.
Farrow was appointed counsel and entered a plea at
his second appearance on September 15, 2011, which was
sixteen days after his arrest and thirteen days after his
first appearance. Id. ¶ 29. According to Plaintiffs, the delay
in Farrow obtaining counsel “might have” contributed
to his investigator’s failure to locate witnesses whose
testimony could have implicated the credibility of the
complaining witness (Farrow’s domestic partner) and thus
“would have had an enormous impact on plea negotiations
and may have resulted in acquittal had the matter gone
to trial.” Id. ¶ 31. Farrow pled guilty to one count against
him on December 1, 2011. Def.’s Req. for Judicial Notice
(“RJN,” dkt. 94) Ex. A.
Plaintiff Wade, then seventeen years old, was arrested
at his high school on November 8, 2011 for his alleged
involvement in a convenience store robbery. TAC ¶¶ 32,
43. Wade first appeared without counsel on November 14,
2011. Id. ¶ 33.2 A country prosecutor also appeared in court
that day, which Plaintiffs contend made the appearance
“an adversarial encounter.” Id. ¶ 35. The judge set bail and
asked Wade whether he could afford counsel and whether
he would like counsel appointed. Id. ¶ 36. Wade responded
that he could not afford counsel and would like appointed
2. Plaintiffs allege that Wade was held illegally for four days
before his first appearance, but do not argue that that detention is
relevant to Wade’s claims against Lipetzky. See TAC ¶ 34.

100a
Appendix C
counsel, and the judge “‘referred the matter to the Public
Defender,’ and continued the matter to November 21 for
‘further arraignment.’” Id. The judge did not advise Wade
of “his right to enter a plea, his right to bail, his right to
prompt arraignment or his right to a speedy preliminary
hearing and trial.” Id. As in the case of Farrow, the judge
also referred the matter to the probation department for
a bail study, which did not include information favorable
to Wade because he did not have counsel. Id. ¶ 37. Wade
remained in jail for seven days. Id. ¶ 36.
During the period between Wade’s first and second
court appearances, the police and district attorney
continued their investigation of his case. Id. ¶ 39. On
November 18, 2011, the district attorney filed an amended
complaint adding new charges and significantly increasing
Wade’s exposure. Id. ¶ 40. The district attorney was able
to do so without leave of the court because Wade had not
yet entered a plea. Id.
Wade was appointed counsel at his second court
appearance on November 21, 2011. Id. ¶ 41. Later, his
investigator interviewed his high school principal, who
had been present when the police interrogated Wade. Id.
¶ 42. The principal could not remember when Wade was
given Miranda warnings or whether he had been wearing
a sweatshirt that connected him to the robbery. Id. ¶¶ 42,
43. Plaintiffs allege that the principal “likely” would have
remembered what Wade was wearing if she had been
interviewed sooner, and suggest (but do not specifically
allege) that her memory of the Miranda warnings would
have been clearer as well. See id. Wade pled guilty to three
counts on December 6, 2012. RJN Ex. B.

101a
Appendix C
Plaintiffs characterize their claims as “a facial
challenge to the constitutionality of Defendant’s
written policy of arbitrarily withholding counsel for an
unreasonable period of time,” and seek to represent a
class consisting of all persons who “were subjected to the
deprivation of counsel at their first court appearance and
were forced to continue their cases for 5 days or more for
appointment of counsel, pursuant to the Public Defender’s
written Policy,” from December 21, 2010 through the
resolution of this action. TAC ¶¶ 45-48.
The Third Amended Complaint includes three claims:
(1) a claim under 42 U.S.C. § 1983 for violation of Plaintiffs’
Sixth Amendment right to counsel, TAC ¶¶ 56-58; (2) a
claim under the Bane Act, sections 52 and 52.1 of the
California Civil Code, for violation of Plaintiffs’ civil rights,
TAC ¶¶ 59-60; and (3) and a claim under sections 1085
and 1086 of the California Code of Civil Procedure for a
writ of mandate to enforce section 27706 of the California
Government Code, which requires public defenders
to represent criminal defendants “at all stages of the
proceedings,” TAC ¶¶ 61-63.
Although the Third Amended Complaint includes
allegations that Lipetzky’s policy sometimes resulted in
delays in appointing counsel longer than thirteen days,
Plaintiffs have stipulated that the Court may disregard
that allegation for the purpose of Lipetzky’s motion to
dismiss. See Case Mgmt. Statement (dkt. 87) at 4.

102a
Appendix C
B. Procedural History
1.

May 2013 Order

Plaintiffs’ original complaint included six claims: (1)
violation of Plaintiffs’ right to counsel under the Sixth
Amendment; (2) violation of Plaintiffs’ right to a speedy
trial under substantive due process protections of the
Fourteenth Amendment; (3) violation of Plaintiffs’ right
to a speedy trial under procedural due process protections
of the Fourteenth Amendment; (4) violation of Plaintiffs’
procedural due process rights under the Fourteenth
Amendment with respect to the timing of Plaintiffs’ bail
hearings; (5) violation of California Civil Code sections 52
and 52.1; and (6) a claim for a writ of mandate to enforce
California Government Code section 27706. See Order
Granting Def.’s Mot. to Dismiss Compl. (“May 2013 Order,”
dkt. 47) at 5-6. 3
The Court held that Plaintiffs’ right to counsel
attached at their first court appearances, but that neither
that appearance nor the waiting period before the second
appearance was a “critical stage” at which counsel was
required. Id. at 14-20. The Court also held that the delay in
appointing counsel between the time of attachment and the
second appearance—which, unlike the first, was a critical
stage—did not violate the Supreme Court’s instruction
that counsel must be provided within a reasonable time
after attachment, because the delay was shorter than
3. Farrow v. Lipetzky, No. 12-cv-06495-JCS, 2013 U.S. Dist.
LEXIS 65824, 2013 WL 1915700 (N.D. Cal. May 8, 2013) .

103a
Appendix C
in other district court cases that found no violation, and
because Plaintiffs did not adequately allege that they were
prejudiced by the delay. Id. at 20-22 (citing Rothgery v.
Gillespie County, 554 U.S. 191, 128 S. Ct. 2578, 171 L. Ed.
2d 366 (2008)). The Court therefore dismissed Plaintiffs’
Sixth Amendment claim with leave to amend. Id. The
Court also dismissed Plaintiffs’ other federal claims with
leave to amend, for reasons that are not relevant to the
present motion because Plaintiffs have not renewed those
claims. Id. at 23-31. With no federal claims remaining, the
Court declined to exercise supplemental jurisdiction over
Plaintiffs’ state law claims. Id. at 31-32.
2.

August 2013 Order

After the Court dismissed the initial complaint,
Plaintiffs amended their complaint twice, and Lipetzky
moved to dismiss the second amended complaint. See
generally Order Granting Def.’s Mot. to Dismiss 2d Am.
Compl. (“Aug. 2013 Order,” dkt. 69).4 The Court granted
that motion and dismissed all claims, although it allowed
Wade leave to amend his Sixth Amendment claim. Id. at
1-2.
With respect to the Sixth Amendment claim, the
Court reaffirmed its previous holdings that neither the
first appearance nor the waiting period before the second
appearance was a critical stage at which Plaintiffs were
entitled to counsel, but the second appearance was. Id. at
4. Farrow v. Lipetzky, No. 12-cv-06495-JCS, 2013 U.S. Dist.
LEXIS 111493, 2013 WL 4042276 (N.D. Cal. Aug. 7, 2013), rev’d in
part, 637 F. App’x 986 (9th Cir. 2016).

104a
Appendix C
22-26 (citing Lopez-Valenzuela v. County of Maricopa,
719 F.3d 1054 (9th Cir. 2013), subsequently superseded
sub nom. Lopez-Valenzuela v. Arpaio, 770 F.3d 772 (9th
Cir. 2014) (en banc)5). Turning to the question of whether
the challenged policy failed to provide counsel within a
reasonable time after attachment of the right, the Court
held that although Plaintiffs added allegations regarding
the effect of the delay, the allegations did not sufficiently
identify any actual prejudice that Plaintiffs suffered as
a result. Id. at 26-27. Because Plaintiffs came closer to
plausibly alleging prejudice to Wade than to Farrow, the
Court dismissed Wade’s Sixth Amendment claim with
leave to further amend but dismissed Farrow’s claim
with prejudice.
The Court dismissed Plaintiffs’ remaining federal
claims with prejudice, for reasons that are not relevant
to the present motion, and again declined to exercise
supplemental jurisdiction over Plaintiffs’ state law claims.
Id. at 28-35. Wade declined to further amend his Sixth
Amendment claim, and Plaintiffs instead appealed to the
Ninth Circuit.
5. The initial Ninth Circuit panel to hear Lopez-Valenzuela
affirmed the district court’s grant of summary judgment for the
defendants on claims under multiple constitutional theories. See
generally Lopez-Valenzuela v. County of Maricopa, 719 F.3d
1054. This Court’s August 2013 Order relied on that panel’s Sixth
Amendment holding. Later, an en banc panel reached a different
outcome, reversing the holding as to substantive due process and
finding the Arizona laws at issue facially invalid on that basis, but
declined to address the plaintiffs’ Sixth Amendment claims. See
Lopez-Valenzuela v. Arpaio, 770 F.3d at 791-92.

105a
Appendix C
3.

Ninth Circuit Decision and Subsequent
Proceedings

The Ninth Circuit affirmed this Court’s dismissal
of Plaintiffs’ due process and equal protection claims.
Farrow v. Lipetzky, 637 F. App’x 986, 987-88 (9th Cir.
2016) (dkt. 81), cert. denied, 137 S. Ct. 82, 196 L. Ed. 2d
36 (2016). As for Plaintiffs’ Sixth Amendment claims,
the panel affirmed this Court’s conclusion that, on the
facts alleged, Plaintiffs’ first court appearance was not a
critical stage that required the presence of counsel. Id.
at 988. The panel held that this Court erred, however,
in its analysis of whether counsel was appointed within
a reasonable time after attachment of the right, and
remanded for consideration of that issue under the correct
legal standard:
The remaining question is whether Lipetzky
appointed counsel w ithin a “reasonable
time after attachment to allow for adequate
representation at any critical stage before
trial, as well as at trial itself.” Rothgery, 554
U.S. at 212. In other words, how soon after the
Sixth Amendment right attaches must counsel
be appointed, and at what point does delay
become constitutionally significant? Instead
of addressing whether the delay in appointing
counsel was unreasonable, the district court
considered only whether the delay “impacted
[plaintiff ’s] representation at subsequent
critical stages of his proceedings.” By framing
the question in that way, the district court

106a
Appendix C
erroneously required the plaintiffs to allege
actual prejudice. See United States v. Wade,
388 U.S. 218, 225, 236-37, 87 S. Ct. 1926, 18 L.
Ed. 2d 1149 (1967) (finding a Sixth Amendment
violation based on the “grave potential for
prejudice”); Hamilton v. Alabama, 368 U.S.
52, 54, 82 S. Ct. 157, 7 L. Ed. 2d 114 (1961)
(finding a Sixth Amendment violation where the
absence of counsel “may affect the whole trial”).
We therefore remand for the district court to
consider whether appointing counsel five to
thirteen days and “sometimes longer” after the
right attaches complies with the “reasonable
time” requirement articulated in Rothgery.
Id. at 988-89. The panel also directed this Court to
reconsider whether supplemental jurisdiction over
Plaintiffs’ state law claims is appropriate in light of the
Court’s reconsideration of the Sixth Amendment claim.
Id. at 989.
The Supreme Court denied Plaintiffs’ petition for
certiorari on October 3, 2016. See dkt. 102. Following
remand to this Court, Plaintiffs filed their operative third
amended complaint, and Lipetzky again moves to dismiss.
C.

Parties’ Arguments
1.

Motion to Dismiss

According to Lipetzky, the Ninth Circuit’s decision
in this case requires this Court to consider both whether

107a
Appendix C
the delay in appointing counsel created “grave potential
for prejudice,” and whether it resulted in actual prejudice.
Mot. (dkt. 93) at 6. Lipetzky argues that Plaintiffs do
not meet the standard to show the former, because the
Supreme Court cases on which the Ninth Circuit relied for
the “potential for prejudice” standard involved denial of
counsel at critical stages, and the Ninth Circuit’s decision
did not reverse this Court’s holdings that neither the first
appearance nor the waiting period between appearances
was a critical stage. Id. at 6-8 (discussing Wade, 388 U.S.
218, 87 S. Ct. 1926, 18 L. Ed. 2d 1149; Hamilton, 368 U.S.
52, 82 S. Ct. 157, 7 L. Ed. 2d 114). Lipetzky contends that
those prior holdings are therefore the law of the case,
and that Plaintiffs have not given the Court a sufficient
reason to depart from those holdings. Id. at 8-9. To the
extent Plaintiffs’ present complaint could be construed
as bringing an as-applied, rather than facial, challenge to
the policy at issue, Lipetzky argues that actual prejudice
is required for such a challenge, and Plaintiffs have not
adequately alleged that they suffered actual prejudice as
a result of the policy. Id. at 9-12.
Lipetzky also contends that Plaintiffs’ Sixth
Amendment claim is barred by the doctrine of Heck v.
Humphrey, 512 U.S. 477, 114 S. Ct. 2364, 129 L. Ed. 2d 383
(1994), because success on that claim would necessarily
imply the invalidity of their convictions. Mot. at 12-13
(citing, e.g., Trimble v. City of Santa Rosa, 49 F.3d 583
(9th Cir. 1995)). Lipetzky further challenges the Sixth
Amendment claim on the basis that the state court, not
Lipetzky, set the length of the delay. Id. at 13-14.

108a
Appendix C
Lipetzky’s motion concludes by briefly arguing that
Plaintiffs’ state law claims should be once again dismissed
for lack of jurisdiction if she succeeds in dismissing the
Sixth Amendment claim, and that if the Court reaches
those claims, the Third Amended Complaint does not
plausibly allege a violation of Plaintiffs’ rights under state
law. Id. at 14-15.
2.

Opposition

Plaintiffs argue that their Sixth Amendment claim
should not be dismissed for several reasons. First, they
contend that new allegations in the Third Amended
Complaint—specifically, that Plaintiffs had a right to
enter a plea at the first appearance—distinguish the
case in its present form from what this Court and the
Ninth Circuit previously considered, and render the first
appearance a critical stage requiring counsel. Opp’n
(dkt. 98) at 5-6. Next, they argue that the Ninth Circuit’s
instruction to consider whether counsel was appointed
within a reasonable time after attachment, a mandate
that Plaintiffs believe contemplates a facial challenge
to the policy, requires examination of factual issues
inappropriate for resolution at the pleading stage. Id. at
6-11. Plaintiffs also contend that they have adequately
alleged facts supporting an as-applied challenged, because
they allege that the delay in receiving counsel affected
both Wade’s and Farrow’s ability to gather evidence.
Id. at 11-12. As for Lipetzky’s law of the case argument,
Plaintiffs respond that the Ninth Circuit did not address
whether the waiting period between appearances was a
critical stage, and that this Court has not yet considered

109a
Appendix C
whether counsel was appointed within a reasonable
time under the standard stated in the Ninth Circuit’s
decision. Id. at 13-15. Plaintiffs argue that the law of the
case doctrine does not apply because the Ninth Circuit’s
decision constitutes intervening controlling authority, and
because new allegations in the Third Amended Complaint
require new analysis. Id. at 15.
Turning to the Heck doctrine, Plaintiffs argue that
their claims should proceed because Heck “does not apply
to civil matters involving criminal defendants whose
convictions and sentences rest upon guilty pleas—as they
do in this case.” Id. (citing, e.g., Lockett v. Ericson, 656
F.3d 892 (2011)). Plaintiffs also argue that their claims
do not implicate Heck because “this Court has twice
determined that there was no actual prejudice” to either
Farrow or Wade, and the error was therefore harmless.
Id. at 16. According to Plaintiffs, the cases that Lipetzky
cites are not analogous because each involved a conviction
at trial rather than a guilty plea. Id. at 16-17.
Responding to Lipetzky’s argument that the court,
rather than Lipetzky, determined the length of the delay,
Plaintiffs contend that they have adequately alleged
that the delay was caused by Lipetzky’s policy, and that
it is reasonable to infer that “the continuance between
arraignment proceedings that Plaintiffs suffered could
only occur upon agreement between the Public Defender
and the Superior Court.” Id. at 17-21.
Because Plaintiffs believe that the Sixth Amendment
claim should go forward, they contend that the Court has

110a
Appendix C
supplemental jurisdiction over their state law claims. Id. at
21. Addressing the merits of those claims, Plaintiffs argue
that they should be allowed to proceed on a claim under
section 52.1 of the California Civil Code for interference
with their speedy trial rights under section 859b of the
California Penal Code, because although the policy did
not actually violate those rights, it prevented Plaintiffs
from exercising their rights to enter a plea at the first
appearance, which would have started the clock on their
speedy trial rights under section 859b. Id. at 22. Plaintiffs
also argue that Lipetzky’s policy violated section 27706
of the California Government Code because that statute
requires public defenders to represent indigent defendants
“upon request . . . at all stages of the proceedings,” Cal.
Gov’t Code § 27706, and Plaintiffs requested counsel at
their first appearances—a “stage[] of the proceedings”—
but did not receive counsel at that appearance. Opp’n at
23-24. Plaintiffs argue that had Lipetzky been present to
represent Plaintiffs at their first appearances, she could
have expedited the resolution of their cases. Id. at 24.
3.

Reply

Lipetzky contends in her reply brief that claims based
on the Sixth Amendment are evaluated either under
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052,
80 L. Ed. 2d 674 (1984), which requires that a person
claiming ineffective assistance of counsel must show actual
prejudice, or under United States v. Cronic, 466 U.S. 648,
104 S. Ct. 2039, 80 L. Ed. 2d 657 (1984), which held that
prejudice can be presumed for certain structural denials
of counsel. Reply (dkt. 101) at 1-3. According to Lipetzky,

111a
Appendix C
Plaintiffs have not stated a Strickland claim because their
Third Amended Complaint does not plausibly allege that
either Farrow or Wade was actually prejudiced by the
delay in appointing counsel. Id. at 8-10. She also argues
that analysis of a Cronic claim depends only on whether
counsel was denied during a critical stage, and that
nothing in the Ninth Circuit’s decision or Plaintiffs’ Third
Amended Complaint should alter the Court’s conclusion
that neither the first appearance nor the waiting period
between appearances was a critical stage. Id. at 4-8.
Lipetzky contends that the “only issue that the Ninth
Circuit directed this Court to consider on the Cronic side
of the ledger, which this Court did not previously consider,
is whether the ‘sometimes longer’ allegation potentially
results in a delay of constitutional import.” Id. at 5.
Because the parties have since stipulated that the Court
may disregard that allegation, Lipetzky argues that the
Court’s prior holding should stand. Id.
Turning to the application of Heck, Lipetzky contends
that Heck does, in fact, apply to cases where a conviction
was based on a guilty plea rather than trial. Id. at 10 (citing
Radwan v. County of Orange, 519 F. App’x 490, 490-91
(9th Cir. 2013)). Lipetzky also argues that Plaintiffs’
“harmless error” argument is unavailing because a Sixth
Amendment violation is not complete unless the criminal
defendant is prejudiced—either under a Cronic claim
for denial of counsel, where prejudice is presumed and
reversal would be required per se, or under a Strickland
claim for ineffective counsel, where the criminal defendant
must demonstrate prejudice to prove a violation. Id. at
10 (citing United States v. Gonzalez-Lopez, 548 U.S. 140,

112a
Appendix C
147, 126 S. Ct. 2557, 165 L. Ed. 2d 409 (2006); Smith v.
McDonald, 597 F. App’x 911, 913 (9th Cir. 2014)). Lipetzky
asserts that the Ninth Circuit has never applied harmless
error analysis to determine whether Heck bars a Sixth
Amendment claim, and notes that several Ninth Circuit
and district court decisions have dismissed such claims
under Heck without considering whether the error was
harmless. Id. at 11.
Lipetzky also continues to argue that the Sixth
Amendment claim fails because the state court, not
Lipetzky, set the date of the second appearance, and thus
determined the length of the delay in appointing counsel.
Id. at 12-13. As for the state law claims, Lipetzky argues
that Plaintiffs have not alleged threats or coercion as
required for a claim under the Bane Act, that they have
conceded that their statutory speedy trial rights were not
violated, and that Lipetzky complied with her duties under
section 27706 of the Government Code because her office
represented Plaintiffs at all “stages of the proceedings”
after they requested counsel. Id. at 13-14.
III. ANALYSIS
A.

Legal Standard

A complaint may be dismissed for failure to state a
claim on which relief can be granted under Rule 12(b)(6)
of the Federal Rules of Civil Procedure. “The purpose of
a motion to dismiss under Rule 12(b)(6) is to test the legal
sufficiency of the complaint.” N. Star Int’l v. Ariz. Corp.
Comm ‘n, 720 F.2d 578, 581 (9th Cir. 1983). Generally, a

113a
Appendix C
plaintiff’s burden at the pleading stage is relatively light.
Rule 8(a) of the Federal Rules of Civil Procedure states
that “[a] pleading which sets forth a claim for relief . . . shall
contain . . . a short and plain statement of the claim showing
that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a).
In ruling on a motion to dismiss under Rule 12(b)(6),
the court analyzes the complaint and takes “all allegations
of material fact as true and construe[s] them in the light
most favorable to the non-moving party.” Parks Sch. of
Bus. v. Symington, 51 F.3d 1480, 1484 (9th Cir. 1995).
Dismissal may be based on a lack of a cognizable legal
theory or on the absence of facts that would support a
valid theory. Balistreri v. Pacifica Police Dep’t, 901 F.2d
696, 699 (9th Cir. 1990). A complaint must “contain either
direct or inferential allegations respecting all the material
elements necessary to sustain recovery under some viable
legal theory.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
562, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007) (citing Car
Carriers, Inc. v. Ford Motor Co., 745 F.2d 1101, 1106 (7th
Cir. 1984)). “A pleading that offers ‘labels and conclusions’
or ‘a formulaic recitation of the elements of a cause of action
will not do.’” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 173 L. Ed. 2d 868 (2009) (quoting Twombly, 550 U.S.
at 555). “[C]ourts ‘are not bound to accept as true a legal
conclusion couched as a factual allegation.’” Twombly,
550 U.S. at 555 (quoting Papasan v. Allain, 478 U.S. 265,
286, 106 S. Ct. 2932, 92 L. Ed. 2d 209 (1986)). “Nor does a
complaint suffice if it tenders ‘naked assertion[s]’ devoid
of ‘further factual enhancement.’” Iqbal, 556 U.S. at 678
(quoting Twombly, 550 U.S. at 557). Rather, the claim must
be “‘plausible on its face,’” meaning that the plaintiff must

114a
Appendix C
plead sufficient factual allegations to “allow[] the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Id. (quoting Twombly,
550 U.S. at 570).
B. Heck v. Humphrey
What has come to be known as the “Heck preclusion
doctr ine,” “Heck bar,” or “ favorable-ter mination
requirement” is based on the following paragraph in the
Supreme Court’s opinion in Heck v. Humphrey:
We hold that, in order to recover damages
for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by
actions whose unlawfulness would render
a conviction or sentence invalid, a § 1983
plaintiff must prove that the conviction or
sentence has been reversed on direct appeal,
expunged by executive order, declared invalid
by a state tribunal authorized to make such
determination, or called into question by a
federal court’s issuance of a writ of habeas
corpus. A claim for damages bearing that
relationship to a conviction or sentence that
has not been so invalidated is not cognizable
under § 1983. Thus, when a state prisoner
seeks damages in a § 1983 suit, the district
court must consider whether a judgment in
favor of the plaintiff would necessarily imply
the invalidity of his conviction or sentence; if it
would, the complaint must be dismissed unless

115a
Appendix C
the plaintiff can demonstrate that the conviction
or sentence has already been invalidated. But if
the district court determines that the plaintiff’s
action, even if successful, will not demonstrate
the invalidity of any outstanding criminal
judgment against the plaintiff, the action should
be allowed to proceed, in the absence of some
other bar to the suit.
Heck v. Humphrey, 512 U.S. 477, 486-87, 114 S. Ct. 2364,
129 L. Ed. 2d 383 (1994) (footnotes omitted). The Ninth
Circuit has explained that under Heck, “‘if a criminal
conviction arising out of the same facts stands and is
fundamentally inconsistent with the unlawful behavior for
which section 1983 damages are sought, the 1983 action
must be dismissed.’” Beets v. County of Los Angeles, 669
F.3d 1038, 1042 (9th Cir. 2012) (quoting Smith v. City
of Hemet, 394 F.3d 689, 695 (9th Cir. 2005) (en banc)).
Consequently, “the relevant question is whether success
in a subsequent § 1983 suit would ‘necessarily imply’ or
‘demonstrate’ the invalidity of the earlier conviction or
sentence.” Smith v. City of Hemet, 394 F.3d 689, 695 (9th
Cir. 2005) (quoting Heck, 512 U.S. at 487).
1.

Heck and Guilty Pleas

Both parties here oversimplify the application of
Heck to convictions obtained through plea agreements—
Plaintiffs, by arguing that the doctrine “does not apply
to civil matters involving criminal defendants whose
convictions and sentences rest upon guilty pleas,” Opp’n
at 15 (citing Lockett v. Ericson, 656 F.3d 892, 896 (9th

116a
Appendix C
Cir. 2011); Ove v. Gwinn, 264 F.3d 817, 823 (9th Cir.
2001)), and Lipetzky, by arguing only that “Heck does
apply to individuals who plead guilty as opposed to being
convicted by a jury,” Reply at 10 (citing Radwan v. County
of Orange, 519 F. App’x 490, 490-91 (9th Cir. 2013)). The
parties’ disagreement on this point reflects tension in
the case law applying Heck in the context of guilty and
no-contest pleas.6
Some Ninth Circuit decisions have applied Heck to nocontest pleas. In Szajer v. City of Los Angeles, the Ninth
Circuit applied Heck to bar a § 1983 lawsuit alleging an
unlawful search where the plaintiff had pled no contest to
possession of an illegal assault weapon discovered during
the disputed search, without explicitly discussing the issue
of whether Heck applies to no-contest pleas. Szajer, 632
F.3d 607, 612 (9th Cir. 2011). More recently, the court in
Radwan cited Szajer in support of its assertion that the
Ninth Circuit “ha[s] repeatedly found Heck to bar § 1983
claims, even where the plaintiff’s prior convictions were the
result of guilty or no contest pleas.” Radwan, 519 F. App’x
at 490-91. Similarly, the court in Chico Scrap Metal, Inc. v.
Robinson affirmed the district court’s dismissal of § 1983
challenges to Department of Toxic Substances Control
clean-up orders that were mandatory consequences of
no-contest misdemeanor plea agreements. 560 Fed. Appx.
6. This Court has previously considered the application of Heck
to convictions based on guilty and no-contest pleas in some detail in
Ellis v. Thomas, 2015 U.S. Dist. LEXIS 138614, 2015 WL 5915368
(N.D. Cal. Oct. 9, 2015), a case which neither party discusses in their
briefs here. Portions of the explanation of relevant law below are
drawn from Ellis without further citation.

117a
Appendix C
650, 651 (9th Cir. 2014). While the Ninth Circuit in that
case did not address the issue of no-contest pleas, the
district court had rejected the plaintiffs’ argument that
Heck did not apply because their “state court conviction[s
were] based on their nolo contendere pleas, not the legal
validity of the DTSC orders” that they challenged in their
§ 1983 action. Chico Scrap Metal, Inc. v. Raphael, 830 F.
Supp. 2d 966, 971 (E.D. Cal. 2011). The district court held
that case to be “exactly the kind of action barred by Heck,”
despite the defendants’ nolo contendere pleas. Id. at 972.
In Lockett v. Ericson, however, the Ninth Circuit held
that Heck did not bar a § 1983 claim for unlawful search
because the plaintiff pled no contest to the charge on which
the defendants based their Heck preclusion argument.
Lockett, 656 F.3d at 897. There, the plaintiff’s neighbor
reported the plaintiff for drunk driving after the plaintiff
left his car off the side of the road. Id. at 894. Investigating
officers found the front door to the plaintiff’s house ajar
and entered the house. Id. They woke the plaintiff and
administered field sobriety tests, which the plaintiff failed.
Id. After the trial court denied the plaintiff’s motion
to suppress the results of the sobriety test and other
observations the officers made in the plaintiff’s home,
the plaintiff pled no contest to a “wet reckless” driving
violation under California Vehicle Code section 23103.5(a).
Id. at 895.
The district court dismissed the plaintiff’s § 1983
claim of unlawful search as barred by Heck. Id. at 896.
The Ninth Circuit reversed, relying principally on Ove
v. Gwinn, a case in which the Ninth Circuit held that

118a
Appendix C
Heck did not bar § 1983 plaintiffs who pled no contest
to driving under the influence from bringing a § 1983
lawsuit alleging that investigators used unqualified
individuals to withdraw blood for blood tests. The court
in Lockett reasoned that because the § 1983 plaintiff had
pled no contest, his “conviction ‘derive[d] from [his] plea[],
not from [a] verdict[] obtained with supposedly illegal
evidence.’” 656 F.3d at 896 (quoting Ove, 264 F.3d at 823)
(all but first alteration in original). Accordingly, success on
the plaintiff’s § 1983 claim would not imply the invalidity of
the conviction because the “conviction d[id] not in any way
depend on the legality of the search of his home.” Id. at 897
(internal quotation omitted). Ove, on which Lockett relied,
in turn relied on an example presented in Heck itself of a
claim that would not be barred under the doctrine:
For example, a suit for damages attributable
to an allegedly unreasonable search may
lie even if the challenged search produced
evidence that was introduced in a state criminal
trial resulting in the § 1983 plaintiffs stilloutstanding conviction. Because of doctrines
l i ke independent sou rce and inev itable
discovery, see Murray v. United States, 487
U.S. 533, 539, 101 L. Ed. 2d 472, 108 S. Ct.
2529 (1988), and especially harmless error, see
Arizona v. Fulminante, 499 U.S. 279, 307-308,
113 L. Ed. 2d 302, 111 S. Ct. 1246 (1991), such
a § 1983 action, even if successful, would not
necessarily imply that the plaintiffs conviction
was unlawful. In order to recover compensatory
damages, however, the § 1983 plaintiff must

119a
Appendix C
prove not only that the search was unlawful,
but that it caused him actual, compensable
injury, see Memphis Community School Dist.
v. Stachura, 477 U.S. 299, 308, 91 L. Ed. 2d
249, 106 S. Ct. 2537 (1986), which, we hold
today, does not encompass the “injury” of being
convicted and imprisoned (until his conviction
has been overturned).
Heck, 512 U.S. at 487 n.7; see also Ove, 264 F.3d at 822
(quoting Heck).
The Ninth Circuit has since cited Lockett with
approval. See Jackson v. Barnes, 749 F.3d 755, 760 (9th
Cir. 2014) (noting that in Lockett, “a plaintiff who pled nolo
contendre [sic] to reckless driving was not Heck-barred
from bringing a § 1983 claim based on an alleged unlawful
search because the outcome of the claim had no bearing on
the validity of the plaintiff’s plea”), cert. denied, 135 S. Ct.
980, 190 L. Ed. 2d 835 (2015). Jackson presents arguably
a clearer case of harmless error than cases involving
guilty pleas. There, plaintiff Frederick Jackson had
initially been convicted of murder at a trial that included
statements obtained in violation of the Fifth Amendment.
Id. at 758-59. The Ninth Circuit reversed that conviction
on habeas review in 2004, and Jackson was subsequently
convicted again at a second trial that did not include the
statements at issue. Id. at 759. Reviewing Jackson’s § 1983
claim in 2014, the Ninth Circuit held that success on his
civil claim for violation of the Fifth Amendment would
have no bearing on his conviction at the second trial, and
thus did not implicate Heck. Id. at 760-61.

120a
Appendix C
Taken together, the precedent discussed above
indicates that Heck’s inapplicability to certain cases
involving guilty pleas is essentially an application of the
harmless error exception first recognized in Heck itself,
or more generally, the rule that success on a claim must
necessarily imply the invalidity of the conviction in order
to be barred by Heck. Where an alleged constitutional
violation relates only to evidence that might or might not
be admissible despite the error, might or might not be
necessary to convict the defendant at trial, and regardless
is not necessary for the defendant to enter a guilty plea,
then a successful claim that the evidence was obtained in
violation of the constitution would not necessarily imply
the invalidity of the conviction. Accordingly, in considering
whether Heck bars claims of other constitutional violations
by defendants who have pled guilty to crimes, a court must
look to what effect such a violation would necessarily have
on the validity of the conviction.
In order to determine how Heck, Lovett, and the other
authority discussed above apply to the present case, it
is therefore necessary to understand the nature of the
Sixth Amendment’s guarantee of counsel—specifically,
the circumstances in which violations of that right “would
necessarily imply the invalidity of [a criminal defendant’s]
conviction or sentence.” See Heck, 512 U.S. at 487.
2.

Suitability of Harmless Error Analysis to
Other Sixth Amendment Claims

As Lipetzky notes in her reply brief, courts recognize
two types of ineffective assistance of counsel claims

121a
Appendix C
under the Sixth Amendment: claims under Strickland v.
Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(1984), which require a showing of prejudice, and claims
under United States v. Cronic, 466 U.S. 648, 104 S. Ct.
2039, 80 L. Ed. 2d 657 (1984), which involve circumstances
“‘circumstances so likely to prejudice the accused that
the cost of litigating their effect in a particular case is
unjustified’” and prejudice may be presumed. See Wright
v. Van Patten, 552 U.S. 120, 124-25, 128 S. Ct. 743, 169 L.
Ed. 2d 583 (2008) (per curiam) (discussing both standards
and quoting Cronic, 466 U.S. at 658); see also Mickens v.
Taylor, 535 U.S. 162, 166, 122 S. Ct. 1237, 152 L. Ed. 2d
291 (2002) (discussing both standards). Whether Plaintiffs’
claim here for failure to appoint counsel at the required
time is in fact an ineffective assistance claim, or is subject
to the same rules as such claims, is discussed separately
below.
Looking first to Strickland, the Supreme Court there
held that a person claiming ineffective assistance of counsel
must normally demonstrate likely prejudice as a result of
his or her lawyer’s error, i.e., “that there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
466 U.S. at 694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Id.
In the years since Strickland was decided, courts have
recognized that that its requirement of probable prejudice
is not merely a question of standing or entitlement to relief,
but instead a component of the constitutional violation
itself: if counsel’s errors were not so significant as to cast
doubt on the outcome, counsel was not “ineffective” within

122a
Appendix C
the meaning of the Sixth Amendment guarantee. See
United States v. Gonzalez-Lopez, 548 U.S. 140, 147, 126
S. Ct. 2557, 165 L. Ed. 2d 409 (2006) (“Counsel cannot be
‘ineffective’ unless his mistakes have harmed the defense
(or, at least, unless it is reasonably likely that they have).
Thus, a violation of the Sixth Amendment right to effective
representation is not ‘complete’ until the defendant is
prejudiced.”); Mickens, 535 U.S. at 166 (“[D]efects in
assistance that have no probable effect upon the trial’s
outcome do not establish a constitutional violation.”).
In Cronic, decided the same day as Strickland, the
Supreme Court declined to require a specific showing of
probable prejudice in “circumstances that are so likely
to prejudice the accused that the cost of litigating their
effect in a particular case is unjustified.” Cronic, 466 U.S.
at 658. As the first example of one such circumstance,
the Court stated that the “presumption that counsel’s
assistance is essential requires us to conclude that a trial
is unfair if the accused is denied counsel at a critical stage
of his trial.” Id. at 659; see also id. at 662 (considering
whether the criminal defendant was denied counsel at “a
critical stage of the prosecution”). Other examples include
counsel’s wholesale “fail[ure] to subject the prosecution’s
case to meaningful adversarial testing,” id. at 659 (citing
Davis v. Alaska, 415 U.S. 308, 94 S. Ct. 1105, 39 L. Ed.
2d 347 (1974)), and a court appointing an out-of-state
lawyer—who was unwilling to represent the defendants
due to his lack of time to prepare or knowledge of local
procedure—on the day of trial to represent multiple
defendants accused of capital crimes, id. at 659-60 (citing
Powell v. Alabama, 287 U.S. 45, 53 S. Ct. 55, 77 L. Ed.

123a
Appendix C
158 (1932)). The distinction that the Cronic Court drew
between such circumstances and claims that would require
a showing of probable prejudice under Strickland was not
that no prejudice was required for a Cronic claim, but
rather that likely prejudice could be presumed from the
nature of the error or absence of counsel.
Of course, not every violation of the Sixth Amendment’s
assistance of counsel clause involves the right to effective
assistance of counsel. In the separate context of a
defendant’s Sixth Amendment right to paid counsel of his
or her choosing, the Supreme Court has held that harmless
error analysis is not permissible. Gonzalez-Lopez, 548 U.S.
at 152. The Court reasoned that the right to paid counsel
of the defendant’s choosing is a freestanding constitutional
guarantee, independent of the defendant’s right to a fair
trial, and to subject a denial of that right to harmless error
analysis would negate the right to choose counsel so long
as a defendant received competent counsel. Id. at 147-48.
Because the defendant’s right is to counsel of his or her
choice, not merely competent counsel, determining the
effect of the denial of that right would require comparing
all of the decisions that the preferred lawyer would have
made throughout the trial to the decisions that the actual
lawyer did make, not merely identifying errors by the
actual lawyer. Id. at 150. Observing that “[i]t is impossible
to know what different choices the rejected counsel would
have made,” the Court held that denial of counsel of choice
is a structural error not subject to review for harmless
error. Id.
Each of those types of claims—ineffective assistance
demonstrated to be prejudicial under Strickland,

124a
Appendix C
structurally ineffective assistance under Cronic, and
denial of counsel of choice under Gonzalez-Lopez—would
likely be barred by Heck if brought by a plaintiff who had
been convicted in the prosecution at issue, regardless of
whether that conviction resulted from a guilty plea. In
the case of a Strickland claim, that result follows from
the rule that “a violation of the Sixth Amendment right
to effective representation is not ‘complete’ until the
defendant is prejudiced.” See Gonzalez-Lopez, 548 U.S. at
147 (discussing Strickland claims). Accordingly, where a
criminal defendant pled guilty, “the defendant must show
that there is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would have
insisted on going to trial”; without such a showing, there
is no violation of the Sixth Amendment. Hill v. Lockhart,
474 U.S. 52, 59, 106 S. Ct. 366, 88 L. Ed. 2d 203 (1985).
A person asserting a Strickland claim therefore cannot
show that he or she was denied effective assistance of
counsel without also necessarily implying the invalidity
of his or her conviction, even if it resulted from a guilty
plea.7 Essentially the same analysis applies to a Cronic
7. Analysis of a Strickland claim might in some ways resemble
harmless error review, because the court must examine whether
there is a reasonable probability that the attorney’s error prejudiced
the criminal defendant. The distinction here, however, is that if the
attorney’s error was harmless, there was no constitutional violation.
In other words, an actual violation of the Sixth Amendment under
Strickland can never be harmless, because if it was, it would not
be a violation. See Gonzalez-Lopez, 548 U.S. at 147. The analysis
is therefore distinguishable from, for example, a violation of the
Fourth Amendment in the collection of evidence, which may be
harmless to the defendant’s case—and thus no basis for reversal—
but nevertheless remains a constitutional violation.

125a
Appendix C
claim, except that likely prejudice need not be explicitly
shown because it can be inferred from the nature of the
violation—even still, success on a Cronic claim necessarily
implies the invalidity of the conviction because the
presumption arising from such a violation “requires [a
court] to conclude that a trial is unfair.” Cronic, 466 U.S.
at 659 (emphasis added). And with respect to claims for
violation of the right to choice of counsel, the Supreme
Court has held that a denial of that right is a structural
error requiring reversal, with no occasion for harmless
error review. See Gonzalez-Lopez, 548 U.S. at 150, 152.
In each of those contexts, because a violation cannot be
harmless, success on the claim would necessarily imply
the invalidity of a conviction, and thus implicate the Heck
doctrine, regardless of whether the conviction resulted
from a guilty plea.
In other circumstances, however, the Supreme Court
has held that a Sixth Amendment violation can constitute
harmless error. One context where the Court has explicitly
applied that doctrine is “where the evil caused by a Sixth
Amendment violation is limited to the erroneous admission
of particular evidence at trial.” Satterwhite v. Texas, 486
U.S. 249, 257, 108 S. Ct. 1792, 100 L. Ed. 2d 284 (1988)
(citing, e.g., Moore v. Illinois, 434 U.S. 220, 98 S. Ct. 458,
54 L. Ed. 2d 424 (1977); Milton v. Wainwright, 407 U.S.
371, 92 S. Ct. 2174, 33 L. Ed. 2d 1 (1972)); see also United
States v. Wade, 388 U.S. 218, 236-37, 87 S. Ct. 1926, 18
L. Ed. 2d 1149 (1967) (finding the absence of counsel at
a post-indictment lineup involving witnesses who later
made courtroom identifications to be harmless error,
despite holding that the lineup “was a critical stage of the

126a
Appendix C
prosecution at which [the defendant] was ‘as much entitled
to such aid (of counsel) . . . as at the trial itself’” (citation
omitted)). It would follow that where a Sixth Amendment
violation only affected the procurement of evidence—for
example, as in Satterwhite, where a defendant was not able
to consult with counsel before undergoing a psychiatric
evaluation—a defendant who pled guilty could in some
cases bring a subsequent civil claim under § 1983 without
implicating Heck, because showing such a violation would
not necessarily imply the invalidity of his or her conviction.
Cf. Lockett, 656 F.3d at 897 (holding that Heck does not
bar a claim that a police search violated of the Fourth
Amendment where a defendant pled guilty, and the
evidence obtained from the search thus was not the basis
for his conviction).
Also, in one decision issued fourteen years before
Cronic’s explanation of the per se rule for denial of
counsel at critical stages, the Supreme Court held that a
preliminary hearing, as used in the Alabama courts, was
a “critical stage” at which counsel was required, but that
denial of counsel at that hearing was subject to harmless
error review. Coleman v. Alabama, 399 U.S. 1, 9-10, 90
S. Ct. 1999, 26 L. Ed. 2d 387 (1970).
Plaintiffs here rely in part on the Ninth Circuit’s
decision in Ayala v. Wong, which adopted the Fourth
Circuit’s determination that the Supreme Court has used
the phrase “critical stage” to mean two different things in
the context of when a criminal defendant has the right to
counsel as compared to in the context of when a deprivation
of that right constitutes structural error. Ayala, 756 F.3d

127a
Appendix C
656, 673 (9th Cir. 2013) (discussing United States v. Owen,
407 F.3d 222, 227 (4th Cir. 2005), cert. denied, 546 U.S.
1098, 126 S. Ct. 1026, 163 L. Ed. 2d 867 (2006)). 8 In other
words, a proceeding might be a “critical stage” at which
a defendant has the right to counsel, but might not be
a “critical stage” such that failure to provide counsel
warrants per se reversal without the need to specifically
show probably prejudice. See id. The Supreme Court
subsequently reversed Ayala on other grounds, without
addressing the question of whether a “critical stage” for
the right to counsel is necessarily also a “critical stage”
for the purpose of finding structural error. See generally
Davis v. Ayala, 135 S. Ct. 2187, 192 L. Ed. 2d 323 (2015).9
Other decisions by the Ninth Circuit, however, have
applied a per se rule to denial of counsel at a “critical
stage” without indicating that a court must examine which
type of “critical stage” applies to the case at hand. For
8. Two other circuits have also adopted the reasoning of Owen
or cited it with approval. See Sweeney v. United States, 766 F.3d
857, 861 n.3 (8th Cir. 2014); Ditch v. Grace, 479 F.3d 249, 255-56 (3d
Cir. 2007)
9. The Ninth Circuit also suggested that harmless error review
is appropriate for denial of counsel at a critical stage in United States
v. Perez, a case cited by Plaintiffs here, although its discussion of that
issue is dicta in light of the holding that “there [was] no constitutional
right for counsel to be present” at the initial appearance in question.
United States v. Perez, 776 F.2d 797, 800 (9th Cir. 1985), overruled
on other grounds by United States v. Cabaccang, 332 F.3d 622, 63435 (9th Cir. 2003). Perez was decided just months after the Supreme
Court issued its opinions in Strickland and Cronic and does not cite
or acknowledge either of those decisions, instead relying on older
authority such as Coleman in its discussion of harmless error. See
Perez, 776 F.2d at 800.

128a
Appendix C
example, the most recent published opinion on the subject
suggests a clearer rule than that discussed in Ayala:
Most trial errors are subject to harmless-error
analysis. However, certain errors fall within the
class of “structural defects in the constitution
of the trial mechanism” that “defy analysis
by ‘harmless-error’ standards.” Arizona v.
Fulminante, 499 U.S. 279, 309, 111 S. Ct.
1246, 113 L. Ed. 2d 302 (1991). “[T]he Sixth
Amendment right to counsel is among those
‘constitutional rights so basic to a fair trial that
their infraction can never be treated as harmless
error.’” United States v. Hamilton, 391 F.3d
1066, 1070 (9th Cir. 2004) (quoting Chapman
v. California, 386 U.S. 18, 23, 87 S. Ct. 824,
17 L. Ed. 2d 705 & n. 5 (1967)). “[T]he absence
of counsel during a critical stage of a criminal
proceeding is precisely the type of ‘structural
defect’ to which no harmless-error analysis can
be applied.” 391 F.3d at 1070 (citation omitted).
United States v. Yamashiro, 788 F.3d 1231, 1235-36 (9th
Cir. 2015) (holding that absence of counsel at a victim
allocution during the sentencing phase was structural
error requiring per se reversal); see also, e.g., United
States v. Benford, 574 F.3d 1228, 1231-32 (9th Cir. 2009)
(“[A]lthough most ineffective assistance of counsel claims
require courts to conduct a prejudice inquiry [under
Strickland], a complete denial of counsel at a critical stage
does not.”); Musladin v. Lamarque, 555 F.3d 830, 837-38
(9th Cir. 2009) (holding that Cronic’s rule of automatic
reversal where counsel is denied at a critical stage remains

129a
Appendix C
binding despite Satterwhite and Fulminante); Hamilton,
391 F.3d at 1071 (holding that the absence of counsel at a
suppression hearing was structural error requiring per
se reversal). Moreover, despite a number of relatively
recent Supreme Court opinions recounting Cronic’s rule
that denial of counsel at a critical stage is structural
error—e.g., Wright, 552 U.S. at 124-25; Mickens, 535 U.S.
at 166—this Court is aware of no decision by the Supreme
Court drawing any distinction between different types
of critical stages in the manner of the Fourth and Ninth
Circuit’s Owen and Ayala decisions.
3.

Application of Heck to Plaintiffs’ Sixth
Amendment Claim

The question here is how a claim for failure to appoint
counsel to an indigent defendant at the required stage of
the proceedings under Rothgery fits into the framework
discussed above. The Ninth Circuit held on appeal that
the Supreme Court set forth the appropriate standard for
examining delay in appointment of counsel in Rothgery:
“counsel must be appointed within a reasonable time
after attachment to allow for adequate representation at
any critical stage before trial, as well as at trial itself.”
Rothgery, 554 U.S. at 212; see Farrow, 637 F. App’x
at 988 (quoting Rothgery). The Court is not aware of
any authority specifically considering whether failure
to appoint counsel within the timeframe required by
Rothgery is subject to harmless error analysis, or how
Heck applies to such claims.10
10. Rothgery was itself a § 1983 case, but the criminal
charges against the plaintiff had been dismissed after he was

130a
Appendix C
Plaintiffs here present two arguments as to why the
delay in appointing counsel violated their rights under
the Sixth Amendment: (1) that the first appearance was
a critical stage at which Plaintiffs were denied counsel;
and (2) that even if the first appearance was not a critical
stage, the delay in appointing counsel after attachment
of the right at the first appearance was unreasonable. See
TAC ¶ 57; Opp’n at 16. Plaintiffs argue that harmless error
review is appropriate as to both versions of their claim,
and contend that they can therefore show a violation of
the Sixth Amendment and obtain nominal damages even if
the error did not affect the outcome of their prosecutions.
See Opp’n at 16 & n.6. The Court addresses Plaintiffs’ two
theories of violation in turn.
a.

Denial of Counsel at a Critical Stage

Fortunately, the case at hand does not require this
Court to wade into the question of whether different
definitions of the term “critical stage” exist for different
purposes, or, for that matter, the precedential value of
Ayala after its reversal on other grounds by the Supreme
Court. Even if some “critical stages” are not actually
critical for the purpose of finding structural error, the
appearances at issue here are not among those exceptions.
The Ninth Circuit’s decision in this case held that
Plaintiffs’ second court appearances were critical stages
appointed counsel. See Rothgery, 554 U.S. at 196-97. The Heck
doctrine therefore had no bearing on that case, because there was
no underlying conviction or sentence at risk of being impliedly
invalidated.

131a
Appendix C
“because the plaintiffs entered pleas at that hearing,”
although it affirmed the Court’s holding that the first
appearance was not a critical stage. Farrow, 637 F. App’x
at 988 (citing White v. Maryland, 373 U.S. 59, 60, 83 S. Ct.
1050, 10 L. Ed. 2d 193 (1963)). Plaintiffs now renew their
argument that the first appearance was also a critical
stage,11 based on a new allegation that Plaintiffs had the
right under California law to enter a plea at that hearing.
See Opp’n at 5-6 (citing Hamilton v. Alabama, 368 U.S.
52, 82 S. Ct. 157, 7 L. Ed. 2d 114 (1961)). Hamilton, the
case on which Plaintiffs rely, held that per se reversal was
warranted, without need to inquire into actual prejudice.
368 U.S. at 54. White, one of the Supreme Court cases on
which the Ninth Circuit relied here, similarly held that a
hearing at which a defendant entered a plea was a critical
stage, and therefore “we do not stop to determine whether
11. Plaintiffs argue in their opposition that the Court’s
previous conclusion that the waiting period between appearances
was not itself a critical stage is not the “law of the case” because the
Ninth Circuit did not address it, but Plaintiffs do not present any
reason not previously argued why this Court should depart from
its prior holding on that issue. See Opp’n at 12-15; Aug. 2013 Order
at 25-26 (concluding that the waiting period was not itself a critical
stage). Moreover, although Plaintiffs suggest that the Court could
reconsider that issue, they state that “the question in this context
is not whether the 5-to-13-day waiting period is a ‘critical stage,’”
but rather whether counsel was appointed within a reasonable time
after attachment. Opp’n at 15 (emphasis added). The Court’s analysis
of whether Plaintiffs’ can pursue a claim for lack of representation
at a critical hearing is therefore limited to the first appearance,
which Plaintiffs more clearly argue that the Court should reconsider
in light of new allegations. See id. at 5-6 (subsection titled “The
first Appearance in California Court is a ‘Critical Stage’ of the
Proceedings as now pled” (capitalization as in original)).

132a
Appendix C
prejudice resulted: . . . the judgment below must be and
is reversed.” White, 373 U.S. at 61 (citing Hamilton,
368 U.S. at 55).12 Accordingly, assuming for the sake
of argument that Plaintiffs are correct that their first
appearances were critical stages based on their rights to
enter pleas, then Hamilton, White, and Cronic all indicate
that failure to provide counsel at that appearance would
be a structural error requiring per se reversal. Success
on this theory would necessarily imply the invalidity of
Plaintiffs’ convictions, and to the extent that Plaintiffs’
§ 1983 claim relies on that theory, it must therefore be
dismissed under Heck13
b.

Failure to Appoint Counsel Within a
Reasonable Time

In addition to their contention that they were denied
counsel at a critical stage, Plaintiffs also allege that their
12. In People v. Cox, a case cited in Plaintiffs’ opposition,
a California appellate court held that denial of counsel at an
arraignment at which pleas were entered was subject to harmless
error review by analogy to Coleman, which considered the separate
issue of denial of counsel at a preliminary hearing where pleas were
not entered or permitted to be entered. People v. Cox, 193 Cal. App.
3d 1434, 1440, 239 Cal. Rptr. 40 (1987); see Coleman, 399 U.S. at 26
(Stewart, J., dissenting). This Court is not bound by California state
court decisions on issues of federal law, and respectfully disagrees
with Cox as inconsistent with White and Hamilton, if not also with
Cronic.
13. As a separate and sufficient basis for dismissal of this
theory, the Court also holds that Plaintiffs have not shown any right
under California law to enter pleas at their first court appearances,
as discussed below in the context of Plaintiffs’ Bane Act claim.

133a
Appendix C
rights under the Sixth Amendment were violated by
Lipetzky’s failure to represent them within “a reasonable
time []after” the first appearance. TAC ¶ 57; Opp’n at 6-12.
The Ninth Circuit instructed this Court to reconsider
that issue on remand in light of Rothgery’s rule that
counsel must be appointed “within a ‘reasonable time
after attachment to allow for adequate representation
at any critical stage.’” See Farrow, 637 F. App’x at 98889 (quoting Rothgery, 554 U.S. at 212)). Discussing this
Court’s error in requiring a showing of actual prejudice,
the Ninth Circuit noted Supreme Court precedent finding
Sixth Amendment violations on the lesser showing of
“‘grave potential for prejudice’” or “absence of counsel
that ‘may affect the whole trial.’” Id. (quoting Wade, 388
U.S. at 236; Hamilton, 368 U.S. at 54).
In a 1970 case where a criminal defendant was
adequately represented at his first trial but did not meet
with counsel regarding a second trial until “a few minutes
before” it began, the Supreme Court affirmed a denial
of habeas corpus, noting that it was “not disposed to
fashion a per se rule requiring reversal of every conviction
following tardy appointment of counsel.” Chambers v.
Maroney, 399 U.S. 42, 53-54, 90 S. Ct. 1975, 26 L. Ed.
2d 419 (1970). Chambers does not fully resolve the issue,
because it is not clear whether the Court intended that
delayed appointment of counsel in violation of the Sixth
Amendment might not always be cause for reversal (which
would suggest that Heck does not apply), or instead that
not every delay in appointing counsel violates the Sixth
Amendment (which would provide no guidance regarding
the Heck issue). To the extent that it is relevant, though,

134a
Appendix C
and particularly given the likelihood that appointing
counsel mere minutes before trial would violate the
reasonableness standard articulated more recently in
Rothgery, the Chambers decision suggests that a Rothgery
violation does not require per se reversal of a conviction.
Moreover, in reversing this Court’s previous order,
the Ninth Circuit cited and relied on the Supreme Court’s
decision in Wade. See Farrow, 637 F. App’x at 988 (citing
Wade, 388 U.S. at 236-37). In that case, the Supreme
Court held that “there can be little doubt that for Wade
the postindictment lineup was a critical stage of the
prosecution at which he was ‘as much entitled to such aid
(of counsel) * * * as at the trial itself,’” and that denial
of counsel at the lineup therefore violated Wade’s rights
under the Sixth Amendment. Wade, 388 U.S. at 236-37
(quoting Powell, 287 U.S. at 57). The Court nevertheless
reversed the Fifth Circuit’s determination that the
violation warranted a new trial. Id. at 239-43. The Supreme
Court analyzed that violation in an evidentiary context,
addressing the extent to which the uncounseled lineup
identification tainted in-court identification by the same
witnesses. Wade, 388 U.S. at 239-42. The Court remanded
for the district court to hold a hearing “to determine
whether the in-court identifications had an independent
source, or whether, in any event, the introduction of the
evidence was harmless error.” Id. at 242. Although the
evidentiary context of Wade is not precisely analogous
to the case at hand, Wade nevertheless indicates that
Sixth Amendment violations based on failure to provide
appointed counsel at times when a defendant is entitled
to counsel do not necessarily invalidate a conviction. And

135a
Appendix C
while the Ninth Circuit here did not address that aspect
of Wade’s holding, the Circuit’s reliance on Wade tends to
suggest that similar principles apply to this case.
The Court is not persuaded by Lipetzky’s argument
that the Ninth Circuit has asked this Court to analyze
Plaintiffs’ claims in “the Strickland/Cronic framework.”
See, e.g., Reply at 3. The panel’s memorandum decision
cites neither of those cases. See generally Farrow, 637
F. App’x 986. Moreover, it is not clear that the same
standards apply to a case involving delayed appointment
of counsel, like this case, as would apply to cases involving
ineffective assistance of counsel, as in Strickland and
Cronic. Here, the Ninth Circuit held that this Court erred
in requiring Plaintiffs “to allege actual prejudice.” Id.
at 988. Although both Strickland and Cronic set forth
standards of proof that require something less than an
explicit showing of prejudice, that lesser burden is based
on concerns regarding the feasibility and efficiency of
proving prejudice by a preponderance of the evidence,
not on a principle that prejudice is not required. See
Strickland, 466 U.S. at 693-96 (“The result of a proceeding
can be rendered unreliable, and hence the proceeding
itself unfair, even if the errors of counsel cannot be shown
by a preponderance of the evidence to have determined the
outcome.”); Cronic, 466 U.S. at 658 (“There are, however,
circumstances that are so likely to prejudice the accused
that the cost of litigating their effect in a particular case
is unjustified.”). In a more recent decision, the Supreme
Court characterized Strickland as requiring “proof of
both deficient performance and prejudice to the defense,”
and described Cronic as establishing circumstances in

136a
Appendix C
which prejudice can be presumed. Bell v. Cone, 535 U.S.
685, 696-97, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002)
(emphasis added). The Ninth Circuit’s determination
that prejudice is not required in this case, which is
based on delayed appointment, is not consistent with the
prejudice requirements that the Supreme Court set forth
in Strickland and Cronic, which require a showing of
prejudice at least by inference in cases based on ineffective
assistance. Those cases therefore do not set the standard
applicable here.
Taking into account Wade, Chambers, and the Ninth
Circuit’s instructions on appeal, the Court holds that
success on a claim for failure to appoint counsel within a
reasonable time after attachment would not necessarily
imply the invalidity of Plaintiffs’ convictions in state
court. To the extent that Plaintiffs’ § 1983 claim is based
on that theory of violation of the Sixth Amendment, it is
not barred by Heck.
C.

Reasonableness of Delay

“The Supreme Court did not decide in Rothgery what
constitutes a reasonable time to appoint counsel after
attachment.” Clark v. State, No. 03-09-00644-CR, 2011
Tex. App. LEXIS 5160, 2011 WL 2651902, at *5 (Tex. Ct.
App. July 8, 2011). Indeed, the Rothgery Court explicitly
disclaimed any intent to define that standard:
Our holding is narrow. We do not decide
whether the 6-month delay in appointment of
counsel resulted in prejudice to Rothgery’s

137a
Appendix C
Sixth Amendment rights, and have no occasion
to consider what standards should apply in
deciding this. We merely reaffirm what we
have held before and what an overwhelming
majority of American jurisdictions understand
in practice: a criminal defendant’s initial
appearance before a judicial officer, where he
learns the charge against him and his liberty
is subject to restriction, marks the start of
adversary judicial proceedings that trigger
attachment of the Sixth Amendment right to
counsel.
Rothgery, 554 U.S. at 213 (emphasis added); see also id.
at 212 n.15 (“We do not here purport to set out the scope
of an individual’s postattachment right to the presence
of counsel. It is enough for present purposes to highlight
that the enquiry into that right is a different one from the
attachment analysis.”)
In Rothgery itself, the parties reached a settlement
agreement after the Supreme Court issued its decision,
and no court in that case had reason to examine the
issue further. See Agreed Stipulation of Dismissal with
Prejudice, Rothgery v. Gillespie County, No. A-CV456-LY, ECF Doc. No. 87 (W.D. Tex. Apr. 30, 2009). As
noted in this Court’s previous orders, a district court in
Louisiana has considered this issue and held that a fortyday delay in appointing counsel was not constitutionally
unreasonable, but that court used a standard of actual
prejudice that the Ninth Circuit has now rejected. See
Grogen v. Gautreaux, No. 12-0039-BAJ-DLD, 2012 U.S.

138a
Appendix C
Dist. LEXIS 120411, at *9-11 (M.D. La. July 11, 2012),
report and recommendation adopted, 2012 U.S. Dist.
LEXIS 120404 (M.D. La. Aug. 24, 2012). Also noted in
this Court’s previous orders, a district court in Texas
determined “that [an] approximate two-month delay in
receiving court-appointed counsel fails to rise to the level
of a constitutional violation,” but provided no analysis as
to how it reached that decision. See Hawkins v. Montague
County, No. 7:10-CV-19-O, 2010 U.S. Dist. LEXIS 116361,
2010 WL 4514641, at *12 (N.D. Tex. Nov. 1, 2010). With
the exception of Grogen, which is not consistent with the
Ninth Circuit’s decision here, this Court not aware of
any decision articulating a standard by which to examine
whether a delay in appointing counsel is reasonable within
the meaning of Rothgery.
In the absence of such guidance, the Court holds for
the purpose of the present motion that the reasonableness
of a delay in appointing counsel after attachment depends
on the totality of the circumstances, including the time
needed to prepare for an upcoming critical stage—but
not limited to that factor. To focus only on proximity to
a critical stage would all but negate the significance of
attachment, the importance of which the Supreme Court
emphasized in Rothgery, where the Court acknowledged
that “a defendant subject to accusation after initial
appearance is headed for trial and needs to get a lawyer
working, whether to attempt to avoid that trial or to
be ready with a defense when the trial date arrives.”
Rothgery, 554 U.S. at 210. Indeed, the facts of Rothgery
illustrate the value of counsel even when a defendant does
not face an impending adversarial proceeding: soon after

139a
Appendix C
appointment, counsel was able to secure a bail reduction
for Walter Rothgery that allowed him to get out of jail.
Id. at 196-97. Counsel thereafter demonstrated that
Rothgery had never been convicted of a felony—a key
predicate of the felon-in-possession charge that he faced—
and the district attorney dismissed the indictment. Id. It
is not clear from the Rothgery opinion that any critical
stage of the proceeding was imminent, but that in no
way diminishes the value of appointed counsel to protect
Walter Rothgery’s process and liberty interests after the
right had attached.
The broad standard of reasonableness that the Court
finds applicable does not lend itself to resolution on the
pleadings. Plaintiffs’ complaint here alleges that Lipetzky
“arbitrarily withheld legal representation . . . for a period
of 5 to 13 days” after the right attached—seven days in
the case of Wade, and thirteen days in the case of Farrow.
TAC ¶¶ 1, 29, 41. Nothing on the face of the complaint
shows that delay to be reasonable. For the purpose of the
present motion to dismiss, the Court holds that Plaintiffs
have plausibly alleged that the delay was unreasonable,
and therefore violated their Sixth Amendment rights
to appointed counsel as articulated in Rothgery. To the
extent that Plaintiffs’ § 1983 claim is based on a theory
of unreasonable delay after attachment, the motion to
dismiss is DENIED.14 Of course, if Plaintiffs prevail
14. Lipetzky also argued that she cannot be held responsible
for the state court’s decisions regarding how long to continue
Plaintiffs’ arraignments, which, she contends, determined the
delay in appointment. It is not clear why Lipetzky could not have
provided counsel to Plaintiffs during the intervening period before

140a
Appendix C
on this claim, their “compensable injury . . . does not
encompass the ‘injury’ of being convicted [or] imprisoned.”
Heck, 512 U.S. at 487 n.7.
D.

State Law Claims

Because Plaintiffs may proceed on their federal claim,
the Court’s previous holding that it lacked jurisdiction over
the related state law claims no longer stands. Plaintiffs’ two
claims under California law are therefore discussed below.
1.

Civil Code Section 52.1

Section 52.1 of the California Civil Code, also known as
the Bane Act, creates a right of action against any person
who “interferes by threat, intimidation, or coercion . . .
with the exercise or enjoyment by any individual or
individuals of rights secured by the Constitution or laws
of the United States, or . . . of this state.” Cal. Civ. Code
§ 52.1(a) (defining the conduct prohibited); see also id.
§ 52.1(b) (creating private right of action).
the second hearing, after the court “referred the matter to the
public defender.” Although Plaintiffs’ allege that the written policy
of the public defender’s office called for staff to meet with criminal
defendants while in custody before further arraignment, see TAC
¶ 4, they also allege that neither of them received counsel before
their further arraignments, id. ¶¶ 27, 29, 36, 41. See also Cal. Gov’t
Code § 27706 (providing that the public defender shall represent
indigent defendants upon order of the court or “[u]pon request of
the defendant.”); Joshua P. v. Superior Court, 226 Cal. App. 4th 957,
963-64, 172 Cal. Rptr. 3d 509 (2014) (discussing the “upon request”
prong of the statute and the fact that “appointment by the court [is]
not required”).

141a
Appendix C
Plaintiffs contend that Lipetzky colluded with the
judges of the Contra Costa Superior Court to interfere
with Plaintiffs’ speedy trial rights under California law,
including the right to a preliminary examination “within
10 court days of the date the defendant is arraigned or
pleads, whichever occurs later.” Cal. Penal Code § 859b.
Plaintiffs do not dispute, however, that there was no actual
violation of their rights under that law, because they have
not alleged any improper delay after the entry of a plea at
the further arraignment hearing. See May 2013 Order at
27-28 (dismissing Plaintiffs’ claim for violation of statutory
speedy trial rights); Mot. at 14; Opp’n at 22. Instead,
Plaintiffs argue that by depriving Plaintiffs of their right
to enter a plea at the first hearing, or conditioning that
right on declining the Sixth Amendment right to appointed
counsel, the process interfered with their right to set the
speedy trial clock in motion. See TAC ¶ 59; Opp’n at 22.
There are at least two problems with this theory.
First, although Plaintiffs state in their present
complaint that “California criminal defendants have an
absolute right to enter a not-guilty plea at their first
appearance in a California Court,” TAC ¶ 6, they cite
no authority so holding, and the Court need not accept
legal conclusions as true in evaluating the sufficiency of
a pleading. Twombly, 550 U.S. at 555. Section 988 of the
California Penal Code, cited in Plaintiffs’ opposition brief,
see Opp’n at 5, states in part that an arraignment “consists
in . . . asking the defendant whether the defendant pleads
guilty or not guilty,” but does not on its face prohibit the
continued arraignment or “further arraignment” process
employed here, where the court continued the portion of

142a
Appendix C
the arraignments at which Plaintiffs were asked for their
pleas to their second court appearances. See Cal. Penal
Code § 988.15 Having not shown any right to enter a plea
at the first appearance, Plaintiffs cannot proceed on the
theory that denial of that opportunity impermissibly
interfered with their right to set in motion the speedy
trial rights premised on the entry of a plea.
Second, California court have held that “where
coercion is inherent in the . . . violation [of rights] alleged,”
section 52.1 “requires a showing of coercion independent
from the coercion inherent in the [violation] itself,” because
“the multiple references to violence or threats of violence
in the statute serve to establish the unmistakable tenor
of the conduct that section 52.1 is meant to address.”
Shoyoye v. County of Los Angeles, 203 Cal. App. 4th
947, 959, 137 Cal. Rptr. 3d 839 (2012). Here, Plaintiffs
argue (but do not explicitly allege in their complaint) that
“Sheriff [sic] deputies literally ordered these criminal
detainees out of the courtroom and into the jail to await
appointed counsel, which physically prevented them from
entering a plea or asserting their statutory rights.” Opp’n
at 22. Even if Plaintiffs had alleged in their complaint
that they received such orders from sheriff’s deputies,
15. The practice guide also cited in Plaintiffs’ brief—which
in relevant part appears to describe typical procedures rather a
defendant’s procedural rights—is not a source of legal authority
establishing rights under California law. See Opp’n at 5-6 (quoting
Elena Condes, Arraignment, California Law and Procedure in
Practice § 6.1 at 128 (CEB 2013) (stating that an arraignment includes
the opportunity to enter a plea and “is the defendant’s first court
appearance)).

143a
Appendix C
the connection between those orders and the delay in
Plaintiffs’ opportunity to enter a plea is tenuous at best.
The Bane Act requires interference with rights “by threat,
intimidation, or coercion.” Cal. Civ. Code § 52.1 (emphasis
added). Here, the delay was caused by the judge’s order
continuing the arraignment, not by the deputies ordering
Plaintiffs into custody during the intervening period;
the same delay would have occurred if no deputies had
been present and Plaintiffs had been free to leave the
courtroom on their own recognizance. Plaintiffs’ detention
is not a component of the deprivation of rights that they
have asserted. Plaintiffs therefore have not alleged a
deprivation by coercion within the meaning of section 52.1.
The Court finds that leave to amend would be futile
and GRANTS Lipetzky’s motion to dismiss this claim
with prejudice. The Court does not reach the question
of whether the state court’s decision of when to allow
Plaintiffs to enter a plea can be attributed to Lipetzky
based on the facts alleged.
2.

Government Code Section 27706

Plaintiffs’ final claims seeks a writ of mandate
pursuant to sections 1085 and 1086 of the California Code
of Civil Procedure to compel Lipetzky to comply with
section 27706 of the California Government Code, which
Plaintiffs contend requires her “to represent all indigent,
in custody defendants by appearing at the first appearance
of all indigent, in-custody criminal defendants, or at a
reasonable time thereafter.” TAC ¶ 62. Section 27706
reads in relevant part as follows:

144a
Appendix C
Upon request of the defendant or upon order
of the court, the public defender shall defend,
without expense to the defendant . . . any person
who is not financially able to employ counsel
and who is charged with the commission of
any contempt or offense triable in the superior
courts at all stages of the proceedings, including
the preliminary examination. The public
defender shall, upon request, give counsel and
advice to such person about any charge against
the person upon which the public defender is
conducting the defense . . . .
Cal. Gov’t Code § 27706(a). The parties devote minimal
argument to this claim. See Mot. at 14-15; Opp’n at 23-24;
Reply at 14. Lipetzky argues only that Plaintiffs have not
alleged a breach of her duties under section 27706, and
does not separately address whether a writ of mandate
is appropriate under these circumstances.
Lipetzky contends, without citation to authority, that
she “could not ‘represent’ Plaintiffs until such time as the
state court appointed her office to do so, which occurred at
the second appearance.” Reply at 14. California law does
not support that position:
The public defender is required by statute to
determine whom to represent. Government
Code section 27706, subdivision (a), provides
that “[u]pon request of the defendant or
upon order of the court, the public defender
shall defend [indigent defendants.]” (Italics

145a
Appendix C
added.) . . . “In determining whether to provide
the services of his office, the public defender
‘exercises an original power vested in him by
statute, not superior to but coequal with the
power of the court’ to determine whether a
person is entitled to be represented by the
public defender. [Citation.] The ‘Upon request’
condition of section 27706, subdivision (a),
is an important alternative circumstance to
formal court appointment to entitle a person
to representation by the public defender and
cannot be read out of the statute . . . .” (In re
Brindle (1979) 91 Cal. App. 3d 660, 681 [154
Cal. Rptr. 563].) Not only is appointment by the
court not required, the court “cannot challenge
the public defender’s decision that a person is
entitled to be represented by him . . . .” (Id. at
p. 681, 154 Cal. Rptr. 563.)
Joshua P. v. Superior Court, 226 Cal. App. 4th 957, 963-64,
172 Cal. Rptr. 3d 509 (2014) (alterations in original, except
second brackets and second ellipsis). The failure of the
state court to appoint counsel did not absolve Lipetzky of
her duty under section 27706 to represent Plaintiffs after
they requested counsel.
Lipetzky also argues that section 27706’s description
of the duty as applying to “all stages of the proceedings”
acts as a limitation, and that because the state court
continued the arraignments immediately after Plaintiffs
requested counsel, no “stages” occurred before counsel
was appointed at Plaintiffs’ second court appearances.
Reply at 14. The statute’s phrasing of “all stages” is

146a
Appendix C
broader than the “critical stages” at which counsel is
required under the Sixth Amendment, and its requirement
that the public defender “give counsel and advice to such
person about any charge” suggests that it contemplates
more than merely appearance at court proceedings on the
defendant’s behalf. See Cal. Gov’t Code § 27706(a). For the
purpose of the present motion, the Court holds that section
27706’s requirement that the public defender represent
indigent defendants upon request or appointment is not
limited to court appearances. This holding is without
prejudice to either party presenting at a later stage of
this litigation a more thorough argument regarding the
nature and interpretation of section 27706.
The Court need not decide at this time whether
section 27706 requires a public defender standing
by at a defendant’s first court appearance to provide
representation immediately if requested, or whether the
statute implicitly allows the public defender a reasonable
period of time to begin representation after request by an
indigent defendant or appointment by the court. Assuming
the latter for the sake of argument, the Court holds
that Plaintiffs have plausibly alleged that the delay was
unreasonable, as discussed above in the context of their
Sixth Amendment claim. Lipetzky’s motion to dismiss
Plaintiffs’ claim for a writ of mandate to enforce section
27706 is therefore DENIED.
IV. CONCLUSION
For the reasons discussed above, Lipetzky’s motion
is GRANTED as to Plaintiffs’ claim under section 52.1

147a
Appendix C
of the Civil Code, and as to Plaintiffs’ § 1983 claim to the
extent that it is based on a theory of failure to provide
counsel at a critical stage. Those claims are DISMISSED
without leave to amend. Lipetzky’s motion is DENIED as
to Plaintiffs’ § 1983 claim to the extent that it is based on
a theory of unreasonable delay in appointing counsel, and
as to Plaintiffs’ claim for a writ of mandate.
IT IS SO ORDERED.

148a
Appendix OF
A THE SUPREME
APPENDIX D — OPINION
COURT OF THE UNITED STATES, DATED
OCTOBER 3, 2016
SUPREME COURT OF THE UNITED STATES
No. 15–1426
ROBIN LIPETZKY,
Petitioner,
v.
JOHN FARROW, et al.,
October 3, 2016, Decided
Judges: Roberts, Kennedy, Thomas, Ginsburg, Breyer,
Alito, Sotomayor, Kagan.
OPINION
Petition for writ of certiorari to the United States
Court of Appeals for the Ninth Circuit denied.

149a
E
APPENDIX E —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED JANUARY 8, 2016
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 13-16781
JOHN FARROW AND JEROME WADE, ON
THEIR BEHALF, AND ON BEHALF OF OTHERS
SIMILARLY SITUATED,
Plaintiffs-Appellants,
v.
ROBIN LIPETZKY, CONTRA COSTA
COUNTY PUBLIC DEFENDER,
Defendant-Appellee.
December 7, 2015, Argued and Submitted,
San Francisco, California
January 8, 2016, Filed
Appeal from the United States District Court for the
Northern District of California. D.C. No. 3:12-cv-06495JCS. Joseph C. Spero, Magistrate Judge, Presiding.
Before: WARDLAW, W. FLETCHER, and MURGUIA,
Circuit Judges.

150a
Appendix E
MEMORANDUM*
John Farrow and Jerome Wade appeal the district
court’s grant of Robin Lipetzky’s motion to dismiss their
putative class-action complaint. Plaintiffs allege that
defendant “arbitrarily withheld legal representation to
indigent, in-custody, criminal defendants in felony [and
misdemeanor] matters for a period of 5 to 13 days after
their initial Court appearance, and sometimes longer, as
a matter of policy,” thereby violating their constitutional
rights to counsel, due process, and equal protection. We
have jurisdiction pursuant to 28 U.S.C. § 1291, and we
affirm in part, reverse in part, and remand for further
consideration.1
1. The district court did not err in dismissing plaintiffs’
due process claims. “[S]tate statutes may create liberty
interests that are entitled to the procedural protections of
the Due Process Clause of the Fourteenth Amendment.”
Carlo v. City of Chino, 105 F.3d 493, 497 (9th Cir. 1997)
* This disposition is not appropriate for publication and is not
precedent except as provided by 9th Cir. R. 36-3.
1. Lipetzky argues that because Wade declined to file a third
amended complaint, his claims were dismissed for failure to comply
with a court order under Federal Rule of Civil Procedure 41 rather
than for failure to state a claim under Rule 12(b)(6). However, the
district court never invoked Rule 41 in dismissing the complaint.
Instead, the court relied on Rule 12(b)(6), “permitted” Wade “one
more opportunity to amend” his Sixth Amendment claim, and closed
the case when Wade’s time to do so expired. We therefore treat the
dismissal of both Farrow’s and Wade’s claims as pursuant to Rule
12(b)(6).

151a
Appendix E
(citation omitted). Plaintiffs rely on California Penal Code
§ 859b, which provides that a defendant is entitled to a
preliminary examination “within 10 court days of the date
the defendant is arraigned or pleads, whichever occurs
later.” However, the complaint alleges that Lipetzky
delayed plaintiffs’ arraignments and pleas, not that the
preliminary examination occurred more than 10 days
later. Without an underlying violation of California’s
speedy trial scheme, plaintiffs have not adequately
pleaded a due process claim.
2. Nor did the district court err in dismissing
plaintiffs’ equal protection claim. That the assistance
of counsel at the initial appearance “might be of benefit
to an indigent defendant does not mean that the service
is constitutionally required.” Ross v. Moffitt, 417 U.S.
600, 616, 94 S. Ct. 2437, 41 L. Ed. 2d 341 (1974). Because
indigent defendants in Contra Costa County retain “an
adequate opportunity to present their claims fairly within
the adversary system,” Lipetzky’s policy does not violate
the Equal Protection Clause. Id. at 612; see also Halbert
v. Michigan, 545 U.S. 605, 610-11, 125 S. Ct. 2582, 162 L.
Ed. 2d 552 (2005); Johnson v. Oklahoma, 484 U.S. 878,
879-80, 108 S. Ct. 35, 98 L. Ed. 2d 167 (1987).
3. The district court did err in dismissing plaintiffs’
Sixth Amendment claim. The Sixth Amendment requires
that counsel “be appointed within a reasonable time
after attachment to allow for adequate representation at
any critical stage before trial, as well as at trial itself.”
Rothgery v. Gillespie County, 554 U.S. 191, 212, 128 S. Ct.
2578, 171 L. Ed. 2d 366 (2008). The complaint alleges that

152a
Appendix E
Lipetzky deprived Wade of counsel for seven days after
his initial appearance, deprived Farrow of counsel for
thirteen days after his initial appearance, and sometimes
withheld counsel from indigent defendants for periods
exceeding thirteen days.
The right to counsel “attache[d] at the [defendant’s]
initial appearance,” when “the magistrate inform[ed] the
defendant of the charge[s]” against him and “determine[d]
the conditions for pretrial release.” Rothgery, 554 U.S.
at 199 (citation omitted). However, the “question whether
[an initial appearance] signals the initiation of adversary
judicial proceedings . . . is distinct from the question
whether the [initial appearance] itself is a critical stage
requiring the presence of counsel.” Id. at 212 (omission
in original) (quoting Michigan v. Jackson, 475 U.S. 625,
630 n.3, 106 S. Ct. 1404, 89 L. Ed. 2d 631 (1986)). On the
facts alleged in the complaint, the initial appearance was
not a critical stage. See Gerstein v. Pugh, 420 U.S. 103,
122-23, 95 S. Ct. 854, 43 L. Ed. 2d 54 (1975); United States
v. Perez, 776 F.2d 797, 800 (9th Cir. 1985), overruled on
other grounds by United States v. Cabaccang, 332 F.3d
622 (9th Cir. 2003). The hearing did not “test[] the merits
of the accused’s case”; “skilled counsel” was not necessary
to “help[] the accused understand” the proceedings; and
there was no risk that an uncounseled defendant would
permanently forfeit “significant rights.” United States
v. Benford, 574 F.3d 1228, 1232 (9th Cir. 2009) (citation
omitted). Nor did the preliminary bail determination made
at the initial appearance render that hearing a critical
stage. See Rothgery, 554 U.S. at 195, 212; Gerstein, 420
U.S. at 120-23.

153a
Appendix E
The “further arraignment,” by contrast, was plainly a
critical stage because the plaintiffs entered pleas at that
hearing. See White v. Maryland, 373 U.S. 59, 60, 83 S.
Ct. 1050, 10 L. Ed. 2d 193 (1963). It is undisputed that the
plaintiffs were therefore entitled to—and received—legal
representation at their “further arraignments.”
The remaining question is whether Lipetzky appointed
counsel within a “reasonable time after attachment to
allow for adequate representation at any critical stage
before trial, as well as at trial itself.” Rothgery, 554
U.S. at 212. In other words, how soon after the Sixth
Amendment right attaches must counsel be appointed,
and at what point does delay become constitutionally
significant? Instead of addressing whether the delay in
appointing counsel was unreasonable, the district court
considered only whether the delay “impacted [plaintiff’s]
representation at subsequent critical stages of his
proceedings.” By framing the question in that way, the
district court erroneously required the plaintiffs to allege
actual prejudice. See United States v. Wade, 388 U.S.
218, 225, 236-37, 87 S. Ct. 1926, 18 L. Ed. 2d 1149 (1967)
(finding a Sixth Amendment violation based on the “grave
potential for prejudice”); Hamilton v. Alabama, 368 U.S.
52, 54, 82 S. Ct. 157, 7 L. Ed. 2d 114 (1961) (finding a Sixth
Amendment violation where the absence of counsel “may
affect the whole trial”). We therefore remand for the
district court to consider whether appointing counsel five
to thirteen days and “sometimes longer” after the right
attaches complies with the “reasonable time” requirement
articulated in Rothgery.

154a
Appendix E
4. After dismissing all of plaintiffs’ federal law claims,
the district court declined to exercise supplemental
jurisdiction over their state law claims. Because we
reverse the dismissal of plaintiffs’ Sixth Amendment
claim, we also reverse the dismissal of plaintiffs’ state
law claims.
AFFIRMED IN PART; REVERSED IN PART;
REMANDED.

155a
F THE UNITED
APPENDIX F —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA, FILED
AUGUST 7, 2013
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No. 12-cv-06495-JCS
JOHN FARROW, et al.,
Plaintiffs,
v.
ROBIN LIPETZKY,
Defendant.
August 7, 2013, Decided
August 7, 2013, Filed
ORDER GRANTING DEFENDANT’S MOTION TO
DISMISS THE SECOND AMENDED COMPLAINT
I.

INTRODUCTION

Plaintiffs John Farrow (“Farrow”) and Jerome
Wade (“Wade”) (collectively, “Plaintiffs”) brought this
putative class action against Defendant Robin Lipetzky,
in her official capacity as the Contra Costa County Public
Defender (“Defendant”). Plaintiffs allege causes of action
(1) under 42 U.S.C. § 1983 for (a) violation of the Sixth

156a
Appendix F
Amendment to the United States Constitution; and (b)
violations of the Fourteenth Amendment to the United
States Constitution; (2) under the Bane Act for violation
of their statutory speedy trial rights; and (3) for violation
of California Government Code § 27706. Plaintiffs claim
that Defendant violated their rights by failing to provide
counsel at Plaintiffs’ initial appearance on criminal
charges — resulting in a continuance of the proceedings
for appointment of counsel. This case focuses on the
constitutionality of that continuance: may the Public
Defender not provide counsel for appointment at an initial
appearance, where the result is a continuance of the
remainder of the arraignment 7 to 13 days for appointment
of counsel? This Order holds that, in the circumstances
pleaded here, such a procedure is constitutional.
Presently before the Court is Defendant’s Motion
to Dismiss the Second Amended Complaint (“Motion”).
A hearing was held on the Motion on July 26, 2013. At
the Court’s request, the parties submitted supplemental
briefing on August 2, 2013. For the following reasons, the
Motion is GRANTED. Wade will be given leave to amend
his Sixth Amendment claim within the constraints set
forth in this Order. Farrow’s federal claims are dismissed
with prejudice. Plaintiffs’ state law claims are dismissed
without prejudice.1

1. The parties have consented to the jurisdiction of a magistrate
judge pursuant to 28 U.S.C. § 636(c).

157a
Appendix F
II. BACKGROUND
A.

The May 8 , 2013 Order Dismissing the
Complaint Without Prejudice
1.

The Sixth Amendment Claim

In the May 8, 2013 Order Dismissing the Complaint
Without Prejudice (“Order”), the Court found that the
motion at issue raised two related questions:
First, does the failure to provide counsel at an
initial appearance (at which the only events that
occur are the provision of a copy of the charges
to the defendant, the inquiry as to whether
the defendant desires appointed counsel,
and the continuance of the matter to allow
for appointment of counsel) violate the Sixth
Amendment guarantee of counsel in a criminal
case? Second, where the matter is continued for
5 to 13 days, at which time counsel appears with
the defendant, does the delay in appointment of
counsel violate the Sixth Amendment?
Order, 1. The Court answered both questions in the
negative. Id.
First, the Court concluded that the Sixth Amendment
right to counsel attached at the initial appearance because,
on the facts alleged, that was when prosecution began as
to each Plaintiff. Id. at 13-14. Second, the Court stated:
“Once the right to counsel attaches, the accused is entitled

158a
Appendix F
to appointed counsel during any ‘critical stage’ of the
post-attachment proceedings.” Id. at 14 (citing Rothgery
v. Gillespie County, Texas, 554 U.S. 191, 212, 128 S.Ct.
2578, 171 L.Ed.2d 366 (2008)). Third, the Court analyzed
whether either (1) the initial appearance; or (2) the 5 to
13 day waiting period were, on the facts alleged, critical
stages at which Plaintiffs were entitled to counsel. Id. at
14-22.
To begin its analysis, the Court noted that “[c]ourts
decide whether a state criminal proceeding is critical by
looking to the functions of the proceeding under state
law.” Id. at 15 (citing Hamilton v. Alabama, 368 U.S. 52,
54, 82 S.Ct. 157, 7 L.Ed.2d 114 (1961)). The Court stated
that the Ninth Circuit has developed a three-factor test
for determining whether a stage is critical. Id. (citing
Menefield v. Borg, 881 F.2d 696, 698-99 (9th Cir. 1989);
U.S. v. Benford, 574 F.3d 1228, 1232 (9th Cir. 2009)). The
Court described the test as follows: “Any one of these
three factors may be sufficient to make a stage critical: (1)
failure to pursue strategies or remedies results in a loss
of significant rights; (2) skilled counsel would be useful in
helping the accused understand the legal confrontation;
and (3) the proceeding tests the merits of the accused’s
case.” Id. The Court reasoned that: (1) because nothing
happened at the initial appearance any failure to pursue
strategies or remedies at that appearance did not result
in a loss of significant rights; and (2) there was no legal
confrontation or proceeding at which accused was
unrepresented following the request for counsel. Id. at
16-17. The Court further concluded that the fact that, had
counsel been appointed, counsel might have applied for a

159a
Appendix F
release on bail, caused a plea to be entered, or triggered
statutory speedy trial rights did not change the analysis.
Id. at 17. The Court distinguished cases, cited by Plaintiffs,
in which pretrial liberty interests were adjudicated in the
absence of counsel. Id. at 19-20.
Next, the Court analyzed whether the five to thirteen
day waiting period between the initial appearance, at
which counsel was present, and the further arraignment,
at which counsel was appointed, was a critical stage of
the post-attachment proceedings. Id. at 16-17, 20-22.
Although Plaintiffs did not allege that any event took
place during the waiting period at which counsel would
have been necessary, the court noted that Rothgery
further requires the appointment of counsel a reasonable
time prior to any critical stage after attachment to allow
adequate representation at that critical stage. Id. at 1617, 20. However, the Court stated that Plaintiffs had not
alleged that they were prejudiced, or impeded, at any
later critical stages by the absence of counsel during the
five-to-thirteen day waiting period. Id. at 22.
Based on all of the above, the Court dismissed
Plaintiffs’ Sixth Amendment claim, on the facts alleged,
with leave to amend. Id. at 22.
2.

Fourteenth Amendment Claims Predicated
on a Violation of State Statutory Speedy
Trial Rights

The Court concluded that Plaintiffs had not alleged
a violation of their state speedy trial rights because the

160a
Appendix F
facts alleged were consistent with the requirements of
California Penal Code §§ 859b, 1049.5, and 1382. Id. at 27.
Further, the Court found that, on the facts alleged, the
procedures of § 1050 were not triggered. Id. Accordingly,
the Court dismissed Plaintiffs’ Fourteenth Amendment
claims predicated on a violation of their state statutory
speedy trial rights with leave to amend. Id. at 28.
3.

State Law Claims

After dismissing Plaintiffs’ remaining federal cause
of action, which has been replaced with a different federal
cause of action in Plaintiffs’ Second Amended Complaint
(“SAC”), the Court declined to exercise its supplemental
jurisdiction over Plaintiffs’ remaining state law claims.
Id. at 31-32.
B. The Second Amended Complaint
Pursuant to a now discontinued practice, Defendant
withheld legal representation to all indigent, in-custody,
criminal defendants for a period of 5 to 13 days after
their initial Court appearance, and sometimes longer.
SAC, ¶¶ 1-2. 2 At the first court appearance, dubbed
“arraignment,” no plea is taken, bail is set without
consideration of the favorable information counsel would
ordinarily provide to the court regarding the criminal
defendant’s circumstances, the case is referred to the
2. The SAC makes distinct allegations concerning the treatment
of in custody felony defendants and in custody misdemeanor
defendants. The SAC does not specify to which group Plaintiffs
belong.

161a
Appendix F
probation department for an evaluation concerning bail,
and counsel is not appointed as required by California
law. Id. at ¶ 3. The probation department’s evaluation and
report is based entirely upon information provided by
government sources. Id. An indigent criminal defendant’s
request for court-appointed counsel triggers referral to
the Public Defender and an automatic continuance for
“further arraignment.” Id. at ¶ 4. Criminal defendants are
not apprised of their statutory speedy trial rights prior to
the automatic continuance in violation of California law.
Id. at ¶ 6. Good cause for continuance is never shown as
required by California Penal Code § 1050. Id. This thwarts
the intent of the California legislature’s statutory speedy
trial scheme, which requires that in-custody criminal
defendants receive probable cause determinations through
a preliminary hearing at the earliest time possible to
protect their crucial liberty interest. Id. at ¶ 7.
Turning to Plaintiffs, Farrow was arrested on August
30, 2011. Id. at ¶ 28. He appeared alone in court for his
arraignment on September 2, 2011. Id. at ¶ 29. The court
asked him if he could afford counsel, and he replied that
he could not. Id. at ¶ 30. The court then asked him if he
wanted the court to appoint counsel, and he said that he
did. Id. The court set bail, referred the matter to the
Public Defender, and continued the matter to September
15, 2011 for “further arraignment” without advising
Farrow of his right to a prompt arraignment, his right
to bail, or his right to a speedy preliminary hearing and
trial. Id. Farrow languished in jail, without meaningful
examination of bail, the protection of statutory speedy
trial rights, or legal representation, for thirteen days.

162a
Appendix F
Id. Also at his September 2, 2011 arraignment, the
court referred the matter for a bail study. Id. at ¶ 31.
The bail study was conducted between Farrow’s first
and second court appearances and, because Farrow was
not represented by counsel, there was no means for the
probation department to include any favorable information
in the highly influential report. Id. at ¶ 31.
At the further arraignment held 16 days after his
arrest and 13 days after his first court appearance, counsel
was appointed for Farrow and he was permitted to enter
a plea. Id. at ¶ 32. He immediately asserted his right to a
speedy preliminary hearing and his preliminary hearing
was held on September 27, 2011. Id. at ¶ 33. As a result of
the delay in the appointment of counsel, Farrow’s counsel
had 13 less days than the prosecutor to prepare for the
preliminary hearing. Id. at ¶ 34.
Wade was arrested at his high school on November 8,
2011 when he was 17 years old. Id. at ¶ 35. He appeared
in Court alone for his arraignment on November 14, 2011
after being held illegally in violation of California Penal
Code § 825. Id. at ¶¶ 36-37. Wade was unaware of this
violation of his rights. Id. at ¶ 37. The county prosecutor
appeared at Wade’s first appearance. Id. at ¶ 38. The
proceedings at Wade’s first appearance progressed in the
same fashion as Farrow’s, and the matter was continued
to November 21, 2011 for further arraignment. Id. at
¶ 39. Also, as with Farrow, a bail study was ordered and
Wade was unable to supply favorable information because
he did not have counsel. Id. at ¶ 40. Wade languished in
jail for the following 7 days without examination of bail,

163a
Appendix F
the protection of statutory speedy trial rights, or legal
representation. Id. at ¶ 39. During that time, the police
investigation was ongoing and the district attorney was
hard at work on his case. Id. at ¶ 42. On November 18,
2011, the district attorney filed an amended complaint,
amending the complaint filed on November 10, 2011,
adding an additional fifteen charges and enhancements,
greatly increasing Wade’s exposure. Id. at ¶¶ 41, 43. The
prosecution was able to file the amended complaint as a
matter of right because Wade had not yet entered a plea
as a result of Defendant’s policy. Id. at ¶ 43.
Counsel was appointed for Wade at his further
arraignment on November 21, 2011, 13 days after his
arrest and 7 days after his first appearance as a juvenile
charged as an adult. Id. at ¶ 44. At that time, his counsel
began reviewing approximately 600 pages of discovery.
Id. at ¶ 45. In that process, counsel eventually became
aware of a potential Miranda issue. Id. Because Wade
had been interrogated in front of his high school principal,
Wade’s counsel obtained an investigative authorization and
dispatched an investigator to interview the principal about
the interrogation. Id. At the interview, held on November
28, 2011, the principal maintained that she could no longer
remember when or how Wade was Mirandized. Id.3
On the basis of the foregoing allegations, Plaintiffs
allege six causes of action, as follows:

3. In addition to the allegations pertaining to Plaintiffs, the SAC
contains allegations concerning the putative class they represent.

164a
Appendix F
(1) Violation of the Sixth Amendment of the United
States Constitution Pursuant to 42 U.S.C. § 1983:
Plaintiffs allege that Defendant’s failure to represent them
at their first appearance, or a reasonable time thereafter,
as a matter of policy, violated their Sixth Amendment right
to the assistance of court-appointed counsel. Id. at ¶ 57.
Plaintiffs allege that they were directly and proximately
damaged and are entitled to recover nominal damages. Id.
(2) Violation of the Fourteenth Amendment of the
United States Constitution — substantive due process
with respect to statutory speedy trial rights: Plaintiffs
allege that Defendant’s policy violated the due process
clause of the Fourteenth Amendment because it deprived
them of their statutory speedy trial rights without a
hearing to determine the cause or reasonableness of
the denial. Id. at ¶ 60. They seek nominal damages. Id.
Plaintiffs specify that their speedy trial plains rely on
California Penal Code §§ 825, 859b, and 1050, specifically,
but not exclusively, and on the legislative intent supporting
California’s statutory speedy trial scheme. Id. at ¶ 10.
(3) Violation of the Fourteenth Amendment of the
United States Constitution — procedural due process
with respect to statutory speedy trial rights: Plaintiffs
repeat the allegations in their second cause of action. Id.
at ¶ 63.
(4) Violation of the Equal Protection Clause of the
Fourteenth Amendment of the United States Constitution:
Plaintiffs allege that Defendant’s policy denied them their
right to a prompt arraignment, their right to assistance

165a
Appendix F
of counsel, and their statutory speedy trial rights on
the basis of their indigence because similarly situated
criminal defendants who could afford private counsel were
furnished prompt arraignments, were permitted to enter
pleas at their first appearance, were allowed to influence
the probation department with favourable information
concerning bail in the days following arraignment, were
immediately able to apply for bail, and were immediately
able to assert their statutory speedy trial rights and
begin trial preparation. Id. at ¶ 66. Plaintiffs seek nominal
damages. Id.
(5) California Civil Rights Act, Civil Code §§ 52 and
52.1 — denial of statutory speedy trial rights: Plaintiffs
allege that Defendant’s policies forced them to sacrifice
their speedy trial rights as a precondition to appointment
of counsel, entitling them to a minimum of $4,000. Id. at
¶ 69.
(6) California Code of Civil Procedure §§ 1085 and
1086 — writ of mandate to enforce California Government
Code § 27706: Plaintiffs allege that Defendant’s policies
violate California Government Code § 27706, which
requires the public defender to represent criminal
defendants at all stages of the proceedings, and seek a
writ of mandate compelling Defendant to represent all
indigent, in custody defendants at the first appearance
or a reasonable time thereafter. Id. at ¶ 72.

166a
Appendix F
C.

The Motion

Defendant argues that Plaintiffs have failed to rectify
the deficiencies in their Complaint. Motion, 4. First,
Defendant argues that there has been no violation of
the Sixth Amendment’s right to assistance of counsel.
Motion, 4-9. Defendant states that Article I, section 14 of
the California Constitution, which governs arraignments
in felony prosecutions, provides in relevant part: “The
magistrate shall immediately give the defendant a copy
of the complaint, inform the defendant of the defendant’s
right to counsel, allow the defendant a reasonable time
to send for counsel, and on the defendant’s request read
the complaint to the defendant.” Id. at 4-5. Defendant
asserts that the SAC is predicated on an alleged failure
to provide counsel at a non-critical stage. Id. at 5. In that
instance, they argue that Plaintiffs must show prejudice
to their substantive rights as a result of the absence of
counsel. Id. (citing McNeal v. Adams, 623 F.3d 1283, 1288
(9th Cir. 2010)). Defendant contends that Plaintiffs cannot
do so. Id. In that vein, Defendant argues that Plaintiffs
cannot plausibly suggest that their lack of input into the
bail studies caused them prejudice as they would have been
able to raise any bail rights at a subsequent bail hearing.
Id. at 5-6 (citing Cal. Penal Code § 1270.1(b)-(c); State of
New Jersey v. Anthony Fann, 239 N.J.Super. 507, 517-18,
520-21, 571 A.2d 1023 (1990)). Moreover, Defendant argues
that none of the allegations specific to Wade plausibly
states a claim of prejudice. Id. at 7-9.
Second, Defendant argues that Plaintiffs cannot
demonstrate that any of their state statutory speedy trial

167a
Appendix F
rights because (1) the Court held in its previous Order
that Plaintiffs’ did not allege a violation of California
Penal Code § 859b because Plaintiffs did not allege that
a preliminary examination was not held within 10 court
days of the date they were arraigned or pled, whichever
occurs later; (2) the Court held in its previous Order
that California Penal Code § 1050 lacks the mandatory
language to create a liberty interest protected by the
Fourteenth Amendment; and (3) California Penal Code
§ 825 does not mandate dismissal in the event of a violation.
Id. at 9-10. As to § 825, Defendant also argues that she
had no control over the time when Plaintiffs were initially
brought before the magistrate. Id. at 10. Moreover,
Defendant contends that § 825 does not mandate that
arraignment be completed when the criminal defendant
is first brought before the magistrate. Id.
Third, Defendant argues that Plaintiffs cannot
establish a violation of the Fourteenth Amendment based
on the Equal Protection Clause because Defendant does
not represent individuals who can afford counsel with the
exception of capital defendants and because a single policy
that does not distinguish between classes of individuals
cannot support an equal protection claim. Id. at 10-11.
Fourth, Defendant contends that Plaintiffs remaining
state law claims should be dismissed without prejudice
for lack of subject matter jurisdiction. Id. at 11. In the
alternative, Defendant argues that the state law claims are
without merit because (1) Plaintiffs have failed to allege
any violation of their state speedy trial rights; and (2)
Defendant complies fully with the directive of California

168a
Appendix F
Government Code § 27706(a) to defend “[u]pon request
of the defendant or upon order of the court.” Id. at 11-12.
D.

The Opposition

First, Plaintiffs argue that Defendant’s policy is
unconstitutional because counsel is required at all critical
stages, and arraignment is a critical stage in California.
Plaintiffs’ Response in Opposition to Defendant’s
Rule 12(b)(6) Motion to Dismiss the Second Amended
Complaint (“Opposition”), 2. Plaintiffs contend that the
Court erroneously overruled California law in its previous
Order by concluding that the initial appearance, including
the initial portions of the arraignment, is not a critical
stage. Id. Plaintiffs begin by stating that critical stages
are specific to the jurisdiction, not to the defendant.
Id. at 5 (citing Hamilton, 368 U.S. at 54, 82 S.Ct. 157, 7
L.Ed.2d 114). Plaintiffs further state that considerations
regarding a specific defendant come into play only when
considerations of prejudice — in addition to the denial
of counsel at a “critical stage” — may be required to
reverse a conviction. Id. at 5. Plaintiffs contend that any
analysis of prejudice is irrelevant to a civil action brought
under § 1983. Id. Plaintiffs note that numerous California
courts have held that arraignment is a critical stage of the
criminal proceedings entitling the accused to an attorney,
although the absence of counsel may not be such a grievous
error that it compels reversal of a conviction without
showing of prejudice. Id. at 7 (collecting cases, including
People v. Cox, 193 Cal.App.3d 1434, 1440, 239 Cal.Rptr.
40 (1987)). In addition to their argument that California
precedent compels the conclusion that the arraignment is

169a
Appendix F
a critical stage in the proceedings, Plaintiffs assert that
arraignment is a critical stage because detainees would
benefit from guidance to avoid a forced continuance and
because custody status is initially determined. Id. at
8-9. However, Plaintiffs decline to re-litigate whether
arraignment is a critical stage of the proceedings in
California. Id. at 9.
As to the waiting period, Plaintiffs state that Rothgery
“point[s] the way” to the conclusion that counsel must
be appointed “on the heels of the first appearance.” Id.
at 10-11 (citing Rothgery, 554 U.S. at 203-05, 128 S.Ct.
2578, 171 L.Ed.2d 366. Plaintiffs assert that each of the
three district court opinions interpreting Rothgery are
inapposite. Id. at 10.
Moreover, Plaintiffs argue that the Court erred in
concluding that the portions of the arraignment that
took place without the presence of counsel were not a
critical stage of the proceedings in themselves. Id. at 1114. Plaintiffs state that the Sixth Amendment requires
counsel to be provided at every stage of a criminal
proceeding where substantial rights of a criminal accused
may be affected. Id. at 11 (citing McNeal, 623 F.3d at
1286). Plaintiffs state that prejudice is irrelevant to
the determination of whether the stage is critical. Id.
Plaintiffs argue that the Court erroneously relied on
Benford, because Benford is distinguishable based on its
reliance on the reversible per se standard as opposed to
narrower question of harmless error. Id. at 2-3 (citing
Benford, 574 F.3d at 1233 (“[W]e do not hold that a status
conference never can be a critical stage, but only that

170a
Appendix F
this one was not. Additionally, because we address here
only Defendant’s claim that the absence of his counsel
at the status conference constitutes per se ineffective
assistance of counsel, he may bring all other claims in a
habeas proceeding, the validity of which we do not consider
here”)). In any event, to the extent that a showing of
prejudice is required, Plaintiffs contend that they have
alleged prejudice. Id. at 14.
Second, Plaintiffs argue that Defendant violated
the Fourteenth Amendment by deliberately failing to
assert their state statutory speedy trial rights. Id. at
14-18. Plaintiffs contend that the Court overlooked the
fact that the core value protected by California’s speedy
trial scheme is time, and that once lost it can never be
recovered. Id. at 14. Moreover, Plaintiffs assert that the
legislative intent behind the speedy trial statutes dictates
that they be read as a whole in light of their goal of
preventing prolonged incarceration prior to a preliminary
hearing. Id. at 14-17 (citing People v. Kowalski, 196 Cal.
App.3d 174, 178, 242 Cal.Rptr. 32 (1987); In re Samano,
31 Cal.App.4th 984, 989-90, 37 Cal.Rptr.2d 491 (1995);
Sykes v. Superior Court, 9 Cal.3d 83, 88, 106 Cal.Rptr.
786, 507 P.2d 90 (1973); People v. Martinez, 22 Cal.4th 750,
768 n.1, 94 Cal.Rptr.2d 381, 996 P.2d 32 (2000); People v.
Valencia, 82 Cal.App.4th 139, 144-45, 98 Cal.Rptr.2d 37
(2000)). Plaintiffs state that a criminal defendant’s right
to a speedy trial may be denied by the failure of the state
to provide public defenders so that an indigent must
choose between his right to a speedy trial and his right
to representation by counsel. Id. at 16 (citing People v.
Johnson, 26 Cal.3d 557, 571, 162 Cal.Rptr. 431, 606 P.2d

171a
Appendix F
738 (1980)). Plaintiffs contend that Defendant subverted
the statutory scheme by failing to appear at the initial
appearance. Id. at 17-18.
Third, Plaintiffs contend that they have stated a claim
under the equal protection clause. Id. at 18-19. Plaintiffs
argue that the state cannot justify, in the face of strict
scrutiny, a policy that denies speedy trial rights to indigent
people. Id. at 18-19 (citing Barsamyan v. Appellate Div.
of Superior Court of Los Angeles Cnty., 44 Cal.4th 960,
981-82, 81 Cal.Rptr.3d 265, 189 P.3d 271 (2008); Young
v. Gnoss, 7 Cal.3d 18, 28, 101 Cal.Rptr. 533, 496 P.2d 445
(1972); People v. Olivas, 17 Cal.3d 236, 251, 131 Cal.Rptr.
55, 551 P.2d 375 (1976); Evitts v. Lucey, 469 U.S. 387, 40304, 105 S.Ct. 830, 83 L.Ed.2d 821 (1985)).
E. The Reply
Defendant begins with Plaintiffs’ Sixth Amendment
claim. Reply Brief of Defendant in Support of Motion
to Dismiss Second Amended Complaint (“Reply”), 3-7.
Defendant notes that the Court did not hold in its prior
Order that arraignment under California law is not a
critical stage. Id. at 4 n.3. Indeed, Defendant concedes
that the second appearance wherein arraignment was
completed was a critical stage. Id. at 5 n.4. Regardless,
Defendant states that the initial appearance was not a
critical stage for the reasons set out in the Court’s prior
Order. Id. at 4. Defendant argues that Plaintiffs have not
identified any contrary authority. Id. at 4-5 (collecting
and distinguishing cases). Because counsel was present
at all critical stages, Defendant asserts that Plaintiffs’

172a
Appendix F
were required to plead factual allegations to support the
inference that the absence of counsel until the second
appearance resulted in prejudice to their criminal cases
to plead a violation of the Sixth Amendment. Id. at 6-7
(citing United States v. Gonzalez-Lopez, 548 U.S. 140, 144,
147, 150, 126 S.Ct. 2557, 165 L.Ed.2d 409 (2006); Hovey
v. Ayers, 458 F.3d 892, 904 (9th Cir. 2006); McNeal, 623
F.3d at 1288-89).
Next, Defendant addresses the statutory speedy
trial claim. Id. at 7-9. Defendant argues that Plaintiffs
cannot rely on California Penal Code §§ 859b and 1050
for the reasons set out in the Court’s prior Order. Id. at
7. Defendant contends that Plaintiffs cannot rely on § 825
because they have not adequately alleged a violation of
that section and because it does not mandate dismissal
in the event of a violation. Id. Defendant notes that
Plaintiffs argument relies, to some extent, on the intent
of the legislature. Id. at 7-8. Defendant asserts that the
history of California Penal Code § 1382 demonstrates
that the legislature intended to permit delays such as the
one in this case. Id. at 8. Defendant states that § 1382(a)
(2) provides speedy trial protections that, since 1965,
have been triggered by the date the criminal defendant
is arraigned. Id. Prior to 1965, the statute had used at
least two different triggers. In 1977, a California Court
of Appeal held that a multiple hearing arraignment
was not concluded for the purposes of § 1382 until the
criminal defendant was asked to plea. Id. (citing Valdes
v. Municipal Court, 69 Cal.App.3d 434, 435-39, 138 Cal.
Rptr. 50 (1977)). Thereafter, the legislature amended
§ 1382 but retained the arraignment trigger. Id. (citing

173a
Appendix F
People v. Baca, 211 Cal.App.3d 675, 678, 259 Cal.Rptr.
566 (1989)).
Turning to the equal protection clause argument,
Defendant contends that Plaintiffs rely on an underlying
violation of their speedy trial rights. Id. at 9-10. Because
Defendant argues that there was no such violation,
Defendant asserts that the equal protection clause claim
fails. Id. at 10.
Having addressed all federal claims, Defendant
argues that the remaining state law claims should be
dismissed without prejudice for lack of subject matter
jurisdiction. Id. at 10-11.
F.

Supplemental Briefing

At the July 26, 2013 hearing, the Court requested
supplemental briefing to address the recent Ninth Circuit
opinion in Lopez-Valenzuela v. County of Maricopa, 719
F.3d 1054, 2013 U.S. App. LEXIS 12269, 2013 WL 2995220
(9th Cir. June 18, 2013), which is discussed in more detail
below. Defendant argues that the Lopez-Valenzuela
decision, and its underlying logic, supports the ruling
in the prior Order. Defendant’s Supplemental Brief in
Support of Motion (“Defendant’s Supplemental”), 3.4
4. Defendant also uses the supplemental brief as a vehicle
to press arguments concerning Wade’s potential ability to allege
prejudice if he is given leave to amend. Defendant’s Supplemental,
3-5. The Court did not invite further argument on that issue, and
Plaintiffs, properly understanding the Court’s request, did not
address the issue in their supplemental brief. The Court does

174a
Appendix F
Pl a i nt i f f s a r g ue t h at L o p e z-Va l e n z u e l a i s
distinguishable. The foundation of Plaintiffs’ argument
is that the Arizona procedure in Lopez-Valenzuela was
held in accordance with the statutory design, whereas
the initial appearance in this case should have been a
complete arraignment in accordance with California law.
Plaintiffs’ Supplemental Brief re: Lopez-Valenzuela v.
County of Maricopa (“Plaintiffs’ Supplemental”), 4-9.
Plaintiffs distinguish the initial appearances at issue in
Lopez-Valenzuela from arraignment in California. Id. at
4. Plaintiffs do not dispute that the Arizona legislature
can provide for an initial appearance as described in
Lopez-Valenzuela, or that counsel would not be required
at such an appearance. Id. at 4-5. Instead, Plaintiffs argue
that Defendant usurped the role of the legislature by
bifurcating the California arraignment proceedings to
impose an Arizona-style initial appearance. Id. at 4-5, 9.
III. ANALYSIS
A.

Legal Standard

A complaint may be dismissed for failure to state a
claim for which relief can be granted under Rule 12(b)(6)
of the Federal Rules of Civil Procedure. Fed. R. Civ. P.
12(b)(6). “The purpose of a motion to dismiss under Rule
12(b)(6) is to test the legal sufficiency of the complaint.” N.
Star. Int’l v. Ariz. Corp. Comm’n, 720 F.2d 578, 581 (9th
Cir. 1983). In ruling on a motion to dismiss under Rule
not consider these additional arguments Defendant raises in her
supplemental brief.

175a
Appendix F
12(b)(6), the Court takes “all allegations of material fact
as true and construe[s] them in the light most favorable to
the non-moving party.” Parks Sch. of Bus. v. Symington,
51 F.3d 1480, 1484 (9th Cir. 1990).
Generally, the plaintiff’s burden at the pleading stage
is relatively light. Rule 8(a) requires a “short and plain
statement of the claim showing that the pleader is entitled
to relief.” Fed. R. Civ. P. 8(a)(2). The complaint need not
contain “detailed factual allegations,” but must allege facts
sufficient to “state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 663, 129 S.Ct. 1937,
173 L.Ed.2d 868 (2009) (citing Bell Atl. Corp. v. Twombly,
550 U.S. 544, 547, 127 S.Ct. 1955, 167 L.Ed.2d 929 (2007)).
The factual allegations must be definite enough to “raise a
right to relief above the speculative level on the assumption
that all of the complaint’s allegations are true.” Twombly,
550 U.S. at 545, 127 S.Ct. 1955, 167 L.Ed.2d 929. “[T]he
tenet that a court must accept a complaint’s allegations
as true is inapplicable to threadbare recitals of a cause
of action’s elements, supported by mere conclusory
statements.” Iqbal, 556 U.S. at 663, 129 S.Ct. 1937, 173
L.Ed.2d 868.
B. 42 U.S.C. § 1983
42 U.S.C. § 1983 provides a cause of action against
any person who, under color of state law, deprives another
of any rights, privileges, or immunities secured by the
Constitution or laws of the United States. § 1983 is not
a source of substantive rights, but merely a method
for vindicating federal rights established elsewhere.

176a
Appendix F
Graham v. Connor, 490 U.S. 386, 393-94, 109 S.Ct. 1865,
104 L.Ed.2d 443 (1989). To state a claim for a violation
of § 1983, a plaintiff must allege a deprivation of a
constitutional right by a government official acting “under
color of state law.” Broam v. Bogan, 320 F.3d 1023, 1028
(9th Cir. 2003).
Plaintiffs sufficiently allege that Defendant, sued in
her official capacity as the Public Defender for Contra
Costa County, acted “under the color of state law.” See Am.
Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50, 119 S.Ct.
977, 143 L.Ed.2d 130 (1999) (allegations against public
officials satisfy the state action requirement); Miranda v.
Clark County, 319 F.3d 465, 469-71 (9th Cir. 2003) (Public
Defender is a state actor for the purposes of § 1983 when
acting solely as the administrative head of the agency,
on behalf of the county, in determining how the overall
resources of the Public Defender’s office will be spent).
“[A] local government body may be liable if it has a
policy of inaction and such inaction amounts to a failure
to protect constitutional rights. [Citation]. However, the
policy of inaction must be more than mere negligence,
[citation]; it must be a conscious or deliberate choice among
various alternatives. [Citation].” Mortimer v. Baca, 594
F.3d 714, 722 (9th Cir. 2010) (quoting Berry v. Baca, 379
F.3d 764, 767 (9th Cir. 2004)); see also Oviatt v. Pearce,
954 F.2d 1470, 1474 (9th Cir. 1992). To impose liability
based on a policy of deliberate inaction, the “plaintiff
must establish: (1) that he possessed a constitutional
right of which he was deprived; (2) that the municipality
had a policy; (3) that this policy amounts to deliberate

177a
Appendix F
indifference to the plaintiff’s constitutional right; and
(4) that the policy [was] the moving force behind the
constitutional violation.” Oviatt, 954 F.2d at 1474 (internal
quotations omitted).
C.

Sixth Amendment Right to Counsel

As discussed below, Plaintiffs have not alleged facts
that show a violation of their Sixth Amendment right
to counsel. Accordingly, Defendant’s Motion to dismiss
their first cause of action, asserting a § 1983 claim for
a violation of that right, is granted. Farrow’s Sixth
Amendment claim is dismissed with prejudice. Wade’s
Sixth Amendment claim is dismissed with leave to amend
within the constraints set forth below.
1.

Background Law
a.

Attachment

The Sixth Amendment right to counsel in criminal
prosecutions attaches when prosecution begins. Rothgery,
554 U.S. at 198-99, 128 S.Ct. 2578, 171 L.Ed.2d 366 (citing
McNeil v. Wisconsin, 501 U.S. 171, 175, 111 S.Ct. 2204,
115 L.Ed.2d 158 (1991)). Prosecution begins with the
initiation of adversarial judicial criminal proceedings,
“whether by way of formal charge, preliminary hearing,
indictment, information, or arraignment.” Id. at 198-99
(quoting United States v. Gouveia, 467 U.S. 180, 188, 104
S.Ct. 2292, 81 L.Ed.2d 146 (1984)). Federal law determines
what suffices as a commitment to prosecute for purposes
of the attachment of the right to counsel. Id. at 207 (citing

178a
Appendix F
Moran, 475 U.S. at 429, n. 3 (“[T]he type of circumstances
that would give rise to the right would certainly have
a federal definition”). The right to counsel attaches at
the initial appearance before a judicial officer, which is
generally the hearing at which “the magistrate informs
the defendant of the charge in the complaint, and of
various rights in further proceedings,” and “determine[s]
the conditions for pretrial release.” Id. (citing 1 W. LaFave,
J. Israel, N. King, & O. Kerr, Crim. P. § 1.4(g), p 135 (3d
ed. 2007)).
b.

Critical Stage Determination

Once the right to counsel attaches, the accused is
entitled to appointed counsel during any “critical stage”
of the post-attachment proceedings. Rothgery, 554 U.S.
at 212, 128 S.Ct. 2578, 171 L.Ed.2d 366. “[C]ourts are
“require[d] ... to conclude that a trial is unfair if the
accused is denied counsel at a critical stage of his trial.’”
Musladin v. Lamarque, 555 F.3d 830, 836 (9th Cir. 2009)
(quoting United States v. Cronic, 466 U.S. 648, 659, 104
S.Ct. 2039, 80 L.Ed.2d 657 (1984)); see also Benford, 574
F.3d at 1232.
A critical stage is a “stage of a criminal proceeding
where substantial rights of a criminal accused may be
affected.” Hovey, 458 F.3d at 901 (quoting Mempa v. Rhay,
389 U.S. 128, 134, 88 S.Ct. 254, 19 L.Ed.2d 336 (1967)).
While there is no definitive list of critical stages, decisions
of the United States Supreme Court identify certain
stages as critical. See Iowa v. Tovar, 541 U.S. 77, 81, 124
S.Ct. 1379, 158 L.Ed.2d 209 (2004) (entry of a guilty plea);

179a
Appendix F
Gardner v. Florida, 430 U.S. 349, 358, 97 S.Ct. 1197, 51
L.Ed.2d 393 (1977) (sentencing); United States v. Wade,
388 U.S. 218, 236-37, 87 S.Ct. 1926, 18 L.Ed.2d 1149
(1967) (post-indictment lineup). Case law also illustrates
stages that are not critical. Gilbert v. California, 388 U.S.
263, 267, 87 S.Ct. 1951, 18 L.Ed.2d 1178 (1967) (taking a
handwriting sample); United States v. Ash, 413 U.S. 300,
321, 93 S.Ct. 2568, 37 L.Ed.2d 619 (1973) (post-indictment
photo lineup); Hovey, 458 F.3d at 902 (mid-trial hearing
on the competency of defendant’s lawyer).
Courts decide whether a state criminal proceeding
is critical by looking to the functions of the proceeding
under state law. See Hamilton, 368 U.S. at 54, 82 S.Ct.
157, 7 L.Ed.2d 114 (“Whatever may be the function and
importance of arraignment in other jurisdictions, we
have said enough to show that in Alabama it is a critical
stage in a criminal proceeding”); see also United States
ex rel. Cooper v. Reincke, 333 F.2d 608, 612 (2d Cir. 1964)
(“The Connecticut hearing in probable cause cannot,
therefore, be characterized as critical as is arraignment
in Alabama”).
The Ninth Circuit has developed a three-factor test
for determining whether a stage is critical. Menefield,
881 F.2d at 698-99; Benford, 574 F.3d at 1232; McNeal v.
Adams, 623 F.3d at 1289. Any one of these three factors
may be sufficient to make a stage critical: (1) failure
to pursue strategies or remedies results in a loss of
significant rights; (2) skilled counsel would be useful in
helping the accused understand the legal confrontation;
and (3) the proceeding tests the merits of the accused’s

180a
Appendix F
case. Menefield, 881 F.2d at 699; Hovey, 458 F.3d at 901-02.
In reviewing the plaintiff’s lack of counsel at a motion for a
new trial, the Menefield court considered the substantive
rights in question and whether the presence of counsel
would have helped the defendant enforce those rights. Id.
First, Plaintiffs argue that there is a distinction
between a “critical stage” where counsel is required by
the Sixth Amendment and a critical stage where, pursuant
to Cronic, prejudice is presumed where counsel is absent.
Opposition, 12-14. Plaintiffs argue that the Ninth Circuit’s
three factor test only applies in the latter situations. Id.
at 13 (citing McNeal, 623 F.3d at 1289-90 (Berzon, J.,
concurring in the judgment)). In McNeal, the majority
opinion set out to clarify the difference between a stage
at which the defendant has a right to counsel and a critical
stage requiring per se reversal if counsel is absent. See
McNeal, 623 F.3d at 1285. Without clearly delineating
the analysis, the McNeal majority first held that the
proceeding at issue was not a critical stage because it
involved no “significant consequences” to the defendant’s
case. Id. at 1288. The McNeal majority proceeded to
conclude that the proceeding at issue was not a Cronic
critical stage applying the above-referenced three factor
test. Id. at 1289. The concurring opinion relied on Hovey
in criticizing the majority for applying a “significant
consequences” test as opposed to determining whether
the proceeding was “any stage of a criminal proceeding
where substantial rights of a criminal accused may be
affected.” Id. at 1289-90. Hovey stated as follows:

181a
Appendix F
We reject Hovey ’s claim that his Si xth
Amendment right to counsel was violated
because he was represented only by conflicted
counsel, and thus effectively unrepresented,
during the competency hearing. The right
to counsel, and the “correlative right” to
unconflicted counsel, [citation], attach at all
critical stages of a criminal prosecution. See,
e.g., United States v. Wade, 388 U.S. 218, 224-25,
87 S.Ct. 1926, 18 L.Ed.2d 1149 (1967). A critical
stage is any “stage of a criminal proceeding
where substantial rights of a criminal accused
may be affected.” Mempa v. Rhay, 389 U.S. 128,
134, 88 S.Ct. 254, 19 L.Ed.2d 336 (1967); see
also Bell v. Cone, 535 U.S. 685, 696, 122 S.Ct.
1843, 152 L.Ed.2d 914 (2002) (defining a critical
stage as “a step of a criminal proceeding,
such as arraignment, that [holds] significant
consequences for the accused”).
On the basis of Supreme Court precedent,
principally Mempa and United States v. Ash,
413 U.S. 300, 309, 313, 93 S. Ct. 2568, 37 L.
Ed. 2d 619 (1973), we have distilled a threefactor test for determining what constitutes
a critical stage. We consider whether: (1)
“failure to pursue strategies or remedies
results in a loss of significant rights,” (2)
“skilled counsel would be useful in helping the
accused understand the legal confrontation,”
and (3) “the proceeding tests the merits of the
accused’s case.” Menefield v. Borg, 881 F.2d 696,

182a
Appendix F
698-99 (9th Cir. 1989). The presence of any of
these factors may be sufficient to render a stage
in the proceedings “critical.” Cf. Ash, 413 U.S.
at 313, 93 S.Ct. 2568 (noting that the relevant
inquiry is “whether the accused require[s] aid
in coping with legal problems or assistance in
meeting his adversary”) (emphasis added)).
Based on the specific facts of this case,
we conclude that the attorney competency
hearing...
Hovey, 458 F.3d at 901-902. The clear import of Hovey
is that a proceeding is only a critical stage wherein the
right to counsel attaches if at least one of the three factors
set forth in Menefield is present. See also Menefield, 881
F.2d at 698-99 (deriving the three factor test to determine
whether the hearing at issue was a critical stage at which
the Sixth Amendment provision of effective assistance of
counsel applied); Benford, 574 F.3d at 1232.
More recent Ninth Circuit precedent continues to
apply the three-factor test to determine whether state
court criminal proceedings “are critical stages that
trigger the Sixth Amendment Right to Counsel.” See
Lopez-Valenzuela, __ F.3d __, 2013 U.S. App. LEXIS
12269, 2013 WL 2995220, at *11. In accordance with the
decisions running from Menefield to Lopez-Valenzuela,
the Court concludes that the three-factor test set forth
above is properly applied in determining whether a
particular state court criminal proceeding is a “critical
stage[] that trigger[s] the Sixth Amendment right to
counsel.” Id.

183a
Appendix F
Second, Plaintiffs contend that the Court should not
apply the Ninth Circuit’s three-factor test to the state
procedures in this case because California courts have
already determined that arraignment is a critical stage
in the proceedings. 5 The Court agrees that arraignment
is a critical stage of the proceedings. Nothing in its prior
Order is to the contrary. However, on the facts alleged,
counsel was requested immediately after arraignment
began and no further arraignment proceedings were
undertaken until counsel was present, at which time the
arraignment was completed. See Order, 15-16; Cal. Penal
Code § 988; Chartuck v. Municipal Court, 50 Cal. App. 3d
931, 123 Cal. Rptr. 816 (1975) (holding that arraignment
is complete when the court asks the defendant whether
he pleads guilty or not guilty, rejecting decisions holding
that arraignment is complete upon entry of plea).
The cases on which Plaintiffs rely do not shed any
light on whether the initial appearance in the present case,
which did not include the entirety of the arraignment,
was a critical stage of the proceedings. See Cox, 193 Cal.
App.3d at 1440, 239 Cal.Rptr. 40 (at the arraignment the
criminal defendant waived the reading of the information
5. Plaintiffs implicitly contend that the question of whether a
proceeding in California is a critical stage for the purposes of the
Sixth Amendment is a question of state law. They are incorrect.
Federal principles govern the inquiry concerning whether a state
procedure is a critical stage. See, e.g., Musladin, 555 F.3d at 83943; Benford, 574 F.3d at 1232 n.2 (noting that Musladin applied a
more general formulation of the three-part test applied in the Ninth
Circuit, but stating that Musladin did not amount to a departure
from that test). Of course, the analysis is specific to the state
procedure.

184a
Appendix F
and the right to a speedy trial and entered a plea of not
guilty to all counts); In re Johnson, 62 Cal.2d 325, 328-29,
42 Cal.Rptr. 228, 398 P.2d 420 (1965) (criminal defendant
entered guilty plea at arraignment without counsel and
was sentenced immediately after the other matters on
the court’s calendar for the day had been attended to);
Ingram v. Justice Court, 69 Cal.2d 832, 835, 838, 73 Cal.
Rptr. 410, 447 P.2d 650 (1968) (holding that the public
defender’s determination that a person is indigent is not
subject to judicial review where trial court refused to allow
the public defender to represent the petitioner seeking
to set aside an eight-year-old conviction on the ground;
stating in dicta that in the hypothetical situation where
a defendant seeks out the public defender for assistance
prior to his first court appearance the period preceding
arraignment is a stage that is often of critical importance);
People v. Viray, 134 Cal.App.4th 1186, 1190, 36 Cal.
Rptr.3d 693 (2005) (interrogation by prosecutor on the
morning of criminal defendant’s arraignment violated the
Sixth Amendment right to counsel but was insufficient to
justify reversal); Phillips v. Seely, 117 Cal. Rptr. 863, 43
Cal. App. 3d 104 (1974) (no critical stage analysis); People
v. Ferry, 237 Cal.App.2d 880, 887, 890, 47 Cal.Rptr. 324
(1965) (holding (1) that defendant was indigent and entitled
to representation by the public defender; (2) that the public
defender’s duty to provide counsel ceases when defendant
retains private counsel; and (3) failing to find that the
defendant was unrepresented at any critical stage); In re
Smiley, 66 Cal.2d 606, 615-16, 625, 58 Cal.Rptr. 579, 427
P.2d 179 (1967) (criminal defendant was indigent at the
time of trial, was not advised he could have an attorney
appointed by the court, and had not waived the right to

185a
Appendix F
counsel such that his constitutional right to counsel was
violated; stating that if the defendant is unrepresented
at the time of arraignment the court must ask him if he
desires the aid of counsel and if he desires and is unable
to employ counsel, the court must assign counsel to
defend him); People v. Cummings, 255 Cal.App.2d 341,
343, 346-47, 62 Cal.Rptr. 859 (1967) (criminal defendant
was represented himself at arraignment, the preliminary
hearing, and trial; reversing conviction because there
was no effective waiver of the right to counsel); People v.
Pettingill, 21 Cal.3d 231, 145 Cal.Rptr. 861, 578 P.2d 108
(1978) (criminal defendant was detained for prolonged
custodial interrogation prior to arraignment); In re
Brindle, 91 Cal.App.3d 660, 670 154 Cal.Rptr. 563 (1979)
(trial court properly granted the public defender the right
to access the criminal defendants who were inmates in the
California Men’s Colony); People v. Carlon, 161 Cal.App.3d
1193, 1196, 1196 n.2, 208 Cal.Rptr. 18 (1984) (holding that
refusal to appoint counsel at arraignment was error, but
harmless error, where, at arraignment, upon the request
for counsel, the court informed the criminal defendant
that the public defender did not have anyone to staff the
court and therefore asked him to enter a not guilty plea
and set the matter for pre-trial and jury trial); People
v. Howell, 178 Cal.App.3d 268, 269-71, 223 Cal.Rptr. 818
(1986) (holding that an indigent accused who is provided
counsel for the arraignment only must be advised of and
waive his right to appointed counsel at all subsequent
stages of the proceedings before the court may accept
his guilty plea; criminal defendant entered guilty plea
at arraignment); Ng v. Superior Court, 4 Cal.4th 29,
36-37, 13 Cal.Rptr.2d 856, 840 P.2d 961 (1992) (holding

186a
Appendix F
that the California Constitution, and related statutory
provisions, do not require multiple prompt arraignments
where the criminal accused has been promptly arraigned
in one county and is being held there as a result of those
charges). Thus, Plaintiffs have offered no authority for
the proposition that the initial appearance held in Contra
Costa County was by itself a critical stage at which counsel
was required to be present.
Plaintiffs further argue that the Court cannot
divide the arraignment into its constituent portions and
determine whether any constituent portion alone amounts
to a non-critical stage. However, the facts giving rise to
this case are such that the arraignment was bifurcated.6
Plaintiffs were unrepresented at the initial portion but
represented at the continued arraignment. To determine
whether there has been a violation of the Sixth Amendment
based on a deprivation of counsel at a critical stage, the
Court must ascertain whether the only hearing at which
Plaintiffs were unrepresented was a critical stage. In
addition, the Court must ascertain whether the waiting
period following the initial appearance was a critical stage.

6. Plaintiffs argue that the Court must look to the jurisdictional
practice, as opposed to the facts of an individual case, to determine
whether a given stage of the proceedings is critical. Yet Plaintiffs also
allege that the practice throughout the jurisdiction of Contra Costa
County in the relevant time period was to divide the arraignment
in this manner.

187a
Appendix F
c.

Appointment of Counsel a
Reasonable Time After Attachment
Where Counsel Was Present at All
Subsequent Critical Stages

In Rothger y, the Supreme Cour t stated that
“counsel must be appointed within a reasonable time
after attachment to allow for adequate representation at
any critical stage before trial, as well as at trial itself.”
Rothgery, 554 U.S. at 212, 128 S.Ct. 2578, 171 L.Ed.2d
366. Rothgery did not discuss a framework for conducting
the analysis into what a reasonable time would be. Id. at
212 n.15 (“We do not here purport to set out the scope of
an individual’s post-attachment right to the presence of
counsel. It is enough for present purposes to highlight
that the enquiry into that right is a different one from the
attachment analysis”).
After Rothgery, federal district courts have three
times addressed the issue of whether a delay in the
appointment of counsel is reasonable. In all three cases, the
district court has declined to find the delay—forty days,
two months, and an unspecified period—unreasonable
without proof of actual prejudice:
Finally, although the right to counsel under
the Sixth Amendment attaches at the time
of an arrestee’s initial appearance, Rothgery
v. Gillespie County, Texas, 554 U.S. 191, 128
S.Ct. 2578, 171 L.Ed.2d 366 (2008), neither
the Supreme Court nor the Fifth Circuit has
determined that counsel must be appointed

188a
Appendix F
within a specific period of time thereafter. ...
All that the plaintiff has alleged in this case is
that he was not provided with appointed counsel
for a period of forty (40) days after his arrest.
He fails to allege, however, that he suffered
any actual prejudice as a result of this delay
or that, had an attorney been appointed at an
earlier time, a meritorious defense might have
been asserted resulting in his release or in the
dismissal of the charges levied against him. ...
Accordingly, in the absence of any assertion
of prejudice resulting from the alleged delay,
this Court concludes that the alleged 40-day
delay in the appointment of counsel was not so
unreasonable as to result in a Sixth Amendment
violation.
Grogen v. Gautreaux, 2012 U.S. Dist. LEXIS 120411, *9*10 (M.D. La. July 11, 2012); see also Hawkins v. Montague
County, 2010 U.S. Dist. LEXIS 116361, *35 (N.D. Tex.
Nov. 1, 2010) (“The Court finds that the approximate
two-month delay in receiving court-appointed counsel
fails to rise to the level of a constitutional violation based
on the Sixth Amendment”); Wingo v. Kaufman County,
2010 U.S. Dist. LEXIS 55865, *2-*3 (N.D. Tex. June
4, 2010) (“The court can not determine from plaintiff’s
complaint ... whether the delay in appointment of counsel
was reasonable or whether plaintiff suffered any prejudice
from the delay”). These decisions are consistent with the
Supreme Court’s reference to ineffective assistance of
counsel in Rothgery. See Gonzalez-Lopez, 548 U.S. at 147,
126 S.Ct. 2557, 165 L.Ed.2d 409 (distinguishing the right to

189a
Appendix F
effective assistance of counsel from the case the Court was
addressing because “a violation of the Sixth Amendment
right to effective representation is not ‘complete’ until the
defendant is prejudiced”); Strickland v. Washington, 466
U.S. 668, 692, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) (“any
deficiencies in counsel’s performance must be prejudicial
to the defense in order to constitute ineffective assistance
under the Constitution”).
2.

Application to Facts
a.

Attachment

Following Rothgery, the Court again concludes, on the
basis of the facts alleged, that the right to counsel attached
at the initial appearance. The parties earlier agreed
on this point. See Order, 13. At the initial appearance,
the court asked each Plaintiff whether he could afford
counsel. SAC, ¶¶ 30, 39. Each responded that he could
not and would like the court to appoint counsel. Id. After
the right to counsel attached, the court referred Plaintiffs
cases to Defendant and continued the arraignment
to a later hearing date for “further arraignment.” Id.
Neither Plaintiff entered a plea. Id. Neither Plaintiff was
represented until the further arraignment hearing, where
each Plaintiff was represented by counsel and entered a
plea. Id. at ¶¶ 32-33, 44.

190a
Appendix F
b.

Critical Stage
i.

Initial Appearance

In their Complaint, Plaintiffs alleged that the initial
appearance consisted of (1) the court’s inquiry into
whether Plaintiffs could afford counsel and whether
Plaintiffs desired appointed counsel; (2) referral of the
matter to the Public Defender; and (3) a continuance.
Complaint, ¶¶ 31, 35. In their SAC, Plaintiffs add the new
allegation that bail is set at the initial appearance. SAC,
¶¶ 30, 39. Plaintiffs do not provide any detail into the
manner in which bail is set at the initial appearance. For
example, they have not alleged whether facts are admitted
or argument is made as to bail at the initial appearance
or whether bail is simply set pursuant to a previously set
bail schedule. The Court again concludes that, on the facts
alleged, the Sixth Amendment permitted the events that
actually transpired at the initial appearance to take place
without the presence of counsel, and permits a continuance
for the appointment of counsel.
Lopez-Valenzuela is instructive. In the relevant
portion of that opinion, the Ninth Circuit addressed
whether the Sixth Amendment right to counsel was
triggered by initial appearances in Arizona. LopezValenzuela, 2013 U.S. App. LEXIS 12269, 2013 WL
2995220, at *10-*11. At the initial appearance in Arizona
no plea is entered. 2013 U.S. App. LEXIS 12269, [WL]
at *10. At the initial appearance, the commissioner must:
ascertain the criminal defendant’s name and address;
inform the defendant of the charges, the right to counsel,

191a
Appendix F
and the right to remain silent; determine whether probable
cause exists to believe that a crime was committed (if the
arrest was made without a warrant); appoint counsel if the
defendant is eligible; and determine release conditions,
including an immigration status determination that can
result in certain felony defendants being precluded from
obtaining bail. 2013 U.S. App. LEXIS 12269, [WL] at *1*2, *10. Although the bail determination was made at the
initial appearance, any party can move for a reexamination
of the release conditions. 2013 U.S. App. LEXIS 12269,
[WL] at *2. Pursuant to Arizona law, a hearing on such a
motion shall be held as soon as practicable but not later
than seven days after filing. Id. In addition, if the court
determines that the arrestee “entered or remained in the
United States illegally,” an evidentiary hearing, known
as a Simpson/Segura hearing, is held within twentyfour hours to determine whether bail should be denied.
2013 U.S. App. LEXIS 12269, [WL] at *1. Arrestees are
entitled to counsel at the Simpson/Segura hearing. Id.
In Lopez-Valenzuela, the Ninth Circuit concluded that
the Sixth Amendment right to counsel was not triggered
by the initial appearance in Arizona after applying the
Menefield three-factor test. As to the first factor, the
court reasoned that the “only strategies available to
the defendant seeking to avoid pretrial detention were
to deny the crime(s) alleged or that the defendant has
entered or remained in the United States illegally.
But, as no plea is entered at an [initial appearance] and
the ‘initial appearance provides no opportunity for a
defendant to present evidence or make any argument
regarding the law or evidence,’ [citation], these are not

192a
Appendix F
remedies available at the initial appearance. Rather,
these are remedies available after the initial appearance
at a Simpson/Segura hearing, by which point counsel will
have been appointed.” 2013 U.S. App. LEXIS 12269, [WL]
at *11. With regard to the second factor, the court held
that skilled counsel was unnecessary to help an accused
understand the purely administrative matters covered
during the initial appearance. Id. Reaching the third
factor, the court concluded that the initial appearance did
not test the merits of the defendant’s case, noting that no
plea is entered and any discussion of immigration status
is undertaken for the sole purpose of determining whether
a defendant is bondable. Id.
Plaintiffs’ argument is that the initial appearance
was a critical stage because, consistent with California
law, it should have been a complete arraignment. See
Opposition, 5-14 (arguing that arraignment in California
is a critical stage and that the Court improperly excised
the portions held at the initial appearance in undertaking
its analysis and applied the wrong legal standard to the
excised portions, not putting forward any argument that
the proceedings held at the initial appearance made it
a critical stage of the proceedings); see also Plaintiffs’
Supplemental, 4-8. As discussed in more detail later in
this Order, California law does not require that the entire
arraignment be completed at the initial appearance.
Plaintiffs’ reliance on the entirety of the arraignment
to establish a critical stage in effect concedes that
nothing happened at the initial appearance to make it a

193a
Appendix F
critical stage of the proceedings.7 Moreover, Plaintiffs’
supplemental brief appears to concede that the procedures
at issue in this case would be proper if they had been
enacted by the California legislature. See Plaintiffs’
Supplemental, 5, 9 (distinguishing Lopez-Valenzuela
from the present case because the procedure at issue in
that case was enacted by the Arizona legislature, not the
Public Defender). If that is true, then there can be no Sixth
Amendment violation.
Even if California law requires the entire arraignment
occur at the initial appearance, the SAC in this case does
not allege that the complete arraignment occurred. As
in Lopez-Valenzuela, the question before the Court here
is whether the initial appearance held in Contra Costa
County in each of Plaintiffs’ criminal cases was a critical
stage of the proceedings such that they were entitled to
counsel under the Sixth Amendment. Plaintiffs have been
given one opportunity to amend their Complaint to allege
sufficiently that their initial appearances amounted to a
critical stage within the meaning of Menefield. They have
not done so. Like in Lopez-Valenzuela: (1) as discussed in
more detail in this Court’s prior Order, Plaintiffs have not
alleged that the absence of counsel to pursue strategies at
the initial appearance could result in the loss of significant
rights because, as alleged, no rights can be lost at the
initial appearance; (2) as alleged there was no legal
confrontation in the initial appearance after the accused
7. At most, Plaintiffs argue that the Court applied the wrong
standard in evaluating the initial appearance in its prior Order.
Opposition, 11-14. However, Plaintiffs do not assert any basis for
concluding that the initial appearance in itself was a critical stage.

194a
Appendix F
requested counsel; and (3) nothing occurred at the initial
appearance that tested the merits of the accused’s case.
See Lopez-Valenzuela, F.3d , 2013 U.S. App. LEXIS 12269,
2013 WL 299520, at *10-*11; Order, 16-18.
Indeed, the initial appearance in Lopez-Valenzuela
was more substantial than the initial appearance in
this case. In Lopez-Valenzuela, like here, the defendant
was advised of the charges, offered counsel, and a
bail determination was made. Unlike the procedure in
California, however, the Arizona procedure required the
Commissioner to make a probable cause determination.
Nonetheless, the Ninth Circuit decided that the initial
appearance in Arizona was not a critical stage. In
Plaintiffs’ initial appearances, where only advice of the
charges and the right to counsel, and the setting of bail,
occurred, that same conclusion is required.
This conclusion is buttressed by the practical
implications of Plaintiffs’ argument. If Plaintiffs are
correct, the Sixth Amendment would put the state in an
impossible position: Counsel must be present, whether
available or not, and a continuance for appointment
of counsel (as happened here) would not remedy the
constitutional violation. One can readily envision the
situation where the Public Defender has a conflict of
interest, and conflict counsel is not available for a period
of time. Plaintiffs’ argument would call this a deprivation
of a defendant’s Sixth Amendment rights that could not be
remedied. The Constitution imposes no such restriction.

195a
Appendix F
For the above reasons, Plaintiffs’ Sixth Amendment
claim is dismissed with prejudice to the extent it relies on
the theory that the initial appearance was a critical stage
of the proceedings.
ii.

Waiting Period

The Sixth Amendment may be violated during the
waiting period either because (1) the waiting period
contained, or was itself, a critical stage; or (2) the failure
to appoint counsel at some point during the waiting period
prevented Plaintiffs from being adequately represented at
a subsequent critical stage. First, the Court concludes, on
the facts alleged, that the waiting period did not contain,
and was not, a critical stage.
In their Complaint, Plaintiffs did not allege any
activity during the waiting period that could have made
that time frame a critical stage. Now, Plaintiffs allege
(1) that the Probation Department prepared a bail study
during the waiting period; (2) that the bail study was an
influential report; and (3) that the bail study contained no
favorable information because the Probation Department
could not ascertain that information in the absence of
appointed counsel. SAC, ¶¶ 31, 40.
The Court applies the three Menefield factors to the
new allegations regarding the waiting period. Plaintiffs
still have not alleged that there was any legal confrontation
during the waiting period or that anything occurred to
test the merits of their case during the waiting period.
Rather, the bail study allegations pertain to whether

196a
Appendix F
failure to pursue strategies or remedies could result in
the loss of significant rights. However, Plaintiffs do not
allege that they could lose their ability to present favorable
evidence at a bail determination. Accordingly, on the facts
alleged, the Court cannot conclude that the preparation of
the bail study in Contra Costa County is a critical stage
in the proceedings.
Second, Plaintiffs have not alleged that the failure to
appoint counsel during the waiting period prejudiced their
representation at subsequent critical stages. Regarding
Farrow, the SAC contains only the general statement
that the prosecutor’s office had more time to prepare for
the preliminary hearing than defense counsel. See SAC,
¶ 34. Plaintiffs make no allegation that the disparity in
preparation time impacted Farrow’s defense in any way.
Thus, there is nothing in the SAC from which to conclude
that counsel was not appointed a reasonable time after
attachment. See Rothgery, 554 U.S. at 212, 128 S.Ct. 2578,
171 L.Ed.2d 366 (“counsel must be appointed within a
reasonable time after attachment to allow for adequate
representation at any critical stage before trial, as well
as at trial itself”).
The allegations pertaining to Wade come closer to
alleging that counsel was not appointed at a reasonable
time after attachment. Plaintiffs allege (1) that the delay
in appointment of counsel impinged Wade’s ability to
interview a material witness on an important Miranda
issue in his case because her memory faded; and (2)
allowed the prosecution to amend its complaint as of right.
SAC, ¶¶ 43, 45. Plaintiffs allege that this was prejudicial to

197a
Appendix F
Wade because (1) certain facts that the witness may have
remembered pertaining to a potential Miranda violation
may have been helpful to his defense; and (2) the amended
complaint increased his potential exposure. Id.
First, as to Wade’s inability to interview a material
witness, Plaintiffs still have not alleged, for example,
how that inability affected, or could have affected,
any subsequent proceedings in Wade’s case. On these
allegations, there is no basis to conclude that the delay in
the appointment of counsel impacted Wade’s representation
at subsequent critical stages of his proceedings. Moreover,
Plaintiffs only allege that it is “possible” that the witness
would have remembered the relevant details of Wade’s
interrogation had appointment of counsel not been
delayed. Plaintiffs do not plead that such a scenario is
plausible, nor do they provide any factual allegations to
support that possibility. For example, counsel interviewed
the witness in question seven days after appointment at
the continued arraignment. There are no allegations that
counsel would have interviewed the witness earlier, or that
the witness, who could not remember whether Miranda
warnings were given when interviewed twenty days after
the arrest, would have remembered them a week earlier.
Though this scenario seems implausible to the Court,
if Wade is in possession of any such facts he may plead
them. He must also plead the impact of this evidence on
the progress of his case, i.e. prejudice.
Second, the allegations pertaining to the prosecution’s
ability to amend its complaint as of right also fail because
Plaintiffs have not alleged any impact this had on any later

198a
Appendix F
proceedings. Moreover, Plaintiffs have not, and cannot,
plausibly alleged that the prosecution would not have been
able to amend the complaint to increase Wade’s exposure
even if he had entered a plea at the initial appearance.
Wade will be given one more opportunity to allege
that counsel was not “appointed within a reasonable time
after attachment to allow for adequate representation at
any critical stage before trial, as well as at trial itself.”
See Rothgery, 554 U.S. at 212, 128 S.Ct. 2578, 171 L.Ed.2d
366. Leave to amend shall be limited to additional facts (1)
concerning the witness’ faded memory; and (2) any impact
the witness’ faded memory had on Wade’s proceedings. As
to Farrow, this claim is dismissed with prejudice.
D.

Fourteenth Amendment Due Process as to
State Speedy Trial Statutes

Plaintiffs’ Fourteenth Amendment Due Process
claims predicated on violations of California Penal Code
§§ 825, 859b, and 1050 are dismissed with prejudice.
a.

Background Law

“Unless there is a breach of constitutional rights,
... § 1983 does not provide redress in federal court for
violations of state law.” Samson v. City of Bainbridge
Island, 683 F.3d 1051, 1060 (9th Cir. 2012) (quoting Schlette
v. Burdick, 633 F.2d 920, 922 n.3 (9th Cir. 1980)). “[N]ot
every violation of state law amounts to an infringement
of constitutional rights.” Id.

199a
Appendix F
Plaintiffs seek to assert their statutory speedy trial
rights, provided by the state of California, through the
Fourteenth Amendment. The Fourteenth Amendment
provides that no state shall “deprive any person of life,
liberty, or property without due process of law...” U.S.
Const. amend. XIV, § 1. The Fourteenth Amendment
contains both procedural and substantive due process
protections. United States v. Salerno, 481 U.S. 739, 746,
107 S.Ct. 2095, 95 L.Ed.2d 697 (1987).
i.

Procedural Due Process

Courts analyze procedural due process claims in two
steps: “[T]he first asks whether there exists a liberty
or property interest which has been interfered with by
the State; the second examines whether the procedures
attendant upon that deprivation were constitutionally
sufficient.” Carver v. Lehman, 558 F.3d 869, 872 (9th Cir.
2008), cert. denied, 558 U.S. 973, 130 S. Ct. 466, 175 L.
Ed. 2d 313 (2009) (quoting Ky. Dep’t of Corr. v. Thompson,
490 U.S. 454, 460, 109 S.Ct. 1904, 104 L.Ed.2d 506 (1989)).
“A liberty interest may arise from either of two
sources: the due process clause itself or state law.” Id.
(citing Toussaint v. McCarthy, 801 F.2d 1080, 1089 (9th
Cir. 1986)). “[T]o create a liberty interest protected by
due process, the state law must contain: (1) substantive
predicates governing official decisionmaking, and (2)
explicitly mandatory language specifying the outcome
that must be reached if the substantive predicates are
met.” Bonin v. Calderon, 59 F.3d 815, 842 (9th Cir. 1995),
cert. denied, 516 U.S. 1051, 116 S. Ct. 718, 133 L. Ed. 2d 671

200a
Appendix F
(1996) (internal quotation marks and citations omitted);
Oviatt, 954 F.2d at 1474. Where “[t]he only mandatory
language in [the state statute at issue] concerns a
procedural right ...[, t]hat language cannot create a
liberty interest within the meaning of the Fourteenth
Amendment because expectation of receiving process is
not, without more, a liberty interest protected by the Due
Process Clause of the Fourteenth Amendment.” Carver,
558 F.3d at 875 (internal quotation marks, footnote, italics,
and citations omitted); see also Marsh v. County of San
Diego, 680 F.3d 1148, 1156 (9th Cir. 2012) (“to contain the
requisite “substantive predicates,’ “the state law at issue
must provide more than merely procedure, it must protect
some substantive end’”) (quoting Bonin, 59 F.3d at 842).
ii.

Substantive Due Process

Substantive due process limits what the government
may do in its legislative and executive capacities. County
of Sacramento v. Lewis, 523 U.S. 833, 846, 118 S.Ct. 1708,
140 L.Ed.2d 1043 (1998). Substantive due process “forbids
the government from depriving a person of life, liberty,
or property in such a way that “shocks the conscience’
or “interferes with the rights implicit in the concept of
ordered liberty.’” Corales v. Bennett, 567 F.3d 554, 568
(9th Cir. 2009) (quoting Nunez v. City of Los Angeles, 147
F.3d 867, 871 (9th Cir. 1998))”. Accordingly, “A substantive
due process claim “must, as a threshold matter, show
a government deprivation of life, liberty, or property.’”
Action Apartment Ass’n, Inc. v. Santa Monica Rent
Control Bd., 509 F.3d 1020, 1026 (9th Cir. 2007) (quoting
Nunez, 147 F.3d at 871).

201a
Appendix F
iii. Statutory Speedy Trial Rights
California Penal Code §§ 859b, 1382, and 1050,
governing the right to a speedy preliminary hearing, the
right to a speedy trial, and the procedure for granting
continuances, including a continuance of the preliminary
hearing, are set forth in this Court’s prior Order. See
Order, 24-26. In the SAC, Plaintiffs also assert a denial of
their right to a prompt arraignment pursuant to California
Penal Code § 825. SAC, ¶ 10.
California Penal Code § 859 reads:
W hen a defendant is cha rged w ith the
commission of a felony by written complaint
subscribed under oath and on file in a court
in which a felony is triable, he or she shall,
without unnecessary delay, be taken before a
magistrate of the court in which the complaint
is on file. The magistrate shall immediately
deliver to the defendant a copy of the complaint,
inform the defendant that he or she has the
right to have the assistance of counsel, ask the
defendant if he or she desires the assistance
of counsel, and allow the defendant reasonable
time to send for counsel. ... If the defendant
desires and is unable to employ counsel, the
court shall assign counsel to defend him or
her. ... If it appears that the defendant may be
a minor, the magistrate shall ascertain whether
that is the case, and if the magistrate concludes
that it is probable that the defendant is a minor,
he or she shall immediately either notify the

202a
Appendix F
parent or guardian of the minor ... of the arrest,
or appoint counsel to represent the minor.
Cal. Penal Code § 859. In Ng, the California Supreme
Court noted that § 859 has been described as “in pari
materia” with § 859b, and that § 859b applies only to
persons in custody. Ng, 4 Cal.4th at 38, 13 Cal.Rptr.2d 856,
840 P.2d 961. The court drew on that note as additional
support for its holding that a defendant in custody for
charges in one county need not be immediately arraigned
in other counties. Id.
California Penal Code § 849(a) states:
When an arrest is made without a warrant by
a peace officer or private person, the person
arrested, if not otherwise released, shall,
without unnecessary delay, be taken before
the nearest or most accessible magistrate
in the county in which the offense is triable,
and a complaint stating the charge against
the arrested person shall be laid before such
magistrate.
Cal. Penal Code § 849.
California Penal Code § 825(a) provides:
(a)(1) Except as provided in paragraph (2), the
defendant shall in all cases be taken before a
magistrate without unnecessary delay, and,
in any event, within 48 hours after his or her
arrest, excluding Sundays and holidays.

203a
Appendix F
(2) When the 48 hours prescribed by paragraph
(1) expire at a time when the court in which
the magistrate is sitting is not in session, that
time shall be extended to include the duration
of the next court session on the judicial day
immediately following. If the 48hour period
expires at a time when the court in which
the magistrate is sitting is in session, the
arraignment may take place at any time during
that session. However, when the defendant’s
arrest occurs on a Wednesday after the
conclusion of the day’s court session, and if the
Wednesday is not a court holiday, the defendant
shall be taken before the magistrate not later
than the following Friday, if the Friday is not
a court holiday.
Cal. Penal Code § 825(a).
b.

Application to Facts

In its prior Order, the Court dismissed Plaintiffs’
constitutional claim predicated on the violation of their
statutory speedy trial rights provided by California
Penal Code §§ 859b, 1382, 1049.5, and 1050. In their SAC,
Plaintiffs reassert liability under §§ 859b and 1050. SAC,
¶ 10. Plaintiffs also add a theory of liability pursuant to
§ 825. As in the previous Order, the Court concludes that
Plaintiffs’ arraignments were complete when they were
asked to enter a plea at the further arraignment hearing.
Order, 26. Thus, for the same reasons discussed in the
previous Order, the Court again concludes that Plaintiffs

204a
Appendix F
have not alleged a violation of either § 859b or § 1050.
See id. at 27-28. The Court does not address those issues
again here.
Defendant makes two arguments for dismissing
Plaintiffs’ second and third causes of action to the extent
they are premised on § 825. First, that Defendant did
not violate § 825 because the section does not require
that arraignment be completed at the initial appearance.
Motion, 10; Reply, 9. Second, that § 825 lacks mandatory
language specifying the outcome that must be reached if
the substantive predicates are met to create a cognizable
liberty interest. Motion, 10; Reply, 9. Plaintiffs fail to
defend their § 825 theory in their Opposition, making no
mention of § 825. For that reason alone, the second and
third causes of action predicated on a violation of § 825 are
dismissed without leave to amend. Moreover, even if § 825
creates a cognizable liberty interest, the plain language
of the statute mandates only that the criminal accused
be “taken before the magistrate” within the prescribed
time limits. 8 Nothing in the statute prohibits continuance
of the arraignment by the court to allow for appointment
of counsel.9
8. The alleged “blatant violation of Penal Code section 825”
visited on Wade through his detention prior to his initial court
appearance is irrelevant to this section because Plaintiffs do not
allege that Defendant had anything to do with that violation. See
SAC, ¶ 37.
9. To the extent § 1050 may have been implicated by the
continuance, that “section is directory only and does not mandate
dismissal of an action by its terms.” Cal. Penal Code § 1050(l).

205a
Appendix F
E. Fourteenth Amendment Equal Protection
For the reasons set out below, Plaintiffs’ equal
protection claim is dismissed with prejudice.
1.

Background Law

The Equal Protection Clause provides that no state
shall “deny any person within its jurisdiction the equal
protection of the law.” U.S. Const. Amendment XIV, § 1.
The Supreme Court has noted that the Equal Protection
Clause “is basically a direction that all persons similarly
situated should be treated alike.” City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.Ct. 3249,
87 L.Ed.2d 313 (1985).
A plaintiff may allege an equal protection violation
one of several ways. First, a plaintiff can demonstrate
that the defendant intentionally discriminated on the
basis of plaintiff’s membership in a protected class.
See, e.g., Lee v. City of Los Angeles, 250 F.3d 668, 686
(9th Cir. 2001). Under this theory, a plaintiff must
show that the defendant’s actions were a result of the
plaintiff’s membership in a suspect class. Thornton v.
City of St. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005).
Such actions are subjected to “strict scrutiny” and “will
only be sustained if they are suitably tailored to serve a
compelling state interest.” City of Cleburne, 473 U.S. at
439, 105 S.Ct. 3249, 87 L.Ed.2d 313. Similar oversight is
applied where state action “impinges on personal rights,”
otherwise framed as “fundamental rights,” protected by
the Constitution. Id.

206a
Appendix F
If the action does not involve a suspect classification,
a plaintiff may establish an equal protection claim
by showing that similarly situated individuals were
intentionally treated differently without a rational
relationship to a legitimate state purpose. Village of
Willowbrook v. Olech, 528 U.S. 562, 564, 120 S.Ct. 1073,
145 L.Ed.2d 1060 (2000); see San Antonio School District
v. Rodriguez, 411 U.S. 1, 93 S.Ct. 1278, 36 L.Ed.2d 16
(1972); Squaw Valley Development Co. v. Goldberg, 375
F.3d 936, 944 (9th Cir. 2004) overruled on other grounds
Action Apt. Ass’n v. Santa Monica Rent Control Bd.,
509 F.3d 1020, 1025 (9th Cir. 2007); SeaRiver Mar. Fin.
Holdings, Inc. v. Mineta, 309 F.3d 662, 679 (9th Cir. 2002).
To state an equal protection claim under this theory, a
plaintiff must allege that: (1) the plaintiff is a member
of an identifiable class; (2) the plaintiff was intentionally
treated differently from others similarly situated; and (3)
there is no rational basis for the difference in treatment.
Village of Willowbrook, 528 U.S. at 564, 120 S.Ct. 1073,
145 L.Ed.2d 1060.
Several Supreme Court decisions have recognized
violations of the Equal Protection Clause where the state
provides mandatory criminal procedures, such as an
appeal as of right, but in effect makes those procedures
available only to those who can pay. See Evitts v. Lucey,
469 U.S. 387, 403-05, 105 S. Ct. 830, 83 L. Ed. 2d 821 (1985)
(interpreting Supreme Court precedent as involving equal
protection concerns “because the State treated a class
of defendants-indigent ones-differently for the purposes
of offering them a meaningful appeal”) (citing Griffin v.
Illinois, 351 U.S. 12, 17-18, 76 S.Ct. 585, 100 L.Ed. 891

207a
Appendix F
(1956) (where the state in effect dismissed the petitioner’s
appeal, which was taken as of right, because he could not
afford a transcript it made the right available only to the
wealthy in violation of equal protection principles and also
violated due process because the disposition of the appeal
was arbitrary); Douglas v. California, 372 U.S. 353, 35758, 83 S.Ct. 814, 9 L.Ed.2d 811 (1963) (procedure whereby
indigent defendant must demonstrate merit of case before
obtaining counsel on appeal “does not comport with fair
procedure” — “[t]here is lacking that equality demanded
by the Fourteenth Amendment where the rich man,
who appeals as of right, enjoys the benefit of counsel[],
while the indigent, already burdened by a preliminary
determination that his case is without merit, is forced to
shift for himself”)). As Plaintiffs point out, the California
Supreme Court has indicated in dicta that understaffing
a public defender’s office may result in denying indigent
defendants the equal protection of the laws where the
understaffing results in a violation of the defendants’ state
speedy trial rights. See Barsamyan v. Appellate Div. of
Superior Court, 44 Cal.4th 960, 981-82, 81 Cal.Rptr.3d
265, 189 P.3d 271 (2008) (citing People v. Johnson, 26
Cal.3d 557, 571-72, 162 Cal.Rptr. 431, 606 P.2d 738 (1982)
(stating, in dicta, that treating conflicts in the public
defender’s calendar as good cause for a delay extending
the time for trial beyond that required by California Penal
Code § 1382 may result in denying indigent defendants
the equal protection of the laws)).

208a
Appendix F
2.

Application to Facts

Plaintiffs allege that they were denied a prompt
arraignment, their right to assistance of counsel, and
their statutory speedy trial rights on the basis of their
indigence whereas similarly situated criminal defendants
who could afford private counsel were furnished prompt
arraignments, were permitted to enter pleas at their
first appearance, were allowed to influence the probation
department with favorable information concerning bail
circumstances in the days following arraignment, were
immediately able to apply for bail or release on their own
recognizance, were permitted to immediately assert their
statutory speedy trial rights, and were able to immediately
begin preparation of their cases for future critical stages.
SAC, ¶ 66.
Plaintiffs have not alleged that the Contra Costa
County Public Defender, the only Defendant in this case,
treated any group or individual differently from any
other group or individual through the application of its
policy prior to the filing of this case.10 Indeed, the Contra
Costa Public Defender’s Office only represents indigent
defendants and capital defendants.11 Because, as alleged,
Defendant had one blanket policy that applied equally
10. In their SAC, Plaintiffs allege that Defendant now appears
at the initial appearance to represent in-custody felony defendants
but continues to fail to do so with respect to in-custody misdemeanor
defendants. SAC, ¶¶ 1-2. Plaintiffs do not specify to which group
they belong.
11. Plaintiffs do not allege that the policy has ever made any
distinction between capital defendants and non-capital defendants.

209a
Appendix F
to each of its clients during the relevant time period,
Plaintiffs have not adequately pled a violation of the Equal
Protection Clause by Defendant.
F.

Remaining State Law Claims

Under state law, Plaintiffs seek damages for an
alleged violation of the California Bane Act and seek
a writ of mandate to compel Defendant to comply with
California Government Code § 27706. See Cal. Civ. Code
§§ 51 et seq., 52, 52.1; Cal. Gov. Code § 27706. The Court
has jurisdiction over this action on the basis of the federal
questions raised by the Complaint. See 28 U.S.C. § 1331.
The Court’s jurisdiction over the remaining state law
claims relies on its supplemental jurisdiction. See 28
U.S.C. § 1367(a). Having dismissed all claims over which
it has original jurisdiction, the court declines to exercise
its supplemental jurisdiction over the state law claims. See
28 U.S.C. § 1367(c)(3). Plaintiffs’ fifth and sixth causes of
action are dismissed without prejudice for lack of subject
matter jurisdiction.
IV. CONCLUSION
For the foregoing reasons, Defendants Motion to
Dismiss the SAC is granted. Farrow’s federal claims are
dismissed with prejudice. The Court declines to exercise
jurisdiction over Farrow’s state law claims, which are
dismissed without prejudice and may not be reasserted
in this case. Wade will be given one more opportunity to
amend his § 1983/Sixth Amendment claim, as permitted
in the body of this Order, and to reassert the same state
law claims found in the SAC. Any amended complaint shall
be filed within twenty-one (21) days of this Order.

210a
Appendix F
IT IS SO ORDERED.
Dated: August 7, 2013
/s/ Joseph C. Spero		
JOSEPH C. SPERO
United States Magistrate Judge

211a
APPENDIX G — Appendix
OPINIONGOF THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF CALIFORNIA, DATED MAY 8, 2013
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
Case No. 12-cv-06495-JCS
JOHN FARROW, et al.,
Plaintiffs,
v.
ROBIN LIPETZKY,
Defendant.
May 8, 2013, Decided;
May 8, 2013, Filed
JOSEPH C. SPERO, United States Magistrate Judge.
ORDER GRANTING DEFENDANT’S
MOTION TO DISMISS THE COMPLAINT
WITHOUT PREJUDICE
I.

INTRODUCTION

Plaintiffs John Farrow (“Farrow”) and Jerome
Wade (“Wade”) (collectively, “Plaintiffs”) brought this
putative class action against Defendant Robin Lipetzky,

212a
Appendix G
in her official capacity as the Contra Costa County Public
Defender (“Defendant”). Plaintiffs allege causes of action
(1) under 42 U.S.C. § 1983 for (a) violation of the Sixth
Amendment to the United States Constitution; and (b)
violations of the Fourteenth Amendment to the United
States Constitution; (2) under the Unruh Act for violation
of their statutory speedy trial rights; and (3) for violation
of California Government Code § 27706. Presently before
the Court is Defendant’s Motion to Dismiss the Complaint
(“Motion”). The parties have consented to the jurisdiction
of a magistrate judge pursuant to 28 U.S.C. § 636(c). This
Motion raises two related questions. First, does the failure
to provide counsel at an initial appearance (at which the
only events that occur are the provision of a copy of the
charges to the defendant, the inquiry as to whether the
defendant desires appointed counsel, and the continuance
of the matter to allow for appointment of counsel) violate
the Sixth Amendment guarantee of counsel in a criminal
case? Second, where the matter is continued for 5 to 13
days, at which time counsel appears with the defendant,
does the delay in appointment of counsel violate the Sixth
Amendment? Because the Court answers both questions in
the negative, the Motion is GRANTED and the Complaint
is dismissed with leave to amend.
II. REQUEST FOR JUDICIAL NOTICE
The standard for judicial notice is set forth in Rule 201
of the Federal Rules of Evidence, which allows a court to
take judicial notice of an adjudicative fact not subject to
“reasonable dispute,” either because it is “generally known
within the territorial jurisdiction of the trial court” or it is

213a
Appendix G
“capable of accurate and ready determination by resort to
sources whose accuracy cannot reasonably be questioned.”
Fed. R. Evid. 201. As a general rule, the court “may not
consider any material beyond the pleadings in ruling on
a Rule 12(b)(6) motion.” U.S. v. Corinthian Colleges, 655
F.3d 984, 998-99 (9th Cir. 2011) (quoting Lee v. City of Los
Angeles, 250 F.3d 668, 688 (9th Cir. 2001)). However, the
court may “consider materials that are submitted with
and attached to the Complaint.” Id. at 999. The court
“may also consider unattached evidence on which the
complaint ‘necessarily relies’ if: (1) the complaint refers
to the document; (2) the document is central to plaintiff’s
claim; and (3) no party questions the authenticity of the
document.” Id. at 999 (citing Marder v. Lopez, 450 F.3d
445, 448 (9th Cir. 2006)). In addition, the court may take
judicial notice of “matters of public record,” but not facts
that may be “subject to reasonable dispute.” Id. (citing
Lee, 250 F.3d at 689).
Defendant seeks judicial notice of two facts on the
basis of five public records. Defendant’s Request for
Judicial Notice (“RJN”), 1-2; Corrected Declaration of
D. Cameron Baker in Support of Defendant’s Motion to
Dismiss (“Baker Declaration”), Exs. A-E. The five public
records are: (1) the “AB 109 Operations Plan for Contra
Costa County as Approved and Adopted by the Executive
Committee of the Contra Costa County Community
Corrections Partnership Adopted November 9, 2012;” (2)
a Position Adjustment Request from the official files of the
Contra Costa County Board of Supervisors for funding
for two full-time Deputy Public Defender Positions and
one full-time Paralegal Position, signed with Board

214a
Appendix G
approval on January 15, 2013; (3) an order dated January
15, 2013 approving the “2012/13 AB 109 Criminal Justice
Realignment Implementation Plan” from the official
records of the Contra Costa County Board of Supervisors;
(4) an affidavit, from the Contra Costa County Office of the
Public Defender in the matter entitled People v. Farrow,
Contra Costa County Superior Court No. 01-15531-7, in
which Christopher Martin is appointed to represent John
Howard Farrow; and (5) a minute order dated November
21, 2011 from the Contra Costa Superior Court file entitled
People v. Wade, Case No. 5-121217-4, stating that Jerome
Edward Wade appeared with his attorney “Martin.”
Baker Declaration, ¶¶ 3-7, Exs. A-E. The two facts are: (1)
Defendant now “has funding to have attorneys present at
the initial court appearance for criminal defendants;” and
(2) that “Christopher Martin, one of Plaintiffs’ attorneys
in this case, was counsel of record for both Plaintiffs in
their underlying criminal proceedings.” RJN, 1.
Plaintiffs oppose judicial notice. Plaintiffs’ Opposition
to Motion to Dismiss (“Opposition”), 7-9. In particular,
Plaintiffs contest whether the apparent acquisition of
funding for two additional public defender positions is
sufficient to provide representation of indigent defendants
in misdemeanor and felony cases at three courthouses in
Contra Costa County. Id. at 8. The Court takes judicial
notice of the five documents as public records. The Court
cannot take judicial notice of the inference that Defendant
now has adequate funding to have attorneys present at
the initial court appearance for all criminal defendants.
Although the noticed documents indicate that Defendant
has obtained funding for two Deputy Public Defender

215a
Appendix G
positions and one Paralegal position to “[p]rovide for early
representation of arrestees at the first Court appearance,”
whether that funding is adequate is subject to reasonable
dispute. As to whether Plaintiffs’ counsel also represented
them in their criminal proceedings, neither party has
made any argument relying on that asserted fact and the
Court does not rely on it in resolving this Motion.
III. BACKGROUND
A.

Complaint

Plaintiffs allege that indigent, in-custody criminal
defendants in Contra Costa County are customarily left in
jail without counsel for 5 to 13 days after their first court
appearance. Complaint, ¶ 1. Plaintiffs allege that, in the
first court appearance, which is “dubbed ‘arraignment,’”
no plea is taken, bail is not examined, and counsel is not
appointed. Id. at ¶ 2. Plaintiffs allege that this is a result
of Defendant’s policy:
A t t he f i r st c ou r t app e a r a nc e
(arraignment) when given a copy of
the charges — or when questioned in
police custody before arrest or charges
are brought — a person may request
representation by an attorney. At
the arraignment or first appearance,
persons out of custody will be referred
to our office and given a date to return
to court with an attorney. Persons
in custody will be given a court date
and will be visited at the jail by staff

216a
Appendix G
from the Department before the next
court date.
Id. at ¶ 3-4, Ex. A. Plaintiffs allege that referral to a
public defender at the first court appearance results in
an automatic continuance, customarily between 5 and 13
days, for “further arraignment.” Id. at ¶¶ 4, 6. Plaintiffs
allege that this delays the activation of their state
statutory speedy trial rights, because those rights run
from the entry of plea. Id. at ¶ 7.
Plaintiffs allege that Farrow was arrested on August
30, 2012. Id. at ¶ 29. Thereafter, Farrow appeared alone
in court for his arraignment on September 2, 2012. Id. at
¶ 30. The court asked Farrow if he could afford counsel,
and Farrow replied that he could not. Id. at ¶ 31. The
court asked Farrow if he wanted the court to appoint
counsel, and Farrow said that he did. Id. The court
then referred the matter to the Public Defender and
continued the matter to September 15, 2012 for “further
arraignment” without advising Farrow of his right to bail
or his right to a speedy preliminary hearing and trial. Id.
Farrow remained in jail without examination of bail, legal
representation, or statutory speedy trial rights until the
“further arraignment,” at which counsel was appointed
and Farrow entered his plea. Id. at ¶¶ 31-32.
Plaintiffs allege that Wade was arrested on November
8, 2012.1 Id. at ¶ 33. Wade appeared at court alone for his
1. Consistent with the remainder of the Complaint, it appears
that Plaintiffs intended to allege that Wade was arrested on
November 8, 2011.

217a
Appendix G
arraignment on November 14, 2011. Id. at ¶ 34. The court
asked Wade if he could afford counsel, and he replied
that he could not. Id. at ¶ 35. The court asked Wade if he
wanted the court to appoint counsel, and Wade replied
that he did. Id. The court referred the matter to the Public
Defender and continued the matter to November 21, 2011
for “further arraignment” without advising Wade of his
right to bail or his right to a speedy preliminary hearing
and trial. Id. Wade remained in jail without examination
of bail, the protection of the statutory speedy trial rights,
or legal representation until the “further arraignment,” at
which counsel was appointed and Wade entered his plea.
Id. at ¶¶ 35-36.
Plaintiffs allege that Farrow and Wade represent a
class of indigent, in-custody criminal defendants in Contra
Costa County that asked for appointment of the Public
Defender, suffered an automatic continuance of between
5 and 13 days as a consequence of asserting their right
to appointed counsel without any knowledge of their bail
rights or statutory speedy trial rights, were deprived
of counsel between 5 and 13 days, and were deprived of
their statutory speedy trial rights and their right to a
prompt bail hearing during the 5 to 13 day period. Id. at
¶ 41. Plaintiffs further allege that the putative class was
deprived of said rights pursuant to the Public Defender’s
written policy, that the Public Defender maintains written
records with regard to each Plaintiff, and that the Public
Defender knew that the actions alleged in the Complaint
violated state and federal law when she committed said
actions. Id.

218a
Appendix G
Plaintiffs allege six causes of action:
(1) Violation of the Sixth Amendment of the U.S.
Constitution: Plaintiffs allege that Defendant’s failure
to represent Plaintiffs at their first appearance, or
a reasonable time thereafter, violated their Sixth
Amendment right to the assistance of court appointed
counsel. Id. at ¶ 47. Plaintiffs allege that they are entitled
to recover damages pursuant to 42 U.S.C. § 1983 because
Defendant’s actions, taken under the color of law, directly
and proximately damaged them. Id.
(2) Violation of the Fourteenth Amendment of the
Constitution — Substantive Due Process with Respect
to Statutory Speedy Trial Rights: Plaintiffs allege that
Defendant’s conduct amounted to deliberate indifference
and resulted in denial of Plaintiffs’ statutory speedy
trial rights without a hearing to determine the cause and
reasonableness of the denial in violation of the Fourteenth
Amendment. Id. at ¶ 50. Plaintiffs allege that they are
entitled to recover damages pursuant to 42 U.S.C. § 1983
because Defendant’s actions, taken under the color of law,
directly and proximately damaged them. Id.
(3) Violation of the Fourteenth Amendment of the
Constitution — Procedural Due Process with Respect
to Statutory Speedy Trial Rights: Plaintiffs repeat the
allegations in their second cause of action. Id. at ¶ 53.
(4) Violation of the Fourteenth Amendment —
Procedural Due Process with Respect to Application for
Bail or Release on Own Recognizance: Plaintiffs allege

219a
Appendix G
that Defendant’s deliberate indifference caused them to
be denied their right to a prompt bail hearing. Id. at ¶ 56.
Plaintiffs allege that they are entitled to recover damages
pursuant to 42 U.S.C. § 1983 because Defendant’s actions,
taken under the color of law, directly and proximately
damaged them. Id.
(5) Violation of California Civil Code §§ 52 and
52.1: Plaintiffs allege that Defendant’s conduct forced
them to sacrifice their statutory speedy trial rights as a
precondition to the appointment of counsel, directly and
proximately causing them damage. Id. at ¶ 59. Plaintiffs
allege that they are entitled to statutory and other
damages for these violations under the Unruh Act. Id.
(6) Writ of Mandate to Enforce California Government
Code § 27706: Plaintiffs allege that Defendant’s practices
violate California Government Code § 27706, which
states that the public defender shall represent criminal
defendants at all stages of the proceedings. Id. at ¶ 62.
Plaintiffs allege that they are directly damaged by those
policies. Id. Therefore, they seek a writ of mandate
compelling the Public Defender to comply with her
statutory obligation to represent all indigent, in-custody
defendants by appearing at their first appearance or at a
reasonable time thereafter. Id.
B. The Motion to Dismiss
Defendant argues that Plaintiffs’ federal claims are
meritless as a matter of law even accepting Plaintiffs’
factual allegations as true. Motion, 5. Defendant states

220a
Appendix G
that the first step in analyzing a Sixth Amendment claim
is assessing whether the right to counsel has attached. Id.
(citing Rothgery v. Gillespie County, Texas, 554 U.S. 191,
211-12, 128 S.Ct. 2578, 171 L.Ed.2d 366 (2008)). Defendant
contends that, once the right to counsel has attached,
the court must determine if the absence of counsel at
a subsequent event harmed the criminal defendant. Id.
(citing Rothgery, 554 U.S. at 211-12, 128 S.Ct. 2578, 171
L.Ed.2d 366). Defendant notes that prejudice is presumed
where counsel is absent at a subsequent “critical stage.”
Id. (citing McNeal v. Adams, 623 F.3d 1283, 1286 (9th
Cir. 2010)). Defendant argues that there has been no
Sixth Amendment violation because the right to counsel
attached at the initial court appearance and there has
been no subsequent event at which counsel is not present.
Id. at 5-6. Defendant asserts that the Sixth Amendment
inquiry is focused on whether a defendant was deprived of
counsel at a critical stage, not the amount of time it takes
to appoint counsel. Id. at 7. Defendant contends that the
initial court appearance was not a critical stage. Id. at 6-7
(citing United States v. Perez, 776 F.2d 797, 800 (9th Cir.
1985); United States v. Benford, 574 F.3d 1228, 1232-33
(9th Cir. 2009)).
Second, Defendant attacks both of Plaintiffs’
Four teenth A mendment claims concerning their
“statutory speedy trial rights.” Id. at 7-9. Defendant states
that the asserted speedy trial rights, provided in state
court, derive from California Penal Code §§ 1049.5 and
1382. Id. at 7-8. Defendant contends that, for a Fourteenth
Amendment claim to lie, the state statutes must mandate
a particular substantive outcome. Id. at 8 (citing Carver v.

221a
Appendix G
Lehman, 558 F.3d 869, 872-875 (9th Cir. 2009), cert. denied,
Carver v. Vail, 558 U.S. 973, 130 S. Ct. 466, 175 L. Ed. 2d
313 (2009)). However, Defendant argues that the Court
does not need to resolve whether these statutes mandate
a particular substantive outcome because Plaintiffs cannot
show a violation of the speedy trial statutes. Id. This is
because, Defendant argues, the speedy trial rights do
not attach until arraignment. Id. Defendant asserts that
“arraignment” includes the reading of the charge and
the court asking the defendant for a plea. Id. (citing Cal.
Penal Code § 988). Defendant argues that arraignment
did not occur until the second court appearance, at which
point Plaintiffs were represented. Id. at 9. Therefore,
Defendant concludes, the lack of representation at the first
court appearance could not have resulted in a violation of
the statutes. Id.
Third, Defendant argues that Plaintiff cannot assert
a claim under the Fourteenth Amendment based on the
alleged denial of a prompt bail hearing because there is
no such right. Id. at 9-10 (citing Fields v. Henry County,
Tennessee, 701 F.3d 180, 185 (6th Cir. 2012) for the
propositions that there is no Eighth Amendment right to
speedy bail and that the state right to be examined in a
bail hearing does not establish a liberty interest worthy
of protection under the Fourteenth Amendment).
Having addressed each of Plaintiffs’ federal claims,
Defendant argues that the Court has no subject matter
jurisdiction over the remaining state law claims. Id. at
10. Should the Court exercise jurisdiction over this case,
Defendant contends that the state law claims lack merit.

222a
Appendix G
Id. First, Defendant asserts that Plaintiffs’ claims under
California Civil Code §§ 52 and 52.1 are based on the
alleged denial of Plaintiffs’ speedy trial rights, a theory
that is flawed for the reasons stated above. Id. Second,
Defendant contends that she complies with California
Government Code § 27706 by providing counsel at the next
hearing following the state court’s order of referral. Id.
C.

The Opposition

First, Plaintiffs argue that Defendant denied them
their Sixth Amendment right to counsel. Opposition, 9-15.
Plaintiffs argue that counsel must be appointed within a
reasonable time after attachment to allow for adequate
representation at any critical stage before trial, as well
as trial itself. Id. at 10 (citing Rothgery, 554 U.S. at 212,
128 S.Ct. 2578, 171 L.Ed.2d 366). Plaintiffs assert that
the critical stage analysis is jurisdiction specific. Id. at 14
(citing Hamilton v. Alabama, 368 U.S. 52, 54, 82 S.Ct. 157,
7 L.Ed.2d 114 (1961)). Plaintiffs argue that, in California,
arraignment and ensuing time period preceding trial are
critical stages. Id. at 12 (citing United States v. Hamilton,
391 F.3d 1066, 1070 (9th Cir. 2004)). Plaintiff states that the
Ninth Circuit applies a three-factor test for determining
a critical stage, considering whether: (1) failure to pursue
strategies or remedies results in the loss of significant
rights; (2) skilled counsel would be useful in helping the
accused understand the legal confrontation; and (3) the
proceeding tests the merits of the accused’s case. Id. at
12-13 (citing Benford, 574 F.3d 1228). Plaintiffs argue
that Defendant’s absence at the initial court appearance
forced Plaintiffs to (1) forego their right to enter a plea at

223a
Appendix G
arraignment; (2) forego examination regarding whether
bail was excessive; (3) forego applying for lower bail or
release on their own recognizance; (4) allow a continuance
in violation of California Penal Code § 1050, which provides
the right to a preliminary hearing at the earliest possible
time; (5) forego their right to an immediate probable cause
hearing when charged with a misdemeanor; (6) forego all
investigation and preparation of their cases while they
waited in jail; and (7) forego examination for diversion.
Id. at 13. Plaintiffs argue that this satisfied the Benford
criteria. Id.
Moreover, Plaintiffs assert that Defendant violated
their Sixth Amendment rights when it required them
to wait in jail for 5 to 13 days as a precondition to the
appointment of counsel. Id. at 10. Plaintiffs contend that
appointment of counsel was necessary in the days between
hearings as the only possible means of asserting pretrial
rights and investigation in preparation for trial. Id.
Plaintiffs argue that the time they remained in custody
awaiting their next court appearance was a critical stage
of the trial for this reason. Id. at 10-11. Plaintiffs express
concern that, if Defendant’s arguments are accepted,
there would be no violation of law if Defendant delayed
coming to court for a prolonged period after the first
appearance. Id. at 11.
Second, Plaintiffs argue that Defendant violated
their Fourteenth Amendment due process right to a
speedy trial. Id. at 15-18. Plaintiffs state that, pursuant
to California Penal Code § 1050, criminal defendants
have a right to a preliminary hearing and a trial at the

224a
Appendix G
earliest possible time, and that the criminal cases may
only be continued upon a showing of good cause. Id. at
15. Plaintiffs argue that Defendant’s policy resulted in
continuance without Plaintiffs’ becoming aware of their
rights or any showing of good cause. Id. Plaintiffs contend
that the failure to provide enough public defenders in
such a way that forces the indigent to choose between the
right to a speedy trial and the right to representation of
competent counsel denies their right to a speedy trial.
Id. at 15-16 (citing People v. Johnson, 26 Cal.3d 557, 571,
162 Cal.Rptr. 431, 606 P.2d 738 (1980)). Plaintiffs assert
that California Penal Code § 859b entitles them to a
preliminary hearing at the earliest possible time, ten days
after the initial court appearance unless the matter were
continued, with good cause, to another date for entry of
plea. Id. at 16. Plaintiffs argue that Defendant’s policy
results in continuance without good cause, thwarting the
statutory scheme. Id. To the extent that entry of a plea
is required to trigger the statutory scheme, Plaintiffs
contend that Defendant has prevented them from being
able to enter their plea and has thereby forced them,
through inaction, to choose between their statutory speedy
trial rights and their right to counsel. Id. at 16-18.
Plaintiffs assert that their statutory speedy trial
rights are mandatory, and create a liberty interest that is
protectable under the Fourteenth Amendment. Id. at 18.
Plaintiffs note that Article I, Section 13 of the California
Constitution declares that, “In criminal prosecutions, in
any court whatever, the party accused shall have the right
to a speedy and public trial.” Id. Plaintiffs assert that
criminal charges brought against them must be dismissed

225a
Appendix G
if the preliminary hearing is set or continued, absent good
cause or waiver by the parties, beyond the time period for
holding the preliminary hearing specified by statue. Id.
(citing Ramos v. Superior Court, 146 Cal.App.4th 719, 53
Cal.Rptr.3d 189 (2007)).
Third, Plaintiffs argue that Defendant prevented the
magistrate from exercising independent judgment with
respect to bail. Id. at 19-21. Plaintiffs assert that the
Supreme Court has recognized the right to a bail hearing,
and has stated that relief must be speedy. Id. at 19 (citing
Stack v. Boyle, 342 U.S. 1, 4, 72 S.Ct. 1, 96 L.Ed. 3 (1951)).
Plaintiffs contend that, under California law, a bail hearing
must be held in open court within 48 hours. Id. at 19-20
(citing Cal. Penal Code §§ 825, 1270.1). Plaintiffs state
that Defendant’s policy prevented the magistrate from
exercising independent judgment because it restricted the
flow of information to the court regarding any favorable
information concerning Plaintiffs’ circumstances in
violation of California Penal Code § 1270.1. Id. at 20-21
(citing People v. Grace, 166 Cal.App.2d 68, 79, 332 P.2d 811
(1958)). Plaintiffs contend that controlling Ninth Circuit
precedent establishes that a violation may be found where
officials interfere with the magistrate’s judgment, which
Plaintiffs argue happened in this case. Id. at 21 (citing
Galen v. County of Los Angeles, 477 F.3d 652 (9th Cir.
2007)).
Fourth, Plaintiffs argue that Defendant is not in
compliance with Government Code § 27706. Id. at 2124. Plaintiffs assert that the Public Defender has an
independent duty to seek immediate appointment to

226a
Appendix G
represent in-custody indigent defendants. Id. at 22.
Plaintiffs contend that Defendant’s failure to appear in
the case until the continued arraignment disadvantages
criminal defendants and fails to comply with Defendant’s
statutory duty. Id. at 24.
D.

The Reply

Defendant addresses several points in Reply. First,
applying Benford, Defendant argues that the initial
appearance was not a critical stage. Defendant’s Reply in
Support of Motion to Dismiss (“Reply”), 3-4. Defendant
implies that the rights that Plaintiffs contend they lost at
the initial appearance were not alleged in the Complaint
and that Plaintiffs lack standing to raise some of those
rights, as felony defendants. Id. at 3. In any event,
Defendant argues that Plaintiffs were able to assert each
of the purportedly denied rights either at their further
arraignment or thereafter. Id. at 3-4 (citing Cal. Penal
Code §§ 859b, 1000(b)).
Second, Defendant argues that whether Plaintiffs
were forced to remain in jail until the second appearance
is irrelevant to their Sixth Amendment claim. Id. at 4.
Defendant contends that Plaintiffs’ factual allegations
do not plausibly lead to the conclusion that Plaintiffs
remained in jail as a result of the absence of counsel at the
preliminary hearing, given that they may not have been
eligible for diversion or able to obtain or afford reduced
bail. Id. Moreover, Defendant argues that the time period
during which counsel must be appointed is governed
primarily by the subsequent event, not the time it takes

227a
Appendix G
to appoint counsel. Id. Defendant notes that courts have
approved delays of over a month in appointment. Id. at
4-5 (citing Grogen v. Gautreaux, 2012 U.S. Dist. LEXIS
120411, at *10 (M.D. La. July 11, 2012); Hawkins v.
Montague County, Texas, 2010 U.S. Dist. LEXIS 116361,
at *35 (W.D. Tex. Nov. 1, 2010)). Further, Defendant
asserts that it had no role in determining the length of
the delay because the next court date was set by the state
court judge. Id. at 5.
Third, Defendant addresses Plaintiffs’ asserted speedy
trial rights. Id. at 5-7. Defendant states that Plaintiffs
added California Penal Code § 1050 in their Opposition,
but that § 1050 is by its own terms discretionary and
therefore does not convey the requisite liberty interest
to support a § 1983 claim. Id. at 6. Defendant also rejects
Plaintiffs’ contention that Defendant forced them to give
up their speedy trial rights, arguing that those rights could
have been asserted at arraignment and subsequently. Id.
Fourth, Defendant addresses Plaintiffs’ asserted bail
rights. Id. at 7. Defendant argues that Plaintiffs could have
sought lower bail at their subsequent arraignment or later
in their criminal proceedings. Id. (citing Cal. Penal Code
§§ 1269c, 1270.1).
IV. ANALYSIS
A.

Legal Standard

A complaint may be dismissed for failure to state a
claim for which relief can be granted under Rule 12(b)(6)

228a
Appendix G
of the Federal Rules of Civil Procedure. Fed. R. Civ. P.
12(b)(6). “The purpose of a motion to dismiss under Rule
12(b)(6) is to test the legal sufficiency of the complaint.” N.
Star. Int’l v. Ariz. Corp. Comm’n, 720 F.2d 578, 581 (9th
Cir. 1983). In ruling on a motion to dismiss under Rule
12(b)(6), the Court takes “all allegations of material fact
as true and construe[s] them in the light most favorable to
the non-moving party.” Parks Sch. of Bus. v. Symington,
51 F.3d 1480, 1484 (9th Cir. 1990).
Generally, the plaintiff’s burden at the pleading stage
is relatively light. Rule 8(a) requires a “short and plain
statement of the claim showing that the pleader is entitled
to relief.” Fed. R. Civ. P. 8(a)(2). The complaint need not
contain “detailed factual allegations,” but must allege
facts sufficient to “state a claim to relief that is plausible
on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 663, 129 S.
Ct. 1937, 173 L. Ed. 2d 868 (2009) (citing Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 547, 127 S. Ct. 1955, 167 L. Ed.
2d 929 (2007)). The factual allegations must be definite
enough to “raise a right to relief above the speculative level
on the assumption that all of the complaint’s allegations
are true.” Twombly, 550 U.S. at 545. “[T]he tenet that
a court must accept a complaint’s allegations as true is
inapplicable to threadbare recitals of a cause of action’s
elements, supported by mere conclusory statements.”
Iqbal, 556 U.S. at 663.
B. 42 U.S.C. § 1983 Claims
42 U.S.C. §1983 provides a cause of action against any
person who, under color of state law, deprives another

229a
Appendix G
of any rights, privileges, or immunities secured by the
Constitution or laws of the United States. § 1983 is not
a source of substantive rights, but merely a method
for vindicating federal rights established elsewhere.
Graham v. Connor, 490 U.S. 386, 393-94, 109 S.Ct.
1865, 104 L.Ed.2d 443 (1989). To state a claim for a
violation of § 1983, a plaintiff must allege deprivation of a
constitutional right by a government official acting “under
the color of state law.” Broam v. Bogan, 320 F.3d 1023,
1028 (9th Cir. 2003).
Plaintiffs suff﻿﻿iciently allege that Defendant, sued in
her official capacity as the Public Defender for Contra
Costa County, acted “under the color of state law.” See Am.
Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. 40, 50, 119 S.Ct.
977, 143 L.Ed.2d 130 (1999) (allegations against public
officials satisfy the state action requirement); Miranda v.
Clark County, 319 F.3d 465, 469-71 (9th Cir. 2003) (Public
Defender is a state actor for the purposes of § 1983 when
acting solely as the administrative head of the agency,
on behalf of the county, in determining how the overall
resources of the Public Defender’s office will be spent).
Nevertheless, as discussed below, the Court concludes
that Plaintiff has not sufficiently alleged a cause of action
pursuant to § 1983. Each of the § 1983 claims is dismissed
with leave to amend.
1.

Sixth Amendment Right to Counsel

T he Si x th A mendment of the Un it ed St at es
Constitution guarantees the accused, in all criminal
prosecutions, the right “to have the assistance of counsel

230a
Appendix G
for his defense.” U.S. Const. amend. VI. The Federal Rules
of Criminal Procedure require the court to advise the
accused of the constitutional guarantee. Fed. R. Crim. P.
44 (“If the defendant appears in court without counsel, the
court shall advise him of his right to counsel and assign
counsel to represent him at every stage of the proceeding
unless he elects to proceed without counsel or is able to
obtain counsel”). As described below, the Court concludes
that Plaintiffs have not alleged a violation of the Sixth
Amendment right to counsel. This Court addresses only
the narrow circumstances identified in the Complaint:
at the Plaintiffs’ first appearance, the only thing that
happened (presumably after being provided with a copy
of the charges) was a request for appointment of counsel.
No other court proceedings occurred without counsel.
Whether or not there was a delay between the initial
appearance and the next appearance, the only specific
allegation of prejudice is the brief delay in the assertion
of speedy trial rights or the right to seek a reduction of
bail, release on the defendant’s own recognizance, or
diversion. No rights were lost. As alleged, counsel was
present at each critical stage following attachment of the
right to counsel and Plaintiffs have not plausibly alleged
that their representation at a subsequent critical stage was
prejudiced by any delay in appointing counsel following
attachment.
a.

Attachment
i.

Background Law

The Sixth Amendment right to counsel in criminal
prosecutions attaches when prosecution begins. Rothgery,

231a
Appendix G
554 U.S. at 198-99, 128 S.Ct. 2578, 171 L.Ed.2d 366 (citing
McNeil v. Wisconsin, 501 U.S. 171, 175, 111 S.Ct. 2204,
115 L.Ed.2d 158 (1991)). Prosecution begins with the
initiation of adversarial judicial criminal proceedings,
“whether by way of formal charge, preliminary hearing,
indictment, information, or arraignment.” Id. at 198-99
(quoting United States v. Gouveia, 467 U.S. 180, 188, 104
S.Ct. 2292, 81 L.Ed.2d 146 (1984)). Federal law determines
what suffices as a commitment to prosecute for purposes
of the attachment of the right to counsel. Id. at 207 (citing
Moran, 475 U.S. at 429, n. 3 (“[T]he type of circumstances
that would give rise to the right would certainly have
a federal definition”). The right to counsel attaches at
the initial appearance before a judicial officer, which is
generally the hearing at which “the magistrate informs
the defendant of the charge in the complaint, and of
various rights in further proceedings,” and “determine[s]
the conditions for pretrial release.” Id. (citing 1 W. LaFave,
J. Israel, N. King, & O. Kerr, Crim. P. § 1.4(g), p 135 (3d
ed. 2007)).
ii.

Application to Facts

Following Rothgery, the right to counsel in this case
attached at each Plaintiff’s initial appearance. The parties
agree on this point. Motion, 5-6 (“the right to counsel
attached at the initial court appearance”); Opposition,
10 (“the right to counsel attached at the initial court
appearance”). At the initial court appearance, the Court
asked each Plaintiff whether he could afford counsel.
Complaint, ¶¶ 31, 35. Each responded that he could not
and would like the court to appoint counsel. Id. After the

232a
Appendix G
right to counsel attached, the court referred Plaintiffs’
cases to the Defendant and continued the arraignment to
a later hearing date referred to as “further arraignment.”
Id. Neither Plaintiff was asked to enter a plea. Id. At
the further arraignment hearing, each Plaintiff was
represented by counsel and entered a plea. Id. at ¶¶ 32, 36.
b.

Critical Stage
i.

Background Law

Once the right to counsel attaches, the accused is
entitled to appointed counsel during any “critical stage”
of the post-attachment proceedings. Rothgery, 554 U.S.
at 212, 128 S.Ct. 2578, 171 L.Ed.2d 366. A critical stage
is a “stage of a criminal proceeding where substantial
rights of a criminal accused may be affected.” Hovey v.
Ayers, 458 F.3d 892, 901 (9th Cir. 2006) (quoting Mempa
v. Rhay, 389 U.S. 128, 134, 88 S.Ct. 254, 19 L.Ed.2d 336
(1967)). While there is no definitive list of critical stages,
decisions of the United States Supreme Court identify
certain stages as critical. See Iowa v. Tovar, 541 U.S. 77,
81, 124 S.Ct. 1379, 158 L.Ed.2d 209 (2004) (entry of a guilty
plea); Gardner v. Florida, 430 U.S. 349, 358, 97 S.Ct.
1197, 51 L.Ed.2d 393 (1977) (sentencing); United States v.
Wade, 388 U.S. 218, 236-37, 87 S.Ct. 1926, 18 L.Ed.2d 1149
(1967) (post-indictment lineup). Case law also illustrates
stages that are not critical. Gilbert v. California, 388 U.S.
263, 267, 87 S.Ct. 1951, 18 L.Ed.2d 1178 (1967) (taking a
handwriting sample); United States v. Ash, 413 U.S. 300,
321, 93 S.Ct. 2568, 37 L.Ed.2d 619 (1973) (post-indictment
photo lineup); Hovey, 458 F.3d at 902 (mid-trial hearing
on the competency of defendant’s lawyer).

233a
Appendix G
Courts decide whether a state criminal proceeding
is critical by looking to the functions of the proceeding
under state law. See Hamilton v. Alabama, 368 U.S. 52,
54, 82 S.Ct. 157, 7 L.Ed.2d 114 (1961) (“Whatever may
be the function and importance of arraignment in other
jurisdictions, we have said enough to show that in Alabama
it is a critical stage in a criminal proceeding”); see also
United States ex rel. Cooper v. Reincke, 333 F.2d 608,
612 (2d Cir. 1964) (“The Connecticut hearing in probable
cause cannot, therefore, be characterized as critical as
is arraignment in Alabama”). The Ninth Circuit has
developed a three-factor test for determining whether a
stage is critical. Menefield v. Borg, 881 F.2d 696, 698-99
(9th Cir. 1989); Benford, 574 F.3d at 1232; McNeal, 623 F.3d
at 1289. Any one of these three factors may be sufficient
to make a stage critical: (1) failure to pursue strategies or
remedies results in a loss of significant rights; (2) skilled
counsel would be useful in helping the accused understand
the legal confrontation; and (3) the proceeding tests the
merits of the accused’s case. Menefield, 881 F.2d at 699;
Hovey, 458 F.3d at 901-02. In reviewing the plaintiff’s lack
of counsel at a motion for a new trial, the Menefield court
considered the substantive rights in question and whether
the presence of counsel would have helped the defendant
enforce those rights. Id.
ii.

Application to Facts

Plaintiffs’ right to counsel attached at the initial
court appearance. Once each Plaintiff sought appointed
counsel, the court stopped the proceeding and continued
the arraignment to a further hearing, where the accused

234a
Appendix G
would be represented by counsel. Each Plaintiff was
then asked to enter plea at the further arraignment
hearing. In California, arraignment consists of “reading
the accusatory pleading to the defendant and delivering
to the defendant a true copy thereof, and ... asking the
defendant whether the defendant pleads guilty or not
guilty to the accusatory pleading.” Cal. Penal Code § 988.
Plaintiffs’ arraignment began at their initial appearance.
It was completed at the further arraignment hearing
because that is when they were apprised of the charges
against them and asked to enter a plea. It is undisputed
that Plaintiffs were represented by counsel at further
arraignment, consistent with California law. 2
Plaintiffs contend that Defendant violated Plaintiffs’
constitutional right to counsel by failing to represent
Plaintiffs at their first appearance, or a reasonable time
thereafter. Complaint, ¶ 47. They argue that the initial
appearance and the five-to-thirteen-day waiting period
were critical stages of the proceedings. Opposition, 11. The
core of Plaintiffs’ complaint is that the five-to-thirteenday delay before Defendant represented Plaintiffs at
the arraignment hearing was “unreasonable” under
the Sixth Amendment. Complaint, ¶ 42(1). The Court
2. California law guarantees the right to counsel at arraignment.
People v. Cummings, 255 Cal.App.2d 341, 345, 62 Cal.Rptr. 859
(1967); see also Cal. Pen Code § 987(a) (“In a noncapital case, if the
defendant appears for arraignment without counsel, he or she shall
be informed by the court that it is his or her right to have counsel
before being arraigned, and shall be asked if he or she desires the
assistance of counsel. If he or she desires and is unable to employ
counsel the court shall assign counsel to defend him or her”).

235a
Appendix G
recognizes that, at some point, the delay in appointment
of counsel may be so long that it amounts to a deprivation
of significant rights of the accused. The limited holding
here is that, on the facts alleged in this case, no such
deprivation has occurred.
The Court applies the Ninth Circuit’s three-factor
test to determine whether the initial appearance or the
waiting period thereafter was a critical stage. Beginning
with the first factor of the Ninth Circuit’s test, the absence
of counsel to pursue strategies or remedies at the initial
appearance (where the only event was an inquiry about the
need for counsel) or in the hiatus before the next hearing
did not result in a loss of significant rights to Plaintiffs.
Plaintiffs assert that they lost the rights to a prompt bail
hearing and to a speedy trial. Complaint, ¶ 42. However,
Plaintiffs could have asserted those rights at the further
arraignment or later. Indeed, Plaintiffs maintained their
rights—they entered a plea at the further arraignment,
Complaint, ¶¶ 32, 36; they could have requested lower bail
at or after arraignment, In re Weiner, 32 Cal.App.4th
441, 444, 38 Cal.Rptr.2d 172 (1995) (citing Cal. Penal Code
§§ 1269b, 1269c, 1273, 1277, 1476, 1538.5(k)); their speedy
trial rights, including the right to a speedy preliminary
examination, were still triggered by arraignment or
entry of plea, Cal. Penal Code § 859b; and they could
have sought diversion at arraignment, Cal. Penal Code
§ 1000(b). Contrary to Plaintiffs’ allegations, they lost none
of these rights. Like the Hovey plaintiff and his mid-trial
attorney competency hearing, Plaintiffs were “not at risk
of permanent deprivation of any significant rights during
the hearing.” 458 F.3d at 902. The bare allegation that

236a
Appendix G
they were delayed from five to thirteen days in asserting
those rights – until counsel could be appointed to represent
them – did not amount to a deprivation substantial enough
to make the delay unreasonable, or a “critical stage.”
The fact that, had counsel been appointed at or closer
to the initial appearance, counsel might have applied for
release on bail, caused a plea to be entered, or triggered
statutory speedy trial rights, does not change this analysis.
Nothing happened at the initial appearance other than a
determination that Plaintiffs desired the appointment of
counsel. The first appearance was not, therefore, a critical
stage. The state court correctly continued the matters
until counsel could be present. Similarly, no rights were
lost or prejudiced during the brief waiting period. Indeed,
immediately after the subsequent appointment of counsel,
Plaintiffs could still enter a plea, invoke their statutory
speedy trial rights, or seek release on bail. Standing alone,
the brief temporary delay in assertion of these rights is
not a sufficient deprivation to constitute a denial of their
right to counsel.
The Ninth Circuit’s decision in Benford is instructive
on this point. There, counsel did not appear at a pre-trial
conference. The defendant argued that, had counsel
been present, he could have moved for a continuance of
the trial. Benford, 574 F.3d at 1232. The Ninth Circuit,
noting that “[n]othing significant occurred at the status
conference,” concluded that it was not a “critical stage”
of the proceedings. Id. at 1232-33. The court rejected the
defendant’s argument that his counsel could have asked
for a continuance of the trial at the conference, noting that

237a
Appendix G
counsel could “have moved for a continuance before the
conference or after it.”
It is apparent from Benford that an appearance at
which nothing happens (as is the case here, where nothing
occurred after the court asked whether Plaintiffs desired
the appointment of counsel) after which the defendant,
represented by counsel, can still invoke his rights (here,
their statutory speedy trial rights, their right to a hearing
on bail, and any right to seek a diversion) is not a critical
stage of the proceedings. The same can be said of a brief
waiting period — here, five to thirteen days — after the
initial appearance.
Second, skilled counsel would not have been useful in
helping the accused understand the legal confrontation
at the first appearance because there was no legal
confrontation after the accused requested counsel. There
was also no legal confrontation during the five to thirteen
days Plaintiffs waited for further arraignment. Plaintiffs
were subject to no adversarial proceeding during this
time. Nothing happened at the initial appearance after
the court inquired whether counsel should be appointed or
during the five-to-thirteen day waiting period to test the
merits of the Plaintiffs’ case. See Benford, 574 F.3d at 1233
(no “legal confrontation” at the pretrial status conference,
which was not a critical stage of the proceedings).
Plaintiffs cite Hurrell-Harring v. State of New York,
15 N.Y.3d 8, 904 N.Y.S.2d 296, 930 N.E.2d 217 (2010)
as persuasive authority for the proposition that the
arraignment and the time between arraignment and trial

238a
Appendix G
are critical stages of the prosecution. In Hurrell-Harring,
a number of the twenty plaintiffs were unrepresented at
arraignment, jailed after bail had been set in amounts
they could not afford, and remained unrepresented in
subsequent proceedings where their pleas were taken.
Hurrell-Harring, 15 N.Y.3d at 19, 904 N.Y.S.2d 296,
930 N.E.2d 217. Several other plaintiffs were nominally
appointed counsel, but counsel was often unavailable,
completely unresponsive to urgent inquiries from jail,
waived important rights without consulting plaintiffs,
missed court appearances, and appeared in court
unprepared to proceed. Id. at 19-20.
The court held that the arraignment was a critical
stage of the proceedings, even where no plea was entered,
because “plaintiffs’ pretrial liberty interests were on that
occasion regularly adjudicated.” Id. at 20 (citing N.Y. Crim.
Proc. Law § 180.10(6) (“Upon arraignment, the court,
unless it intends immediately thereafter to dismiss the
felony complaint and terminate the action, must issue a
securing order which, as provided in subdivision two of
section 530.20, either releases the defendant on his own
recognizance or fixes bail or commits him to the custody
of the sheriff for his future appearance in such action”)
(concerning proceedings upon a felony complaint)). The
court noted that, under New York law, a court is forbidden
by statute “from going forward with the [arraignment]
without counsel for the defendant, unless the defendant
has knowingly agreed to proceed in counsel’s absence.”
Id. at 20-21 (citing N.Y. Crim. Proc. Law § 180.10(3)
(“The defendant has a right to the aid of counsel at the
arraignment and at every subsequent stage of the action,

239a
Appendix G
and, if he appears upon such arraignment without counsel,
has the following rights: (a) To an adjournment for the
purpose of obtaining counsel; and ... (c) To have counsel
assigned by the court in any case where he is financially
unable to obtain the same”), 180.10(5) (“If the defendant
desires to proceed without the aid of counsel, the court
must permit him to do so if it is satisfied that he made such
decision with knowledge of the significance thereof, but if
it is not so satisfied it may not proceed until the defendant
is provided with counsel, either of his own choosing or by
assignment”)). The court concluded that “arraignments
routinely, and in New York as a matter of statutory
design, encompass matters affecting a defendant’s
liberty and ability to defend against the charges.” Id. at
21. The court also broadly held that “the period between
arraignment and trial” is also a critical stage under the
Sixth Amendment. Id. at 21-22.
Hurrell-Harring is distinguishable from the present
action. In Hurrell-Harring, the court’s holding relied on
the fact that a number of pretrial liberty interests were
adjudicated at the arraignment, at which the right to
counsel attached, without the presence of counsel. Here,
no pretrial liberty interests were adjudicated in the initial
appearance, or in the following days, in the absence of
counsel. Rather, the arraignment was continued to allow
for the appointment of counsel. Indeed, this procedure
is not facially inconsistent with the New York statutory
framework on which the holding in Hurrell-Harring was
based. Moreover, the present case involves only a fiveto-thirteen day waiting period for the appointment of
counsel during which nothing happened to test the merits

240a
Appendix G
of Plaintiffs’ case, not a denial of counsel throughout the
much longer time period between arraignment and trial.
DeWolfe v. Richmond, __ Md. __, A.3d, 2012 Md.
LEXIS 1, 2012 WL 10853 (Jan. 4, 2012), cited by Plaintiffs,
is also distinguishable. In DeWolfe, the court held that,
pursuant to Maryland state law, the public defender was
required to represent a criminal defendant at the bail
hearing portion of their initial appearance. DeWolfe,
__ Md. __, A.3d, 2012 Md. LEXIS 1, 2012 WL 10853 at
*13. Thus, the court held that the bail hearing may not
occur at the initial appearance, assuming the defendant
qualified for public defender representation, unless
counsel had been appointed or the defendant waived the
right to counsel. 2012 Md. LEXIS 1, [WL] at *17. “If a
public defender is not immediately available to assume
representation, then the Commissioner must delay the
bail hearing until such representation can be provided or
is waived by the defendant.” Id. In reaching its conclusion,
the court repeatedly stated that the relevant Maryland
state law it was interpreting affords broader protection
than the Sixth Amendment. 2012 Md. LEXIS 1, [WL] at
*7, *9-*11. First, DeWolfe differs from the present case
in that involves only the interpretation of Maryland state
law. Second, DeWolfe differs in that a bail hearing was
held in the absence of counsel. Moreover, the facts of this
case appear consistent with the statement in DeWolfe
that the Commissioner must delay the portion of the
initial appearance that constituted a critical stage, the
bail hearing, until representation could be provided to a
qualifying defendant. That is what was done in this case.

241a
Appendix G
c.

Length of Delay and Prejudice

Because the Court finds that the portion of the initial
appearance after the accused requested counsel and
the five-to-thirteen-day waiting period were not critical
stages, the first critical stage after attachment of the
right to counsel was the further arraignment. The Court
now examines whether Plaintiffs’ have sufficiently alleged
that their Sixth Amendment rights were violated with
respect to the timing of representation for the further
arraignment and concludes that they have not.
i.

Background Law

Though Rothgery requires the appointment of
counsel within a reasonable time to allow for adequate
representation at any critical stage after attachment, it
does not address the issue of how much time is reasonable
before counsel is appointed. Rothgery, 554 U.S. at 212 n.15,
128 S.Ct. 2578, 171 L.Ed.2d 366 (“We do not here purport to
set out the scope of an individual’s postattachment right to
the presence of counsel. It is enough for present purposes
to highlight that the enquiry into that right is a different
one from the attachment analysis”). After Rothgery,
federal district courts have three times addressed the
issue of whether a delay in the appointment of counsel
is reasonable. In all three cases, the district court has
declined to find the delay — forty days, two months, and
an unspecified period — unreasonable without proof of
actual prejudice:
Finally, although the right to counsel under
the Sixth Amendment attaches at the time

242a
Appendix G
of an arrestee’s initial appearance, Rothgery
v. Gillespie County, Texas, 554 U.S. 191, 128
S.Ct. 2578, 171 L.Ed.2d 366 (2008), neither
the Supreme Court nor the Fifth Circuit has
determined that counsel must be appointed
within a specific period of time thereafter. ...
All that the plaintiff has alleged in this case is
that he was not provided with appointed counsel
for a period of forty (40) days after his arrest.
He fails to allege, however, that he suffered
any actual prejudice as a result of this delay
or that, had an attorney been appointed at an
earlier time, a meritorious defense might have
been asserted resulting in his release or in the
dismissal of the charges levied against him. ...
Accordingly, in the absence of any assertion
of prejudice resulting from the alleged delay,
this Court concludes that the alleged 40-day
delay in the appointment of counsel was not so
unreasonable as to result in a Sixth Amendment
violation.
Grogen, 2012 U.S. Dist. LEXIS 120411 at *9-*10; see
also Hawkins, 2010 U.S. Dist. LEXIS 116361 at *35
(“The Court finds that the approximate two-month delay
in receiving court-appointed counsel fails to rise to the
level of a constitutional violation based on the Sixth
Amendment.”); Wingo v. Kaufman County, 2010 U.S. Dist.
LEXIS 55865, *2-*3 (N.D. Tex. June 4, 2010) (“The court
can not determine from plaintiff’s complaint ... whether
the delay in appointment of counsel was reasonable or
whether plaintiff suffered any prejudice from the delay.”).

243a
Appendix G
ii.

Application to Facts

The district court decisions in Grogen, Hawkins,
and Wingo make clear that, although there is no specific
timeframe that federal courts have deemed reasonable
for appointment of counsel post-attachment, a court
faced with making a reasonableness decision needs to
analyze prejudice to the accused that results from delay
in appointment of counsel. See Grogen, 2012 U.S. Dist.
LEXIS 120411 at *9-*10; Hawkins, 2010 U.S. Dist. LEXIS
116361 at *35; Wingo, 2010 U.S. Dist. LEXIS 55865 at
*2-*3. Moreover, even if the specific timeframes in the
previous district court cases were applied here, the fiveto-thirteen-day delays of which Plaintiffs complain are
significantly smaller delays than the forty-day and twomonth delays the other district courts found permissible.
Plaintiffs do not suggest a bright-line rule regarding
how quickly counsel should be appointed. However, in
arguing that they lost rights during the delay, they
argue that they were prejudiced. As discussed above
in the Menefield factors, the Court is not persuaded
that Plaintiffs were prejudiced by the delay. During the
waiting period, Plaintiffs did not lose any of the rights
they enumerate, nor did any adversarial action take
place that affected the merits or resolution of their cases.
When adversarial proceedings took place at the further
arraignment, Plaintiffs were represented.
Plaintiffs also make a conclusory allegation that
they were prejudiced because the delay hindered their
investigation and preparation for trial. Opposition, 10,

244a
Appendix G
13. Plaintiffs make no specific allegations on this matter
nor do they explain how their trial preparation was
hindered. Plaintiffs had no less time to prepare for trial
than they would have had if counsel had been appointed
a few days before or after the time counsel was actually
appointed because, as discussed in greater detail below,
the preliminary hearing and trial are scheduled from the
date of arraignment. There is no indication that Plaintiffs’
wait for appointment of counsel influenced the scheduling
of post-arraignment procedures, including trial, in such
a way that reduced the number of days available to them
for trial preparation. Prejudice to a defendant’s fair
adjudication may stem, for example, from delays that
“weaken the defense through the dimming of memories,
the death or disappearance of witnesses, and the loss
or destruction of evidence.” See People v. Martinez, 22
Cal. 4th 750, 767, 94 Cal.Rptr.2d 381, 996 P.2d 32 (2000).
However, Plaintiffs do not allege that they suffered any
such impediments.
According to Plaintiffs, failing to treat the five-tothirteen-day waiting period as a critical stage would
mean that Defendant could delay appointment of counsel
for an indefinite period of time after the initial hearing
without violating the Sixth Amendment right to counsel.
Opposition, 11. Plaintiffs rely on Sullivan v. County of
Los Angeles to highlight the absurdity of such a position:
postponing appointment of counsel for ninety-nine years
would still not give a plaintiff a basis for redress. 12
Cal.3d 710, 718-19, 117 Cal.Rptr. 241, 527 P.2d 865 (1974).
Plaintiffs are mistaken in this logic. As described above,
the Court only addresses the delay at issue in this case,

245a
Appendix G
five to thirteen days. At some point, a lengthy delay, or a
delay accompanied by other events, may indeed constitute
a deprivation of a defendant’s Sixth Amendment rights.
But not here. Taking the facts as Plaintiffs allege them to
be true, the Court finds that Plaintiffs’ Sixth Amendment
claim lacks merit and it is DISMISSED with leave to
amend.
2.

Fou r t eenth A mend ment Claims —
Statutory Speedy Trial Rights

In their second and third causes of action, Plaintiffs
assert that Defendant violated their substantive and
procedural due process rights under the Fourteenth
Amendment by depriving Plaintiffs of their state law
speedy trial rights. Plaintiffs seek damages pursuant to 42
U.S.C. § 1983. For the reasons discussed below, Plaintiffs’
second and third causes of action are DISMISSED with
leave to amend.
a.

Background Law

“Unless there is a breach of constitutional rights,
... § 1983 does not provide redress in federal court for
violations of state law.” Samson v. City of Bainbridge
Island, 683 F.3d 1051, 1060 (9th Cir. 2012) (quoting Schlette
v. Burdick, 633 F.2d 920, 922 n.3 (9th Cir. 1980)). “[N]ot
every violation of state law amounts to an infringement
of constitutional rights.” Id.
Plaintiffs seek to assert their statutory speedy trial
rights, provided by the state of California, through the

246a
Appendix G
Fourteenth Amendment. The Fourteenth Amendment
provides that no state shall “deprive any person of life,
liberty, or property without due process of law...” U.S.
Const. amend. XIV, § 1. The Fourteenth Amendment
contains both procedural and substantive due process
protections. United States v. Salerno, 481 U.S. 739, 746,
107 S.Ct. 2095, 95 L.Ed.2d 697 (1987).
i.

Procedural Due Process

Courts analyze procedural due process claims in two
steps: “[T]he first asks whether there exists a liberty
or property interest which has been interfered with by
the State; the second examines whether the procedures
attendant upon that deprivation were constitutionally
sufficient.” Carver, 558 F.3d at 872 (quoting Ky. Dep’t of
Corr. v. Thompson, 490 U.S. 454, 460, 109 S.Ct. 1904, 104
L.Ed.2d 506 (1989)).
“A liberty interest may arise from either of two
sources: the due process clause itself or state law.” Id.
(citing Toussaint v. McCarthy, 801 F.2d 1080, 1089 (9th
Cir. 1986)). “[T]o create a liberty interest protected by
due process, the state law must contain: (1) substantive
predicates governing official decisionmaking, and (2)
explicitly mandatory language specifying the outcome
that must be reached if the substantive predicates are
met.” Bonin v. Calderon, 59 F.3d 815, 842 (9th Cir. 1995),
cert. denied, 516 U.S. 1051, 116 S. Ct. 718, 133 L. Ed.
2d 671 (1996) (internal quotation marks and citations
omitted). Where “[t]he only mandatory language in [the
state statute at issue] concerns a procedural right ...

247a
Appendix G
[, t]hat language cannot create a liberty interest within
the meaning of the Fourteenth Amendment because
expectation of receiving process is not, without more, a
liberty interest protected by the Due Process Clause of
the Fourteenth Amendment.” Carver, 558 F.3d at 875
(internal quotation marks, footnote, italics, and citations
omitted); see also Marsh v. County of San Diego, 680
F.3d 1148, 1156 (9th Cir. 2012) (“to contain the requisite
‘substantive predicates,’ ‘the state law at issue must
provide more than merely procedure, it must protect some
substantive end’”) (quoting Bonin, 59 F.3d at 842).
ii.

Substantive Due Process

Substantive due process limits what the government
may do in its legislative and executive capacities. County
of Sacramento v. Lewis, 523 U.S. 833, 846, 118 S.Ct. 1708,
140 L.Ed.2d 1043 (1998). “[A] substantive due process
claim ‘must, as a threshold matter, show a government
deprivation of life, liberty, or property.’” Action Apartment
Ass’n, Inc. v. Santa Monica Rent Control Bd., 509 F.3d
1020, 1026 (9th Cir. 2007) (quoting Nunez v. City of Los
Angeles, 147 F.3d 867, 871 (9th Cir. 1998)).
Substantive due process protects against the arbitrary
or oppressive exercise of governmental power. See County
of Sacramento v. Lewis, 523 U.S. at 845-46, 118 S.Ct.
1708, 140 L.Ed.2d 1043. “[T]he Due Process Clause is
violated by executive action only when it can be properly
characterized as arbitrary, or conscience shocking, in a
constitutional sense.” Id. at 847 (quoting Collins v. Harker
Heights, 503 U.S. 115, 128, 112 S.Ct. 1061, 117 L.Ed.2d 261

248a
Appendix G
(1992)) (internal quotation marks omitted). The cognizable
level of executive abuse of power is that which “shocks the
conscience” or “violates the decencies of civilized conduct.”
Id. at 846.
iii. Statutory Speedy Trial Rights
California Penal Code §§ 1049.5 and 1382 create a right
to speedy trial; the right to a speedy preliminary hearing
arises from California Penal Code § 859b. California
Penal Code § 1050 provides the procedure for granting
continuances.3 The clock for speedy trial determinations
and for preliminary hearings begins to run at either
arraignment or entry of plea, depending on the statute.
In felony cases, the court shall set a date for
trial which is within 60 days of the defendant’s
arraignment in the superior court unless, upon
a showing of good cause as prescribed in Section
1050, the court lengthens the time. If the court,
after a hearing as prescribed in Section 1050,
finds that there is good cause to set the date for
trial beyond the 60 days, it shall state on the
record the facts proved that justify its finding.
Cal. Penal Code § 1049.5 (emphasis added).
(a) The court, unless good cause to the contrary
is shown, shall order the action to be dismissed
in the following cases: ...
3. § 1050 “is directory only and does not mandate dismissal of
an action by its terms.” Cal. Penal Code § 1050(l).

249a
Appendix G
(2) In a felony case, when a defendant is
not brought to trial within 60 days of the
defendant’s arraignment...
(3) Regardless of when the complaint is
filed, when a defendant in a misdemeanor or
infraction case is not brought to trial within
30 days after he or she is arraigned or enters
his or her plea, whichever occurs later, if
the defendant is in custody at the time of
arraignment or plea, whichever occurs later,
or in all other cases, within 45 days after the
defendant’s arraignment or entry of the plea,
whichever occurs later...
Cal. Penal Code § 1382 (emphasis added).
Both the defendant and the people have the
right to a preliminary examination at the
earliest possible time, and unless both waive
that right or good cause for a continuance
is found as provided for in Section 1050, the
preliminary examination shall be held within
10 court days of the date the defendant is
arraigned or pleads, whichever occurs later,
or within 10 court days of the date criminal
proceedings are reinstated...
...
The magistrate shall dismiss the complaint if
the preliminary examination is set or continued

250a
Appendix G
more than 60 days from the date of the
arraignment, plea, or reinstatement of criminal
proceedings ... unless the defendant personally
waives his or her right to a preliminary
examination within 60 days.
Cal. Penal Code § 859b (emphasis added).
In California, arraignment is defined by California
Penal Code § 988, which provides that arraignment
consists of “reading the accusatory pleading to the
defendant and delivering to the defendant a true copy
thereof, and ... asking the defendant whether the defendant
pleads guilty or not guilty to the accusatory pleading.”
Determining whether or not a statutory speedy trial right
has been violated involves determining the number of days
between the time the accused was arraigned (apprised of
charges and asked to enter a plea) and the time of trial.
People v. Benhoor, 177 Cal.App.4th 1308, 1316, 99 Cal.
Rptr.3d 827 (2009) (“section 1382 enforces the speedy
trial right with specific deadlines measured by days
after certain events, including arraignment, declaration
of a mistrial or entry of an order granting a new trial”);
see also Craft v. Superior Court, 140 Cal.App.4th 1533,
1546, 44 Cal.Rptr.3d 912 (2006) (section 1382(a) “enforces
the speedy trial right with deadlines measured by days
before or after arraignment or other prosecution events”).
Where the accused faces an unexcused delay beyond the
period set by California Penal Code § 1382 (sixty days
after arraignment or entry of plea for felonies, thirty days
after arraignment or entry of plea for misdemeanors),
he or she is entitled to dismissal of the criminal charge.

251a
Appendix G
Martinez, 22 Cal.4th at 766, 94 Cal.Rptr.2d 381, 996 P.2d
32 (quoting People v. Godlewski, 22 Cal.2d 677, 682, 140
P.2d 381 (1943)). Prior to the attachment of statutory
speedy trial rights, protection for criminal defendants
against unreasonable and prejudicial delays arises from
the California constitution as well as the due process
clauses of the Fifth and Fourteenth Amendments of the
United States Constitution. Benhoor, 177 Cal.App.4th at
1316 n.8, 1317, 99 Cal.Rptr.3d 827 (citing Serna v. Superior
Court, 40 Cal.3d 239, 251, 219 Cal.Rptr. 420, 707 P.2d 793
(1985); Martinez, 22 Cal.4th at 766-67).
b.

Application to Facts

In their Complaint, Plaintiffs do not identify the source
of the statutory speedy trial rights on which they predicate
two of their Fourteenth Amendment due process claims.
In their Opposition, they rely on California Penal Code
§§ 859b and 1050. Defendant also addresses the speedy
trial rights set forth in California Penal Code §§ 1382 and
1049.5. Whether or not the statutory scheme created a
constitutionally protected liberty interest, Plaintiffs have
not adequately pled a violation of their statutory speedy
trial rights. Therefore, their Fourteenth Amendment
claims relying on those statutory violations fail.
Each Plaintiff’s arraignment was complete when they
were asked to enter a plea at the further arraignment
hearing, in accordance with the definition of arraignment
under California state law. See Cal. Penal Code § 988.
Plaintiffs assume that the initial hearing, rather than
the further arraignment, was the arraignment. See

252a
Appendix G
Opposition, 16 (time for preliminary hearing under
California Penal Code § 859b would be ten days after
initial court appearance). However, arraignment was not
complete at the initial hearing because neither Plaintiff
was asked to enter a plea. Id.; Complaint, ¶¶ 31-32; 35-36.
Only when Plaintiffs had been apprised of the accusations
against them, given a copy of the accusations, and asked
to enter a plea were they arraigned. See Cal. Penal Code
§ 988.
Plaintiffs bolster their arguments about illegal speedy
trial delays with legal authorities that are distinguishable
from the present case. Plaintiffs rely on People v. Johnson
for the premise that the government cannot use the
scarcity of public resources as a justification for delaying
appointment of counsel. 26 Cal.3d 557, 571-72, 162 Cal.
Rptr. 431, 606 P.2d 738 (1980). However, the Johnson court
was considering a post-arraignment delay, unlike the case
at hand. Id. at 563, 571-72. Johnson is not instructive to
the Court on the matters currently before it.
Plaintiffs also argue that they were subject to an
illegal gratuitous delay, citing Youngblood v. Gates,
200 Cal.App.3d 1302, 1311-12, 246 Cal.Rptr. 775 (1988).
However, the question in Youngblood was whether the
government had violated the two-day timeframe for
taking arrestees before a magistrate. Id. at 1309. In the
present case, Plaintiffs have not alleged such a violation.
The other legal authorities cited by Plaintiffs do no better
than Johnson and Youngblood in shedding light on the
issue raised by the present case.

253a
Appendix G
Plaintiffs do not allege any delay after the completion
of arraignment or the entry of their plea. Thus, they have
not alleged: (1) that a preliminary examination was not
held “within 10 court days of the date [Plaintiffs were]
arraigned or [pled], whichever occurs later[;]” (2) that
“the preliminary examination [was] set or continued more
than 60 days from the date of the arraignment, plea, or
reinstatement of criminal proceedings[;]” (3) that the
court failed to “set a date for trial which is within 60
days of [Plaintiffs’] arraignment in the superior court[;]”
or (4) that the procedures in § 1050 were triggered. See
Cal. Penal Code §§ 859b, 1049.5, 1050, 1382. Accordingly,
Plaintiffs have not alleged any deprivation of their
statutory rights to a speedy trial and preliminary hearing
due to delay that occurred prior to the completion of
their arraignment. The Court concludes as a matter
of law that Plaintiffs have failed to state a violation of
statutory speedy trial rights under California state law.
Therefore, Plaintiffs have suffered no violation of state
statutory rights to a speedy trial on which to base a claim
for a violation of the Fourteenth Amendment. Plaintiffs’
second and third causes of action are premised solely
on the alleged violation of their state statutory speedy
trial rights. Accordingly, Defendant’s Motion to Dismiss
Plaintiffs’ second and third causes of action is GRANTED.
Plaintiffs will be given leave to amend.
3.

Fourteenth Amendment Claim — Denial
of Prompt Bail Hearing

As discussed below, Plaintiffs’ fourth cause of action,
a Fourteenth Amendment procedural due process claim

254a
Appendix G
predicated on the alleged denial of a prompt bail hearing,
is dismissed with leave to amend.
a.

Background Law
i.

Procedural Due Process

The procedural due process protections afforded by
the Fourteenth Amendment are described above.
ii.

Asserted Right to a Prompt Bail
Hearing

The Eighth Amendment states: “Excessive bail
shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments be inflicted.” U.S. Const.
amend. VIII. The California Constitution also supplies a
right to bail, with exceptions for capital crimes and felony
offenses where certain conditions are met. Cal. Const.
art. 1, § 12. To prevail on a claim that the bail set for
Plaintiffs violated the excessive bail clause of the Eighth
Amendment, Plaintiffs must demonstrate that their bail
was enhanced for purposes unauthorized by California
law or that the amount of bail was excessive in light of the
valid purposes for which it was set. Galen, 477 F.3d at 661.
California Penal Code § 1269b(c) provides in relevant part
that: “It is the duty of the superior court judges in each
county to prepare, adopt, and annually revise a uniform
countywide schedule of bail for all bailable offenses...”
Cal. Penal Code § 1269b(c). “If a defendant has appeared
before a judge of the court on the charge contained in
the complaint, indictment, or information, the bail shall

255a
Appendix G
be in the amount fixed by the judge at the time of the
appearance. If that appearance has not been made, the
bail shall be in the amount fixed in the warrant for arrest
or, if no warrant for arrest has been issued, the amount of
bail shall be pursuant to the uniform countywide schedule
of bail for the county in which the defendant is required
to appear, previously fixed and approved...” Cal. Penal
Code § 1269b(b).
“California vests judicial officers with the exclusive
authority to enhance or reduce bail.” Galen, 477 F.3d at
663 (citing Cal. Penal Code § 1269c). § 1269c provides:
If a defendant is arrested without a warrant for
a bailable felony offense or for the misdemeanor
offense of v iolating a domestic v iolence
restraining order, and a peace officer has
reasonable cause to believe that the amount
of bail set forth in the schedule of bail for that
offense is insufficient to ensure the protection
of a victim, or family member of a victim,
of domestic violence, the peace officer shall
prepare a declaration under penalty of perjury
setting forth the facts and circumstances in
support of his or her belief and file it with a
magistrate, as defined in Section 808, or his or
her commissioner, in the county in which the
offense is alleged to have been committed or
having personal jurisdiction over the defendant,
requesting an order setting higher bail. Except
where a defendant is charged with an offense
listed in subdivision (a) of Section 1270.1, the

256a
Appendix G
defendant, either personally or through his
or her attorney, friend, or family member,
also may make application to the magistrate
for release on bail lower than that provided
in the schedule of bail or on his or her own
recognizance. The magistrate or commissioner
to whom the application is made is authorized
to set bail in an amount that he or she deems
sufficient to ensure the defendant’s appearance
or to ensure the protection of a victim, or family
member of a victim, of domestic violence, and to
set bail on the terms and conditions that he or
she, in his or her discretion, deems appropriate,
or he or she may authorize the defendant’s
release on his or her own recognizance. If, after
the application is made, no order changing the
amount of bail is issued within eight hours after
booking, the defendant shall be entitled to be
released on posting the amount of bail set forth
in the applicable bail schedule.
Cal. Penal Code § 1269c. As to the offenses listed in
§ 1270.1, which are serious or violent felonies, that section
provides in relevant part:
(a) Except as provided in subdivision (e), before
any person who is arrested for any of the
following crimes may be released on bail in
an amount that is either more or less than the
amount contained in the schedule of bail for the
offense, or may be released on his or her own
recognizance, a hearing shall be held in open
court before the magistrate or judge...

257a
Appendix G
(b) The prosecuting attorney and defense
attorney shall be given a two-court-day written
notice and an opportunity to be heard on the
matter. If the detained person does not have
counsel, the court shall appoint counsel for
the purposes of this section only. The hearing
required by this section shall be held within the
time period prescribed in Section 825.
Cal. Penal Code § 1270.1(a)-(b).
California judicial officers’ exclusive authority to
enhance or reduce bail is constrained in that the judicial
officer is required to take into consideration several
factors. See Cal. Penal Code §§ 1270.1(c); 1275. Addressing
law enforcement personnel, the Ninth Circuit held:
“Pursuant to traditional tort law principles of causation,
which we apply to § 1983 claims, ... a judicial officer’s
exercise of independent judgment in the course of his
official duties is a superseding cause that breaks the
chain of causation linking law enforcement personnel to
the officer’s decision...” Galen, 477 F.3d at 663 (internal
citations omitted).
“When a person is detained in custody on a criminal
charge prior to conviction for want of bail, that person
is entitled to an automatic review of the order fixing
the amount of bail by the judge or magistrate having
jurisdiction of the offense. That review shall be held not
later than five days from the time of the original order
fixing the amount of bail on the original accusatory
pleading. The defendant may waive this review.” Cal. Penal

258a
Appendix G
Code § 1270.2. Thereafter, “the issue of appropriate bail
may be raised at various times throughout the criminal
proceedings.” In re Weiner, 32 Cal.App.4th at 444, 38 Cal.
Rptr.2d 172 (citing Cal. Penal Code §§ 1269b, 1269c, 1273,
1277, 1476, 1538.5(k)).
b.

Application to Facts

The basis for Plaintiffs’ claim for denial of a prompt
bail hearing is opaque. Plaintiffs have not alleged when
bail was set or that bail was not set, the amount of bail
that was set, any facts showing that the amount was
excessive, the conclusion that the amount was excessive,
or whether they took any action to reduce the bail. It
appears that Plaintiffs’ theory is as follows: (1) Defendant
did not provide counsel at the first appearance; as a result
(2) Defendant did not seek a reduction in bail at the first
appearance; and, as a further result (3) Plaintiffs were
unable to seek a reduction of bail until at least five to
thirteen days later, when Defendant provided counsel at
the second appearance. This theory does not state a claim
on which relief can be granted.
First, assuming Plaintiffs have pled a violation of
federal law, Plaintiffs have not pled facts that give rise to the
plausible inference that Defendant’s conduct caused them
any harm. See Galen, 477 F.3d at 663 (“we apply [traditional
tort principles of causation] to § 1983 claims”). That is,
Plaintiffs have not pled that, if Defendant had (1) provided
counsel at the first appearance; and (2) sought a reduction
in bail, Defendant would have obtained a reduction in bail
such that Plaintiffs would have been able to secure release.

259a
Appendix G
Second, Plaintiffs have not pled a violation of the
Eighth Amendment. That is, Plaintiffs have not pled
their bail was enhanced for purposes unauthorized by
California law or that the amount of bail was excessive
in light of the valid purposes for which it was set. See id.
at 661.
Third, Plaintiffs have not pled a violation of the due
process clause of the Fourteenth Amendment predicated
on any interest provided by state law. In their briefing,
Plaintiffs point only to California Penal Code § 1270.1.
They argue that § 1270.1 entitles them to a bail hearing,
with counsel that is appointed within 48 hours. Opposition,
20. Whether or not this characterization is accurate, and
whether or not Plaintiffs have pled facts sufficient to allege
a violation of the statute, California Penal Code § 1270.1
does not create a liberty interest that is cognizable under
the due process clause of the Fourteenth Amendment.
Rather, the statute concerns a hearing before which the
arrestee, arrested for an enumerated offense, “may be
released on bail in an amount either more or less than the
amount contained in the schedule of bail for the offense, or
may be released on his or her own recognizance.” See Cal.
Penal Code § 1270.1. The statute at issue is procedural, it
mandates no substantive outcome. See Marsh, 680 F.3d
at 1156; Carver, 558 F.3d at 875.
Plaintiffs also argue that the right to a prompt bail
hearing is protected directly by the due process clause
of the Fourteenth Amendment. Plaintiffs argue that “the
loss of liberty occasioned by excessive bail is a grievous
loss entitling a defendant to 14th Amendment due process

260a
Appendix G
protection.” Opposition, 19 (emphasis omitted). As noted
above, Plaintiffs have not alleged that any bail imposed
was excessive. Nor have they cited authority holding that a
delay of five to thirteen days in a bail hearing would violate
the Fourteenth Amendment. Plaintiffs’ fourth cause of
action is DISMISSED with leave to amend.
C.

Remaining State Law Claims

Under state law, Plaintiffs seek damages for an
alleged violation of the California Unruh Civil Rights Act
and seek a writ of mandate to compel Defendant to comply
with California Government Code § 27706. See Cal. Civ.
Code §§ 51 et seq., 52, 52.1; Cal. Gov. Code § 27706. The
Court has jurisdiction over this action on the basis of the
federal questions raised by the Complaint. See 28 U.S.C.
§ 1331. The Court’s jurisdiction over the remaining state
law claims relies on its supplemental jurisdiction. See 28
U.S.C. § 1367(a). Having dismissed all claims over which
it has original jurisdiction, the court declines to exercise
its supplemental jurisdiction over the state law claims. See
28 U.S.C. § 1367(c)(3). Plaintiffs’ fifth and sixth causes of
action are DISMISSED with leave to amend for lack of
subject matter jurisdiction.
V. CONCLUSION
For the foregoing reasons, Plaintiffs’ Complaint is
dismissed with leave to amend.
IT IS SO ORDERED.

261a
APPENDIX H —Appendix
ORDER H
OF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED JUNE 5, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-15152
D.C. No. 3:12-cv-06495-JCS
Northern District of California, San Francisco
JOHN FARROW, ON HIS BEHALF, AND ON
BEHALF OF ALL OTHERS SIMILARLY
SITUATED; JEROME WADE, ON THEIR
BEHALF, AND ON BEHALF OF OTHERS
SIMILARLY SITUATED,
Plaintiffs-Appellants,
v.
CONTRA COSTA COUNTY,
Defendant-Appellee,
and
ROBIN LIPETZKY, CONTRA COSTA
COUNTY PUBLIC DEFENDER,
Defendant.

262a
Appendix H
ORDER
Before: GOULD, CHRISTEN, and BRESS, Circuit
Judges.
The panel has voted to deny the petition for panel
rehearing and to deny the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are DENIED.

263a
Appendix I
APPENDIX I — CONSTITUTIONAL
PROVISIONS
The Sixth Amendment to the United States Constitution
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance
of Counsel for his defense.
The Fourteen Amendment to the United States
Constitution, Section 1 All persons born or naturalized in
the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. § 1983. Civil action for deprivation of
rights Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other

264a
Appendix I
proper proceeding for redress, except that in any action
brought against a judicial officer for an act or omission
taken in such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the
purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered
to be a statute of the District of Columbia.
California Penal Code § 859b. Felony to which defendant
has not pleaded guilty; setting time for examination;
issuance of subpoenas; preliminary examination; dismissal
of complaint:
At the time the defendant appears before the magistrate
for arraignment, if the public offense is a felony to which
the defendant has not pleaded guilty in accordance with
Section 859a, the magistrate, immediately upon the
appearance of counsel, or if none appears, after waiting a
reasonable time therefor as provided in Section 859, shall
set a time for the examination of the case and shall allow
not less than two days, excluding Sundays and holidays, for
the district attorney and the defendant to prepare for the
examination. The magistrate shall also issue subpoenas,
duly subscribed, for witnesses within the state, required
either by the prosecution or the defense.
Both the defendant and the people have the right to a
preliminary examination at the earliest possible time,
and unless both waive that right or good cause for a
continuance is found as provided for in Section 1050, the
preliminary examination shall be held within 10 court

265a
Appendix I
days of the date the defendant is arraigned or pleads,
whichever occurs later, or within 10 court days of the date
criminal proceedings are reinstated pursuant to Chapter
6 (commencing with Section 1367) of Title 10 of Part 2.
Whenever the defendant is in custody, the magistrate
shall dismiss the complaint if the preliminary
examination is set or continued beyond 10 court
days from the time of the arraignment, plea, or
reinstatement of criminal proceedings pursuant to
Chapter 6 (commencing with Section 1367) of Title 10 of
Part 2, and the defendant has remained in custody for 10
or more court days solely on that complaint, unless either
of the following occur:
(a) The defendant personally waives his or her right
to preliminary examination within the 10 court
days.
(b) The prosecution establishes good cause for a
continuance beyond the 10-court-day period.
For purposes of this subdivision, “good cause” includes,
but is not limited to, those cases involving allegations
that a violation of one or more of the sections specified in
subdivision (a) of Section 11165.1 or in Section 11165.6 has
occurred and the prosecuting attorney assigned to the
case has another trial, preliminary hearing, or motion to
suppress in progress in that court or another court. Any
continuance under this paragraph shall be limited to a
maximum of three additional court days.

266a
Appendix I
If the preliminary examination is set or continued beyond
the 10-court-day period, the defendant shall be released
pursuant to Section 1318 unless:
The defendant requests the setting of continuance of the
preliminary examination beyond the 10-court-day period.
The defendant is charged with a capital offense in a cause
where the proof is evident and the presumption great.
A witness necessary for the preliminary examination is
unavailable due to the actions of the defendant.
(4) The illness of counsel.
(5) The unexpected engagement of counsel in a jury trial.
(6) Unforeseen conf licts of interest which require
appointment of new counsel.
The magistrate shall dismiss the complaint if the
preliminary examination is set or continued more
than 60 days from the date of the arraignment, plea,
or reinstatement of criminal proceedings pursuant to
Chapter 6 (commencing with Section 1367) of Title 10
of Part 2, unless the defendant personally waives his
or her right to a preliminary examination within the
60 days.

